<html>
<title> - PROGRESS OF CONSTRUCTION OF THE CAPITOL VISITOR CENTER, 2005</title>
<body><pre>[Senate Hearing 109-260]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-260
 
      PROGRESS OF CONSTRUCTION OF THE CAPITOL VISITOR CENTER, 2005

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARINGS

                      MAY 17, 2005--WASHINGTON, DC
                     JUNE 14, 2005--WASHINGTON, DC
                     JULY 14, 2005--WASHINGTON, DC
                   SEPTEMBER 15, 2005--WASHINGTON, DC
                    OCTOBER 18, 2005--WASHINGTON, DC
                   NOVEMBER 16, 2005--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                    U.S. GOVERNMENT PRINTING OFFICE
22-426                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                               __________

                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

                 Subcommittee on the Legislative Branch

                    WAYNE ALLARD, Colorado, Chairman
THAD COCHRAN, Mississippi            RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
                                     ROBERT C. BYRD, West Virginia
                                       (ex officio)
                           Professional Staff
                          Carolyn E. Apostolou
                     Terrence E. Sauvain (Minority)
                        Drew Willison (Minority)
                       Nancy Olkewicz (Minority)

                         Administrative Support

                            Christen Taylor
                            C O N T E N T S

                              ----------                              

                         Tuesday, May 17, 2005

                                                                   Page

Architect of the Capitol.........................................     1
Government Accountability Office.................................     9

                         Tuesday, June 14, 2005

Architect of the Capitol.........................................    35
Government Accountability Office.................................    39

                        Thursday, July 14, 2005

Government Accountability Office.................................    63
Architect of the Capitol.........................................    75

                      Thursday, September 15, 2005

Architect of the Capitol.........................................    90
Government Accountability Office.................................    96

                       Tuesday, October 18, 2005

Architect of the Capitol.........................................   124
Government Accountability Office.................................   129

                      Wednesday, November 16, 2005

Architect of the Capitol.........................................   152
Government Accountability Office.................................   159
  


         PROGRESS OF CONSTRUCTION OF THE CAPITOL VISITOR CENTER

                              ----------                              


                         TUESDAY, MAY 17, 2005

                               U.S. Senate,
            Subcommittee on the Legislative Branch,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-138, Dirksen 
Senate Office Building. Hon. Wayne Allard (chairman) presiding.
    Present: Senators Allard, Cochran, and Durbin.
STATEMENT OF ALAN M. HANTMAN, FAIA, ARCHITECT OF THE 
            CAPITOL
ACCOMPANIED BY BOB HIXON, PROJECT DIRECTOR, CAPITOL VISITOR CENTER, 
            ARCHITECT OF THE CAPITOL


               opening statement of senator wayne allard


    Senator Allard. The subcommittee will come to order. We 
meet today to take testimony from the Architect of the Capitol, 
Alan Hantman, and the Comptroller General, David Walker, on the 
progress of the Capitol Visitor Center (CVC).
    Accompanying Mr. Hantman is the CVC Project Director Bob 
Hixon. Mr. Walker is joined by Terrell Dorn of GAO.
    As chairman of the Legislative Branch Subcommittee, I 
intend to monitor progress of this critical project closely, to 
ensure the Architect is doing all in his power to finish this 
project in a timely and cost effective fashion.
    While the AOC met a major milestone in ensuring the east 
front plaza was in sufficient condition to accommodate the 
requirements of the 2005 inaugural, we are a long way from 
completion of this project. It is at least 20 months behind the 
original schedule and many dollars over the 2002 budget, which 
included new security requirements and expansion of House and 
Senate space. The budget and schedule for this 580,000 square 
foot underground facility have been concerns for at least 3 
years. Today's hearing will focus on getting further 
clarification on the budget and schedule.
    There are many other CVC-related issues, particularly those 
associated with the operation of the visitor center. But we 
will save those for another day. We have asked the Comptroller 
General to testify today since the Government Accountability 
Office has been monitoring the project closely from the start.
    We will first hear the Architect's opening statement 
followed by Mr. Walker's and then we'll have 5-minute rounds of 
questions. I have been informed that the minority member, 
Senator Richard Durbin, will be here a little bit later this 
morning and when he arrives, we'll give him an opportunity to 
do an opening statement if he'd like, and then I'd call on the 
chairman of the full committee to see if he has any statements 
that he'd like to make.
    Senator Cochran. Mr. Chairman, thank you for the convening 
of the hearing and for your leadership as chairman of this 
subcommittee. We think it is very important for us to 
understand fully what the needs are and what our interests are 
in connection with the expansion of the Capitol and the 
improvements that are being made for our capabilities for 
screening and other security measures that will help protect 
the Capitol, and also enhance the opportunities of visitors to 
the Capitol to enjoy and appreciate the U.S. Capitol.
    So, it's a big undertaking. We know it's not easy to 
address all of these issues in a hearing of this kind. But, 
over the last several months I think the subcommittee has shown 
a willingness to get involved in an understanding of the 
challenges so that we can better respond to the needs that we 
have for an orderly and thoughtful support effort by the 
Congress for the work that's being done to try to help improve 
the lines of communication between the Architect's office and 
others who are involved in this project. And I think great 
progress on this plan, Mr. Chairman, is being made, and much of 
that is due to your leadership and I appreciate that and I want 
to commend you for it.
    We also recognize the fact that others are working hard, 
conscientiously in connection with this project to discharge 
their responsibilities and I think we need to recognize that 
and express our appreciation to the Architect and all of those 
who have been involved in this project over the last several 
years.
    Senator Allard. Thank you, Mr. Chairman, and I appreciate 
your personal interest in coming to these meetings. We very 
much appreciate your support.
    Mr. Hantman, we'll go ahead and ask you to begin your 
testimony. Welcome to the subcommittee, along with Mr. Hixon.


                   OPENING STATEMENT OF THE ARCHITECT


    Mr. Hantman. Thank you.
    Good morning, Mr. Chairman, Senator Cochran. Thank you for 
this opportunity to testify today, and to report to you on the 
progress made on the CVC project since we last met on April 13.
    While a little more than 4 weeks have passed, we have 
indeed achieved some significant goals that we discussed with 
you last month. Mr. Chairman, you pointed out, and we all 
acknowledged that the most important of these goals was the 
need for a fully integrated project schedule. One that 
encompassed not only construction, but the myriad ancillary 
activities necessary to open the Capitol Visitor Center to the 
public. While we had a construction schedule and a master 
schedule, the two were not fully integrated. I am pleased to 
report that we now have that fully integrated schedule in hand, 
which gives us the tool necessary to monitor more closely and 
accurately the progress of our contractors. I should note that 
with more than 4,000 scheduled activities remaining, 
refinements to the schedule will continue to occur as we move 
forward.
    But certainly we are in a better position than ever before 
to track construction activities, identify issues and perhaps 
most importantly, recognize the relationship between 
activities. Seeing the fully integrated picture will help us 
minimize the ripple effect that can occur when a problem of 
delay in one area affects several other areas or activities. I 
look forward to discussing this with you in some detail at this 
hearing.
    We also spoke last month, Mr. Chairman, about the need to 
award the contract to construct the exhibition galleries phase, 
a key component of the visitor experience in the CVC. Again, I 
am pleased to report that since our last meeting, we received 
the necessary approvals to award the contract, and that award 
occurred on May 4. We're now evaluating the exhibition gallery 
construction schedule to ensure that delay in the award does 
not affect our ability to complete this space in September 
2006, to coincide with the completion of other visitor-related 
activities.
    And finally, as you know, the President signed a 
supplemental appropriations budget last Thursday. Therefore, 
just yesterday, Mr. Chairman, we awarded the contract for the 
build out of the House and Senate expansion space, a very 
significant milestone.
    As we discussed in April, while work on the expansion space 
will extend beyond the completion of the visitor center 
facilities by several months, we do not, at this time, expect 
it to delay our abilities to open the doors of the visitor 
center to the public.
    Now, Mr. Chairman, while you visited the project site with 
me just last month, much additional progress has been made, 
which I would like to detail for you at this time, if I may. As 
I discuss specific areas, I have four photo boards which will 
help you see the progress we have made in several areas.
    First, let me say that our sequence 2 contractor, Manhattan 
Construction, continues its operations in all areas of the 
project site. We have completed fireproofing on all three 
levels of the CVC including the Congressional Auditorium. We 
are now working on remaining fireproofing work on the east 
front extension inside the Capitol building itself, while 
contractors continue to install duct work and piping for all 
heating, cooling, supply and waste water, and fire protection. 
Concrete masonry block walls continue to rise to define 
interior spaces. In the exhibition gallery, for example, block 
walls now define the virtual House and Senate theaters. And 
here on this rendering, Mr. Chairman--this is the South 
Orientation Theater--it's now almost entirely enclosed as the 
block work for the screen wall up here is done, the columns are 
in place; you can see a worker up over here finishing that up. 
We are now getting it completely detailed and laid out, so that 
we can begin stone installation in this area.
    The bottom rendering essentially is just that--it's a 
rendering of what this space will look like once it is 
completed and you can see the form and the shape of the space 
is taking shape very nicely.
    On the next board it shows the Great Hall and the majestic 
view of the Capitol Dome in the rendering over here through one 
of the skylights. You can see some of the block work columns 
are already in place. This, in fact, is the view through the 
skylight, the fastening elements, the support elements are 
being installed around the fascia of the skylight, and you can 
see again the space is taking shape. It's going to turn out to 
be very much as we show in the rendering over here and we're 
moving along well on that.
    Now, outside at the CVC entrance area, stone crews are 
beginning to install exterior wall stones at the retaining wall 
along the pedestrian ramp leading down from the Senate side 
here. And as you can see on this board, the view from the 
rendering is very much like what essentially is being built 
right now. So the reality of the physical form is taking shape 
and people can begin to appreciate the physical finality of the 
project as we continue to move ahead.
    And finally, on this last board it shows a broader view of 
the east front plaza. Our deck, as you can see, is entirely in 
place, the crews continue to set some of the 200,000 granite 
pavers that will cover the plaza, the entrance zones in the 
foreground are near their final graded elevations and we 
continue to move ahead. And here is the rendering essentially 
from that same angle of what this will look like as we complete 
the work.
    Once again, I thank you for this opportunity to report to 
you on the CVC project. I do thank you also for your active 
involvement on this subcommittee. It clearly has helped move 
the project forward just over the last month in fact. I'd be 
happy to answer any questions you might have at this time.
    Senator Allard. Thank you Mr. Hantman.
    [The statement follows:]

              Prepared Statement of Alan M. Hantman, FAIA

    Mr. Chairman, Senator Durbin, members of the Committee, thank you 
for this opportunity to testify today and to report to you on the 
progress made on the Capitol Visitor Center project since we last met 
on April 13.
    While little more than four weeks have passed, we have, indeed, 
achieved some significant goals that we discussed with you last month. 
Mr. Chairman, you pointed out, and we all acknowledged, that the most 
important of these goals was the need for a fully integrated project 
schedule--one that encompassed not only construction, but the myriad 
ancillary activities necessary to open the Capitol Visitor Center to 
the public. While we always had a construction schedule and a master 
schedule, the two were not fully integrated. I am pleased to report 
that we now have that fully-integrated schedule in hand, which gives us 
the tool necessary to monitor more closely and accurately the progress 
of our contractors. I should note that with more than 4,000 scheduled 
activities remaining, refinements to the schedule will continue to 
occur as we move forward, but certainly, we are in better position than 
ever before to track construction activities, identify issues and 
perhaps most importantly, recognize the relationship between 
activities. Seeing the big--and fully-integrated--picture will help us 
minimize the ripple effect that can occur when a problem or delay in 
one area affects several other areas or activities.
    We also spoke last month, Mr. Chairman, about the need to award the 
contract to construct the Exhibition Gallery space, a key component of 
the visitor experience in the CVC. Again, I am pleased to report that 
since our last meeting, we have received the necessary approvals to 
award the contract and that award occurred last week. We are now 
evaluating the Exhibition Gallery construction schedule and are working 
to ensure that the delay in the award does not affect our ability to 
complete this space in September 2006 to coincide with the completion 
of the other visitor facilities.
    And finally, now that the President has signed the Supplemental 
Appropriations budget, we are poised to award the contract for the 
build-out of the House and Senate Expansion Space and we are hopeful 
that will occur within the next several days. While work in the 
expansion space will extend beyond the completion of the Visitor Center 
facilities by several months, we do not, at this time, expect it to 
delay our ability to open the doors of the Visitor Center to the 
public.
    Mr. Chairman, while you did visit the project site with me just 
last month, already much additional progress has been made, which I 
would like to report to you at this time.
    First, let me say that our Sequence 2 contractor, Manhattan 
Construction, continues its operations in all areas of the project site 
and we have completed fireproofing on all three levels of the CVC, 
including the Congressional Auditorium. We are now completing the 
remaining fireproofing work in the East Front Extension inside the 
Capitol Building. While contractors continue to install ductwork and 
piping for all heating, cooling, supply, waste water, fire protection, 
and electrical systems, the concrete masonry block walls continue to 
rise to define interior spaces. In the Exhibition Gallery, for example, 
blockwalls define the virtual House and Senate theaters and now hide 
the East Front concrete columns along the west wall of the gallery. The 
south orientation theater is now almost entirely enclosed as the 
blockwork for the screen wall, interior columns and elevator shaft is 
complete.
    In the Service Level, the delivery and installation of air handling 
units continue to be the most critical and sensitive activities in this 
area. The units are so large, Mr. Chairman, that they must be delivered 
in up to five pieces to be able to fit through openings and between 
columns as they are transported and maneuvered into place on concrete 
equipment pads. The largest unit is approximately 40 feet long, 20 feet 
wide and 12 feet high.
    Outside, at the CVC entrance zone, a stone crew began to install 
the first exterior wall stone to the retaining wall along the north 
pedestrian ramp.
    Finally, at the CVC utility tunnel along East Capitol Street, 
trench excavation was completed to a depth of 20 feet and a concrete 
slab was placed. The pre-cast concrete tunnel sections began to arrive 
late in the month and installation will continue through May. We are 
still on schedule to bring steam in the CVC this October.
    Again, thank you for this opportunity to report to you on the CVC 
project and I would be happy to answer any questions you may have at 
this time.

    CAPITOL VISITOR CENTER EXPLANATION OF ACTUAL AND EXPECTED COST 
                      INCREASES \1\--APRIL 7, 2005
---------------------------------------------------------------------------
    \1\ The cost estimates and categorizations discussed are based on 
the best information readily available, does not include potential 
additional scope items ($4.2 million), and could change in the future.
---------------------------------------------------------------------------
Base Project
    The 1999 project budget was $265 million.
    Congress added $38.5 million for five additional scope items (LOC 
and House Connector tunnels, extension of East Front elevators, 
enhanced perimeter security, and temporary operations and security), 
which brought the budget to $303.5 million. These items are now 
expected to cost substantially less (about $30 million) than 
anticipated when the funds were appropriated.
    The project experienced significant unexpected cost increases of 
about $34 million in its early stages. The bid prices for Sequences 1 
and 2 contracts exceeded the budget by $4 million and $14 million, 
respectively, and pre-construction costs exceeded the budget by about 
$16 million due largely to unforeseen circumstances and increased 
scope.
    Sequence 1 work experienced significant delays (about a year) due 
to such factors as unforeseen conditions, weather, and schedule 
management issues, and these delays, in turn, delayed the start of 
Sequence 2. Costs associated with delays are expected to be about $36 
million, of which AOC has already paid $10.3 million for Sequence 1 
delay costs.\2\
---------------------------------------------------------------------------
    \2\ No funds were initially included in the budget for delays, but 
$3.9 million was added in 2003 for delay costs (part of $47.8 million).
---------------------------------------------------------------------------
    AOC soon plans to award contracts for several design-to-budget 
items (e.g. exhibits, House Connector tunnel, and equipment) that are 
now expected to overrun the budget by about $6 million, due largely to 
higher than expected bid prices.
    In an attempt to save money the AOC delayed proceeding with 
construction of the Utility Tunnel while it was deciding on design 
options. This delay will cost about $1 million.
    AOC has or plans to make about $5 million in design changes due to 
such problems as necessary redesigns resulting from expansion space 
requirements, scope gaps between Sequences 1 and 2, and designs that 
were initially incomplete or inaccurate. At least some of these costs 
are due to fast tracking design and procurement.
    AOC had to or expects to make about $7 million in changes for 
security and enhanced fire protection and about $4 million in changes 
due to unforeseen field conditions during construction.
    AOC will likely need about $7 million for future changes to 
Sequence 2.
Expansion Spaces and Filtration
    An additional $70 million was added to the project budget for the 
construction and fit-out of the House and Senate expansion spaces. In 
November 2004 AOC received higher than expected bid prices for the fit-
out work. These increased prices together with provision for additional 
contingency are likely to exceed the budgeted cost by about $15 
million.
    USCP has recently identified the need for a contractor to monitor 
SCIF space construction and it roughly estimates this will cost about 
$3.9 million. It is not clear if these funds will be funded by the CVC 
or the USCP budget.
    AOC received an additional $35 million from DOD for an enhanced air 
filtration system. AOC returned about $1.7 million in unobligated funds 
to DOD at the end of fiscal year 2004. This $1.7 million may be needed 
for future work on the filtration system due to its uniqueness and 
complexity.

                                                      CAPITOL VISITOR CENTER ADDITIONAL FUNDS NEEDS TO COMPLETE THE PROJECT--APRIL 7, 2004
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                              GAO Estimated   Variance from
                                             Project Budget       Cost            Budget                                  Summary Reasons for Additional Funds Needed
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Base Project:
    AOC Administration.....................      $7,600,000      $8,567,000        $967,000   Additional staff costs due to delays.
    Design and Construction Admin..........      22,288,780      22,885,000         596,000   Cost of extending consultant contracts due to delays and additional commissioning.
    Construction Management................      16,000,000      19,218,000       3,218,000   Cost of extending construction manager contract due to delays.
    Pre-Construction Work..................      27,400,000      26,996,000        (404,000)  Funds no longer needed per AOC
    Sequence 1.............................     114,950,000     113,953,000        (997,000)  Delay costs; net reduction due to work transferred from Sequence 1 to Sequence 2 contractor.
    East Front Interface...................      13,600,000      15,494,000       1,894,000   Changes due to differing site conditions, design changes and additional contingency.
    Sequence 2.............................     106,300,000     139,086,000      32,786,000   Delay costs ($18.2 million), known and forecasted changes, and additional contingency
    Jefferson Building Modification........       3,300,000       3,577,000         277,000   Additional funds for punching through Jefferson Bldg.
    Equipment (Kitchen & AV)...............       4,300,000       4,843,000         543,000   Additional contingency.
    Exhibit and Film.......................      18,000,000      21,979,000       3,979,000   Higher than expected bid prices and additional contingency.
    Security...............................      17,350,000      18,218,000         868,000   Additional contingency.
                                            --------------------------------------------------
      Base Project Subtotal................     351,088,780     394,816,000      43,727,000
                                            ==================================================
Expansion Space:
    House..................................      35,000,000      43,200,000       8,200,000   Additional contingency and higher than expected bid prices.
    Senate.................................      35,000,000      42,100,000       7,100,000   Additional contingency and higher than expected bid prices.
                                            --------------------------------------------------
      Subtotal.............................      70,000,000      85,300,000      15,300,000
                                            ==================================================
Filtration.................................      33,300,000      35,000,000       1,700,000   Additional contingency.
                                            --------------------------------------------------
      Total................................     454,388,780     515,116,000      60,727,000
                                            ==================================================
Reserve Fund...............................             N/A      43,500,000  ...............  For additional risk and uncertainty.
Potential additional scope items...........             N/A       4,232,000  ...............  As requested in AOC's fiscal year 2006 budget.
SCIF construction monitoring...............             N/A       3,900,000  ...............  Monitoring necessary for accreditation.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
NOTE:
Delay cost estimates are for budgetary purposes only; the basis for contractor equitable adjustments has not been evaluated.
Expansion space costs are based on bids received 11/09/2004 and have not been fully evaluated by the AOC.
Estimate for SCIF construction monitoring provided by USCP.


  CAPITOL VISITOR CENTER RECONCILIATION OF ORIGINAL ESTIMATE TO FUNDING PROVIDED AND REQUESTED --APRIL 7, 2005
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                   Amount
----------------------------------------------------------------------------------------------------------------
Original Estimate (1999).......................      265.0   Funding Dates/Sources:
                                                               $100.0--Oct. 1998 (Pub. L. No. 105-277)
                                                               $100.0--Sept. 2001 (Pub. L. No. 107-38)
                                                               $65.0--April 2003; CPC approval of amount from
                                                                Capitol Preservation Fund.
Additional Scope Items:
    Library of Congress Tunnel.................       12.0
    Improved House Connection..................        6.0
    Extend Existing East Front Elevators.......        6.0
    Enhanced Perimeter Security................        3.5
    Temporary Operations and Security..........       11.0
                                                -------------
      Additional Scope Items...................       38.5   Sept. 2001 (Pub. L. No. 107-38)
                                                =============
      Original Estimate plus Additional Scope        303.5
       Items.
                                                =============
Adjustments Based on Gilbane/Tishman/GAO              47.8   Sept. 2003 (Pub. L. No. 108-83) \1\
 Analyses.
                                                -------------
      Adjusted Estimate After Analyses.........      351.3
Rescission Applied Against $47.8 million              (0.2)
 Additional Funding.
                                                -------------
      Adjusted Cost Estimate--Base Project.....      351.1
                                                =============
Expansion Space:
    Senate.....................................       35.0
    House......................................       35.0
                                                -------------
      Expansion Space..........................       70.0   Nov. 2001 (Pub. L. No. 107-68)
                                                -------------
      Base Project plus Expansion Space........      421.1
                                                =============
Security Enhancements..........................       35.0   April 2003: Funding provided by DOD
                                                -------------
      Total Security Enhancements..............      456.1
Security Enhancement Funds Returned by AOC.....       (1.7)  July 2004: Funding returned to DOD
                                                -------------
      Total Funding Provided (Base Project plus      454.4
       Expansion Space plus Security
       Enhancements).
                                                =============
Funding Requested:
    Transfer from Emergency Response Fund         \2\ 26.3
     (November 2004/January 2005)..............
    Fiscal Year 2006 Budget (construction only)       36.9
                                                -------------
      Total Funding Requested..................       63.2
                                                =============
      Total Funding Provided and Requested.....  \3\ 517.6
----------------------------------------------------------------------------------------------------------------
\1\ Comprised of $35.8 million appropriated to AOC and $12.0 million made available to AOC through transfer from
  AOC account ``Capitol Police Buildings and Grounds'' to AOC account ``Capitol Visitor Center.'' The funds
  being transferred were appropriated under Pub. L. No. 108-11.
\2\ In addition, the November 2004 and January 2005 letters included a request for obligation authority of
  previously provided funding.
\3\ In addition, Pub. L. No. 108-447 authorizes the transfer of not more than $10.6 million from AOC's Capitol
  Building account to the Capitol Visitor Center project.

    Senator Allard. I would like to next call on Mr. Walker to 
give us his testimony. We appreciate you helping us with this 
project, Mr. Walker.

STATEMENT OF DAVID M. WALKER, COMPTROLLER GENERAL OF 
            THE UNITED STATES, GOVERNMENT 
            ACCOUNTABILITY OFFICE
ACCOMPANIED BY TERRELL DORN, ASSISTANT DIRECTOR, PHYSICAL 
            INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Walker. Thank you, Chairman Allard, Chairman Cochran, 
it's a pleasure to be before you to be able to discuss GAO's 
ongoing work regarding the progress of the Capitol Visitor 
Center project. As you both know, we testified on this topic 
before the Subcommittee on the Legislative Branch, the House 
Committee on Appropriations in July 2003, and we continue to 
periodically brief congressional representatives, the CVC 
Project Executive, and the Architect of the Capitol with regard 
to our related activities. Before I come to the bottom line, 
Mr. Chairman, I assume that my entire statement will be 
included in the record.
    Senator Allard. Yes.
    Mr. Walker. Thank you.
    Senator Allard. Yes, your statement will be made a part of 
the complete record.
    Mr. Walker. Thank you, Mr. Chairman. Therefore, I'll 
summarize the critical elements.
    I think it's important to note that the AOC has overall 
responsibility for this complex project, but a construction 
management firm, mainly Gilbane Building Company, is providing 
a range of construction management services in support of the 
AOC, including coordinating the activities of the major 
construction contractors, monitoring worker safety and 
providing AOC with the status information for reporting to the 
Congress. The Architect of the Capitol has decided to implement 
the project in two phases or sequences. In June 2002 it awarded 
the sequence 1 contract, the excavation and structural work to 
Centex Construction Company, and in April 2003, it awarded the 
sequence 2 contract for the mechanical, electrical, plumbing 
and interior finishing work to Manhattan Construction Company.
    In summary, the CVC project is taking about 2 years longer 
than originally planned, is expected to cost between $522 
million and $559 million, significantly more than originally 
estimated. However, the majority of the delays and cost 
increases were largely outside of AOC's control. But weaknesses 
in AOC's schedule and contract management activities have 
contributed to a portion of the delays and the cost overruns.
    Of the project's estimated cost increase, about $147 
million is due to scope changes, such as the addition of the 
House and Senate expansion spaces. About $45 million are 
attributed to factors that are partially or outside the ability 
of AOC to control, such as higher than expected bids on the 
sequence 2 contract, due to some--in part due to some--
unexpected conditions below ground. And about $58 million are 
due to factors that were somewhat within AOC's ability to 
control, such as delays.
    Also, our analysis of the CVC worker safety data show the 
injury and illness rate for 2003 was about 50 percent higher 
for the CVC than for comparable construction sites, and that 
the rate for 2004 was about 30 percent higher than 2003. I 
will, however, note Mr. Chairman, that we have done a little 
bit of work for 2005, for the first quarter of 2005 and things 
seem to have improved in the first quarter of 2005, although we 
haven't completed that work yet.
    Finally, a number of monthly reports to the Congress in our 
view have not fully and fairly reflected the status of the 
project's construction schedules and costs, and in some cases 
are not including accurate worker safety data. This has led to 
certain expectation gaps within the Congress. I might also note 
that AOC's current schedule completion date for the CVC is now 
September 2003--pardon me, 2006. I apologize. We believe 
however that given past problems and future risks and 
uncertainties, that the completion date may be delayed to 
between December 2006 and March 2007. Additionally AOC's 
scheduled completion date of the interior of the House and 
Senate expansion spaces is now March 2007.
    I think it's important to note that the AOC has taken a 
number of actions to improve its management of the project. I 
will also note that since Bob Hixon has joined the AOC in March 
2004, we have seen a significant improvement, and I think that 
should be noted for the record.
    However, a number of actions still need to be taken in 
order to fully identify the challenges that we have brought 
forth. To help prevent further schedule delays, control cost 
growth and enhance worker safety, AOC urgently needs to give 
priority attention to managing the project's construction 
schedules and contracts, including those contract provisions 
that address worker safety. These actions are imperative if 
future cost growth, schedule delays and worker safety problems 
are to be avoided.
    AOC also needs to see that it reports accurate information 
to the Congress on the project. Furthermore decisions by the 
Congress will have to be made regarding additional funding 
needed to complete construction and to address any related risk 
and uncertainties that may arise. Mr. Chairman, that summarizes 
my statement. I'll be happy to answer any questions that any of 
you may have.
    [The statement follows:]

                 Prepared Statement of David M. Walker

    Mr. Chairman and Members of the Subcommittee: I am pleased to be 
here today to discuss GAO's ongoing work on the progress of the Capitol 
Visitor Center (CVC) project. As you know, we have been performing this 
work in response to requests from members of the Capitol Preservation 
Commission (CPC) and as directed by the Conference Report to the 
Omnibus Consolidated and Emergency Supplemental Appropriations Act, 
1999 (House Conference Report 105-825) and the Conference Report on the 
Legislative Branch Appropriations Act, 2004 (House Conference Report 
108-279).
    Approved in the late 1990s, CVC is the largest project on the 
Capitol grounds in over 140 years. Its purposes are to provide greater 
security for all persons working in or visiting the U.S. Capitol and to 
enhance the educational experience of visitors who have come to learn 
about Congress and the Capitol building. When completed, this three-
story, underground facility, located on the east side of the Capitol, 
is designed to be a seamless addition to the Capitol complex that does 
not detract from the appearance of the Capitol or its historic 
landscaping. According to current plans, it will include theaters, an 
auditorium, exhibit space, a service tunnel for truck loading and 
deliveries, storage, and additional space for use by the House and 
Senate.
    In my testimony today, I will discuss the Architect of the 
Capitol's (AOC) management of the project's schedules and contracts; 
the project's estimated costs, including risks and uncertainties; 
worker safety issues; and AOC's monthly reporting to Congress on the 
project. I will also discuss recommendations that we have made in 
previous testimony and briefings and the actions AOC has taken in 
response. We testified on this topic before the Subcommittee on the 
Legislative Branch, House Committee on Appropriations, in July 2003,\1\ 
and we have periodically briefed congressional representatives, the CVC 
project executive, and the Architect of the Capitol since then.
---------------------------------------------------------------------------
    \1\ GAO, Capitol Visitor Center: Current Status of Schedule and 
Estimated Cost, GAO-03-1014T (Washington, D.C.: July 15, 2003.
---------------------------------------------------------------------------
    My statement is based on our monitoring of the CVC project, which 
included reviewing monthly status reports, contract files, schedules, 
contractors' cost estimates, other organizations' construction 
management policies and procedures, industry best practices, and data 
for construction projects compiled by the Construction Industry 
Institute and the Bureau of Labor Statistics. We have attended 
regularly scheduled meetings on the CVC project's progress; observed 
construction work at the site; and discussed management, procurement, 
and safety issues with AOC, contractor personnel, as well as 
experienced construction and contract management personnel at other 
organizations. Additionally, we obtained expert assistance in analyzing 
construction project costs and schedules from KPMG, Hulett & 
Associates, and the Defense Contract Audit Agency (DCAA). We did not 
perform an audit; rather, we performed our work to assist Congress in 
conducting its oversight activities.
    Before I summarize our principal observations and recommendations 
for moving forward, let me briefly set the stage. As previously noted, 
AOC is managing and has overall responsibility for this complex 
project, but a construction management firm, Gilbane Building Company, 
is providing a range of construction management services in support of 
AOC, including coordinating the activities of the major construction 
contractors, monitoring worker safety, and providing AOC with status 
information for reporting to Congress. AOC is implementing the project 
in two phases, or sequences. In June 2002, it awarded the sequence 1 
contract for the excavation and structural work to Centex Construction 
Company, and in April 2003, it awarded the sequence 2 contract for 
mechanical, electrical, plumbing and interior finishing work to 
Manhattan Construction Company.
    In summary, the CVC project is taking about 2 years longer than 
planned and is expected to cost between about $522 million and $559 
million--significantly more than originally estimated. The majority of 
delays and cost increases were largely outside AOC's control, but 
weaknesses in AOC's schedule and contract management contributed to a 
portion of the delays and cost overruns. Of the project's estimated 
cost increase, about $147 million is due to scope changes, such as the 
addition of the House and Senate expansion spaces; about $45 million to 
other factors also outside or largely outside AOC's control, such as 
higher than expected bid prices on the sequence 2 contract; and about 
$58 million to factors more within AOC's control, such as delays. Also, 
our analysis of CVC worker safety data showed that the injury and 
illness rate for 2003 was about 50 percent higher for CVC than for 
comparable construction sites and that the rate for 2004 was about 30 
percent higher than the rate for 2003. Finally, a number of AOC's 
monthly reports to Congress have not accurately reflected the status of 
the project's construction schedules and costs and have transmitted 
inaccurate worker safety data. This has led to certain ``expectation 
gaps'' within Congress.
    AOC has taken a number of actions to improve its management of the 
project; however, these actions have not yet fully corrected all 
identified problems. To help prevent further schedule delays, control 
cost growth, and enhance worker safety, AOC urgently needs to give 
priority attention to managing the project's construction schedules and 
contracts, including those contract provisions that address worker 
safety. These actions are imperative if further cost growth, schedule 
delays, and worker safety problems are to be avoided. AOC also needs to 
see that it reports accurate information to Congress on the project. 
Furthermore, decisions by Congress will have to be made regarding the 
additional funding needed to complete construction and address any 
risks and uncertainties that arise.

Enhanced Schedule Management Needed
    According to AOC, the entire base project is about 60 percent 
complete.\2\ Except for some punch-list items, such as fixing water 
leaks, construction work under the sequence 1 contract is now complete. 
This work includes the basic structure, the truck and Library of 
Congress tunnels, and the East Front interface. AOC and its contractors 
also completed work associated with the Inauguration. Work has started 
on the sequence 2 contract, including fitting out and finishing the 
basic structure and the Library of Congress tunnel and constructing the 
utility tunnel and space for the exhibits. AOC has just made 
contractual arrangements for fitting out and finishing the Senate and 
House expansion spaces and is now procuring the House Connector tunnel 
and the connection between the Library of Congress tunnel and the 
Jefferson building.
---------------------------------------------------------------------------
    \2\ The base project includes a finished visitor center shell and 
core, an extended loading dock service tunnel, exterior finishes, 
improvements to the East Plaza, construction of unfinished House and 
Senate expansion space shell, exhibits, technical security systems, a 
utility tunnel, and a connecting tunnel to the Library of Congress. The 
base project does not include other items, such as finishing the House 
and Senate expansion space and certain security-related enhancements.
---------------------------------------------------------------------------
    AOC's scheduled completion date for CVC is now September 2006, 
nearly 20 months later than originally planned. We believe, given past 
problems and future risks and uncertainties, that the completion date 
may be delayed until sometime between December 2006 and March 2007. 
Additionally, AOC's scheduled completion date for the interior of the 
House and Senate expansion spaces is March 2007.
    The project's schedule delays are due in part to scope changes, 
design changes, and unforeseen conditions beyond AOC's control (e.g., 
adding the Senate and House expansion spaces and encountering 
underground obstructions). However, factors more within AOC's control 
also contributed to the delays. First, the original schedule was overly 
optimistic. Second, AOC has had difficulty obtaining acceptable, 
contractually required schedules from its contractors, such as a master 
summary schedule from its construction management contractor. In 
addition, AOC and its contractors did not adhere to contract provisions 
designed for effective schedule management, including those calling for 
monthly progress review meetings and schedule updates and revisions. 
AOC and its construction management contractor also had difficulty 
coordinating the work of the sequence 1 and 2 contractors and did not 
systematically track and document delays and their causes as they 
occurred or apportion time and costs to the appropriate parties on a 
timely basis. Additionally, AOC has not yet reached full agreement with 
CPC on the extent to which construction must be completed before the 
facility can be opened to the public, and AOC has not yet developed an 
overall summary schedule that links the completion of construction with 
the steps necessary to prepare CVC for facility operations. Finally, 
AOC needs to fully implement our recommendation that it develop plans 
to mitigate the project's remaining risks and uncertainties, such as 
shortages in the supply of stone or skilled stone workers, unforeseen 
conditions associated with the remaining underground tunnels, and 
commissioning the building in the allotted time.
    We have made numerous recommendations to improve schedule 
management, and AOC has taken actions to implement most of them. We 
believe, however, that both AOC and its construction management 
contractor will need to sustain their attention and apply additional 
effort to managing the project's schedule, as well as fully implement 
our recommendations, to help keep the project on track and as close to 
budget as possible. More specifically, AOC needs to give priority 
attention to: obtaining and maintaining acceptable project schedules, 
including reassessing the times allotted for completing sequence 2 
work; aggressively monitoring and managing contractors' adherence to 
the schedule, including documenting and addressing the causes of 
delays; developing and implementing risk mitigation plans; reaching 
agreement on what project elements must be complete before CVC can open 
to the public; and preparing a summary schedule, as Congress requested, 
that integrates the major steps needed to complete CVC construction 
with the steps necessary to prepare for operations.

Stronger Contract Management Needed
    AOC is relying on contractors to design, build, and help manage 
CVC's construction and help prepare for its operation. AOC has 
obligated over $350 million for contracts and contract modifications 
for these activities. We found that AOC needed to take additional steps 
to ensure that it was (1) receiving reasonable prices for proposed 
contract modifications, (2) obtaining adequate support for contractors' 
requests for reimbursement of incurred costs, (3) adequately overseeing 
its contractors' performance, and (4) taking appropriate steps to see 
that contractual work is not done before it is appropriately authorized 
under contractual arrangements.
  --Initially, AOC was not preparing independent government estimates 
        as part of its price analyses for proposed modifications to the 
        two major contracts. In early 2004, AOC hired an employee for 
        the CVC staff with contract management experience, and AOC has 
        improved its capacity to obtain reasonable prices by, among 
        other things, preparing government estimates as part of its 
        effort to evaluate the reasonableness of prices offered by the 
        contractors for the proposed modifications.
  --Although most CVC work is being done under fixed price contracts, 
        for which payment is not based on incurred costs, AOC has 
        received or is anticipating requests for reimbursement of over 
        $30 million in costs that the contractors say they incurred 
        because of delays.\3\ In addition, AOC has awarded some 
        contract modifications for unpriced work that will require 
        reliable information on incurred costs. According to the 
        Defense Contract Audit Agency, several concerns relating to the 
        contractors' accounting systems need to be addressed to ensure 
        the reliability of the contractors' incurred cost information.
---------------------------------------------------------------------------
    \3\ Reimbursements for the costs of non-weather-related delays not 
attributable to the contractor are standard practice in the 
construction industry.
---------------------------------------------------------------------------
  --AOC has continued to experience difficulty getting fully acceptable 
        performance from contractors. For example, as of April 30, 
        2005, the construction management contractor had not provided 
        an acceptable master schedule identifying appropriate links 
        between tasks and key milestones, and it has not been providing 
        AOC with accurate safety data for an extended period of time. 
        Similarly, one of AOC's major construction contractors had not 
        corrected recurring safety concerns over an extended period.
  --One of AOC's CVC consultants began work several months before AOC 
        had awarded a contract to it authorizing the work. AOC agreed 
        to take action to prevent this type of problem from recurring.
    We have made several recommendations to enhance AOC's contract 
management. AOC has generally agreed and taken action to implement 
these recommendations. For example, it has enhanced its capacity to 
review cost-related data submitted by contractors with requests for 
reimbursement based on incurred costs, and it has better evaluated its 
construction management contractor's performance and taken action to 
obtain improvements. To help prevent further schedule delays and 
control cost growth, AOC needs to aggressively manage its contractors' 
performance, particularly in the areas of managing schedules and 
obtaining reasonable prices on contractual actions, and continue to 
ensure that contractors' requests for payment based on incurred costs 
are adequately evaluated. It also needs to ensure that its contractors 
report accurate safety data and promptly act to correct safety 
concerns.

Project Costs and Funding Provided as of May 2005
    We currently estimate that the cost to complete the construction of 
the CVC project, including proposed additions to its scope, is about 
$522 million without any allowance for risks and uncertainties.\4\ Of 
this amount, $483.7 million has been provided to date.\5\ In November 
2004, we estimated that the cost to complete the scope of work approved 
at that time was likely to be about $515 million, without an allowance 
for risks and uncertainties. Since November 2004, AOC and the U.S. 
Capitol Police have proposed about $7 million in scope changes that we 
included in our current estimate, bringing it to $522 million.\6\ 
However, the project continues to face risks and uncertainties, such as 
unforeseen conditions, scope gaps and changes, and possible further 
delays.\7\ To provide for these, we estimated in November 2004 that an 
additional $44 million would likely be needed, bringing our estimate of 
the total cost to about $559 million. We continue to believe that this 
estimate of the project's total costs is appropriate. We have not 
increased our allowance for risks and uncertainties in response to the 
recent requests for $7 million in scope changes because we consider 
such changes among the risks and uncertainties that the project faced 
in November.
---------------------------------------------------------------------------
    \4\ Our November 2004 estimate of $515 million was similar to AOC's 
estimate based on work done by one of its consultants; however, except 
for the $4.2 million in additional scope items, AOC has not requested 
funds to cover risks and uncertainties provided for in our $44 million.
    \5\ Public Law 108-447, enacted in December 2004, provided that up 
to $10.6 million could be transferred from funds appropriated for 
Capitol Buildings operations and maintenance to CVC upon the approval 
of the House and Senate Committees on Appropriations. In March 2005, 
AOC requested that about $4 million of these funds be transferred to 
CVC, including some funds for construction-related work, such as design 
of the gift shop space. As of May 12, the House Committee had not yet 
approved this transfer, and none of the $10.6 million has been included 
in the $483.7 million figure above.
    \6\ Last week, Congress enacted legislation that provided the 
additional funding requested by the Capitol Police for security 
monitoring. Public Law 109-13, Emergency Supplemental Appropriations 
for Defense, the Global War on Terror, and Tsunami Relief, 2005 (May 
11, 2005).
    \7\ Other risks and uncertainties that continue to face the project 
include, but are not limited to, shortages in the supply of stone and 
skilled stone workers, possible additional requirements for life safety 
or security changes, unknown operator requirements, and contractor 
coordination issues.
---------------------------------------------------------------------------
    Over the years, CVC construction costs have increased considerably. 
Most of these costs were outside or largely outside AOC's control, but 
other costs were more within its control. About $147 million of the 
cost increase was due to changes in the project's scope, many of which 
were for security enhancements following September 11 and the anthrax 
attacks in October 2001. Congress added the House and Senate expansion 
spaces and the Library of Congress tunnel to the project's scope after 
the original project's cost was estimated; similarly, the Department of 
Defense recommended and funded an air filtration system for the 
facility. Other factors also outside or largely outside AOC's control 
contributed about $45 million to the increase. For example, bid prices 
for the sequence 1 and 2 contracts exceeded budgeted costs, and 
unforeseen field conditions, such as underground obstructions, 
necessitated additional work. Finally, factors more within AOC's 
control accounted for about $58 million of the expected additional 
project costs. For example, the project experienced significant delays 
during sequence 1, and we expect AOC will incur additional costs in the 
future because we believe the sequence 2 work will not be done by AOC's 
September 2006 completion date; slow decision-making by AOC also 
contributed to higher costs.
    In its fiscal year 2006 budget request, AOC asked Congress for an 
additional $36.9 million for CVC construction. AOC believes this amount 
will be sufficient to complete the project's construction and, if 
approved, will bring the total funding provided for the project to 
$520.6 million. AOC's request includes the $4.2 million for potential 
additions to the project's scope (e.g., congressional seals, an 
orientation film, and backpack storage space), but does not include 
$1.7 million for the air filtration system--an amount that AOC thought 
it would not need and returned to DOD, but that we believe AOC will 
still likely need. AOC believes that it could obtain these funds from 
DOD if needed. Thus, with a $1.7 million increase for the air 
filtration system, the total estimated cost to complete the project's 
construction would be the $522.3 million cited above without provision 
for risks and uncertainties.\8\
---------------------------------------------------------------------------
    \8\ Essentially, AOC's $36.9 million fiscal year 2006 budget 
request was consistent with our $515.1 million estimated cost at 
completion except that it included $4.2 million for the additional 
scope items and excluded the $1.7 million for filtration--$517.6 
million less $4.2 million plus $1.7 million equals $515.1 million.
---------------------------------------------------------------------------
    To continue to move the project forward, Congress will have to 
consider the additional funding AOC has requested for fiscal year 2006 
to complete the project, including the $4.2 million in additional scope 
items. Through effective risk mitigation, as we have recommended, and 
effective implementation of our other recommendations for enhancing 
schedule and contract management, AOC may be able to avoid some of the 
$44 million that we allowed for risks and uncertainties. However, given 
the project's complexity and the additional requests for funds already 
made and anticipated, we believe AOC will likely need much of this $44 
million even with effective implementation of our recommendations. 
Already, it appears that AOC may need additional funds for sequence 2 
changes in fiscal year 2005. For example, as of April 30, 2005, AOC had 
identified proposed changes to the sequence 2 contract that it 
considered necessary and expected to cost about $13.8 million. This sum 
is about $700,000 less than the $14.5 million AOC has available during 
fiscal year 2005 for sequence 2 changes.

Worker Safety Issues
    Because the number of construction workers at the CVC site is soon 
expected to increase significantly, worker safety will continue to be 
an important issue during the remainder of the project. Our review of 
worker safety issues found that the construction management 
contractor's monthly CVC progress reports contained some inaccurate 
data for key measures of worker safety, including injuries and 
illnesses and lost time. For example, the contractor reported 3 lost-
time incidents for 2004, but our analysis identified 45 such incidents. 
These inaccuracies resulted in both overstatements and understatements 
of rates.\9\ For instance, the contractor reported a rate of 6.3 
injuries and illnesses for April 2004, whereas our analysis identified 
12.5.\10\ The construction management contractor attributed the 
inaccuracies to key data missing from its calculations, unawareness of 
a formula change that began in 2002, mathematical errors, and poor 
communication with the major construction contractors.
---------------------------------------------------------------------------
    \9\ The Bureau of Labor Statistics (BLS) calculates the number of 
injury/illness incidents per 100 full-time workers as follows: (N/EH)  
200,000, where (N) equals number of injuries/illnesses, (EH) equals 
total hours worked by all employees during the calendar year, and 
200,000 equals base for 100 equivalent full-time workers (working 40 
hours per week, 50 weeks per year). BLS calculates the number of lost-
time incidents per 100 full-time workers as follows: (LT/EH)  200,000 
where (LT) equals cases of (1) days away from work, (2) restricted work 
or (3) work transfer, (EH) equals number of employee hours for the 
desired period and 200,000 equals base for 100 equivalent full-time 
workers (working 40 hours per week, 50 weeks per year).
    \10\ In early 2005, the major contractors provided us with updated 
data for injuries and illnesses and lost time in 2004. We used these 
data to recalculate the 2004 rates. For example, the monthly rate for 
injuries and illnesses in April 2004 increased to 15.7.
---------------------------------------------------------------------------
    According to our analysis, the rates for injuries and illnesses and 
for lost time were higher for CVC than for comparable construction 
sites. For 2003, the injury and illness rate was about 50 percent 
higher, and the lost-time rate was about 160 percent higher.\11\ 
Additionally, both the numbers and the rates for injuries and illnesses 
and for lost time worsened from 2003 to 2004. For example, the injury 
and illness rate increased from 9.1 in 2003 to 12.2 in 2004, and the 
lost-time rate increased from 8.1 to 10.4. AOC and its contractors have 
taken some actions to promote and manage safety on the site, such as 
conducting monthly safety audits and making recommendations to improve 
safety. However, at the time of our review, neither AOC nor its 
construction management contractor had analyzed the results of the 
monthly safety audits to identify trends or concerns, and neither had 
reviewed the safety audit findings in conjunction with the injury and 
illness data. Our analysis of key safety audit data for the first 10 
months of 2004 identified about 700 safety concerns, the most frequent 
of which was inadequate protection against falls. Furthermore, AOC had 
not fully exercised its authority to have the contractors take 
corrective actions to address recurring safety concerns.
---------------------------------------------------------------------------
    \11\ The CVC rates are sensitive to small variations in the number 
of injuries, illnesses, or lost-time incidents for a given year.
---------------------------------------------------------------------------
    We recommended that, to improve safety and reporting, AOC ensure 
the collection and reporting of accurate injury and illness and lost-
time data, work with its contractors to develop a mechanism for 
analyzing the data and identifying corrective actions, and more fully 
exercise its authority to take appropriate enforcement actions when 
warranted. AOC agreed with our recommendations and initiated corrective 
actions. However, follow-up work that we did in early 2005 at AOC's 
request indicated the corrective actions had not yet fully eliminated 
errors in reporting. AOC agreed that continued action on our 
recommendations was essential.

Reporting to Congress
    Both AOC and its construction management contractor prepare monthly 
progress reports on CVC. AOC relies heavily on its contractor for the 
information it puts into its own reports, which it sends to Congress. 
We have found that AOC's reports have sometimes failed to identify 
problems, such as cost increases and schedule delays. This has resulted 
in certain ``expectation gaps'' within Congress. We have suggested to 
AOC that its reports could be more helpful to Congress if, for example, 
they discussed critical issues facing the project and important 
upcoming decisions. AOC has been making improvements to its monthly 
reports and has agreed to continue doing so.
    Mr. Chairman, this completes my prepared statement. We would be 
happy to answer questions that you and other Subcommittee Members may 
have.

                            COMPLETION DATE

    Senator Allard. Thank you for your testimony, we appreciate 
that. I'll proceed to some of our questions.
    Mr. Hantman, you say in your statement that the Architect 
of the Capitol now has a fully integrated master schedule, and 
you say the project can be completed by September 2006. Does 
this date reflect any known changes that could affect the 
completion date, but have not yet been incorporated into the 
schedule such as the exhibit construction, and some sequence 2 
change orders?
    Mr. Hantman. Mr. Chairman, relative to the exhibit 
construction, our sense at this point in time, since we just 
signed the contract on May 4, is that it should not impact the 
opening. Clearly, as we discussed at our last hearing, the 
total visitor experience is an important one for people to come 
on in, to be screened respectfully, to go down into the Great 
Hall to see the orientation film, and to be brought into the 
building for their tours and also to have the exhibit 
experience. As we are looking at the schedule right now, now 
that we were able to sign it on the 4th, we do not see, at this 
point, any impact to completing that in concurrence with the 
visitor portion as well. As Mr. Walker indicated, of course, 
the expansion areas which we just awarded yesterday, in fact, 
will be later on.
    And one of the concerns that we have been discussing 
clearly with the Capitol Preservation Commission senior staff 
is what really needs to be in place for the visitors to be 
welcomed effectively to the building. And we believe because of 
the nature of the setup of the mechanical room, we have 23 
separate air handling units, the air handling units that deal 
with the areas in the exhibition--I'm sorry--the expansion 
space, could essentially be serving just those areas. Therefore 
any dust in the air would be taken up in those areas as opposed 
to in the central visitor center portion, or in the exhibition 
area, which was a concern of Ms. Reynolds and the people from 
the Archives. So we believe that the whole visitor experience 
with all the areas that are under contract as of now, will be 
ready for them in September. That's basically what Bob Hixon 
can talk to in terms of the whole schedule and show you some 
boards on where we are on that.

                        SEQUENCE 2 CHANGE ORDERS

    Senator Allard. Did you talk about some of your sequence 2 
change orders?
    Mr. Hixon. At this time, all of the sequence 2 change 
orders, the impact of all those is included in our schedule to 
the extent that we are aware of them. There are new change 
orders coming on board all the time, and as those come on, we 
continue to evaluate those to see if there is an impact. At 
this time, based on all the information that we have to date, 
we are in good shape. There are a couple of areas of concern. 
There are several elements that still need to be procured--
there's the House connector tunnel, there is the Jefferson 
Building work that needs to be factored into the Library of 
Congress tunnel. There is a little bit to be finished as far as 
connections to the utility tunnel, all of those items suppose 
some risk which could have some impact. We certainly want to 
make sure we don't have an impact, but those areas are still 
ahead of us as far as an evaluation.
    Senator Allard. Could you give me a little clearer 
understanding of how the change orders come about?
    Mr. Hixon. Certainly, change orders come to us usually in 
one of two ways, either the contractor discovers something that 
they feel is extra under the contract or that ask a question of 
the designer, or the designer discovers an issue that needs to 
be changed in some manner. For example, they may find that a 
dimension doesn't work correctly, and they have to adjust 
ceiling height or they have to adjust the width of a corridor, 
or we may discover that materials that were selected don't work 
well in that, say the wainscot in the Great Hall for example, 
the stone, when you put the two pieces together and the mock up 
didn't match and we had a change in the stone--so those kinds 
of things are occurring all the time. There are some things in 
the project that sometimes don't dimensionally fit, we have 
materials that no longer are available that have to be replaced 
with other materials, or you put something like stone together 
and you create the mock up to make sure it does work well, and 
you find out you need to----

                        CONTRACTOR CHANGE ORDERS

    Senator Allard. I can understand that. But on the 
contractor's side, what drives change orders?
    Mr. Hixon. From the contractor side, more often than not 
there are different site conditions, especially during the 
sequence 1 contract, or else they will find issues associated--
if we are in sequence 2 right now, for example--there are some 
issues associated with the installation of the sequence 1 work, 
a concrete column may be an inch out of position and have to be 
chipped in order for the sequence 2 work to be done, things of 
that nature.
    Senator Allard. Aren't these things that ordinarily the 
contractor should figure into his quote when he initially gives 
you the bid?
    Mr. Hixon. Well, the sequence 2 contractor, when he gives 
you his quote, is going to assume that the sequence 1 
contractor's work is in place, he will ask for extra for 
whatever work he has to do, we will have to back charge the 
sequence 1----
    Senator Allard. And part of the problem is the sequence 1 
contractor didn't do the work or the sequence 2 contractor has 
some concerns with sequence 1 work, is that how that comes 
about?
    Mr. Hixon. If he finds that something is not in the right 
location, he will alert us and we will have to either have the 
work done by the sequence 1 contractor to correct it, or else 
the sequence 2 contractor will perform the work and we'll back 
charge the sequence 1 contractor. It should be a no net cost to 
the Government.
    Senator Allard. That's what I wanted to make sure, that 
it's no net to the Government. It seems to me these are 
contractor responsibilities.
    Mr. Hixon. They are, yes. Those kinds of deficiencies, if 
it's a different site condition issue, for example, work is 
occurring in the utility tunnel, and something unknown is 
discovered, then that's a different site condition, and the 
contractor is entitled to compensation for added costs for 
things that are different from what he could have reasonably 
contemplated.
    Senator Allard. There may be some unknown event that you 
didn't anticipate.
    Mr. Hixon. That's correct.
    Senator Allard. Okay, my time is expired, Mr. Chairman, do 
you have any questions?

                    CONSTRUCTION CONTRACT MANAGEMENT

    Senator Cochran. Mr. Walker, you said that the AOC should 
improve its management of the construction contract if further 
delays and cost increases are to be avoided. What do you 
suggest the AOC do that is not being done already?
    Mr. Walker. We have had a number of recommendations, Mr. 
Chairman, one of which Alan talked on earlier, and that is, we 
recommended for a long time that there needs to be a 
comprehensive and integrated project plan that, my 
understanding is they have one now, we have not had an 
opportunity to review it in detail, we've received a very high 
level briefing on that.
    Second, there are a number of issues that are very 
fundamental, like how do you define complete? That still has 
not been defined yet, there is not an understanding between the 
Capitol Preservation Commission personnel and AOC yet on what 
the term ``complete'' means. There are a number of----
    Senator Cochran. We can look in the dictionary and find out 
what it means, can't we?
    Mr. Walker. You're correct that Webster's does provide some 
help in this regard, however, the details matter. For example, 
Alan talked about at what state do things have to be in before 
you start allowing the public to be able to come in? Now, 
candidly that might be deemed to be complete for purposes of 
being able to allow public access, but on the other hand there 
could be still be activities undergoing which could require 
time and money before----
    Senator Cochran. Well, what's the Architect supposed to do 
about that?
    Mr. Walker. Well, I think it's important for the Architect 
to be able to work constructively, as he's trying to do, I 
believe, with the key personnel in the Congress to be able to 
make sure that there's not an expectation gap that exists.
    Senator Cochran. Well, we have got some in Congress whose 
expectations are way beyond reality.
    Mr. Walker. That can happen, Mr. Chairman. If you have 100 
Members of the Senate, and 435 Members of the House, not 
everybody thinks the same way.
    Senator Cochran. Well, if he tries to please every Member 
of Congress, we are going to be working on this forever.
    Mr. Walker. And that would be totally inappropriate and 
unrealistic. Just as we find ourselves sometimes not being able 
to please every Member of Congress as well.
    Senator Cochran. I have no further questions.

                          INTEGRATED SCHEDULE

    Senator Allard. Mr. Hantman, the GAO has reported several 
times that your schedules were somewhat optimistic. Your staff 
agreed to have the durations of the schedule's tasks 
reassessed. Has this reassessment been done?
    Mr. Hantman. Yes, and we're constantly doing that. Maybe it 
would be appropriate, Mr. Chairman, for us to walk you through 
a few of the things that we've done since our last hearing in 
response to the imperatives of this integrated schedule, and 
tell you what we have done, where it's going and how we are 
constantly reviewing these issues.
    Senator Allard. And while you are doing that, could you 
reassure me and the subcommittee as to how you know that this 
latest schedule is realistic, and when you think the total 
reassessment will be done.
    Mr. Hixon. You can see from the board here that we have 
established this integrated project master schedule. We now 
have everything tied into one large schedule, both the 
Manhattan work and all the other items of work, such as way 
finding and things of that nature, that are all associated with 
completion of space. We have gone through this, and to ensure 
that all the activities that are required will result in a 
completion date in September 2006 for all of those activities, 
except the expansion space, and I wanted to show you a couple 
of boards just to give you some idea of what we are doing. We 
are not looking for anybody to read this, obviously, because 
you can't.
    Senator Allard. You can't see it from here.
    Mr. Hixon. I think it's too low behind the--what we've done 
is we've--this is just an example of one of the charts, this is 
the critical path, all those activities that are required that 
have what we call zero float in them, every activity has to 
occur on schedule to be completed, other activities--you can 
see this is only a minor portion of the 3,500 to 4,000 
activities depending on where we are in the process. But you 
can see this is only a few of those activities, but these are 
all critical to being done on time.
    Mr. Hantman. But before you leave that----
    Senator Allard. Those red lines, it looks to me like those 
are dates or activities that have been extended----
    Mr. Hixon. Okay, well what you see here this one set of 
activities across here is the House and Senate expansion space, 
the blue line that runs vertically here is the date, the 
current date, what this allows us to do is say, ``Okay, on a 
particular date, what activity should be finished and which 
activities are yet to be done in the future?'' Activities are 
indicated here on the left side of the chart, and like I say, 
these are only the critical activities, so it may be something 
like the pedestals that support the Tennessee marble base in 
the Great Hall, and when does that have to be done, that is a 
critical activity, and it's reflected on the chart.
    But the bottom line here, Mr. Chairman, is at the bottom 
line. It basically shows that in September 2006, all of this 
whole string of activities will be completed--again with the 
exception of the two broad lines that talk about the expansion 
space for the House and the Senate.
    Senator Allard. And you think this is realistic, Mr. Hixon?
    Mr. Hixon. Yes, sir. At this point, based on everything 
that we are aware of, this is entirely realistic. We have 
looked through the individual dates, we have brought an 
engineering firm that does construction management to assist us 
in this, as well as Gilbane's review of the Manhattan schedule, 
and we all feel comfortable that we can achieve this date, the 
durations are good, the logic is good.

                             POTENTIAL RISK

    Mr. Hantman. One of the things, clearly, that GAO and we 
are working together on, and what they have been doing with us 
in the past, is they are assessing potential risk. We are 
assuming that, again, nothing untoward happens with the tunnel 
that we are excavating on East Capitol Street, that we are able 
to do the work under the house stairs for the connector tunnel 
there, things of that nature. So, in terms of our discussion 
with GAO, clearly in terms of dollars and time, they are 
looking at things that we don't see on the horizon at this 
point and time, and can't predict. But everything that we are 
aware of right now, even the level of risk that we believe we 
have on those pieces of work, we believe it is a tight 
schedule, but it is a doable schedule now.
    Senator Allard. And Mr. Walker, Mr. Hantman has indicated 
that he had been working with your office on this and I assume 
that your staff has had an opportunity to review this new 
integrated schedule, and you believe it's complete and 
accurate?
    Mr. Walker. Well, first, Mr. Chairman, we received a high-
level briefing of this new integrated schedule, we have not had 
an opportunity to review it in detail, we do plan to do that 
and we obviously will report back to the interested parties 
after we have a chance to do that. I think in fairness----
    Senator Allard. Maybe you can follow up on this, this would 
be a good follow-up question a month from now, we can follow up 
on that.
    Mr. Walker. Absolutely, Mr. Chairman. I think it's 
important to note that the AOC is making a good faith effort to 
come up with what they think the schedule is going to be, what 
they think the cost is going to be. Reasonable people can and 
will differ on these factors. I think history will show in the 
past they've tended to be overly optimistic, and that we looked 
at it more from the standpoint, well what are some of the risks 
that could happen typically in construction projects and have 
happened, what are some of the uncertainties that we may not be 
aware of, and our general view is you're better to exceed 
expectations then to continue to disappoint people. I think our 
history has been pretty accurate over the past with regard to 
schedule and costs, I think a couple of examples of things that 
have been or are to be resolved would be, for example, it's my 
understanding that even if the September 15 date is met, that 
there will not be full security features in place at that point 
in time. I don't know what security features would be in place, 
and whether or not they would be acceptable to Congress and 
whether or not they would be acceptable to the Capitol Police 
and other interested parties. It's also my understanding that 
certain things will be completed to a temporary state, not a 
final state. That may or may not be acceptable to Congress, all 
the more reason why I come back to--what's the definition of 
complete, and what status has to exist in order for the 
facility to be utilized?

                            EXPANSION SPACE

    Senator Allard. We haven't talked any about the expansion 
space here and that's been awarded. I think you indicated that 
in your remarks. What is the completion date now for the 
expansion space?
    Mr. Hixon. The completion date for the expansion space 
contractually is March 18, 2007. We expect the work, except for 
the integration of systems, to be done September 18, 2006.
    Senator Allard. And that's all been worked into the master 
schedule I assume?
    Mr. Hixon. That has got to be put into the master schedule, 
the award made occurred on Monday, and we haven't----
    Senator Allard. But it will be.
    Mr. Hixon. Yes, sir.
    Senator Allard. And that would be another question we might 
have a month from now.
    Now, back to you, Mr. Walker, in November 2004, GAO advised 
that the project was likely to be completed in late 2006, or 
early 2007 due to optimistic durations and risks and 
uncertainties. Since that time additional issues have arisen 
that may extend the projects timeline. Mr. Walker, what is the 
GAO's current assessment for when the project could be 
certified to be opened?
    Mr. Walker. Mr. Chairman, our view is considering certain 
risks and uncertainties, we think it's more realistic to expect 
for the project, the base project, to be done in December 2006 
to March 2007, and at the present point in time, we don't have 
a basis to differ with the Architect of the Capitol on the 
March 2007 date for the expansion. We take some comfort in the 
fact that contract has now been awarded, but that's where we're 
at at the present point in time.

                        COMPLETION AND OCCUPANCY

    Senator Allard. I assume that when we talk about certified 
to be open, that's actually an occupation time, is that 
correct?
    Mr. Walker. Candidly, Mr. Chairman, these are some of the 
issues that have to be worked out, I think there's two issues--
one of which is, what has to be done in order for it to be 
occupied, or utilized in some way? And then second, when is it 
totally done? Such that we are no longer incurring any related 
costs.
    Senator Allard. And totally occupied.
    Mr. Walker. Not only totally occupied, but totally 
complete, such that the contractors are no longer on the site, 
we're no longer incurring any additional costs. Those are two 
different dates. There may be several dates involved here.
    Senator Allard. But the practical date is when is it going 
to be finished so it can be totally occupied. Do you have a 
time in mind when that might be possible?
    Mr. Walker. The timeframes that I am talking about, Mr. 
Chairman, really envision that you would be occupying within 
those timeframes--in other words, December 2006 to March 2007, 
and March 2007 for the House and Senate expansion space. We are 
not quite as optimistic as the Architect of the Capitol, based 
on past experience.
    Senator Allard. Do you think he has reason, Mr. Hantman, or 
Mr. Hixon for his projections? Or do you feel comfortable with 
what you are telling us here today?
    Mr. Hantman. Mr. Chairman, the things that Mr. Walker 
talked to specifically that may not be ready in our September 
timeframe that we are working to have ready, he mentioned 
security features, for instance. We are working with the 
Capitol Police who have a responsibility to install their 
cameras inside conduit that we provide for them, so we need to 
make sure that they are fully integrated into our schedule, so 
that those comments could be there. But in reality, if they 
don't make that date, we have Capitol Police officers who could 
be there, and be providing the security in any event. So it's a 
question of evaluating, at that point, what level of security 
we do have, and is it adequate for the public to come in.
    Another thing that I think Mr. Walker was referring to was 
a contract that we have not let yet, we have an obligation 
plan--from March of this year--which gave us some funding, and 
it's not been authorized for us yet, on signage, to design and 
put in way finding signage.
    So the issue there is if--we assume given the 
appropriations, the authority to award that way finding sign 
program--that perhaps we won't need temporary signage that 
would otherwise go up. So, it's that kind of finishing element 
that we are talking about.
    In terms of the basic facility, in terms of operations, in 
terms of mechanical systems, in terms of security systems, the 
air-conditioning, the electrical, the lighting, all of those 
things, all of the architectural finishes are on our integrated 
schedule, and show a completion date in September. Clearly one 
of the big issues which you indicated in your opening remarks, 
and we'll talk about later on, is the whole operations issue. 
What staff would be there to welcome people, what kind of 
programs would be in place, and how the staff essentially would 
work, that is another issue.
    Senator Allard. Mr. Chairman, I noticed you are taking 
notes, do you have more questions?

                           COST IMPLICATIONS

    Senator Cochran. I don't want to get in way over my head, 
because I know everybody has more experience in this project 
than I do, but I am interested in trying to figure out exactly 
what the impact on the appropriations process--some of these 
changes that have recently been discovered, and the cost 
implications of changes--what that's going to have on the 
appropriations schedule, and whether or not the request 
submitted for this fiscal year is adequate to really meet the 
needs. I don't want us to be a part of the problem, this is 
another thing I want to make clear. Does the appropriation of 
funds, in your view, have an impact on your ability to 
efficiently manage the work and complete the contract, Mr. 
Hantman?
    Mr. Hantman. Well, first of all, Senator, I want to thank 
you for signing our March obligation plan. The Senate has 
signed off on that, which does impact the way finding and other 
issues, and we are waiting on the House for their signoff right 
now. But clearly, the ability to award the expansion spaces, 
that was delayed somewhat. When we submit an obligation plan we 
have the responsibility of giving you adequate information to 
know what it's all about and what kind of timing there is so 
that you can effectively react, and not be impacting the 
project. That's our responsibility to give that to you, and we 
still have this issue on the operations side. One of the things 
that we are discussing right now is the effective opening date, 
and clearly that opening date impacts the cost for personnel--
how many people you have on board and need to have on board 
that time whether it's September or another time--will depend 
upon, again, when the opening date is. So that will be an 
appropriations related issue.
    But in general, the requests that we have made in the 
budget for this year, the $36.9 million, in our view makes us 
whole without the risks that the GAO is talking about.
    Senator Cochran. I want to ask Mr. Walker the same 
question.
    Mr. Walker. Thank you, Mr. Chairman. It's my understanding 
that the $36.9 million is based on estimated total costs of 
$517 million. Our current estimate is $522 million, without 
risks and uncertainties, and with risks and uncertainties, 
potentially as high as $559 million. So I think clearly there 
are appropriations issues here that I think need to be 
monitored closely.
    Furthermore, it's my understanding that there are limited 
reserves still available for the AOC and that obviously 
Congress has to approve certain reprogramming requests and I 
think, you know, that there could be issues coming up in the 
interim, even if this total amount of money is allocated, the 
need for certain reprogramming requests in the interim that the 
Congress would have to deal with. Terry, did you have anything 
else that you wanted to add to that?
    Mr. Dorn. We're concerned for the balance of fiscal year 
2005, that there may be not much more than, say, $1 million or 
so left, assuming that their temporary estimates are accurate, 
to get to the balance of 2005 unless there's some reprogramming 
done, moving money around between different accounts.
    Like Mr. Walker said, I'm concerned in 2006 that the $36.9 
million that you all would appropriate would not cover any risk 
and uncertainties so that according to the assessment that we 
did, that $36.9 million would not be sufficient for 2006.

                    FISCAL YEAR 2006 BUDGET REQUEST

    Senator Cochran. Do you have another number in mind that 
you would include as a request of the Congress if you were 
responsible for submitting a budget request?
    Mr. Dorn. Back in November when we did our last cost-to-
complete estimate we estimated that there would be additional, 
I believe it was $42 million or so, up to that amount, could be 
needed for risks and uncertainties. We recommended at that time 
that that money be set aside in something like a reserve 
account that you all could control, but you could give to the 
AOC as they really proved that they needed it. We were 
reluctant to recommend that that full amount be appropriated 
all at once.
    Senator Cochran. Well, I don't think you ought to put the 
Appropriations Committee in the management of this project. Do 
you really believe that we should be assuming more 
responsibility in the fiscal management of the contract?
    Mr. Walker. I don't think you should be getting involved in 
that level of detail, Mr. Chairman. I think, my understanding 
as I understand the numbers that we have been dealing with and 
the AOC has been dealing with--at a minimum there's a $5 
million difference between what we say is going to be needed, 
and what they are estimating. We are saying $522 million and 
they are saying $517 million. So that would be a $5 million 
difference between----
    Senator Cochran. That's kind of a guess, too, I mean, we 
all realize those are guesses. You're using facts and 
understanding and knowledge and experience and judgment and 
everything else. But there's no way to be certain at this 
point. But our responsibility is to appropriate money on an 
annual basis, and so what I'm hoping to learn at this hearing, 
in addition to whatever else you think we need to know, is 
whether or not the fiscal year 2006 budget request is 
sufficient to meet the needs for the project. And if we 
appropriate that amount, it would be a positive contribution to 
the appropriate management of the contract. If we underfund it, 
we have got to expect problems. That's my question. Have we 
asked for enough money in this next fiscal year, in your 
opinion?
    Mr. Walker. And my answer is, Mr. Chairman, I think you 
should consider appropriating an additional $5 million. 
Obviously if it turns out these risks and uncertainties 
manifest themselves, and if it turns out that the project does 
take longer than what the AOC estimates, then you'd be getting 
into fiscal 2007, and there might be enough lead time to be 
able to consider that as part of the fiscal 2007 budget 
requests, or other supplemental actions at a later date.
    Senator Cochran. Okay, thank you.
    Senator Allard. Senator Durbin.

                             WORKER SAFETY

    Senator Durbin. Thank you, Mr. Chairman.
    Mr. Hantman, several years ago when I first came to this 
subcommittee, we had a long discussion about worker safety, and 
my concern about the Architect of the Capitol's office, and the 
fact that the accident and injury rate among employees in your 
office was way above the average for Federal agencies, 
dramatically. And after some discussion we brought in outside 
consultants that have dramatically improved those numbers, and 
that's why I was really stunned to read the report from the GAO 
about safety at the CVC work site. This appears to be one of 
the most dangerous work sites in Washington, and I don't know 
why.
    If I read this correctly, and I'm anxious to hear a 
response to it, the reports that you have been receiving, the 
progress reports have been giving inaccurate data about worker 
safety, including injuries, illnesses and lost time. The GAO 
analysis, and I read from the report, says that from 2003, the 
injury and illness rate was about 50 percent higher than 
comparable construction sites and the lost time rate, 160 
percent higher. Additionally, both the numbers in the rates for 
injuries and illnesses, and for lost time worsened from 2003 to 
2004.
    It goes on to say that neither the Architect of the Capitol 
nor the construction management contractor, which I assume is 
Gilbane, had analyzed the results of these monthly safety 
audits to identify trends or concerns. The GAO prefaced this 
section by saying the number of construction workers is soon 
expected to increase significantly. Why would we even want to 
send people into this dangerous situation? What is being done 
about it, and how can an issue, which you and I had a very 
public flare-up over, be allowed to deteriorate to this point? 
Is this the most dangerous construction site in Washington? And 
if so, why aren't you embarrassed by it?
    Mr. Hantman. Well, first of all may I please state that 
your interest, and our working together over the past years 
have, in fact, as you said, really improved the working 
conditions at the AOC. We are down to basically a better record 
than most of our blue collar sister organizations in security 
and safety, and almost approaching the level for white collar 
organizations right now. So I take very seriously what we have 
done these past years within the agency itself.
    Now, in terms of monitoring the security and the safety of 
the workers on the site, this is a function that Gilbane 
Associates, our construction manager, has been tasked with, and 
may I ask Bob Hixon to talk that through.
    Mr. Hixon. Gilbane, under their contract, is required to 
monitor the safety records. They have been doing that, we have 
a monthly safety audit by one of their safety professionals who 
comes through and has done this, both for Centex and Manhattan. 
They will evaluate through their site inspection and they'll 
generate a report that tells us all of the issues that they 
have found with pictures, so that we've got it all documented 
what problems there are.
    Currently, as a result of GAO's coming in and talking with 
us about safety for the last few months, we've had monthly 
meetings with both the Manhattan people--Centex is essentially 
off the site now--with Manhattan, and Gilbane and my field 
representatives. They've gone through all of these reports, 
Manhattan has responded to each item that's noted within the 
report that has been generated by Gilbane so that they've 
responded to each one. They have been very conscientious about 
safety; this is a change from what we had going on in 2003 and 
2004 with the sequence 1 contractor.

                             SAFETY RECORDS

    Senator Durbin. Well, let me ask you, was inaccurate data 
given to the Architect of the Capitol about the number of 
injuries and illnesses and lost time?
    Mr. Hixon. Yes, it was, there was inaccurate information 
provided by Centex to Gilbane, and they conveyed that 
information to us. There were some 16 accidents that were never 
reported, there was also a difference of opinion in how to 
account for lost time or light duty if someone was injured and 
came back and performed light duty. Effective in 2003, OSHA 
changed the requirements to require that that be reported as 
lost time as well; it was not being recorded that way.
    Senator Durbin. Is the GAO accurate in saying that the 
injuries and illnesses at the CVC site were 50 percent higher 
than comparable construction sites, and the lost time rate 160 
percent higher and increasing from the year 2003 to 2004, is 
that accurate?
    Mr. Hixon. That is accurate.
    Senator Durbin. And this did not come to the attention of 
either Gilbane or the Architect of the Capitol?
    Mr. Hixon. We were not aware that the situation was as bad 
as it has been until recently when the Government 
Accountability Office went directly to the sequence 1 
contractor to get their safety records. The data was differing 
from the data that had been transmitted to Gilbane.
    Senator Durbin. So who dropped the ball here, did Gilbane 
drop the ball? Or your office?
    Mr. Hixon. I believe it's the sequence 1 contractor failed 
to report accurately the safety information to Gilbane, who was 
collecting the data from both Centex and Manhattan, and 
reporting it to us. I don't think there was an intention there, 
I think they had incomplete information.
    Senator Durbin. That dramatically? I mean, that big a 
difference?
    Mr. Hixon. Well, there are two issues. One of them is the 
16 or so accidents that the Gilbane people had never received 
an accident report for these individuals, they knew nothing 
about it. The other aspect of it is this lost time, the 
calculation of lost time where the calculation was done 
inaccurately.

                       INCREASED INSURANCE COSTS

    Senator Durbin. So, aside from the personal loss to the 
victim of the accident, has this added to the cost of the 
project, the fact that it's a dangerous work site?
    Mr. Hixon. It would have probably added to the insurance 
cost of the construction contractor, it should not have added 
to the Government's cost for the project.
    Senator Durbin. So, when we talk about the increased costs 
of the Capitol Visitor Center, you're saying that those 
increased insurance costs were not passed on to be paid for by 
the taxpayers.
    Mr. Hixon. The Manhattan Construction Company has had a 
good safety record, as has Gilbane, for that matter, and those 
insurance rates would be good, and so they wouldn't be 
excessive. The insurance rates under the sequence 1 contract, 
and particularly some of their subcontractors, when you look at 
the sheet, you can see that there were a lot of accidents by 
one particular subcontractor in the September/October period; 
their insurance rates, I expect, are very high.
    Senator Durbin. And we don't pay for their higher 
insurance? That's not an add-on cost?
    Mr. Hixon. I suspect that their insurance cost is part of 
their overhead which is included in their bid pricing and that 
would price them out of the market compared to others.

                       CONTRACTOR SAFETY RECORDS

    Senator Durbin. So now we're going to have more 
construction workers on the scene. What have you put in place, 
or what will you put in place, to make sure that you receive 
accurate information and that Gilbane or the Architect's Office 
ask the hard questions of the contractors about their safety 
records?
    Mr. Hixon. Currently every time there is an accident, I 
receive the accident report myself, it comes through to me to 
review. But monthly what we are doing, we have a meeting 
monthly with Manhattan, Gilbane and the AOC to review the 
safety inspection that was done by Gilbane safety 
professionals. They go through each item on that, and they are 
to go through each accident report to ensure that we identify 
what the cause is and eliminate that as a recurring problem, so 
it's a very active program now.
    Senator Durbin. The GAO thinks they've found a trend in 
these accidents, have you identified one?
    Mr. Hixon. No, I have not.
    The other--the trends that they have talked about is fall 
protection. I mean, there was one other one, but--fall 
protection was clearly an issue. One of the things they would 
like us to do, that we have not done in the past, is do some 
kind of a trend analysis based on the data; I think that's a 
good idea.
    Senator Durbin. Well, I think it sure is a good idea this 
far in the project to think about that. Mr. Walker, would you 
like to comment?
    Mr. Walker. Yes, Senator Durbin.
    I think it's important to put things into perspective. I 
understand your concern and share your concern with regard to 
worker safety, and the optics of having a site that has a much 
higher incidence of accidents and lost time than would be 
expected, and also your concern about the potential additional 
costs that could be incurred to the Government as a result of 
that as well.
    I think it's fair to say that there's a shared 
responsibility for this between the contractor, between Gilbane 
and between the AOC, but I think it's also fair to say that 
this was a disproportionate problem for the sequence 1 
contractor, Centex. Centex is basically gone now.
    We have seen in the last several months, in 2005 the AOC 
paying much greater attention to this, as was mentioned by the 
fact that they are now having regular recurring meetings.
    Manhattan has a much better safety record than Centex, and 
I would hope and expect that things would be getting better 
from this point forward. The facts are what they are, but I do 
think it's important for AOC to continue to try to act on some 
of the recommendations that we've made to minimize the 
possibility of having problems going forward.
    But the most recent trend based on preliminary work that we 
have done in the first quarter of 2005 is a significant 
improvement over the past.
    Senator Durbin. Mr. Chairman, you've been kind enough to 
give me a little extra time here, and I just want to say that 
you have said we are going to be on top of this project and I'm 
glad we are doing this. And I hope that the regular reports 
relative to the schedule and the costs will include reports on 
worker safety. Maybe that will be an incentive for all of us to 
take this more seriously.
    Thank you.

                             COST OVERRUNS

    Senator Allard. I think that's a reasonable request and 
hopefully we'll be getting a report. In the last year, there's 
been about $100 million override and there haven't been any 
scope changes. Most of what has been justified on cost overruns 
have been explained by scope changes. So, I would like to have 
a little better explanation of what has happened to cause that 
$100 million growth in costs which wasn't anticipated in the 
last year when there wasn't any scope changes.
    Mr. Hixon. I wanted to be able to find the sheet that I had 
here that talks about some of the increases that have occurred 
in the last year, what they were for. Much of that has to do 
with the delay cost associated with the sequence 1 contractor's 
late completion of his work as a consequence of the scope 
increases that we previously talked about and different site 
conditions. As a consequence of sequence 1 being late by 10\1/
2\ months, the sequence 2 contractor, in lieu of starting in 
January 2004, actually commenced his work in November 2004, 10 
months late. The costs associated with that delay, together 
with the extended period that the construction manager, AOC and 
the Architect will have to be on site is significant. That--
together with several other issues, we have talked about the 
utility tunnel, there was a delay--while we looked at 
alternatives on the utility tunnel and there was a material 
escalation cost associated with that. There are some life 
safety issues associated with stair pressurization and damper 
monitoring on behalf of the fire marshal. There are some scope 
gaps that we have identified as a consequence of what's going 
on with the various designs between sequence 1 and sequence 2, 
there are some elements that we left out, the exhibit prices 
came in higher than expected, the House and Senate expansion 
spaces came in higher than expected; all of those things 
together add up to the total of $38.6 million that was the 
increase that we had in our cost-to-complete and that's between 
last year--that was done last year in October and reported in 
November.
    Senator Allard. When you said higher than expected, are you 
referring to inflated costs----
    Mr. Hixon. That's correct, sir. Yes. Some of these elements 
such as the House and Senate----
    Senator Allard. I assume it's inflated costs of raw 
material?
    Mr. Hixon. We have had both because we have got steel 
material, for example, which has jumped up dramatically in the 
last couple of years, but in addition to that, we've had an 
inflation rate in the construction area, the escalation in 
cost, that had typically been running about 3.5 percent, and 
the estimates for the cost were made at about 3.5 percent per 
year. In reality, they were more than twice that.
    Senator Allard. Is that labor cost?
    Mr. Hixon. That would be labor and material.
    Engineering News Record is reporting it at just over 7 
percent, I believe. So those things together with some of these 
other items, with coping with the delay costs associated with 
the late start, is what has caused the majority of the increase 
in costs here in the last year.
    Senator Allard. Mr. Walker?
    Mr. Walker. Mr. Chairman, it's my understanding that the 
estimate 1 year ago was about $454 million, and as I mentioned 
before, estimate without risks and uncertainties is $517 
million now. And it's my understanding that there are two 
primary reasons for those variances in the last year.
    First, delay costs of about $32 million, and second, design 
to budget gaps for the Senate and House expansion spaces, as 
well as the exhibits, of $21 million, in other words, the idea 
that rather than cutting back to meet the budget, the decision 
was made to go ahead and continue to do things in accordance 
with the preliminary specifications, but it would cost $21 
million more in order to be able to meet those preliminary 
specifications.

                         PROJECT SCOPE CHANGES

    Senator Allard. Thank you for that clarification. Now, Mr. 
Hantman, I understand that at the recent House Appropriations 
Committee hearing, it was suggested that some cost increases 
occurred because staff of the Capitol Preservation Commission 
were routinely requesting changes to the project scope. Is this 
true, and have there been any budget increases because of staff 
directives?
    Mr. Hantman. Most of the discussions that we have on our 
standard Monday afternoon meetings are issues where we are 
trying to resolve things in terms of the type of work that we 
want to do. For instance, we bring in fabrics and stones and 
say, ``This is what we are going to be doing,'' because when 
the Capitol Preservation Commission originally approved the 
concepts, it certainly wasn't down to the level of actual 
finishes and quality of materials. So those are the kinds of 
things that we would generally be discussing. Operations 
issues, we had a couple of meetings where we talked about, for 
instance, open captioning in the orientation theater. This is 
something that goes beyond what code really calls for, what the 
ADA really calls for in terms of people who are hearing-
impaired being able to be accommodated, so we had a series of 
discussions on whether or not we should be requesting--I think 
it was an additional $85,000 for instance--for open captioning. 
So there was some very significant discussions on the part of 
the subcommittee to say that yes, this should be something that 
we put in our $4.2 million below the line types of things. So 
talking about all those below the line issues and what they 
want to support, has certainly been elements that we have 
discussed. In fact they are in our request for this year, the 
$36.9 million includes many of those issues. One of the 
discussions that we had at these meetings was the issue of 
seals, congressional seals that would be in the atria, the 
circular stairways of the House and Senate expansion space, and 
on the floor of the Great Hall. There's been no real agreement 
in terms of doing that or not doing that. So we are planning, 
potentially, to do that in the future, if in fact we are given 
that clearance to do so.

                            COST TO COMPLETE

    Senator Allard. Now, I want to get down to the final 
question here, and I'll address this to Mr. Walker.
    Last November you released your GAO report on an update of 
the assessment of the cost to complete the project, and when 
should the process of updating the current cost to complete 
take place, when would you suggest?
    Mr. Walker. We do believe that it's appropriate to do a new 
cost to complete, and it should be done subsequent to the AOC's 
current completion of its integrated scheduling efforts. We 
think once that's agreed, I'm sure you are going to want us to 
take a look at that and provide our comments back to the 
Congress, we think it's appropriate at that point in time to 
come up with another estimate.
    Senator Allard. Mr. Hantman, when do you think you are 
going to have your schedule so that he can move ahead with his 
cost update?
    Mr. Hantman. As Mr. Walker indicated, we had given a GAO 
top-level schedule overview, what we need to do is have his 
staff sit down with our staff, review in detail what we have in 
a lot more detail than what we showed you today, and see what 
level of comfort they have and what kind of questions they 
would want to raise. I would think that certainly by the next 
hearing we will have met and discussed that and GAO can develop 
their own thoughts.
    Senator Allard. Can you give us some date at that point in 
time when it would be practical to go ahead with a cost-to-
complete update?
    Mr. Hantman. Yes.
    Senator Allard. Okay. Mr. Chairman, do you have any more 
questions?

                           SECURITY CONCERNS

    Senator Cochran. Mr. Chairman, I just have one other 
question and it's mainly to clarify one of the real purposes of 
this entire project.
    There's been some considerable pressure from the House side 
in particular, most recently during our conference on the 
supplemental appropriations and we were meeting to discuss 
differences in the House and Senate-passed supplemental bills, 
for there to be more included in this project than has been 
designed now for working spaces for Members of Congress, 
committee meeting rooms, other offices, accommodating the needs 
for more space for congressional activities. And it occurred to 
me that there may be some who are not appreciating the fact 
that much of the space that's being occupied by this visitor 
center is for the purpose of moving the perimeter and the 
distance between the actual working spaces of the Capitol and 
the Congress out to a point where it's less likely that someone 
who intends to do harm to the Capitol or to the Congress could 
get close access to the Congress and during its working days, 
moving the perimeter out beyond where it is now so that a truck 
making a delivery, or visitors coming to see the Capitol are 
actually screened or inspected, as the case may be with a 
truck, at a far distant location, rather as now, or as 
previously in the past, right up against the Capitol. Or as 
someone is entering the Capitol, we have the screening devices 
inside the Capitol, as a matter of fact, for visitors.
    And so if we filled up all the space between what is now 
the Capitol and what the perimeter is going to be with meeting 
rooms and activities and have the Congress working in a larger 
area, one of the purposes of having the new perimeter extended 
would be defeated. Is that something that is a factor in the 
decision to extend to far distant locations the opportunity to 
screen and to inspect those who are coming in or making 
delivers to the Capitol? Mr. Hantman and then I'll ask Mr. 
Walker to respond as well.
    Mr. Hantman. Mr. Chairman, you certainly have hit upon and 
reiterated one of the primary rationales for doing the visitor 
center in the first place. I think everybody recalls that the 
first increment of dollars, $100 million was appropriated 
directly after the two police officers were murdered in July 
1998. Within 4 months, we had essentially the start-up money to 
begin the re-design and to move ahead with the project. As for 
the rest of the money, the first increments of it came after 9/
11, so security clearly is the driver on this project.
    The perimeter security program that we're putting in place, 
that is in place right now, on Capitol Square, for instance, is 
really a vehicle interdiction type of program. We're out 
basically at streets, on First Street on the west side as well, 
and along the drives on the House and the Senate side as well, 
giving us hundreds of feet of stand-off from the building 
itself for any vehicle that would in fact want to come here. 
The idea of off-site inspection is making sure that vehicles 
are checked a greater distance away. That they have x amount of 
time to come to the building, and see that their tags are 
intact so nothing could have been added to it before they would 
even go into what is our new truck dock, three stories below 
the visitors center. This is certainly part and parcel of that 
whole philosophy of making sure vehicular traffic is 
controlled.
    As far as pedestrian traffic is concerned, the more people 
that come through the visitor center--several hundred feet away 
from the Capitol Building itself, as opposed to coming through 
the dozen entrances that we have on the north, the south, on 
the east front of the Capitol, the safer the building will be. 
And I think the police are certainly very sensitive to that. On 
an administrative philosophy, it's really going to be up to the 
House and Senate to determine who can still come through the 
north doors, the south doors. Clearly Members, senior staff, 
pre-screened visitors will be doing that. But the more people 
who come through the visitor center itself, 300 feet away from 
the Capitol building, before they enter the building, the safer 
the facility will be.
    Senator Cochran. Mr. Walker?
    Mr. Walker. Senator Cochran you are correct to say that 
security is one of the primary reasons for creating the Capitol 
Visitor Center. I will also note there is another reason that I 
think we have to lock down what the requirements are because 
failure to lock down the requirements means that we have 
increased risk of scheduled delays and cost increases, so 
security is a primary factor, but there's also a need to lock 
this down to increase the likelihood that we could come in on 
time and within budget.
    Senator Cochran. Thank you very much. Thank you, Mr. 
Chairman.

                  CONTRACTOR PENALTIES AND INCENTIVES

    Senator Allard. Thank you, Mr. Chairman.
    In the last hearing I mentioned the importance of trying to 
implement incentives as best we could. The sequence 1 
contractor was 10 months late. Did he receive any late charges 
or any fines or assessments for his tardiness in that regard?
    Mr. Hixon. The sequence 1 contractor submitted a request 
for a time extension, and documented that time extension for 
delays due to added scope and different site conditions. Those 
items were all reviewed for the contractor against the schedule 
and no, he did not get assessed any liquidated damages. The 
time was determined to be excusable and a major portion of it 
was compensable because it was under the contract, he was 
entitled to compensation for the delay.
    Senator Allard. Now, let's go the other direction, did the 
sequence 1 contractor receive any incentives or award fees from 
the Architect of the Capitol?
    Mr. Hixon. Yes, he did. He received award fees up until the 
end--there is a portion of the budget that he had--that still 
remains, he did not receive the full incentive fee that he 
could have. I think there's an amount, $250,000 or something 
that was not given to him because of his performance.
    Senator Allard. Okay, and maybe you could go on to some 
explanation of why he received those in greater detail?
    Mr. Hixon. I can't at this time, I wasn't here for the 
first few award fees that were handed out. The last one that he 
did, we changed it to milestone dates. He received three out of 
five--he achieved three out of five milestones--two of those 
related to the plaza, having his work done on the plaza so the 
sequence 2 contractor could be completed. He achieved those, 
and received his incentive for meeting his milestone dates. The 
other one was the service level, he achieved completion on that 
area on schedule, too.
    This was done differently than the way the incentive fee 
was set up originally and differently from the way we are doing 
Manhattan's incentive fee. We actually set milestone dates and 
said if you achieve that milestone date, you will receive your 
compensation, if you don't, you will not.

                          CONTRACTOR VARIANCES

    Senator Allard. So we are handling the sequence 2 contract 
differently than the sequence 1?
    Mr. Hixon. We are doing sequence 2 the way the first part 
of sequence 1 was done, which has to do with quality 
management, time management, a whole lot of issues. And since I 
wasn't here during that period of time, I'm not sure what the 
conversation was. I can tell you that for sequence 2 schedule 
management, all of those things were evaluated. There are 
monitors in the construction manager's office that monitor 
every month, it's a very rigorous process. We have graded them 
in their first evaluation period which was from the beginning 
that they were awarded the contract, up at the end of February 
and determined that their performance is excellent but at the 
low end, so they received approximately 91 percent of the 
$150,000 that was available in their first award fee. We feel 
they are doing a very good job.
    Senator Allard. Mr. Walker.
    Mr. Walker. Mr. Chairman, it's my understanding that the 
sequence 1 contractor who was Centex did not incur any 
penalties and was paid incentive award fees of about $820,000. 
There are clearly lessons to be learned here with regard to the 
future design of contracts to be able to provide more 
incentives in appropriate circumstances, but penalties as well. 
I might note that the safety issue was an issue that, in my 
view, was not given adequate consideration with regard to this 
factor. You have heard about some misreporting of safety 
factors. We need to move in Government to more performance-
based contracts. We need to move in Government to provide more 
incentives to people that are doing the right thing, and 
penalties if they don't. I do think there are some lessons to 
be learned here but I do think things are going better with the 
sequence 2 contractor, as I've noted before.

                          CONSTRUCTION MANAGER

    Senator Allard. Is it true that the longer the project 
lasts, the more money the contractor makes?
    Mr. Hixon. Are you referring to the construction contractor 
or the construction managers?
    Senator Allard. The latter.
    Mr. Hixon. The construction manager?
    Senator Allard. Yes.
    Mr. Hixon. The construction manager if--he is paid for 
having a staff on site and he is paid for a given duration, and 
so that's correct. If, in fact, his staff would stay on site 
for an extended period, the way the contract is developed if we 
wanted him here, we'd have to pay him to continue to stay on 
site during that period. We have included that in the budget 
request for fiscal year 2006.
    Senator Allard. And are there incentives, then, for the 
managing contractor to move the project along?
    Mr. Hixon. There are no incentive fees associated with the 
construction manager contract, that contract--it's a typical 
construction manager contract, a professional services 
contract, and it does not have incentive fees in it, nor does 
the Architect's.
    Senator Allard. And typically a construction management 
contract doesn't have incentives fees?
    Mr. Hixon. Typically they have not, to date. That's 
something that I think for the future would be a good idea. I 
think they ought to have incentive contracts in construction 
manager contracts. I think they ought to have them in A&E 
contracts as well, so that if they do perform and they 
collaborate well together, that they will derive a benefit, 
there is an incentive for them to do so.

                            MAJOR MILESTONES

    Senator Allard. Thank you. Now, finally, to get us ready 
for the next hearing, what major milestones do you expect to 
complete in the next 4 weeks? Mr. Hantman or Mr. Hixon?
    Mr. Hixon. The major milestones that we have going on 
schedulewise as far as work itself are, we should be seeing 
that the stone work is really going well in the Great Hall, 
that that work should be going on. But more importantly, from a 
project perspective, as we had the opportunity now because of 
the expansion space awards and the exhibit construction, to 
finalize those elements and refine even further the schedule 
and these other activities that need to be done in conjunction 
with the move in to the building. We have kind of turned the 
corner now, and we're kind of focused less on just trying to 
get the work underway, but more on looking at how we need to 
complete the work in order to be successful with such issues as 
the Capitol Police and their security requirements, things of 
that nature. Those are the kinds of issues that in the next 4 
weeks we ought to have some closure on.
    Mr. Hantman. But one of the things that Bob alluded to, Mr. 
Chairman, certainly is the stone work. The stone work is 
basically complete in the kitchen area at this point in time. 
They are starting to move out to the Great Hall. And that's 
really the critical path of the job with the volume of stone 
that we have, so monitoring that, making sure that those starts 
occur when those starts need to occur, and the number of crews 
that are important to keep that flowing is, in fact, coming in, 
so that's again the critical path of the project.
    Senator Allard. I was hoping we could get a little more 
specific response to that question. Could you get a response to 
that question within the next 10 days, if that gives you enough 
time?
    Mr. Hantman. Yes.

                            CLOSING REMARKS

    Senator Allard. I don't have any other questions to follow 
up on, Mr. Chairman, do you have anything?
    Senator Cochran. No, I don't.
    Senator Allard. I want to thank you both for taking the 
time to keep us informed on how the project is going. I 
appreciate both of you. I think you're professional and we 
appreciate your hard work and dedication to the effort and 
taking time to come and share with us your views on how the 
project is going. And I would like to thank the chairman of the 
full committee, Senator Cochran, for his special interest with 
everything that's going on.

                          SUBCOMMITTEE RECESS

    We will see you next month like I indicated. We want to 
make this a monthly event and help keep ourselves informed as 
to what is happening. I would like to meet again on June 14 and 
we'll have it scheduled the same time, same place if that works 
for you, Mr. Hantman.
    Mr. Hantman. Yes, sir.
    Senator Allard. Okay. And with that, the subcommittee 
stands in recess until that time.
    [Whereupon at 11:45 a.m., Tuesday, May 17, the subcommittee 
was recessed to reconvene subject to the call of the Chair.]


         PROGRESS OF CONSTRUCTION OF THE CAPITOL VISITOR CENTER

                              ----------                              


                         TUESDAY, JUNE 14, 2005

                               U.S. Senate,
            Subcommittee on the Legislative Branch,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:36 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senators Allard and Durbin.
STATEMENT OF ALAN M. HANTMAN, FAIA, ARCHITECT OF THE 
            CAPITOL
ACCOMPANIED BY BOB HIXON, PROJECT MANAGER, CAPITOL VISITOR CENTER, 
            ARCHITECT OF THE CAPITOL

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. The subcommittee will come to order. We 
meet today to take testimony on the progress of the Capitol 
Visitor Center (CVC). We will hear from the Architect of the 
Capitol Alan Hantman, CVC Project Manager Bob Hixon, and 
Bernard Ungar and Terrell Dorn of the Government Accountability 
Office (GAO).
    This is our second hearing on the progress of the CVC and I 
intend to continue holding monthly hearings. Our third hearing 
will be the same time and place, 1 month from today, July 14.
    In the last hearing the Architect reported that it had just 
received a fully integrated schedule from its construction 
management contractor. Mr. Hantman, you indicated you stood 
firmly behind the September 15, 2006, completion date for 
construction. Specifically, you said: ``We believe the whole 
visitor experience with all the areas that are under contract 
as of now will be ready for them in September.''
    In the last month, the contract for the exhibition 
galleries has been awarded and progress has been made in a 
number of areas. But there have been problems, too, including 
work in the utility tunnel, which is 5 months behind. Moreover, 
there continues to be a need for schedule management to be 
given top, ongoing priority attention, and AOC needs to develop 
a risk mitigation plan.
    We look forward to a robust discussion today, and 
particularly look forward to recommendations from our witnesses 
on the fiscal year 2006 budget as we will take up the 2006 
legislative branch bill in committee next week.
    I am heartened by the response that we have had since our 
last hearing to many of the areas and I appreciate the 
diligence and effort in that regard. So I do not want the fact 
that we are making headway to be overshadowed by some of the 
questions that we may focus on today. But we are trying to make 
sure that we can keep things moving forward according to 
schedule and holding down our costs as much as possible.
    So why do we not go ahead now and I will recognize you, Mr. 
Hantman, to proceed.

                   OPENING STATEMENT OF THE ARCHITECT

    Mr. Hantman. Thank you, Mr. Chairman. Good morning. I am 
pleased to be here to discuss the progress we have made on the 
CVC since our last May 17 hearing.
    Since I last testified, we have accomplished a number of 
tasks. Before I get into the details, though, I'd like to 
update you on the safety issues that were discussed at our last 
meeting. Recently the Occupational Safety and Health 
Administration, OSHA, made an unannounced comprehensive 
inspection of our work site. That was on May 24. They were 
satisfied with the work Manhattan was doing, its emphasis on 
worker safety, and they identified no significant issues to 
address. No citations were issued.
    Mr. Chairman, my office is dedicated to providing a safe, 
healthy, and secure environment for all who work in the Capitol 
complex and millions of visitors who come there every year, and 
the CVC work site is no exception. Additional steps have been 
made to assure that this is in fact the case.

                     INTERIOR CONSTRUCTION PROGRESS

    Mr. Chairman, with the recent implementation of the fully 
integrated schedule that you mentioned we have been closely 
monitoring the activities of our contractors. Since our last 
meeting, much progress has been made inside the visitor center. 
Contractors continue to install mechanical, electrical, and 
plumbing systems, erect masonry block work, place concrete, and 
install finished stone work. In fact, stone installation in the 
food service area has been completed ahead of schedule.
    This is a recent photograph, Mr. Chairman, that shows all 
of the stone work that we have in. This is one of the areas on 
the House side where secure dining could be had. There will be 
doors in this opening. You can see that in areas where the 
block work is we have the base in, and all of this base will 
have plaster going on in top of that.
    Block work in the congressional auditorium is almost 
complete and soon stone installation will begin in this area. 
You can see that there's a lot of block work, Mr. Chairman. 
When we walked through it last time there was nothing up over 
here. These are the emergency egress corridors, up above the 
areas that will allow people to come safely from the front of 
the auditorium out to the side ramp area. You can see that the 
block work is proceeding apace over here.
    In addition, crews have completed all concrete placements 
in the exhibit gallery. The stone installation on the walls and 
columns inside the great hall is progressing very well. The 
schedule for some wall stone installation activities are being 
slightly revised to accommodate design or construction issues 
as they're encountered so that the contractor can complete the 
wall stone installation in the great hall in August as planned.
    This is the rendering that we had showed you last time, Mr. 
Chairman, and this was the photograph looking through one of 
the skylights at the dome. The next two boards show you the 
actual progress that we have been making since then.
    This is down on the House side. You can see the stone work 
being installed over here and on the orientation side of the 
wall as well.
    The next rendering, the next photograph, shows the area 
down on the Senate side. Again, all the block work is basically 
in. This is the area, Mr. Chairman, where the information booth 
will be on the Senate side, right under the skylight.
    What happens with some of this work, Mr. Chairman, is if 
there is a field condition that is found that is difficult to 
work on, sometimes the workers will have to work that out and 
at the same time they will go to another section of the great 
hall or other areas to continue laying stone. That is the 
policy that we have been following and Manhattan certainly has 
the flexibility to do that.

                     EXTERIOR CONSTRUCTION PROGRESS

    Above ground, exterior stone work is nearing completion 
along the pedestrian ramp located on the north side of the CVC 
entrance zone. If we see over here, this is what we showed you 
last time, Mr. Chairman. Here is the rendering of what the 
entrance area and the screening area will look like, with that 
wall along the right. You can see this worker was installing 
the stone on that rampway over here, and the photograph beneath 
this shows that we have very good progress. Most of the stone 
work is installed on the Senate side ramp coming on down. You 
can see a lot of the stone in the foreground over here.
    We are trying to select the stone so that we can make sure 
that it blends as much as possible. There is a whole range of 
stone that is allowable in the contract and we want to make 
sure that there are no jarring contrasts over there. So that is 
proceeding very well.
    On the eastern half of the front plaza, workers are 
continuing to install granite pavers. All air-handling units 
are now on site and installation will continue throughout the 
month at the basement level.
    With regard to the East Capitol Street utility tunnel that 
you mentioned in your opening comments, we have experienced 
delays due to unforeseen site conditions while relocating water 
lines on First and Second Street to permit the utility tunnel 
installation. At this time the First Street work is completed. 
The D.C. Water and Sewer Authority, WASA, has shut down the 
water in one of the Second Street water lines so that the 
contractor can cut and cap an existing 30-inch water line. The 
contractor will then install a large concrete thrust block and 
that concrete must cure and harden so that work at Second 
Street can continue.
    This, Mr. Chairman, is a major milestone that is necessary 
to complete work in this area. The impact of this added work is 
a delay in utility tunnel construction of a number of weeks and 
the requirement for temporary dehumidification in the CVC so 
finish work can continue as scheduled. This is something that 
we now have to do.
    This photograph shows the work in East Capitol Street. This 
entire area pretty much will be covered up very shortly, where 
we have the precast concrete elements. The biggest holdup is in 
Second Street right now with that 30-inch water line.

                          COMPLETION SCHEDULE

    Mr. Chairman, we also spoke last month about award of the 
contract to construct the exhibition gallery space, a key 
component of the visitor experience in the CVC. I am pleased to 
report that we have incorporated the exhibition gallery 
construction schedule into the master schedule and are working 
to ensure completion of the space in September 2006 to coincide 
with the completion of the visitor facilities.
    Here we see the rendering of what the Senate virtual 
theater will look like when it is completed, and here you can 
see the block work is up, ready to receive finishes now in that 
very area. So as we go through the whole visitor center, Mr. 
Chairman, you can see that the block work is really defining 
spaces, allowing us to begin the finished stone work and the 
plaster work in many areas.
    We also discussed the award of the House and Senate 
expansion space. That work has also been incorporated into the 
master schedule, which reflects a completion date of spring 
2007 for that separate part of the work.
    Mr. Chairman, I thank you for this opportunity to again 
report to the subcommittee on the status of the project and I 
think that these monthly meetings are very helpful and look 
forward to continuing them, and I am happy to answer any 
questions you might have at this time.
    Senator Allard. Thank you.
    [The statement follows:]

              Prepared Statement of Alan M. Hantman, FAIA

    Mr. Chairman, Senator Durbin, members of the Committee, I am 
pleased to be here today to discuss the progress made on the Capitol 
Visitor Center project since our May 17 hearing.
    Since I last testified, we have accomplished a number of important 
tasks. Before I get into the details, I would like to update you on the 
safety issues that were discussed at our last meeting. Recently the 
Occupational Safety and Health Administration (OSHA) made an 
unannounced inspection of our worksite. They were satisfied with the 
work Manhattan was doing, its emphasis on workers' safety, and they 
identified no significant issues to address.
    Mr. Chairman, as you know, my office is dedicated to providing a 
safe, healthy, and secure environment for all who work in the Capitol 
complex and millions of people who visit every year--the CVC worksite 
is no exception.
    With the recent implementation of the fully-integrated schedule, we 
have been closely monitoring the activities of our contractors. Since 
our last meeting, much progress has been made inside the Visitor 
Center. Contractors continue to install mechanical, electrical, and 
plumbing systems, erect masonry block work, place concrete, and install 
finish stone. Stone installation in the food service area has been 
completed ahead of schedule. Block work in the Congressional Auditorium 
is almost complete and soon stone installation will begin in this area. 
In addition, crews have completed all concrete placements in the 
Exhibit Gallery.
    The stone installation on the walls and columns inside the Great 
Hall is progressing well. The schedule for some wall stone installation 
activities are being slightly revised to accommodate design or 
construction issues as they are encountered so that the contractor can 
complete the wall stone installation in the Great Hall in August as 
planned.
    Above ground, exterior wall stonework is nearing completion along 
the pedestrian ramp located on the north side of the CVC entrance zone. 
On the eastern half of the East Front Plaza, workers continue to 
install granite pavers. All air handling units are now on-site and 
installation will continue throughout the month at the basement level.
    With regard to the East Capitol Street Utility Tunnel, we have 
experienced delays due to unforeseen site conditions while relocating 
waterlines on First and Second Streets to permit the utility tunnel 
installation. At this time, the First Street work is complete. The D.C. 
Water and Sewer Authority (WASA) has shut down the water in one of the 
Second Street waterlines so that the contractor can cut and cap an 
existing 30-inch waterline. The contractor will then install a large 
concrete thrust block and that concrete must cure and harden so that 
work at Second Street can continue. This is a major milestone that is 
necessary to complete work in this area. The impact of this added work 
is a delay in utility tunnel construction of a number of weeks, and the 
requirement for temporary dehumidification in the CVC so finish work 
can continue as scheduled (i.e. plaster, millwork, drywall).
    We also spoke last month, Mr. Chairman, about award of the contract 
to construct the Exhibition Gallery space, a key component of the 
visitor experience in the CVC. I am pleased to report that we have 
incorporated the Exhibition Gallery construction schedule in the Master 
Schedule and are working to ensure completion of this space in 
September 2006 to coincide with the completion of the visitor 
facilities.
    We also discussed the award of the House and Senate expansion 
space. That work has also been incorporated into the Master Schedule 
which reflects a completion date of Spring 2007 for that separate part 
of the work.
    Thank you, Mr. Chairman, for this opportunity to again report to 
you and the Committee on the status of the CVC project. I am happy to 
answer any questions you may have at this time.

STATEMENT OF BERNARD L. UNGAR, DIRECTOR, PHYSICAL 
            INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY 
            OFFICE
ACCOMPANIED BY TERRELL DORN, ASSISTANT DIRECTOR, PHYSICAL 
            INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY OFFICE

    Senator Allard. First of all, we would like to hear from 
Mr. Ungar with the Government Accountability Office. We look 
forward to your testimony, Mr. Ungar.
    Mr. Ungar. Mr. Chairman, Mr. Dorn and I appreciate the 
opportunity to be here this morning to assist the subcommittee 
in its oversight activities of the Capitol Visitor Center. Mr. 
Dorn and I are accompanied this morning by several of our team 
members: Shirley Abel, Brad James, Maria Edelstein, John Craig, 
and Kris Trueblood, who will hopefully help bail us out when 
the tough questions come, and we know they will come.
    Our written statement addresses two issues, schedule and 
cost. We would like to focus our summary this morning on 
schedule, talk just a short bit about cost. We think schedule 
is the most significant issue facing the project, and there are 
four areas that deal with the schedule that we think require 
priority attention now and will require priority attention for 
the remainder of the project.

                          SCHEDULE MANAGEMENT

    The first is the need to have a good realistic schedule 
that conforms to good scheduling practice. This has been a 
longstanding problem with the project. It has not had a good 
schedule for a period of time. Last week, as we had 
recommended, AOC and its contractors had provided an updated 
schedule that they believe addresses many of the concerns that 
we had previously raised. The schedule has over 4,000 
activities, so we have not had a chance to review it and 
evaluate it in depth.
    Our superficial look, though, does indicate that it does 
have a number of improvements. There are a number of concerns 
that we have. We intend to more fully evaluate this schedule in 
time for the subcommittee's next oversight hearing in July. 
Also, during the summer we plan to update the risk assessment 
of the schedule that we had completed last year.
    In terms of the schedule and how realistic it is, we 
continue to believe at this point that the project is more 
likely to be substantially completed in the December 2006 to 
March 2007 timeframe as opposed to the September 2006 schedule 
that currently exists. One of the indicators of that is the 
extent to which AOC and its contractors meet project milestones 
and, as we reported in our written statement, for the 
milestones that were set between these two hearings AOC and its 
contractors met 3 of the 11 milestones for that period of time.
    On the one hand, AOC rightfully says that there's plenty of 
time between now and next year for it to make up the time. On 
the other hand, it's not a good indicator at this point. If we 
were responsible for the project, we would not necessarily be 
able to sleep well at night given that indicator. Time will 
tell how well time is recovered and it certainly is possible, 
but it's certainly something to be watched in the future.
    Second and perhaps the single most important issue with 
respect to the schedule is the need to have an aggressive, 
effective schedule management program. This too has been a 
longstanding problem from our perspective. We don't believe AOC 
or its construction management contractor has effectively and 
aggressively managed the project for the previous period. 
However, last week AOC and its major contractors unveiled a new 
approach to schedule management and schedule monitoring that 
they believe addresses many of the concerns that we have raised 
in the past. It does appear as though this new process, if it 
is effectively implemented on a sustained basis, will indeed 
address many of the concerns that we had.
    We still have some question about the extent to which this 
new process will sufficiently address the issue of the handling 
of delays, but we intend to monitor that very closely during 
the upcoming months.
    Another very important factor with respect to schedule 
management is the commitment of skilled resources to that 
effort, and we were very heartened to learn that effective 
yesterday Gilbane, the construction management contractor, 
assigned an individual--who had been temporarily assigned to 
the project--on a full-time basis to be responsible for helping 
to manage and oversee the schedule. We think that is a very 
positive development.
    The third problem area that we identified with respect to 
schedule has to do with risk management, risk planning and 
mitigation. About 2 years ago, recognizing a number of risks 
that existed with the project, we had recommended AOC begin to 
develop a risk mitigation plan. AOC agreed with the 
recommendation. However, it has not yet implemented that 
recommendation.
    The project executive has agreed to promptly begin to 
tackle this area and we think that is very important because of 
the types of risks and the severity of the problems that have 
occurred in the past and that could occur in the future.
    Finally, with respect to schedule, an item that the 
subcommittee raised in the April hearing on AOC's fiscal year 
2006 budget is an important item. That has to do with the need 
for a schedule that integrates both construction work and 
operation activities that need to be carried out to open the 
CVC to the public. To date there is not such a schedule.
    AOC has not been able to work on that, largely because up 
until last week it did not have the funding necessary to 
reengage a contractor that had been supporting AOC in the 
operational planning. Now that AOC has that money, which it 
received last week, the Architect has agreed to reengage the 
contractor and to work toward putting together a plan that 
would integrate both operations and construction. So we're very 
pleased about that.

                              PROJECT COST

    Concerning the cost to complete the project, we continue to 
believe that it will cost more to complete the project than AOC 
has received to date and that it has requested. At this point 
in time we believe the additional cost could be as much as $37 
million. Exactly how much of that would be needed at what point 
in time it is not clear.
    Senator Allard. That is $37 million additional to what we 
talked about as of the last hearing?
    Mr. Ungar. That is correct, sir. AOC has asked for $36.9 
million for 2006 and the $37 million is over on top of that.
    We do believe AOC may need some additional funds in 2005 
because of the pace at which it is receiving sequence 2 change 
orders and some of the problems that are coming up. That 
remains to be seen. AOC does have available to it part of $10.6 
million that was made available last year from the Capitol 
operations and maintenance budget. We have urged AOC to 
consider asking for some of that money sooner rather than later 
to make sure that it has sufficient funds between now and the 
end of fiscal year 2005 and given that it's not exactly clear 
when the 2006 funds will be available to it.
    Mr. Chairman, that concludes our summary. We would be happy 
to answer questions.
    [The statement follows:]

                 Prepared Statement of Bernard L. Ungar

    Mr. Chairman and Members of the Subcommittee: We are pleased to be 
here today to discuss GAO's ongoing work on the progress of the Capitol 
Visitor Center (CVC) project. As requested, we will focus our remarks 
today on the Architect of the Capitol's (AOC) progress in achieving 
selected project milestones and in managing the project's schedule 
since the Subcommittee's May 17 hearing on the project.\1\ We will also 
discuss the project's costs and funding, including the potential impact 
of schedule-related issues on the project's costs. Our observations 
today are based on our review of schedules and financial reports for 
the CVC project and related records maintained by AOC and its 
construction management contractor, Gilbane Building Company; our 
observations on the progress of work at the CVC construction site; and 
our discussions with CVC project staff, including AOC, its construction 
management contractor, and representatives of an AOC schedule 
consultant, McDonough Bolyard Peck (MBP). We did not perform an audit; 
rather we performed our work to assist Congress in conducting its 
oversight activities.
---------------------------------------------------------------------------
    \1\ GAO, Capitol Visitor Center, Priority Attention Needed to 
Manage Schedules and Contracts, GAO-05-714T (Washington, D.C.: May 17, 
2005).
---------------------------------------------------------------------------
    In summary, AOC's sequence 2 contractor, Manhattan Construction 
Company, has met 3 of 11 significant milestones scheduled for 
completion by today's hearing. The sequence 2 contractor missed the 
other 8 milestones for several reasons, such as unforeseen site 
conditions and a design problem. AOC does not expect these delays to 
affect the CVC project's scheduled September 2006 completion date 
because AOC believes that the contractor can recover the lost time. 
Furthermore, certain utility tunnel work is scheduled for completion 
about 5 months later than previously reported, but AOC does not expect 
this delay to postpone the project's completion date because AOC plans 
to use temporary equipment that will allow the project to move forward 
but will also increase its costs. However, largely because of past 
problems and risks and uncertainties that face the project, we continue 
to believe that the project is more likely to be completed in the 
December 2006 to March 2007 time frame than in September 2006, as shown 
in AOC's schedule. AOC and its construction management contractor have 
continued their efforts to address two of the areas we identified 
during the Subcommittee's May 17 CVC hearing as requiring priority 
attention--having a realistic, acceptable schedule and aggressively 
monitoring and managing adherence to the schedule. But AOC has not yet 
developed risk mitigation plans or, as the Subcommittee requested, 
prepared a master schedule that integrates the major steps needed to 
complete construction with the steps needed to prepare for operations. 
Until recently, AOC did not have funding to continue contractual 
support it had been receiving to help plan and prepare for CVC 
operations. We continue to believe that these areas require AOC's 
priority attention and that the project's estimated cost at completion 
will be between $522 million and $559 million, and that, as we 
indicated during the May 17 hearing, AOC will likely need as much as 
$37 million more than it has requested to cover risks and uncertainties 
to complete the project. We believe that most of these additional funds 
will be needed in fiscal years 2006 and 2007, although exactly how much 
will be needed at any one time is not clear. We are recommending that 
this fall AOC update its estimate of the cost to complete the project.
Schedule Milestones and Management
    AOC and its major construction contractors have made progress since 
the Subcommittee's May 17 hearing. As of May 31, the construction 
management contractor reported that the CVC project's construction was 
about 65 percent complete. The sequence 1 contractor, Centex 
Construction Company, which was responsible for the project's 
excavation and structural work, has continued to address punch-list 
items, such as stopping water leaks that continue to appear in 
perimeter walls. According to the construction management contractor, 
as of May 31, the sequence 1 contractor had completed almost all of the 
items on the punch list. AOC expects the sequence 1 contractor to be 
completely done with this list and off site by June 30, although the 
contractor may have to return later to address some issues. 
Furthermore, the sequence 2 contractor, which is responsible for the 
mechanical, electrical, plumbing, and finishing work, continued to make 
progress in these areas, including erecting masonry block, placing 
concrete, and installing finish stone, sheetrock and plaster, and 
granite pavers. The sequence 2 contractor also continued work on the 
utility tunnel.
    As the Subcommittee requested, we worked with AOC on the selection 
of several sequence 2 milestones that the Subcommittee can use to help 
track the project's progress from the Subcommittee's May 17 hearing to 
July 31. These milestones are shown in appendix I and include 
activities on the project's critical path, as well as other activities 
that we and AOC believe are important for the project's timely 
completion.\2\ AOC's sequence 2 contractor completed 3 of the 11 
activities listed in appendix 1 as scheduled for completion by today. 
The 11 activities include certain stone work in the Great Hall, a 
portion of the masonry wall in the auditorium, and certain utility 
tunnel work. According to AOC, the delays in 8 of these activities were 
caused by a number of factors, such as unforeseen site conditions, a 
design problem, and delays in completing certain masonry work that had 
to be completed before other work could be done. AOC does not expect 
these delays to postpone the project's scheduled September 2006 
completion date because it believes that the sequence 2 contractor can 
recover the lost time.
---------------------------------------------------------------------------
    \2\ A critical path is a sequence of activities in a schedule that 
has the longest duration. There is no scheduling flexibility or slack 
time associated with the activities. This means that a delay in a 
critical path activity will delay the entire project unless a way is 
found to reduce the time required for other activities along the 
critical path. A schedule may have multiple critical paths 
simultaneously, and the critical path through a project can change as 
the project is updated and the time estimated to complete the tasks 
changes. Currently, AOC's schedule shows CVC's critical path running 
through wall stone and East Front stonework, and also shows other work 
elements, such as utility tunnel and millwork, as near critical (i.e. 
having little slack time).
---------------------------------------------------------------------------
    Since the May 17 hearing, AOC learned that the utility tunnel, 
which was expected to be operational in October 2005, is not now likely 
to be operational until March 2006. According to AOC, this date slipped 
because of unforeseen site conditions and the need to do certain work 
earlier than originally anticipated. The sequence 2 contractor has 
indicated that the impact of this delay on the project's scheduled 
September 2006 completion date will be mitigated by the use of 
temporary dehumidification equipment. However, this mitigation approach 
will result in additional costs, as explained later in this statement. 
Also since the May 17 hearing, AOC's contractors have updated the 
project's master schedule, and the new schedule shows seven paths that 
are critical or are within 15 days of being critical. For example, the 
updated schedule shows millwork and finishing the auditorium to be 
within 10 days and 15 days, respectively, of being critical. Having so 
many critical or near-critical paths complicates schedule management 
and increases the risk of problems that could lead AOC to miss its 
scheduled completion date.
    In our May 17 statement, we provided several observations on AOC's 
management of the project's schedules, including our view that problems 
in this area contributed to slippage in the project's scheduled 
completion date and additional project costs associated with delays. We 
also discussed recommendations we had already made to AOC to enhance 
its schedule management. AOC had agreed with these recommendations and 
had generally begun to implement them, but, it still needed, in our 
view, to give priority attention to them to keep the project on track 
and as close to budget as possible. A brief discussion follows of the 
issues that need AOC's priority attention and the current status of 
AOC's actions to address these issues.
    Having realistic time frames for completing work and obtaining 
fully acceptable schedules from contractors.--Over the course of the 
project, AOC's schedules have shown dates for completing tasks that 
project personnel themselves considered unlikely to be met. In 
addition, the master project schedule (prepared by AOC's construction 
management contractor) that AOC was using in May 2005 did not tie all 
interrelated activities together and did not identify the resources to 
be applied for all the activities, as AOC's contract requires. On June 
10, the construction management contractor told us that it had 
reassessed the reasonableness of the activity durations and found that 
they reasonably reflected the time required to perform the activities. 
Last week, AOC provided us with a revised master schedule that the 
construction management contractor said (1) reflected significant 
improvement in the linkage of interrelated tasks and (2) provided 
sufficient information to manage the project's resources. AOC said that 
it planned to approve and accept this schedule subject to several 
conditions. Although our initial review of this revised schedule 
indicates that a number of improvements have been made, we have not yet 
had time to fully evaluate it. We will have a more complete assessment 
for the Subcommittee by its next CVC oversight hearing. Furthermore, as 
we said during the May 17 hearing, we continue to believe that AOC's 
scheduled September 2006 completion date is optimistic and that the 
project is more likely to be done in the December 2006 to March 2007 
time frame, largely because of past problems, the risks to the schedule 
identified during our assessment of it in early 2004, and future risks 
and uncertainties facing the project. We plan to update our risk 
assessment for AOC's revised schedule and have our update completed in 
September 2005. Our update will include a review of activity durations.
    Aggressive monitoring and managing contractors' adherence to the 
schedule, including documenting and addressing the causes of delays, 
and reporting accurately to Congress on the status of the project's 
schedule.--We noted in our May 17 testimony that neither AOC nor its 
construction management contractor had previously (1) adhered to 
contract provisions calling for monthly progress review meetings and 
schedule updates and revisions, (2) systematically tracked and 
documented delays and their causes as they occurred or apportioned 
their time and costs to the appropriate parties on an ongoing basis, 
and (3) always accurately reported on the status of the project's 
schedule. AOC and the construction management contractor have been 
working with the schedule consultant to develop a new, systematic 
process for tracking, analyzing, and documenting schedule progress and 
delays, addressing schedule issues, approving proposed schedule 
changes, and reporting on the schedule's status. On June 7, AOC, the 
construction management contractor, the sequence 2 contractor, and the 
schedule consultant conducted the first monthly schedule status review 
session using the newly developed approach. If effectively implemented 
and sustained, we believe that this new approach should generally 
resolve the schedule management concerns we previously raised, although 
it is not yet clear how delays will be handled on an ongoing basis. We 
believe that the successful implementation of this new approach, 
including the effective handling of delays, depends heavily on the CVC 
project team's continuous commitment of sufficient skilled resources to 
schedule management. On June 9, the construction management contractor 
told us that a project control engineer who had been assigned 
temporarily to help manage the project's schedule would be working full 
time on the project starting June 13. We plan to closely monitor the 
implementation of this new approach, including the resources devoted to 
it, the handling of delays, and the accuracy of the information 
provided to Congress.
    Developing and implementing risk mitigation plans.--In the course 
of monitoring the CVC project, we have identified a number of risks and 
uncertainties that could have significant adverse effects on the 
project's schedule and costs. Some of these risks, such as underground 
obstructions and unforeseen conditions, have already materialized and 
have had the anticipated adverse effects. We believe the project 
continues to face risks and uncertainties, such as unforeseen 
conditions associated with the project's remaining tunnels and other 
work, scope gaps or other problems associated with the segmentation of 
the project between two major contractors, and shortages in the supply 
of stone and skilled stone workers. Although we have recommended that 
AOC develop and implement risk mitigation plans for these types of 
risks and uncertainties, AOC has not yet done so. AOC has agreed, 
however, to begin to do this shortly, and, according to AOC's CVC 
project executive, is exploring possible approaches.
    Preparing a master schedule that integrates the major steps needed 
to complete CVC construction and the steps necessary to prepare for 
operations.--A number of activities, such as hiring and training staff, 
procuring supplies and services, and developing policies and 
procedures, need to be planned and carried out on a timely basis for 
CVC to open to the public when construction is complete. Although AOC 
has started to plan and prepare for CVC operations, as we indicated in 
our May 17 testimony, it has not yet developed a schedule that 
integrates the construction activities with those activities necessary 
to prepare for operations. The Subcommittee requested such a schedule 
during its April 13, 2005, hearing on AOC's fiscal year 2006 budget 
request. Because of a lack of funds, AOC had not been able to extend 
the work of a contractor that had been helping it plan and prepare for 
operations. Last week, AOC received the funding needed to re-engage 
this contractor, and AOC said that it would be working with the 
contractor to continue planning and preparing for CVC operations.
Project Costs and Funding
    As we said during the Subcommittee's May 17 hearing, we estimate 
that the cost to complete the construction of the CVC project, 
including proposed revisions to its scope, will range from about $522 
million without provision for risks and uncertainties to about $559 
million with provision for risks and uncertainties. As of June 10, 
2005, about $483.7 million had been provided for CVC construction. In 
its fiscal year 2006 budget request, AOC asked Congress for an 
additional $36.9 million for CVC construction. AOC believes this amount 
will be sufficient to complete construction and, if approved, will 
bring the total funding provided for the project's construction to 
$520.6 million. Adding $1.7 million to this amount for additional work 
related to the air filtration system that we believe will likely be 
necessary brings the total funding needed to slightly more than the 
previously cited $522 million. AOC believes that it could obtain this 
$1.7 million, if needed, from the Department of Defense. AOC's $36.9 
million budget request includes $4.2 million for potential additions to 
the project's scope (e.g. congressional seals, an orientation film, and 
storage space for backpacks) that Congress will have to consider when 
deciding on AOC's fiscal year 2006 CVC budget request.
    AOC has not asked Congress for the additional $37 million ($559 
million minus $522 million) that we believe will likely be needed to 
address the risks and uncertainties that continue to face the project. 
These include, but are not limited to, shortages in the supply of stone 
and skilled stone workers, unforeseen conditions, scope gaps, further 
delays, possible additional requirements or time for life safety or 
security changes and commissioning, unknown operator requirements, and 
contractor coordination issues. These types of problems have been 
occurring, and as of June 1, 2005, AOC had received proposed sequence 2 
change orders with costs estimated to exceed the funding available in 
fiscal year 2005 for sequence 2 changes by about $400,000.\3\ AOC plans 
to help cover this potential shortfall by requesting approval from the 
House and Senate Committees on Appropriations to reprogram funds from 
other project elements that it does not believe will be needed for 
those elements. AOC can also request approval from these Committees to 
use part of $10.6 million that Congress approved for transfer to the 
CVC project from funds appropriated for Capitol Buildings operations 
and maintenance.\4\
---------------------------------------------------------------------------
    \3\ In our May 17 testimony, we reported that AOC had about 
$700,000 remaining in its fiscal year 2005 funding for sequence 2 
changes after deducting estimated costs for proposed changes it had 
received.
    \4\ Public Law 108-447, enacted in December 2004, provided that up 
to $10.6 million could be so transferred upon the approval of the House 
and Senate Committees on Appropriations. In March 2005, AOC requested 
that about $4 million of these funds be transferred to CVC, including 
some funds for construction-related work, such as design of the gift 
shop space. As of June 10, AOC had received approval to use about $2.8 
million of this $10.6 million. None of the $10.6 million was included 
in the $483.7 million above.
---------------------------------------------------------------------------
    For several reasons, we believe that AOC may need additional funds 
for CVC construction in the next several months. These reasons include 
the pace at which AOC is receiving proposed change orders for sequence 
2, the problems it is encountering and likely to encounter in finishing 
the project, and the uncertainties associated with how much AOC may 
have to pay for sequence 2 delays as well as when AOC will have fiscal 
year 2006 funds available to it. For example, AOC is likely to incur 
additional costs for dehumidification if the expected delay in the 
utility tunnel cannot be mitigated or AOC has to obtain temporary 
equipment to provide steam and chilled water to CVC. AOC may be able to 
meet this need as well as the other already identified needs by 
additional reprogramming of funds and by obtaining approval to use some 
of the previously discussed $10.6 million.\5\ However, these funds may 
not be sufficient to address the risks and uncertainties that may 
materialize from later this fiscal year through fiscal year 2007. Thus, 
while AOC may not need all of the remaining $37 million we have 
suggested be allowed for risks and uncertainties, we believe AOC is 
likely to need more funds in fiscal years 2006 and 2007 than it has 
already received and has requested to complete the construction of 
CVC's currently approved scope, although the exact amount and timing 
are not clear at this time. Effective implementation of our 
recommendations, including risk mitigation, could reduce AOC's funding 
needs.
---------------------------------------------------------------------------
    \5\ AOC plans to fund anticipated additional costs for the House 
connector tunnel, the Jefferson Building connection to the Library of 
Congress tunnel, and certain security-related work by requesting 
approval to reprogram about $1.6 million from sequence 1 construction 
and the East Front Interface to these project elements.
---------------------------------------------------------------------------
Recommendation for Executive Action
    Given the development of a new project schedule, the pace at which 
sequence 2 change orders are being proposed, and the risks and 
uncertainties that continue to face the project, we recommend that, in 
the September to November 2005 time frame, the Architect of the Capitol 
update the estimated cost to complete the project. We believe that such 
information will be useful to Congress as it considers AOC's budget 
request for fiscal year 2007 as well as any other requests AOC may make 
for CVC funding. We expect to have our risk assessment of AOC's new 
project schedule done in September and believe that the information 
developed during this assessment will be important in estimating future 
costs. In addition, we believe that AOC will have more information on 
the possible costs of sequence 2 delays by that time. AOC has agreed to 
do this update.
    Mr. Chairman, this completes our prepared statement. We would be 
happy to answer questions that you or other Subcommittee Members may 
have.

            APPENDIX I.--CAPITOL VISITOR CENTER CRITICAL CONSTRUCTION MILESTONES, MAY 2005-JULY 2005
----------------------------------------------------------------------------------------------------------------
                                                                                         Scheduled      Actual
                   Activity                                    Location                  completion   completion
----------------------------------------------------------------------------------------------------------------
Wall Stone Area 1.............................  Great Hall \1\ \2\....................      5/11/05      6/06/05
Scheduled for completion between 5/17/05 and 6/
 14/05:
    Wall Stone Area 3 Base Support............  Great Hall \1\........................      5/20/05      5/20/05
    Wall Stone Layout Area 4..................  Great Hall............................      5/20/05      6/06/05
    Saw Cut Road at 2nd Street................  Utility Tunnel \1\....................      5/24/05  ...........
    Wall Stone Area 4 Base Support............  Great Hall \1\........................      5/27/05  ...........
    Wall Stone Layout Area 5..................  Great Hall............................      5/27/05      5/27/05
    Masonry Wall Lower Level East.............  Cong. Auditorium......................      6/03/05      5/25/05
    Wall Stone Area 5 Base Support............  Great Hall \1\........................      6/06/05      6/09/05
    Wall Stone Layout Area 6..................  Great Hall............................      6/06/05  ...........
    Drill/Set Soldier Piles at 2nd Street.....  Utility Tunnel \1\....................      6/08/05  ...........
    Wall Stone Area 6 Base Support............  Great Hall \1\........................      6/13/05  ...........
Scheduled for completion between 6/15/05 and 7/
 31/05:
    Wall Stone Layout Area 8..................  Great Hall............................      6/20/05  ...........
    Masonry Wall..............................  Orientation Theater...................      6/24/05  ...........
    Wall Stone Layout Area 9..................  Great Hall............................      6/24/05  ...........
    Wall Stone Area 9 Base Support............  Great Hall \1\........................      7/05/05  ...........
    Wall Stone Installation Area 2............  Great Hall............................      7/06/05  ...........
    Wall Stone Installation Area 3............  Great Hall............................      7/06/05  ...........
    Wall Stone Installation Area 4............  Great Hall............................      7/15/05  ...........
    Wall Stone Area 9 Base....................  Great Hall \1\........................      7/15/05  ...........
    Excavate/shore Station 0-1................  Utility Tunnel \1\....................      7/21/05  ...........
    Concrete Working Slab 2nd Street..........  Utility Tunnel \1\....................      7/26/05  ...........
    Waterproof Working Slab Station 0-1.......  Utility Tunnel \1\....................      7/29/05  ...........
----------------------------------------------------------------------------------------------------------------
\1\ These activities are critical.
\2\ This activity was scheduled for completion by the Subcommittee's May 17 hearing but was not done as of that
  date.

Source: AOC's April 2005 CVC sequence 2 construction schedule for the scheduled completion dates and AOC and its
  construction management contractor for the actual completion dates.

Note: Actual completion information was obtained on June 9, and AOC did not expect that the wall stone area 6
  base-support work in the Great Hall would be done by June 13; it is now expected to be done after June 14.

                          MILESTONE COMPLETION

    Senator Allard. I want to thank both of you for your 
testimony.
    We have two other individuals at the table. Mr. Dorn is 
here with the GAO, and Mr. Hixon is the CVC Project Executive 
with the Architect of the Capitol.
    First question I will direct to Mr. Hantman. GAO's 
testimony indicates only 3 of 11 significant milestones 
scheduled for completion at this time by the sequence 2 
contractor have actually been completed. Did this occur because 
of more diligence on the part of the contractor or because the 
schedule was just entirely too optimistic?
    Mr. Hantman. Bob.
    Mr. Hixon. Sir, I will be happy to answer that question. We 
have been working with the Government Accountability Office to 
identify items on the critical path. The critical path has 
changed somewhat between the April and the May date, which 
created some difficulty in trying to make sure we had items we 
could compare both in April and May.
    You do note that some items have been delayed. The ones 
related to the utility tunnel, we have a real issue there that 
we have been trying to work through that has delayed us for a 
number of weeks. For the wall stone issues in the great hall, 
the dates have slipped 2 to 3 weeks on some of those 
activities, and those are items that we are working on. We 
continue to look for ways to recover that. We expect that we 
will recover all of those and that will not be a problem.
    Of note, in the food service area there was concern that we 
were running behind in the food service area with stone 
installation, and in fact we were able to complete that area 
ahead of schedule. So the expectation is, provided we receive 
the stone in the quantities we need it, the installation will 
be able to move forward and will be able to be done in August, 
which is our date to be done for stone installation in the 
great hall.
    Senator Allard. So this has to do more with just a 
diligence issue and forcing things to move along as opposed to 
scheduling miscalculations?
    Mr. Hixon. The schedule is the contractor's. When he lays 
out his schedule that is his plan and his plan is changing 
periodically. We will find design issues that need to be 
resolved, which will cause them to stop installing stone in one 
area and move to another area. So they have some work that has 
progressed ahead of schedule in other areas, but in these areas 
here they are in fact 2 to 3 weeks behind in completing that. 
But we expect to be able to complete all of the work in the 
area on schedule.

                            SCHEDULE DELAYS

    Senator Allard. The overall schedule, though, has slipped; 
is that correct?
    Mr. Hixon. The overall schedule, the September 15 
completion date, if you look at the pure schedule, we had a 1-
day slippage and we are looking to recover that 1 day.
    Senator Allard. Okay. What I understand is that we have had 
some dates that have been on the critical path that have been 
missed and the critical path as I understand it is that path 
where there is no leeway for error. In other words, you are 
down to the last minute practically on your schedule. You do 
not have any flexibility. If something unexpected happens, you 
begin to fall behind.
    Mr. Hixon. That is correct, sir.
    Senator Allard. My understanding is that you have missed 
some of the dates on that critical path. Despite that, though, 
you are still confident that we will finish on time, which 
would be September 15, 2006?
    Mr. Hixon. Yes, sir. The critical path indicates those 
items that must be done on time. If you miss a date we have to 
do something in the schedule, I mean with the work that is 
accomplished in that schedule, either complete work within a 
shorter duration than is reflected or resequence activities. 
That is part of the issue between the April and the May date. 
There is some resequencing of work so that the contractor is 
making the necessary adjustments in order to be able to 
complete the project on time.

                            COMPLETION DATE

    Senator Allard. It seems to me that the difference that we 
are getting in testimony for the date of completion between the 
GAO and the Architect's Office is how you look at this critical 
path and the margin that you may have there and the likelihood 
of whether something will happen that will get you off your 
critical path. Am I correct in that?
    Mr. Hantman. I think that is a part of the story, Mr. 
Chairman. I think clearly what GAO is also recognizing over 
here is there are still potential unknowns on the project. 
Things that just happened with the thrust block for instance on 
East Capitol Street is something we certainly had not 
projected. There will be a time and a cost implication of 
something that WASA is now telling us to work on, that we had 
never projected before.
    I think in that sense--and please, Bernie, correct me if 
necessary--I think they are looking forward and saying there is 
going to be more of those things coming forward, which we 
cannot count in our schedule at this point in time.
    But I think it is important to note, Mr. Chairman, that the 
September date that we are talking about was not artificially 
created and that we are not trying to cram everything in to 
meet that. Ninety-five percent of the schedules for the 
subcontractors were created by the subcontractors, taken by 
Manhattan and incorporated into this schedule showing that we 
can meet that.
    Now, clearly there are a lot of constraints, a lot of risks 
still going on, things that we are not aware of right now. The 
weather may impact us, other things. But right now, the way 
those pieces of the schedule are coming together, it still 
indicates that that September date is still possible.
    Senator Allard. Very good. I thank you for that 
clarification.

                       SCHEDULE RISKS ASSESSMENT

    Mr. Ungar, did you want to comment on that question?
    Mr. Ungar. Yes, Mr. Chairman, we would. One of the other 
issues aside from the risks and uncertainties that we have 
raised in the past is how realistic the schedule is in itself. 
We have through our previous work found that a number of the 
durations for some of the key tasks were optimistic based on 
the information provided by the project personnel themselves.
    We identified about 12 to 15 tasks that were particularly 
at risk, such as the stone work and the fire system inspection 
and so forth, that were likely to take longer than the schedule 
had shown. We had recommended a while back that AOC reassess 
these activities to determine whether or not the durations were 
realistic.
    Last week Gilbane informed us that its superintendents had 
done a general evaluation of that and found the durations to 
generally be reasonable, but it had not yet done a detailed 
evaluation of key activities. That is the latter, the detailed 
evaluation, is the type of evaluation that we believe is really 
necessary to make a good judgment and a good determination on 
that. We are looking forward to that.
    As I mentioned, we also plan to update our risk assessment 
of the schedule during the summer.

                     SCHEDULE DURATION REASSESSMENT

    Senator Allard. The question, back to you, Mr. Hantman 
then, can you commit to providing a complete reassessment of 
the schedule durations by the next hearing, following up on Mr. 
Ungar's comments?
    Mr. Hixon. We are doing a reassessment as we go along. But 
certainly we should be completed with that activity before the 
next hearing, yes, sir.

                            TUNNEL UTILITIES

    Senator Allard. Good, okay. Well then, we will make that 
part of our next hearing schedule.
    There have been problems with the utility tunnel, as was 
pointed out in your testimony, Mr. Hantman.
    Your view is that this is going to have little if any 
impact on our schedule?
    Mr. Hantman. One of the things that we are discussing in 
fact, Mr. Chairman, at last night's Preservation Commission 
review was the need, as I mentioned earlier here as well, for 
dehumidification systems to be brought in. What we are going to 
need to do is, in order to do the plaster work, to begin to 
bring in millwork, things that need humidity type of control, 
we are going to have to bring in a temporary system while the 
East Capitol work is completed, the utilities are hooked up, 
and then air-handling units we are installing in the basement 
can be made operable.
    Senator Allard. So it looks like you may be able to catch 
up on your schedule, but it is going to cost some extra dollars 
because bringing the dehumidification equipment in is going to 
add to the cost.
    Mr. Hantman. That is correct.

                         COORDINATION WITH WASA

    Senator Allard. Okay. Do you believe that the problems you 
are seeing now with the utility work could have been foreseen?
    Mr. Hantman. Mr. Chairman, in the past when we had major 
utilities, a major water line down Constitution Avenue with 
WASA also, it appears as if when we get into the system and we 
are trying to move lines and work with them, that WASA has 
taken this opportunity to upgrade their system. So in terms of 
the major thrust block and the ability for us to essentially 
upgrade their system in that area, this is what they are 
requesting of us.
    Senator Allard. So their attitude is, while you have that 
area open, so we do not have to come back and reopen it, let us 
get some other work done?
    Mr. Hantman. And they are trying to mitigate their risk as 
well. So in order to proceed we are working with them in trying 
to move ahead with as much alacrity as possible while still not 
degrading their service to the surrounding area.
    Senator Allard. It would have been nice if they had let us 
know ahead of time about what they were thinking of.
    Mr. Hantman. Basically when we get it opened up is when the 
decisions come down.

                             UTILITY COSTS

    Senator Allard. Now, what is that going to do to the cost? 
You do not have a figure on how much this is going to add to 
the cost of the project?
    Mr. Hixon. The cost of the entire utility tunnel? We have a 
modification in place for the utility tunnel that does not 
include the added cost for the thrust block. This was work that 
became apparent after we had the area excavated so that WASA 
could review where we were and what our plan was. So that is an 
added cost to us. We do not have it defined yet as far as the 
actual numbers.
    Senator Allard. So by doing this extra work tasked by WASA, 
in effect we have saved them money, but added a little bit to 
our cost.
    Mr. Hixon. Well, I think there is work here that is a 
different site condition, that as a consequence of the 
installation as it exists, WASA drawings--we were working with 
WASA's drawings. The installations, especially the part on 
First Street, was not installed quite like the drawings 
reflected, and when it was opened up there were corrections 
that needed to be made for a proper installation.
    So we are fixing some deficiencies in WASA's system, that's 
true. But it is also things that we could not identify until we 
had actually opened the lines up and could see we had a leaded 
joint or something like that.

                        ADDITIONAL UTILITY WORK

    Senator Allard. Mr. Ungar, maybe you would like to comment 
about whether you believe the utility work could have been 
foreseen and how you see this affecting the costs.
    Mr. Ungar. Mr. Chairman, Mr. Dorn would like to address 
that issue.
    Mr. Dorn. We do believe there could have been better 
coordination between AOC and WASA, for example. As Mr. Hantman 
just testified, there is a long history of problems dealing 
with WASA and making additional requirements on the Government 
to get work done in that area. So we could have probably done a 
better job in coordinating that, once again, and that would 
have reduced some of the costs we are seeing now.
    The problem now is you have a contractor on site that we 
are paying every day, so it makes it much harder to get that 
work done with the pressure of having the construction 
contractor waiting when you make these things happen.
    The other coordination issue relating to the utility tunnel 
that has not been addressed is the book tunnel which runs 
between the Supreme Court and the Library of Congress. It has 
always been known that there is a book tunnel there, but 
someone assumed that we could blow through that tunnel without 
affecting the security at the Supreme Court, which it turned 
out to have not been a good assumption. So again, better 
coordination could have reduced those costs going forward.
    As far as the cost, it is probably not appropriate because 
of the ongoing negotiations for us to get much into additional 
costs.

                          UTILITY CONNECTIONS

    Senator Allard. Now, when you agreed to work with the 
District and their government on this issue, was any discussion 
made of, well, look, we are doing this for you, do you want to 
pay in a share of costs on this project? Was there any of that 
discussion?
    Mr. Hixon. No, sir. Essentially, we are working on their 
line. This is not work they need to have done at this time. And 
if you are going to disturb the line, then you need to install 
it to the current standards.
    We are really at a point where if we want them to cooperate 
with us and shut the water down so we can move on to the next 
step, we are doing what we need to do to accommodate them.
    Senator Allard. I have known instances like this where the 
city has come in and said: Look, the contractor is doing some 
extra work on our line. While you have it open, we would like 
to take advantage to upgrade that line. We will pay a portion 
of that cost to do that. But you have never had that discussion 
or they were not willing to enter into those kind of 
discussions?
    Mr. Hixon. We do not feel the work we are doing would be 
characterized as upgrading their line as much as working on it. 
We are cutting out pieces of it. There are elements of the 
installation that are not done quite the way they want. It is 
different from what was reflected on the drawings, so we are 
just correcting the installation.
    Yes, we are spending a little money upgrading their lines, 
but in the sense of getting their cooperation, we are just 
trying to get through this so that we can move on to the more 
difficult part, which is on Second Street.
    Senator Allard. I understand the situation. Thank you for 
your comments on that.

                            MASTER SCHEDULE

    The Architect now has a fully integrated master schedule, 
but it seems to change regularly. How can we keep track of 
progress if the baseline is changing on us?
    Mr. Hixon. The schedule that we have, the baseline that we 
have established for April, should be reasonably firm. But the 
contractor does have the opportunity, since it is his schedule, 
to resequence work. We have the opportunity to review that and 
make sure it makes sense. But it is ultimately his schedule for 
how he is going to perform the work and he could change the way 
he wants to do it as long as it makes sense and he is not doing 
something inappropriate.
    So we expect the plan to not change much, but we have to 
recognize he does have the opportunity to revise his schedule, 
subject to our approval.
    Senator Allard. That is fine. But for our accounting 
purposes, can we keep a baseline that does not change so that 
we have a real feel of what actually is happening? Because a 
change in baseline can distort it.
    Mr. Hixon. That is correct, and that is why we have 
established April as the baseline that we are managing against. 
If you look at the chart, we have got the April date on there. 
We will be comparing. Next month we will compare against the 
April baseline. It will be the activities that we have on a 
second chart that shows what is going to be occurring during 
the next month.
    Senator Allard. So as we move along you can provide us, as 
the schedule changes occur, with this information and then the 
reason for the change?
    Mr. Hixon. Yes, sir.
    Senator Allard. It would be real helpful.
    Mr. Hixon. Yes, sir. So what we are looking at right now is 
in the next month these are a selection of activities, and you 
can see it has got the May dates against the April, and then we 
will go to June dates against the April. So we will be tracking 
against the April plan.

                             SAFETY ISSUES

    Senator Allard. Let me call on Senator Durbin for, 
hopefully, comments and any questions he may have.
    Senator Durbin. Thank you, Mr. Chairman. I thank you for 
the hearing.
    I would like to go directly to ask questions. I would like 
to ask first of the GAO. Centex responded to the safety issues 
you raised in last month's testimony by writing a letter to our 
subcommittee. Their letter said that GAO's comparison of their 
data to national averages was inaccurate and that your 
statement about recurring safety problems was not correct. I 
would like to give you an opportunity to respond to that 
letter.
    Mr. Ungar. Yes, sir, I would be pleased to do that, Mr. 
Durbin. We believe that the information that we reported in our 
last testimony was correct. Centex, as you indicated, did point 
out that in its view, we should have used a different benchmark 
rate to compare its safety record to.
    On the one hand, we would say that reasonable people can 
disagree on the issue of what benchmark should be picked. 
However, in this particular instance we did not independently 
select the benchmark. The comparison that we did was based on 
the agreement that OSHA entered into with Centex. So we used 
the rate, the benchmark rate that Centex itself agreed to meet 
with OSHA.
    With respect to the rate that we used, which is the rate 
for nonresidential construction, and that Centex agreed to use, 
unfortunately the Centex or site rates were higher or the site 
rates were higher than that rate, and also the rates got worse 
from 2003 to 2004. The agreement called for OSHA--excuse me--
Centex to have an incident rate that was lower than the 
comparable BLS rate and to improve the rate by 3 percent each 
year.
    So in effect, using that rate, what we reported was 
correct. Second, if one were to use the rate that Centex 
proposes, it would have been below the BLS rate for overall 
incidents in 2003, but it would not have been below that rate 
for lost time incidents. Also, Centex's safety rates got worse 
between 2003 and 2004. So Centex did not even meet that rate's 
goal for the time period.
    Second, Centex did take issue with our report in the 
context that it did not agree that safety issues were 
recurring. The evidence and the facts basically say yes, they 
were. Gilbane did monthly audits. We analyzed the information 
that was identified in those monthly audits. It clearly showed 
that there were a number of problems that recurred. The same 
type of problem recurred month after month.
    For example, fall protection was identified as a problem in 
each of the 10 monthly reports that we reviewed from Gilbane. 
So was temporary power setup. So while Centex may have 
corrected an individual problem, the same type of problem in 
many cases kept recurring over and over again, and that is the 
point that we were focusing on in our statement.

                            SAFETY STANDARDS

    Senator Durbin. So what you are saying is, despite Centex's 
letter, you feel that the standard that was used to judge their 
performance on worker safety was the standard they agreed to?
    Mr. Ungar. That is correct, sir.
    Senator Durbin. If I understand your testimony, what you 
are saying is that, even by their own standard, what they 
agreed to, they failed to meet their own standards of worker 
safety on the job.
    Mr. Ungar. Centex did meet one part of that standard in 
2003--the recordable incident rate it proposed in its letter. 
Centex's rate was less than the BLS rate for that particular 
measure. However, it was above the BLS rate for lost time 
incidents, and both those rates, the recordable incident rate 
and the lost time rate, increased from 2003 to 2004.
    Senator Durbin. There was some testimony at the last 
hearing about either misinformation, bad information, no 
information, coming from Centex to Gilbane, which was in charge 
of managing this construction, which may have led to 
overlooking this, the danger at the work site to Centex 
employees. Is that a fact?
    Mr. Ungar. Sir, we really did not identify that particular 
issue in our statement. What we said was that the information 
on safety that Gilbane was reporting to AOC was incorrect, and 
there were a number of reasons for that. One of the major 
reasons was that Gilbane did not report to AOC lost time 
incidents that involved restricted duty or transfers.
    When we asked Gilbane about that, it had the following 
explanation. Number one, it said that it did not receive some 
individual accident reports on lost time incidents from Centex. 
Now, we do not know whether Gilbane did or not. On the other 
hand, Gilbane did receive a log from Centex that did identify 
each and every incident. So it was unclear to us if, given that 
Gilbane had the log and it had on the other hand a smaller 
number of incident reports, why Gilbane did not pursue that 
with Centex to ask, why do we have a different number here.
    Senator Durbin. Was that not why Gilbane was hired?
    Mr. Ungar. Yes, sir.
    Senator Durbin. To go through this information and to be 
paid to manage, which means as I understand it collating 
information and data so that you meet targets and people are 
living under the terms of their contract?
    Mr. Ungar. Yes, sir. Gilbane did have a very active safety 
program. On this particular issue, however, with respect to 
accurate reporting, there were a number of problems that did 
exist, and Gilbane has agreed to redouble its efforts to 
address those, and its reports for April and May were correct.
    Senator Durbin. For the sake of the workers and for the 
taxpayers, I am glad to hear that. But I want to tell you, Mr. 
Chairman, I am glad you are having these hearings and I think 
you are paying closer attention to this than many have in the 
past.
    I also want to tell you that if you get in a car and drive 
around Capitol Hill you see Centex's name on everything. They 
are still around. This is not a company that has come and gone. 
The fact that they would not live up to their own worker safety 
standards and the fact that Gilbane may have been somewhat 
derelict in their own responsibilities does not give me a great 
amount of confidence.
    But I want to ask you, do you have any idea what the status 
of worker safety is now at the Capitol Visitor Center?
    Mr. Ungar. Yes, sir. Mr. Dorn would like to address that.

                             SAFETY RECORDS

    Mr. Dorn. We have worked with AOC and Gilbane to address 
the factors leading into the inaccuracies. They are doing a 
much better job of reporting now. Over the first 5 months of 
the year, the year to date injury and illness rate is below the 
industry average. Gilbane does still continue to rely upon a 
narrower definition of lost time than what GAO is using and the 
BLS standard is, but I understand that they are going to make 
that correction in the next month.
    There was a lost time accident in the past month that was 
reported by Gilbane, which did raise the rate back up a little 
bit. But generally things are better.
    Senator Durbin. Was there a recent OSHA assessment? Is that 
what you are referring to?
    Mr. Dorn. Yes, there was a recent OSHA assessment and they 
did not--as Mr. Hantman said in his testimony, did not have any 
citations that came out of that assessment.

                          MANHATTAN'S PROGRESS

    Senator Durbin. Does GAO have any comment on the Manhattan 
Construction Company experience at the work site? It is my 
understanding they have met only 3 of the 11 milestones 
scheduled for completion.
    Mr. Ungar. Are you talking about worker safety, sir, or 
construction work?
    Senator Durbin. Construction work.
    Mr. Ungar. Overall, Manhattan is making a great deal of 
progress, sir. However, it has not met a number of the 
milestones that were set in the April schedule for the period 
between the last hearing and this hearing, for a variety of 
reasons. One of the things that it has done is resequenced the 
schedule to change some of those milestones.
    On the one hand, as Mr. Hixon said, Manhattan certainly has 
the wherewithal to do that. It is their schedule and as long as 
it is approved by AOC that is fine. On the other hand, some of 
those dates have slipped continuously, for example, some of the 
wall stone work, since the February schedule.
    But our concern is that if this continues to happen what is 
going to end up happening is that there will be a stacking of 
activities toward the end and they will not possibly be able to 
finish all those on time. So on the one hand, progress is being 
made. Unfortunately, the schedule milestones were not met. The 
schedule has been revised. It yet remains to be seen as to how 
much progress will be made from this point forward, but we are 
going to be tracking that.
    Senator Durbin. I know Senator Allard has asked questions 
on this, so I will not dwell on it any more. We will keep a 
close eye on it. I would like to just suggest to the 
subcommittee we ought to find out where Centex is also working 
for the Government, if there are other construction projects, 
and see if there has been a similar situation in terms of 
worker safety. Has the GAO looked into that?
    Mr. Ungar. No, sir, we have not. We have focused on this 
particular site.
    I would point out, as Centex has said, that, on the one 
hand, fortunately, there have been no fatalities, and most of 
the injuries have not been serious. However, there have been 
some serious injuries and there have been a large number of 
injuries. So it is certainly something that needs to be 
attended to.
    In addition, there are a number of these safety issues and 
concerns that Gilbane identifies monthly that are potentially 
hazardous situations and they continue to be identified. In our 
view, AOC and Gilbane need to continue to focus attention in a 
more proactive sense on safety at the CVC site.
    Senator Durbin. I will just close by saying that my 
experience with worker safety is unless you are on this issue 
and stay on this issue it slips away, and people think it is 
just one of the costs of doing business that people have to 
walk off the work site injured, at great expense to themselves, 
their family, and the taxpayers.
    I hope that does not happen. If I could ask the GAO to do a 
formal letter of response to this Centex letter that would 
spell out your testimony, I would appreciate that.
    Mr. Ungar. Yes, sir.
    Senator Durbin. Thank you very much, Mr. Chairman.
    Senator Allard. Thank you.

                         CONSTRUCTION PROGRESS

    Mr. Ungar, I want to follow up a little bit. Before I 
called on my esteemed colleague from Illinois, I was pursuing 
with the Architect and Mr. Hixon the idea that when you have 
the schedule change that you keep this subcommittee provided 
with the information. My question to you is what should the 
Architect's Office be doing to track the construction 
contractor's daily progress against the schedule?
    Then just a follow-up on this: How is this comparing with 
the process that we used during sequence 1?
    Mr. Ungar. Mr. Dorn will answer that, sir.
    Mr. Dorn. What they are starting to do is print out a daily 
list of activities for the superintendents and then the 
superintendents go out on the job site to see what is being 
done and what was supposed to be done, is it being done or not. 
That is a great step, to do this daily and weekly monitoring of 
actual activities to what is going on out there on the job 
site. That is real progress. And if it was not done, you would 
document the reasons why it was not done, and what is going to 
be done in the future to get those tasks on track.
    It is like Mr. Ungar said a little while ago, if things 
keep moving off to the right eventually you get so many 
activities stacked up that you cannot get them all done at 
once.
    One of the indicators we are seeing of that is 1 month ago 
we had one critical path and now we have got a number of 
critical or near-critical paths simultaneously. That is not 
completely uncommon. It does happen, but it is an indicator 
that things are starting to become more critical.

                          SYSTEM COMMISSIONING

    Senator Allard. On the commissioning of systems, my 
understanding is that will not be done until about March 2007. 
Is that your understanding?
    Mr. Hantman. We are in the process, Mr. Chairman, as was 
indicated earlier. We have just gotten some funds approved. We 
are in the process of hiring three or four people to check into 
the commissioning of systems and start involving essentially 
the AOC and ultimate operations in that.
    Bob.
    Mr. Hixon. There are two elements of commissioning that are 
going to occur: the commissioning of the CVC proper and the 
commissioning of the expansion space. The expansion space 
commissioning efforts will in fact occur in early 2007, January 
through March. The commissioning for the CVC portion will be 
occurring in late April and early--did I say late April? It 
will be the late spring, summer period. Those will be the 
activities that will be taking place in order for us to open 
the facility in September.
    Senator Allard. In 2006?
    Mr. Hixon. In 2006.
    Senator Allard. And then the two expansion areas will be--
--
    Mr. Hixon. In 2007, that is correct. The planning for that 
is underway now.

                           OCCUPANCY PERMITS

    Senator Allard. A certificate of occupancy is the final 
step. I would assume that they are not going to issue that 
certificate of occupancy until everything is in place and that 
is part of the process. Will they write you a certificate of 
occupancy for the entire new complex on the site or do they 
issue two separate certificates of occupancy, one for the 
expansion space and then one for the Capitol Visitor Center?
    Mr. Hixon. Yes, sir.
    Senator Allard. I think that could resolve some of our 
issues that we might have with the actual date when we can go 
ahead and occupy that portion of the new Capitol complex.
    Mr. Hixon. We are working with the fire marshal and going 
through that. We have to get his concurrence and acceptance of 
the fire alarm systems and the smoke evacuation systems. That 
work is going to be occurring in the late spring and during the 
summer for the CVC portion, so that we can in fact occupy the 
CVC on schedule.
    Then we will be going through the same effort to take care 
of the expansion space, and then we will have to integrate 
those systems in the expansion space into the base CVC program. 
So all those smoke detector systems that are in the expansion 
space have to be integrated into the main building system. So 
that is what will be occurring in the early part of 2007.

                        OCCUPANCY CERTIFICATION

    Senator Allard. So we have got one certificate of occupancy 
that will not be issued until all the fire alarms are in place?
    Mr. Hixon. Yes, sir. We will be able to occupy. We will get 
the certificate to occupy the CVC for September, but not the 
expansion space. And then we will have another certificate to 
occupy the expansion space, which will probably incorporate all 
the expansion space into the CVC area.
    Senator Allard. Then the last thing to go in would be in 
March. It looks like we've got around the end of March here, 
and that would be the fire alarm commissioning.
    Mr. Hixon. That is bringing the expansion space fire alarm 
system into the base building. So we will be attaching all of 
those elements into it and retesting the entire building system 
with the expansion space included with the CVC. So they will be 
doing retesting to make sure when we add those components 
everything all functions properly.
    Senator Allard. That will not have any effect on the main 
visitor center?
    Mr. Hixon. No, sir. It will be done evenings and weekends.
    Senator Allard. Mr. Ungar?

                           FIRE ALARM SYSTEM

    Mr. Ungar. Sir, I just wanted to point out that the system 
that Mr. Hixon is referring to, the fire alarm system and the 
smoke evacuation system, are among those activities that our 
last review of the schedule found to be optimistic. In other 
words, the project participants believed that the time allotted 
for those activities in the last schedule was not doable in 
their view. So this is an activity that we have asked AOC and 
Gilbane to go back and reassess in detail to get a better 
handle on that.
    Senator Allard. Yes, it seems to me we have to have some 
cooperation from the fire marshal.
    Mr. Hixon. Absolutely.
    Senator Allard. I mean, if he does not cooperate we are in 
trouble on your dates.
    Mr. Hixon. Yes, sir. We are meeting with the fire marshal 
every other week as we work through the planning on how to do 
the commissioning of these systems and ensure that all the 
components are acceptable. So we are in the throes of the 
process right now of planning exactly how we will test these 
systems and in what order and what components. So that process 
is very much underway.
    Senator Allard. I would hope that he would have his ducks 
in order. I serve on the D.C. subcommittee too, so maybe I will 
ask a few questions about whether they are getting their ducks 
in order for that.
    Mr. Hixon. This is the AOC's fire marshal that we are 
working with.
    Senator Allard. Oh, it is our fire marshal.
    Mr. Hixon. Yes, sir, although he does coordinate with the 
District emergency response and organizations of that nature. 
So he is our contact to any District support.
    Senator Allard. We still need to make sure that they are 
coordinating with us, so that we do not have unnecessary 
delays, to make sure that they have money in their budget, to 
make sure that they have whatever it takes to get a smooth 
transition. Even though we have the opening date on the visitor 
center, we still could have some issues.
    Mr. Hantman. The Fire Department of D.C. is the fire 
department that serves Capitol Hill as well. So clearly, 
whatever they need in terms of hydrants and accessibility is 
something that they would be concerned with and we are 
concerned with working with them on.
    Senator Allard. And they would provide the fire hydrants?
    Mr. Hantman. We provide the fire hydrants, basically where 
they agree to it. That is why our fire marshal is interfacing 
with them and making sure that wherever the trucks come on 
campus that we have the taps for them.
    Senator Allard. And you are reaching some agreements with 
those local agencies?
    Mr. Hixon. I am adding some fire hydrants right now.
    Senator Allard. Do you want to comment, Mr. Dorn?

                           LIFE SAFETY EGRESS

    Mr. Dorn. Yes, sir. It adds to what Bernie was saying just 
a second ago. On the schedule, when the CVC and the expansion 
spaces were going to be finished at the same time there was not 
an issue about the egress. But if the expansion space is not 
going to be finished until months later than the CVC, the 
Architect has determined that there are egress pathways that 
need to be built to get through the expansion space so that 
everyone can get out of the CVC in case there is an incident of 
some sort. And finishing those separately will probably end up 
costing more money.
    Senator Allard. Do you want to respond, Mr. Hantman?
    Mr. Hantman. No question about that. In terms of planning, 
the horizontal means of visitor egress from the center into the 
stairways that are part of the expansion space are part and 
parcel of all of the planning and our discussions with the fire 
marshal to make sure that we have that level of safety 
incorporated.

                          EXPANSION SPACE WORK

    Senator Allard. Mr. Hantman, I understand now that the 
expansion space contract has been awarded to Manhattan 
Construction, but the award to Manhattan's subcontractor has 
not been made. Why and will this impact the schedule, and when 
will the award be made?
    Mr. Hantman. This should not impact the schedule. This is 
part of Manhattan's internal contracting process, to reach 
agreement with their subcontractor. So it typically is taking 
them 2 to 3 weeks to have a ratified contract with their 
subcontractor. They are in the process of doing that. That is 
not something we are normally aware of. As far as the 
Government is concerned, we have a contract with Manhattan and 
this is internal to them.
    It becomes of interest to us to make sure it does not 
impact anything. But at this point we are not anticipating any 
impact.

                          RISK MITIGATION PLAN

    Senator Allard. Now, the GAO recommended several times over 
the past 2 years that the Architect of the Capitol develop a 
risk mitigation plan. Mr. Ungar, what is a risk mitigation plan 
and what do you see as the top five risks to the project's 
schedule and budget? Then, Mr. Hantman, can you give us a 
commitment to produce a risk mitigation plan for the top five 
risks by the time we meet next month?
    So let us go ahead with GAO and then we will have Mr. 
Hantman follow up.
    Mr. Ungar. Mr. Dorn will address that, sir.
    Mr. Dorn. A risk mitigation plan would first identify the 
major risks that are facing the project, and would then look at 
the ones that are most likely to occur and that have the 
greatest adverse impact on the project. You are not going to 
look at every risk. You are going to look at the ones that have 
a high probability of occurring and the ones that are going to 
have a cost or schedule impact on the project.
    Some of the top risks would be the supply of stone and 
skilled stone masons. There is an issue right now that has been 
brought to our attention about how much stone we can get. 
Unforeseen conditions with the----
    Senator Allard. Yes, I have noted, reading some testimony 
here, that not only is there a shortage in the stone, but also 
a shortage in craftsmen who know how to work with the stone. Is 
that correct, or is it just a shortage of the stone?
    Mr. Dorn. It has been an ongoing risk that has been 
identified by the Architect and by us, I believe, that the 
supply of stone masons is limited, of skilled stone masons. I 
know Manhattan has been scouring the country looking for stone 
masons, from what they have told me. But it is a risk.
    The unforeseen conditions with the two remaining tunnels. 
The utility tunnel, it is still not complete yet; and the House 
connector tunnel, which is up closer to the building and 
because of that has a lot of risks to it.
    Additional requirements from the fire marshal or from 
security for life safety, security, filtration systems, and 
commissioning. Contractor coordination issues as we get down, 
get down to the wire and we have additional contractors on 
site. Unknown operator requirements. This gets back to the idea 
that Zell is just now being brought back on board again and 
until we get the operator requirements and get those integrated 
into the master schedule that AOC and Gilbane are working on, 
to know what you need to do to get the operational piece of it 
done, you have got the risk of your schedule going off to the 
right for you.
    There are additional risks for scope gaps. Between sequence 
1 and sequence 2, work that was never in any of the contracts 
just slipped through the cracks, when you break these jobs up 
into smaller projects; or between sequence 2 and the expansion 
spaces. An example would be the utility tunnel. The utility 
tunnel is under contract. There is a plan for the modifications 
to the Jefferson Building.
    There is the intersection--knocking a hole in the wall of 
the Jefferson Building. I believe there is a separate plan now 
for that, but that was not included in some of the original 
estimates. There is an example of where you can lose track of 
all the pieces.

                        RISK MITIGATION FACTORS

    Senator Allard. Let me make sure I understand your five, 
then. It would be the stone, the tunnel, the safety issues, a 
coordination issue between the contractor and the construction 
issues, as well as the operator, and the fifth would be the 
sequence 1 to sequence 2 issues. Would that be your five?
    Mr. Dorn. Yes, sir. I may have misspoken on that. It was 
the Library of Congress tunnel.
    Senator Allard. Okay, Mr. Hantman or Mr. Hixon?
    Mr. Hixon. Yes, sir. We are pursuing doing a risk 
assessment with McDonough Bolyard Peck, who's been a consultant 
to us doing research. Risk assessment on construction is a 
relatively new issue. There is a process that is evolving on 
how to do that, software in order to process that. So now we 
have been researching how to do that.
    I expect to do it. We will not have it done by the next 
hearing. We have to bring them under contract. We have to 
actually go through this evaluation. It is going to take us a 
few months in order to be able to complete that activity. We do 
agree that it is a good idea. We probably have slightly 
different areas that we are concerned about, but many of them 
are the same. The House connector tunnel is certainly an area 
of risk for us; the Jefferson Building work where we are going 
into the building and building a stairwell. Those are the kinds 
of things that we agree this would probably be a useful process 
for. We have never done it before, so we are looking for 
consultants who have done this effectively so that we can do 
it. But it is going to take us a few months in order to 
accomplish that.
    Senator Allard. So for us to expect you to have a risk 
mitigation plan by the next month would be unrealistic?
    Mr. Hixon. That is correct. sir.
    Senator Allard. Do you think that is something we ought to 
set up for September?
    Mr. Hixon. Yes, sir.
    Senator Allard. Would that be more appropriate?
    Mr. Hixon. Yes, sir.
    Senator Allard. Do you think you could have it done by 
then?
    Mr. Hixon. We believe we can. We will certainly be able to 
tell you next month if there is an issue with that.

                  ADDITIONAL FISCAL YEAR 2005 FUNDING

    Senator Allard. Okay, very good.
    Now, we did give the Architect of the Capitol some extra 
money here to finish off the year. Do you have some money left 
over for a contingency if something unexpected should come up 
between now and the end of the fiscal year?
    Mr. Hantman. We have just asked for some reprogramming 
dollars, dollars that we did not need for sequence 1, for some 
other activities on the East Front to enable us to do just 
that, Mr. Chairman.
    Senator Allard. So you do not see any need for additional 
dollars right now, from now until the end of the year?
    Mr. Hantman. At this time we do not. However, there is the 
settlement of delays to the sequence 2 contractor that we have 
received some proposals from the contractor for those delays. 
The compensation, the money funding for those activities, is in 
the fiscal year 2006 budget request.
    We also are looking at the quantity of change orders and so 
our expectation is that we are going to be close but okay. But 
we are continuing to monitor that as we go along. Some of the 
reprogramming that we have talked about was to take some funds 
available that will not be used in sequence 1 and 1C, the East 
Front, and utilize that for contingencies, for the Jefferson 
Building work, the stairwell there, and for contingency for the 
House connector tunnel, because when we award that tunnel there 
will be no contingency funding available on that line item.
    With that done, we expect to be very close on the quantity 
of change orders that have been identified. So I think GAO's 
point is they recognize how close we are and they say, if you 
get a big surprise then you are going to have a problem. We 
have the funding available under the CVC operations budget. 
There are a few million dollars there that would be available 
if we need it. We were waiting to ask for that until we can 
document that we do in fact need that money.
    If I do not process change orders as quickly as we want to, 
there would still be change order contingency money available. 
So I think it is a little bit premature for me to ask for 
funding right now because I can't document the need is really 
there. But it is a bit tight.

                    FISCAL YEAR 2006 BUDGET REQUEST

    Senator Allard. The last question then is, for your fiscal 
year 2006 budget request, which includes $36.9 million for the 
CVC, since we are marking up now, just next week, can you give 
me your best estimate of what you need for fiscal year 2006 and 
when the Architect of the Capitol will need those funds?
    Mr. Hixon. My best guess is that we will need, at this 
point we will need all $36.9 million. I think it would not be 
prudent to go for less than that. There are items of work that 
were identified when this was put together, when we did our 
cost to complete last year, that we may not do. But there are 
other things that have come up that would require the use of 
those funds.
    I have asked McDonough Bolyard Peck to update their 
proposal for the cost to complete. We have had some discussions 
with the CPC about doing that perhaps a little sooner so that 
we can get the answers in here and give GAO the opportunity to 
review those, so we have that information in September. But at 
this point in time I don't think it would be prudent to reduce 
that at all.
    I do not think we need to increase it at all, but I do not 
think, with the number of issues that are going on, and 
especially until we get the new cost to complete updated, that 
we would need all of that with the issues that have been coming 
up.
    Senator Allard. Mr. Ungar?
    Mr. Ungar. Mr. Chairman, we believe that, as we indicate in 
our statement, that AOC is likely to need more than the $36.9 
million in fiscal year 2006. Exactly how much we are not sure. 
But our best guess at this point would be roughly somewhere 
between $5 million and $15 million more in fiscal year 2006, 
depending upon how the risks and uncertainties play out and 
AOC's experience with the delay costs that may arise from 
sequence 1.
    I also want to point out that I may have misunderstood your 
question that you raised during my oral summary about the $37 
million.
    Senator Allard. Yes.
    Mr. Ungar. We did identify that in our last statement as 
being needed. So it was not something that just came up between 
hearings. I may not have understood exactly what you were 
asking when you asked it, since last year, we have identified 
that amount of money, plus some additional funds that we 
thought would be needed in addition to the amount that AOC has 
asked for.

               CLOSING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. I appreciate your clarifying that and I am 
sure Mr. Hantman does, too.
    I want to thank you for taking the time to appear before 
our panel today and giving us an update on how things are going 
on the Capitol Visitor Center. I am pleased with the progress 
that we are making. Obviously there are some things that we 
have to watch very closely as we move forward. I think we are 
beginning to get those identified and hopefully begin to get 
the schedule in place with better cost estimates.

                          SUBCOMMITTEE RECESS

    So I want to thank you, and we will plan on holding another 
hearing next month, July 14. There were a few questions we put 
in place today. We had some commitments for follow-up, so you 
can expect those.
    Thank you very much, gentlemen.
    [Whereupon, at 11:42 a.m., Tuesday, June 14, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


         PROGRESS OF CONSTRUCTION OF THE CAPITOL VISITOR CENTER

                              ----------                              


                        THURSDAY, JULY 14, 2005

                               U.S. Senate,
            Subcommittee on the Legislative Branch,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:49 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senator Allard.
STATEMENT OF BERNARD L. UNGAR, DIRECTOR, PHYSICAL 
            INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY 
            OFFICE
ACCOMPANIED BY TERRELL DORN, ASSISTANT DIRECTOR, PHYSICAL 
            INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY OFFICE

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. We will go ahead and call the Legislative 
Branch Appropriations Subcommittee to order. This is the 
situation this morning: we have just finished one vote on the 
floor of the Senate. We are anticipating a total of four votes 
altogether and so we are going to try and work this through as 
best we can this morning.
    Mr. Ungar, you are going to testify on behalf of the 
Government Accountability Office (GAO), correct?
    Mr. Ungar. Along with Mr. Dorn, yes, sir.
    Senator Allard. Okay. Then the plan is that I will go ahead 
and make an opening statement and get things started, and then 
if Mr. Hantman is not here we will let you go ahead and present 
your testimony, and then we will go to Mr. Hantman. I 
appreciate the panel joining us this morning. We will struggle 
through this morning with all the votes.
    We meet today to take testimony on the progress of the 
Capitol Visitor Center (CVC). We will hear from the Architect 
of the Capitol, Alan Hantman; the CVC Project Manager Bob 
Hixon; and Bernard Ungar and Terrell Dorn of the Government 
Accountability Office. Thank you all for being here this 
morning for our third hearing on the progress of the Capitol 
Visitor Center.
    At our hearing last month, the Architect and GAO reported 
that progress had been made in many areas, but milestones were 
not being met in several areas on the critical path. This month 
more milestones have not been met on schedule. In fact, only 3 
of 17 milestones in the last 2 months have been met by the date 
that they were scheduled to be completed.
    Currently it seems the biggest concern is an inadequate 
delivery of stone to the job site, resulting in insufficient 
progress on stone work. Stone work in the Great Hall is months 
behind, as I understand it.
    In addition, coordination issues with the fire marshal 
continue to be a key concern. Finally, I understand the 
contractor's schedule is showing a completion date of October 
19, 2006, not September 15, 2006, as we were informed last 
month.
    So we have plenty to discuss today and we look forward to 
understanding these issues better. Before we get started, let 
me note that one of our GAO witnesses, Terry Dorn, left his 
family at the beach, where they were vacationing this week, to 
be here today. We do appreciate, Mr. Dorn, your commitment to 
public service.
    So let me go ahead and call on GAO to give their testimony.
    Mr. Ungar. Mr. Chairman, we are pleased to be here today to 
assist the subcommittee in its oversight of the Capitol Visitor 
Center. I would like to summarize the key points that we have 
in our statement, particularly with respect to the project 
schedule and cost.

                     SCHEDULE PROGRESS AND PROBLEMS

    First, on the schedule, progress has been made during the 
month in a number of areas, particularly electrical, 
mechanical, masonry block, and plaster walls. Another area 
where we saw significant progress was in the actual management 
of the project schedule by the construction manager and the 
AOC. We noted this month a much more rigorous analysis and 
monitoring of the schedule, a very good use of the information 
that that monitoring and analysis produced. We are very 
encouraged by the quality of the work that has been done by the 
project control engineer that Gilbane has recently assigned 
full time to the project and by the project executive, Bob 
Hixon, as well as the rest of the team to focus on schedule 
management. It really has made a difference.
    Having said that, however, we do still have a number of 
concerns with respect to the schedule which we would just like 
to briefly summarize. First, we continue to be concerned about 
the realism associated with the September 15, 2006, opening for 
a number of reasons. There are a number of remaining risks to 
the project which have actually materialized.
    For instance, you indicated a problem on the stone supply; 
that has been a real problem. In fact, a stone problem 
associated with the east front work has resulted in, as you 
indicated, a pushing on the schedule of the opening date from 
September 15 to October 19. AOC and the construction contractor 
and the construction manager are aware of this problem and they 
are working to resolve that. They do believe that they can 
mitigate that particular situation and bring the schedule back, 
but that has yet to be worked out.
    They also have a stone supply problem that they are working 
on and that has other issues associated with it that they are 
not directly controlling, and that has to do with some 
litigation.
    They are also having problems on the utility tunnel. That 
is scheduled right now to be operational 5 months later than 
AOC anticipated the team is working to bring that back. 
However, they still may need to use temporary dehumidification. 
That is not clear yet and we may know more by your next hearing 
on that.
    As you indicated, there are a number of milestones that are 
slipping because of some of these problems that have come up, 
such as the stone work and utility tunnel. Also, this month we 
were tracking along with AOC for the subcommittee six 
milestones. The sequence 2 contractor has finished work on one 
of those six, but was not on time, so, in effect, none of those 
milestones were met.
    Again, AOC believes that time can be made up. It has plenty 
of time to do that. On the other hand, as these milestones keep 
slipping there may be so many of them stacked up at one point 
that they may not be able to get to them all, and time will 
tell that story.
    There are several activities, seven to be exact, that have 
been identified on the schedule for the last 2 months that are 
either critical or near-critical. Having so many activities in 
that status makes it much more difficult to manage the project 
and it will make it more complicated for the team to meet the 
date. But at least they are aware of them and they are working 
on them.
    We continue to believe that the schedule durations are 
optimistic. The construction manager and contractor did do an 
assessment this month of 11 of the 14 that they were going to 
assess. They delayed the assessment on three of those. They 
believed--using their judgment, that the durations were 
reasonable. On the other hand, we were looking toward perhaps a 
more detailed data-based assessment. They said they will do 
that in the future.
    When we looked at some of the specific activities, we had 
some concerns. For example, the stone work in the food service 
area, which is the furthest along, is actually taking 
significantly longer than the duration that was originally 
anticipated, which indicates to us that the durations that are 
in the schedule may still be optimistic.
    Another problem with the schedule that we noted this month 
has to do with coordination with the fire marshal, between the 
team and the fire marshal. That has been a problem. We have 
brought that to AOC's attention and AOC has been taking steps 
with the AOC fire marshal, to address that. So I think that 
appropriate steps have been put in place to address that issue.
    Finally, as we indicated on the schedule last month, AOC 
does not yet have an integrated schedule with respect to both 
construction and operations. We believe that is very important 
and getting more important as the months go by; it is something 
that really does need to be done.

                   PROJECT COSTS CONTINUE TO INCREASE

    On the cost side, costs continue to increase, as we had 
indicated in our statement. For example, the estimated cost for 
the proposed or potential change orders have increased about 
$900,000 since the last testimony that we did. Most of that 
estimated cost increase was related to the fire protection 
system. Overall that system is increasing in cost; it increased 
over $4 million overall. We do think that there are some issues 
associated with exactly what is required. There had been some 
disagreement within the CVC project team on that. AOC is aware 
of that, and we had suggested that AOC try to nail that down 
and AOC is in the process of doing that.
    We also believe that there is an important need to balance 
the funding available for both construction and operations so 
that there is an optimal use of those funds between now and the 
time that the fiscal year 2006 appropriation is available. 
There is about $7.8 million available for either construction 
or operations right now, and both construction and operations 
in our view need funds. So AOC will have to work an approach 
out to make sure there is an appropriate decision made there as 
to what to ask for.
    Also on the cost side, we do believe it would be important 
for Congress and the subcommittee to know how much additional 
it may cost for AOC to meet the September 15, 2006, date. We 
see two areas where AOC may incur additional costs. One is 
having to take temporary measures to open the facility to the 
public because the expansion spaces may not be done or other 
aspects of the facility may not be done; or AOC may have to 
accelerate some work in order to meet that timeframe. The 
question in our mind is are those costs going to be acceptable 
to the Congress.

                             ACTIONS NEEDED

    In terms of actions that we think need to be taken, first 
we think that AOC needs to designate an official, a responsible 
official to oversee the integration of the construction and 
operations planning, scheduling, and budgeting. Right now there 
is a team on construction and AOC has individuals who are going 
to be working on operations, but there is nobody who is 
overseeing the integration or the linkage of the two. That is 
very important, to make sure both the scheduling and the budget 
are worked out for that activity.
    Second, we think that AOC needs to inform the Congress on 
what its estimated additional costs are for opening the 
facility on September 15, to the extent that there may be those 
kinds of costs.
    Third, we think that AOC needs to focus continuously on 
schedule management and monitoring and aggressively dealing 
with the issues that come up, particularly looking at the 
durations. Our thinking is that for your next hearing if AOC 
were to relook at stone in depth and the utility tunnel, and 
perhaps the occupancy inspection activity, that that would be a 
good start to getting a real rigorous analysis of the realism 
of the schedule.
    Finally, if AOC were to have a clear definitive picture of 
the fire safety and life safety requirements for the facility 
by the next hearing, we believe that would be a very positive 
step in the right direction.
    That concludes our summary. We would be happy to answer 
questions.
    Senator Allard. Well, thank you, Mr. Ungar, for your 
testimony.
    [The statement follows:]

                 Prepared Statement of Bernard L. Ungar

    Mr. Chairman and Members of the Subcommittee: We are pleased to be 
here today to assist the Subcommittee in monitoring progress on the 
Capitol Visitor Center (CVC) project. As requested, we will focus our 
remarks today on the Architect of the Capitol's (AOC) progress in 
achieving selected project milestones and in managing the project's 
schedule since the Subcommittee's June 14 hearing on the project.\1\ We 
will also discuss the project's costs and funding, including the 
potential cost impact of schedule-related issues. Our observations 
today are based on our review of schedules and financial reports for 
the CVC project and related records maintained by AOC and its 
construction management contractor, Gilbane Building Company; our 
observations on the progress of work at the CVC construction site; and 
our discussions with AOC's Chief Fire Marshal and CVC project staff, 
including AOC, its major CVC contractors, and representatives of an AOC 
schedule consultant, McDonough Bolyard Peck (MBP). We did not perform 
an audit; rather, we performed our work to assist Congress in 
conducting its oversight activities.
---------------------------------------------------------------------------
    \1\ GAO, Capitol Visitor Center: Effective Schedule Management and 
Updated Cost Information Are Needed, GAO-05-811T (Washington, D.C.: 
June 14, 2005). See also GAO, Capitol Visitor Center: Priority 
Attention Needed to Manage Schedules and Contracts, GAO-05-714T 
(Washington, D.C.: May 17, 2005).
---------------------------------------------------------------------------
    In summary, AOC and its major construction contractors have made 
progress on the project since the Subcommittee's June 14 hearing, but 
work on some of the selected milestones scheduled for completion by 
today's hearing is incomplete; some work has been postponed; and some 
new issues have arisen that could affect the project's progress. 
Specifically, as of July 12, AOC's sequence 2 contractor, Manhattan 
Construction Company, had completed work on 11 of the 17 selected 
milestones scheduled for completion before today's hearing; however, it 
completed only 3 of the 17 milestones on time. The sequence 2 
contractor missed the 14 remaining milestones for such reasons as 
unforeseen site conditions, design problems, and more time being taken 
to complete some other work than expected. In addition, the date 
scheduled for the initial operation of the utility tunnel is now about 
5 months later than AOC had anticipated, and unforeseen conditions 
could delay the installation of stone in the East Front. Although the 
June project schedule shows that the delay on the East Front stonework 
would move the scheduled opening date for the CVC project to October 
19, 2006, AOC does not expect the delays in completing the remaining 
milestones, including the utility tunnel and East Front stonework, to 
postpone the project's scheduled September 2006 completion date. In 
AOC's view, the contractor can recover the time lost in completing 
these milestones, as well as make up for delays in completing interior 
stonework, by such means as using temporary equipment, adding workers, 
or resequencing work, although using temporary equipment or adding 
workers will also increase the project's costs. Largely because of past 
problems, remaining risks and uncertainties, and the number of 
activities that are not being completed on time, we continue to believe 
that the project is more likely to be completed in the December 2006 to 
March 2007 timeframe than in September 2006. AOC and its construction 
management contractor have continued their efforts to respond to two 
recommendations we made to improve the project's management--having a 
realistic, acceptable schedule and aggressively monitoring and managing 
adherence to that schedule. However, we still have some concerns about 
the amount of time scheduled for some activities, the extent to which 
resources can be applied to meet dates in the schedule, the linkage of 
related activities in the schedule, and the integration of planning for 
completing construction and starting operations. Since the 
Subcommittee's last CVC hearing, AOC has engaged contractors to help it 
respond to two other recommendations we made--developing risk 
mitigation plans and preparing a master schedule that integrates the 
major steps needed to complete construction with the steps needed to 
prepare for operations. AOC has also been taking a number of actions to 
improve coordination between the CVC project team and AOC's Fire 
Marshal Division. Insufficient coordination in this area has already 
affected the project's schedule and cost, and could do so again if 
further improvements are not made.
    We continue to believe that the project's estimated cost at 
completion will be between $522 million and $559 million, and that, as 
we have previously indicated, AOC will likely need as much as $37 
million more than it has requested to cover risks and uncertainties to 
complete the project. At this time, we believe that roughly $5 million 
to $15 million of this $37 million is likely to be needed in fiscal 
year 2006, and the remainder in fiscal year 2007. In the next 2 to 3 
months, AOC plans to update its estimate of the project's remaining 
costs. We will review this estimate and provide Congress with our 
estimate together with information on when any additional funding is 
likely to be needed. During the next several months, AOC is likely to 
face competing demands for funds that can be used for either CVC 
construction or operations, and it will be important for AOC to ensure 
that the available funds are optimally used. Finally, we are concerned 
that AOC may incur costs to open the facility to the public in 
September 2006 that it would not incur if it postponed the opening 
until after the remaining construction work is more or fully complete--
that is, in March 2007, according to AOC's estimates.
    We are recommending that AOC designate who will be responsible for 
integrating the planning and budgeting for CVC construction and 
operations and notify Congress in advance of any estimated costs it 
believes it will incur to open CVC to the public in September 2006 
rather than when the facility is more complete. AOC agreed with these 
recommendations.

Schedule Milestones and Management
    AOC and its major construction contractors have moved the CVC 
project forward since the Subcommittee's June 14 hearing, although the 
majority of the selected milestones scheduled for completion by today's 
hearing have not been completed on time. According to the construction 
management contractor, the base project's construction was about 70 
percent complete as of June 30, compared with about 65 percent as of 
May 31. The sequence 1 contractor, Centex Construction Company, which 
was responsible for the project's excavation and structural work, has 
continued to address punch-list items, such as stopping water leaks. 
Although AOC had expected the sequence 1 contractor to complete the 
punch-list work and be off-site by June 30, some of this work remains 
to be done. The sequence 1 contractor has closed its on-site project 
office and plans to send workers back to the site to complete the 
remaining work. AOC has retained funds from the sequence 1 contractor 
that it believes will be sufficient to cover the cost of the remaining 
work. Furthermore, the sequence 2 contractor, which is responsible for 
the mechanical, electrical, plumbing, and finishing work, has continued 
to make progress in these areas, including erecting masonry block, 
placing concrete, and installing finish stone, drywall framing, 
plaster, and granite pavers. Many of the granite pavers that were 
installed on the plaza deck for the inauguration have to be replaced 
because of problems with quality or damage after installation. The 
sequence 2 contractor plans to replace these pavers when the plaza deck 
will no longer be needed for deliveries of construction materials. The 
sequence 2 contractor has also continued work on the utility tunnel, 
and in June, AOC executed a sequence 2 contract modification to 
construct the House connector tunnel. AOC expects this work to begin 
soon.
    As the Subcommittee requested, we worked with AOC to select 
sequence 2 milestones that the Subcommittee can use to help track the 
project's progress from the Subcommittee's May 17 hearing to July 31. 
We and AOC selected 22 milestones, of which 11 were scheduled for 
completion before June 14, 6 others before July 14, and 5 others before 
July 31. These milestones are shown in appendix 1 and include 
activities on the project's critical path, as well as other activities 
that we and AOC believe are important for the project's timely 
completion.\2\ As we reported during the Subcommittee's June 14 
hearing, AOC's sequence 2 contractor completed 6 of the 11 selected 
activities scheduled for completion before that date--3 were completed 
on time and 3 were late. The remaining 5 activities had not been 
completed as of June 14. Of these 5, 4 have now been completed and as 
of July 12, 1 remained incomplete. In addition, as of July 12, the 
contractor was late in completing 1 of the 6 selected activities 
scheduled for completion between June 14 and July 14 and had not yet 
completed the remaining 5. AOC does not expect these delays to extend 
the project's scheduled September 2006 completion date because it 
believes that the sequence 2 contractor can recover the lost time.
---------------------------------------------------------------------------
    \2\ A critical path is a sequence of activities in a schedule that 
has the longest duration. There is no scheduling flexibility or slack 
time associated with the activities. This means that a delay in a 
critical path activity will delay the entire project unless a way is 
found to reduce the time required for other activities along the 
critical path. A schedule may have multiple critical paths 
simultaneously, and the critical path through a project can change as 
the project is updated and as the time estimated to complete the tasks 
changes. Currently, AOC's schedule shows CVC's critical path running 
through some interior wall stone and East Front stonework. The schedule 
also shows other work elements, such as the utility tunnel and 
millwork, as near critical (i.e., having little slack time).
---------------------------------------------------------------------------
    A few months ago, AOC expected the utility tunnel to be operational 
in October 2005, but it extended that date to March 20, 2006, before 
the June hearing. The June schedule shows the tunnel being operational 
on March 7. The sequence 2 contractor has indicated that the impact of 
the October-to-March delay on CVC construction could be mitigated by 
using temporary dehumidification equipment, adding more workers to 
certain utility tunnel activities, or both. However, this mitigation 
approach would increase the government's costs. We previously 
identified the utility tunnel as a project schedule and cost risk 
because of possible unforeseen conditions associated with underground 
work, and AOC and the sequence 2 contractor believe that such risk 
still exists with respect to the remaining tunnel work. Given this risk 
and the importance to the rest of the project of having the utility 
tunnel operational as soon as possible, AOC has asked the project team 
to explore options for accelerating the completion of the work 
necessary to begin the tunnel's operations. We agree with AOC that 
delays in making this tunnel operational could have significant adverse 
effects on other project elements and that priority attention should be 
given to this area. Accelerating work may be cost-beneficial in this 
case.
    Since the June 14 hearing, the sequence 2 contractor has also 
encountered unforeseen conditions that, according to AOC's construction 
management contractor, could delay the installation of stone on the 
Capitol's East Front. Unless mitigated, this delay, in turn, could 
delay AOC's estimated September 15, 2006, opening date. In fact, the 
June schedule shows a 24-day delay for this work, which is on the 
project's critical path, and therefore pushes AOC's scheduled date for 
opening CVC to the public to October 19, 2006. AOC and its construction 
management contractor are assessing the situation and expect to have 
more information on this problem within the next month. However, they 
believe that they will be able to recover the lost time by resequencing 
work, although they acknowledge that their mitigation approach would 
require sufficient stone to be available. The project has not been 
receiving stone in the quantities set forth in the delivery schedule--a 
risk that we previously identified--and AOC and its contractors have 
been taking action to address this problem, but have not yet resolved 
it. Mitigating this potential delay in East Front stone installation 
could increase the government's costs if the mitigation involves, among 
other actions, expediting the installation to recover lost time.
    Our May 17 and June 14 statements contained several observations on 
AOC's management of the project's schedules, including our view that 
problems in this area contributed to slippage in the project's 
scheduled completion date and additional project costs associated with 
delays. The statements also discussed recommendations we had already 
made to AOC to enhance its schedule management. AOC had agreed with 
these recommendations and had generally begun to implement them, but we 
believed that it still needed to give priority attention to them to 
keep the project on track and as close to budget as possible. An 
updated discussion follows of the issues that need AOC's priority 
attention, along with current information on the status of AOC's 
actions to address these issues.
  --Having realistic timeframes for completing work and obtaining fully 
        acceptable schedules from contractors. Over the course of the 
        project, AOC's schedules have shown dates for completing tasks 
        that project personnel themselves considered optimistic or 
        unlikely to be met. In addition, the master project schedule 
        (prepared by AOC's construction management contractor) that AOC 
        was using in May 2005 (the April schedule that AOC said it 
        would use as a baseline for measuring progress on the project) 
        did not tie all interrelated activities together and did not 
        identify the resources to be applied for all the activities, as 
        AOC's contract requires. During the Subcommittee's June 14 
        hearing, AOC said that it would reassess the time scheduled for 
        tasks by today's hearing. Since the Subcommittee's June 14 
        hearing, AOC's construction management and sequence 2 
        contractors reviewed the reasonableness of the time scheduled 
        for 14 critical or near-critical activities and determined 
        that, in general, the time shown in the May 2005 schedule 
        reasonably reflected the time required to perform 11 of these 
        activities. In addition, the sequence 2 contractor agreed to 
        provide more detail about the 3 remaining activities so that 
        the reasonableness of the time scheduled for them could be 
        reviewed later.
      Although the contractors' review did not involve a detailed, 
        data-based analysis of the time scheduled for activities using 
        such information as crew size and worker productivity, AOC's 
        construction management contractor said that it would do such 
        analyses in the future, as appropriate. The construction 
        management contractor said it has not yet done such an analysis 
        for stonework because, to date, less stone has been delivered 
        to the site than was expected and more stone workers have been 
        available than could be used, given the shortage of stone. In 
        AOC's view, this stone shortage has begun to delay important 
        activities, and as we previously indicated, AOC is working with 
        its contractors to resolve the problem.
      According to AOC's construction management contractor, both the 
        project's May and June 2005 master schedules (1) reflect 
        significant improvement in the linkage of interrelated tasks, 
        although the contractor recognizes that more work needs to be 
        done in this area and (2) generally provide sufficient 
        information to manage the project's resources. However, the 
        contractor also recognizes the need for the sequence 2 and 
        other contractors to continue adding more detail to the 
        activities scheduled for some project elements, such as the 
        exhibit and expansion spaces, so that more of the interrelated 
        activities will be linked in the schedule. The contractor also 
        said that it will be continuously reassessing the extent to 
        which construction contractors identify the resources they plan 
        to apply to meet scheduled completion dates, as contractually 
        required. Both adding detail to activities and identifying the 
        resources to be applied are helpful in assessing the 
        reasonableness of the time scheduled and in managing 
        contractors' performance. The sequence 2 contractor has 
        provided a separate schedule showing its target dates for 
        adding more detail to 30 project tasks. On July 8, AOC's 
        construction management contractor accepted the April project 
        schedule, subject to several conditions.
      Because the May 2005 master schedule for the CVC project contains 
        additional detail on activities and information on resources to 
        be applied, we agree with AOC's construction management 
        contractor that this schedule represents an improvement over 
        earlier schedules. However, we still have concerns about the 
        extent to which the schedule links related activities, which 
        the construction management contractor has agreed to address, 
        and about whether AOC's September 15, 2006, target date for 
        opening the facility to the public is realistic. For the 
        following reasons, we continue to believe that the project is 
        more likely to be substantially completed in the December 2006 
        to March 2007 time frame than by September 2006:
    --Because of unforeseen site conditions and other problems, AOC's 
            construction contractors have had difficulty meeting a 
            number of milestones. The project still faces risks and 
            uncertainties that could adversely affect its schedule. As 
            we noted in our June 14 testimony, the number of critical 
            and near-critical paths the construction management 
            contractor has identified complicates schedule management 
            and increases the risk of problems that could lead AOC to 
            miss the scheduled completion date. Like the project's May 
            2005 schedule, the June schedule shows seven paths that are 
            critical or near critical. Among the critical paths are 
            East Front stonework and some interior stonework, which 
            slipped by 24 days and 3 days in June, respectively. In 
            addition, some other interior stonework that is not 
            generally on a critical path, such as the installation of 
            wall stone in the Great Hall, has slipped by about 4 months 
            since April because of stone shortages according to AOC. 
            Continued slippages in interior stonework could make it 
            difficult for the sequence 2 contractor to meet the 
            September 15, 2006, completion date. Although the CVC 
            project team believes that it can recover this time, its 
            ability to do so is not yet clear, given the stone supply 
            problem facing the project. Furthermore, although work on 
            the utility tunnel progressed during June, the tunnel work 
            continues to face risks and uncertainties that could delay 
            the project, and the May and June schedules show that the 
            start and finish dates for a number of activities have 
            continued to slip. Although it is possible for AOC to 
            recover this time, continued slippage could push so many 
            activities to later dates that the contractors may not be 
            able to complete all the work in the remaining available 
            time.
    --In our opinion, AOC lacks reasonable assurance that its 
            contractors have accurately estimated the time necessary to 
            complete work for a number of activities in the schedule. 
            Although the construction management contractor's recent 
            review of how much time is needed to complete schedule 
            activities was helpful, we are still concerned about the 
            reasonableness of the time allowed for a number of the 
            activities. For example, one of the activities reviewed in 
            June whose scheduled duration was found to be generally 
            reasonable was final occupancy inspections. Although AOC's 
            Fire Marshal Division is to do critical work associated 
            with this activity, the duration review that took place 
            since the June 14 hearing occurred without any input from 
            that division, which is to conduct fire safety and 
            occupancy inspections for the project and approve its 
            opening to the public. The Chief Fire Marshal told us that 
            although coordination has improved between his office and 
            the CVC project team, he has not always had an opportunity 
            to review project documentation early in the process and 
            has not yet received the project schedule. As a result, he 
            was uncertain whether the schedule provided enough time for 
            his office to do its work. For example, as of July 8, he 
            had not yet received documentation for the fire protection 
            systems, which his office needs to examine before it can 
            observe tests of these systems as the CVC team has already 
            requested. The Fire Marshal Division will also be involved 
            in fire alarm testing; the construction management 
            contractor plans to assess the duration of this activity 
            later after more detail is added to the schedule. In 
            addition, at the time the construction management 
            contractor performed its duration reassessment of East 
            Front stonework, the project was experiencing difficulty 
            getting stone deliveries on time. It is unclear to us how 
            the duration of the stonework could have been determined to 
            be reasonable given this problem and the lack of a clear 
            resolution at the time.
    --The May 2005 schedule includes a number of base project 
            activities that could be completed after September 15, 
            2006, even though their completion would seem to be 
            important for CVC to be open to the public. Such activities 
            include installing security systems, kitchen equipment, and 
            theater seating. According to the schedule, the late finish 
            dates for these activities are after September 15. The late 
            finish date is the latest date that an activity can be 
            completed without delaying the scheduled completion date 
            for the entire project. According to the construction 
            management contractor, a number of activities in the 
            schedule that are important to CVC's opening were not 
            linked to the September 15 opening date in the schedule. 
            The contractor agreed to address this issue.
    --Last week, we began to update our risk assessment of the 
            project's schedule and plan to have this update completed 
            in September. AOC has also engaged a consultant to perform 
            a risk assessment of the project's schedule and expects the 
            assessment to be done by mid-September. We believe that 
            better information on the likelihood of AOC's meeting its 
            September 15, 2006, opening date will be available after 
            our update and AOC's schedule risk assessment are done.
  --Aggressively monitoring and managing contractors' adherence to the 
        schedule, including documenting and addressing the causes of 
        delays, and reporting accurately to Congress on the status of 
        the project's schedule. We noted in our May 17 testimony that 
        neither AOC nor its construction management contractor had 
        previously (1) adhered to contract provisions calling for 
        monthly progress review meetings and schedule updates and 
        revisions, (2) systematically tracked and documented delays and 
        their causes as they occurred or apportioned their time and 
        costs to the appropriate parties on an ongoing basis, and (3) 
        always accurately reported on the status of the project's 
        schedule. On June 7 and July 8, AOC, its construction 
        management contractor, the sequence 2 contractor, and AOC's 
        schedule consultant conducted the first and second monthly 
        reviews of the schedule's status using a newly developed 
        approach that we discussed during the Subcommittee's June 14 
        hearing. Additionally, on June 28, we met with AOC and its 
        construction management contractor to discuss how delays are to 
        be analyzed and documented in conjunction with the new approach 
        to schedule management. During that meeting, AOC's construction 
        management contractor agreed to have its field supervisors 
        document delays and their causes on an ongoing basis and its 
        project control engineer summarize this information for 
        discussion at the monthly schedule reviews. After assessing the 
        new approach and observing the first two review sessions, we 
        believe that, if effectively implemented and sustained, this 
        approach should generally resolve the schedule management 
        concerns we previously raised, including how delays will 
        regularly be handled and how better information on the status 
        of the project will be provided to Congress. As we indicated on 
        June 14, we are encouraged by the construction management 
        contractor's addition of a full-time project control engineer 
        to the project and have seen noteworthy improvements in 
        schedule management since his arrival. Nevertheless, we plan to 
        closely monitor the implementation of this new approach, 
        including the resources devoted to it, the handling of delays, 
        and the accuracy of the information provided to Congress.
  --Developing and implementing risk mitigation plans. While monitoring 
        the CVC project, we have identified a number of risks and 
        uncertainties that could have significant adverse effects on 
        the project's schedule and costs. Some of these risks, such as 
        underground obstructions and unforeseen conditions, have 
        already materialized and have had the anticipated adverse 
        effects. We believe the project continues to face risks and 
        uncertainties, such as unforeseen conditions associated with 
        the project's remaining tunnels, the East Front, and other 
        work; scope gaps or other problems associated with the 
        segmentation of the project between two major contractors; and 
        shortages in the supply of stone and skilled stone workers. As 
        discussed during the Subcommittee's June 14 hearing, AOC has 
        not yet implemented our recommendations that it develop risk 
        mitigation plans for these types of risks and uncertainties, 
        but it has agreed to do so by mid-September. On July 1, AOC 
        added assistance in risk mitigation to the scope of its 
        contract with its schedule consultant.
  --Preparing a master schedule that integrates the major steps needed 
        to complete CVC construction and the steps necessary to prepare 
        for operations. A number of activities, such as obtaining 
        operators' input into the final layouts of retail and food 
        service areas, hiring and training staff, procuring supplies 
        and services, and developing policies and procedures, need to 
        be planned and carried out on time for CVC to open to the 
        public when construction is complete. Although AOC has started 
        to plan and prepare for CVC operations, as we indicated in our 
        May 17 and June 14 testimonies, it has not yet developed a 
        schedule that integrates the construction activities with the 
        activities that are necessary to prepare for operations. The 
        Subcommittee requested such a schedule during its April 13, 
        2005, hearing on AOC's fiscal year 2006 budget request. Because 
        it lacked funds, AOC had not been able to extend the work of a 
        contractor that had been helping it plan and prepare for 
        operations. During the week of June 6, AOC received authority 
        to spend the funds needed to re-engage this contractor, and on 
        June 30, AOC awarded a contract for the continued planning and 
        preparation for CVC operations. Now that AOC has re-engaged its 
        operations planning contractor, we believe that close 
        coordination between AOC staff working with this contractor and 
        the CVC project's construction team will be especially 
        important for at least two reasons. First, the operations 
        planning contractor's scope of work includes both the design of 
        certain space within the CVC project and the wayfinding signs 
        that are to be used within the project, and the timing and 
        content of this work needs to be coordinated with CVC 
        construction work. Second, about $7.8 million \3\ is available 
        for either CVC construction or operations, and it will be 
        important for AOC to balance the need for both types of funding 
        to ensure optimal use of the funds. Moreover, it is not clear 
        to us who in AOC will be specifically responsible for 
        integrating the construction and operations schedules and for 
        overseeing the use of the funds that are available for either 
        construction or operations.
---------------------------------------------------------------------------
    \3\ See footnote 6.
---------------------------------------------------------------------------
Project Costs and Funding
    As we said during the Subcommittee's May 17 and June 14 hearings, 
we estimate that the cost to complete the construction of the CVC 
project, including proposed revisions to its scope, will range from 
about $522 million without provision for risks and uncertainties to 
about $559 million with provision for risks and uncertainties. As of 
July 11, 2005, about $483.7 million had been provided for CVC 
construction.\4\ In its fiscal year 2006 budget request, AOC asked 
Congress for an additional $36.9 million for CVC construction. AOC 
believes this amount will be sufficient to complete construction and, 
if approved, will bring the total funding provided for the project's 
construction to $520.6 million. Adding $1.7 million to this amount for 
additional work related to the air filtration system that we believe 
will likely be necessary brings the total funding needed to slightly 
more than the previously cited $522 million. AOC believes that it could 
obtain this $1.7 million, if needed, from the Department of Defense, 
which provided the other funding for the air filtration system. AOC's 
$36.9 million budget request includes $4.2 million for potential 
additions to the project's scope (e.g., congressional seals, an 
orientation film, and storage space for backpacks) that Congress will 
have to consider when deciding on AOC's fiscal year 2006 CVC budget 
request.
---------------------------------------------------------------------------
    \4\ This amount does not include $700,000 made available by the 
Capitol Preservation Commission from the Capitol Preservation Fund for 
the design of the Library of Congress tunnel.
---------------------------------------------------------------------------
    AOC has not asked Congress for an additional $37 million (the 
difference between $559 million and $522 million) that we believe will 
likely be needed to address the risks and uncertainties that continue 
to face the project. These include, but are not limited to, shortages 
in the supply of stone, unforeseen conditions, scope gaps, further 
delays, possible additional requirements or time needed because of life 
safety or security changes or commissioning, unknown operator 
requirements, and contractor coordination issues. These types of 
problems have been occurring, and as of June 30, 2005, AOC had received 
proposed sequence 2 change orders whose costs AOC now estimates exceed 
the funding available in fiscal year 2005 for sequence 2 changes by 
about $1.3 million. AOC's estimate of these change order costs has 
grown by about $900,000 during the past 4 weeks.\5\ AOC plans to cover 
part of this potential shortfall by requesting approval from the House 
and Senate Committees on Appropriations to reprogram funds that AOC 
does not believe will be needed for other project elements. At this 
time, AOC does not believe that it will need additional funds in fiscal 
year 2005, assuming it receives reprogramming authority for sequence 2 
changes, unless it reaches agreement with the sequence 2 contractor on 
the costs associated with 10 months' worth of delays that have already 
occurred. If AOC needs funds for this purpose or for other reasons, it 
can request approval from the Appropriations Committees to use part of 
the $10.6 million that Congress approved for transfer to the CVC 
project from funds appropriated for Capitol Buildings operations and 
maintenance.\6\
---------------------------------------------------------------------------
    \5\ In our May 17 testimony, we reported that AOC had about 
$700,000 remaining in its fiscal year 2005 funding for sequence 2 
changes after deducting the estimated costs for proposed changes it had 
received. As of June 1, the estimated costs for sequence 2 changes 
exceeded the amount available for such changes by about $400,000. Since 
then, another $900,000 in estimated costs for potential change orders 
has been identified. About two-thirds of the $900,000 increase in 
estimated costs for sequence 2 changes during June was for additional 
fire safety work.
    \6\ Public Law 108-447, enacted in December 2004, provided that up 
to $10.6 million could be so transferred upon the approval of the House 
and Senate Committees on Appropriations for the use of the CVC project. 
In March 2005, AOC requested that about $4 million of these funds be 
transferred to CVC, including some funds for such work as the design of 
the gift shop space and consultant services to transition the project 
from construction to operations. As of June 10, AOC had received 
approval to use about $2.8 million of this $10.6 million, leaving a 
balance of about $7.8 million that can be used in the future. None of 
the $10.6 million is included in the previously cited $483.7 million.
---------------------------------------------------------------------------
    For several reasons, we believe that AOC may need additional funds 
for CVC construction in the next several months. These reasons include 
the pace at which AOC is receiving change order proposals for sequence 
2 work, the problems AOC has encountered and is likely to encounter in 
finishing the project, the uncertainties associated with how much AOC 
may have to pay for sequence 2 delays, and uncertainty as to when AOC 
will have fiscal year 2006 funds available to it. For example, AOC is 
likely to incur additional costs for dehumidification or for additional 
workers to mitigate the expected delay in the utility tunnel. AOC may 
also incur more costs than it expects for certain activities, such as 
those necessary to support security during the remainder of the 
project's construction. AOC may be able to meet these needs as well as 
the other already identified needs by obtaining approval to use some of 
the previously discussed $10.6 million and by additional reprogramming 
of funds.\7\ However, these funds may not be sufficient to address the 
risks and uncertainties that may materialize from later this fiscal 
year through fiscal year 2007. Thus, while AOC may not need all of the 
$37 million we have suggested be allowed for risks and uncertainties, 
we believe that, to complete the construction of CVC's currently 
approved scope, AOC is likely to need more funds in fiscal years 2006 
and 2007 than it has already received and has requested. Although the 
exact amount and timing of AOC's needs are not clear, we believe that 
between $5 million and $15 million of this $37 million may be required 
in fiscal year 2006. Effective implementation of our recommendations, 
including risk mitigation, could reduce AOC's funding needs.
---------------------------------------------------------------------------
    \7\ AOC has requested approval to reprogram about $1.6 million from 
sequence 1 construction and the East Front Interface to fund 
anticipated additional costs for the House connector tunnel, the 
Jefferson Building connection to the Library of Congress tunnel, and 
certain security-related work.
---------------------------------------------------------------------------
    Since the Subcommittee's June 14 hearing, three issues related to 
the project's costs have emerged that we believe should be brought to 
your attention. Discussion of these issues follows.
  --First, coordination within the CVC project team and between the 
        team and AOC's Fire Marshal Division has been an issue, 
        especially with respect to the project's fire protection 
        systems. Although the CVC project team established biweekly 
        meetings with Fire Marshal Division staff in March 2005 to 
        enhance coordination, gaps in coordination have, as discussed, 
        already led to uncertainty about whether enough time has been 
        scheduled for fire alarm testing and for building occupancy 
        inspections. Such gaps have also increased the costs associated 
        with the fire protection system. For example, AOC recently took 
        contractual action costing over $90,000 to redesign the 
        mechanical system for the Jefferson Building connection to the 
        Library of Congress tunnel to meet the Fire Marshal Division's 
        fire safety requirements. According to the Chief Fire Marshal, 
        he was not given the opportunity to participate in the planning 
        process before the design of the Jefferson Building connection 
        was substantially completed. In addition, several fire-safety-
        related contract modifications and proposed change orders for 
        additional work now total over $3.5 million. With better 
        coordination between the CVC project team and the Fire Marshal 
        Division, the need for some of this work might have been 
        avoided or identified sooner, and had this work been identified 
        during the original competition, the price would have been 
        subject to competitive pressures that might have resulted in 
        lower costs. Because of the fire protection system's increasing 
        costs, disagreements within the CVC team and between the team 
        and the Fire Marshal Division over fire safety requirements, 
        problems in scheduling fire safety activities, and other 
        related issues, we suggested that AOC take appropriate steps to 
        address the coordination of fire protection activities related 
        to the CVC project. AOC agreed and has taken action. For 
        example, starting this week, AOC's Fire Marshal Division agreed 
        to have a staff member work at the CVC site 2 days a week, and 
        AOC CVC staff recently agreed to provide the necessary 
        documentation to the Fire Marshal Division before its 
        inspections or observations were needed.
  --Second, as we indicated earlier in our testimony, we are concerned 
        about the integration of planning, scheduling, and budgeting 
        for CVC construction and operations. While the CVC project team 
        has been overseeing CVC construction, other AOC staff have been 
        assisting the operations planning contractor in planning and 
        budgeting for CVC operations. Close coordination between the 
        two groups will be especially important in the next few months, 
        when decisions will likely have to be made on how to use the 
        $7.8 million remaining from the $10.6 million that Congress 
        made available to the CVC project for either operations or 
        construction. The Architect of the Capitol agreed to give this 
        issue priority attention.
  --Finally, we are concerned that AOC may incur additional costs for 
        interim measures, such as temporary walls that it may have to 
        construct to open CVC to the public in September 2006. Such 
        interim measures may be needed to make the project safe for 
        visitors if some other construction work has not been 
        completed. For example, AOC may have to do additional work to 
        ensure adequate fire protection for CVC, since the House and 
        Senate expansion spaces are not scheduled to be done until 
        March 2007. In addition, AOC may have to accelerate some work 
        to have it completed by September 15, 2006. While it is not 
        necessarily unusual to use a facility for its intended purpose 
        before all construction work is complete, we believe that it 
        will be important for Congress to know what additional costs 
        AOC expects to incur to open CVC by September 15, 2006, so that 
        Congress can weigh the costs and benefits of opening the 
        facility then rather than at a later date, such as March 2007, 
        when AOC plans to complete the House and Senate expansion 
        spaces.

Recommendations for Executive Action
    To ensure that (1) Congress has sufficient information for deciding 
when to open CVC to the public and (2) planning and budgeting for CVC 
construction and operations are appropriately integrated, we recommend 
that the Architect of the Capitol take the following two actions:
  --In consultation with other appropriate congressional organizations, 
        provide Congress with an estimate of the additional costs that 
        it expects will be incurred to open CVC to the public by 
        September 15, 2006, rather than later, such as after the 
        completion of the House and Senate expansion spaces.
  --Promptly designate who is responsible for integrating planning and 
        budgeting for CVC construction and operations and give this 
        activity priority attention.

Agency Comments
    AOC agreed to take the actions we are recommending. According to 
AOC, information on the estimated costs of the additional work 
necessary to open CVC to the public in September 2006 may not be 
available until this fall. In addition, AOC said that the recent re-
engagement of the contractor assisting AOC in planning for CVC 
operations and the hiring of an executive director for CVC, which AOC 
plans to do in the next few months, are critical steps for integrating 
CVC construction and operations.
    Mr. Chairman, this completes our prepared statement. We would be 
happy to answer any questions that you or other Subcommittee Members 
may have.

            APPENDIX I.--CAPITOL VISITOR CENTER CRITICAL CONSTRUCTION MILESTONES, MAY 2005-JULY 2005
----------------------------------------------------------------------------------------------------------------
                                                                                         Scheduled      Actual
                   Activity                                    Location                  completion   completion
----------------------------------------------------------------------------------------------------------------
Wall Stone Area 1.............................  Great Hall \1\ \2\....................      5/11/05      6/06/05
Scheduled for completion between 5/17/05 and 6/
 14/05:
    Wall Stone Area 3 Base Support............  Great Hall \1\........................      5/20/05      5/20/05
    Wall Stone Layout Area 4..................  Great Hall............................      5/20/05      6/06/05
    Saw Cut Road at 1st Street................  Utility Tunnel \1\....................      5/24/05      6/27/05
    Wall Stone Area 4 Base Support............  Great Hall \1\........................      5/27/05      6/15/05
    Wall Stone Layout Area 5..................  Great Hall............................      5/27/05      5/27/05
    Masonry Wall Lower Level East.............  Cong. Auditorium......................      6/03/05      5/25/05
    Wall Stone Area 5 Base Support............  Great Hall \1\........................      6/06/05      6/09/05
    Wall Stone Layout Area 6..................  Great Hall............................      6/06/05      6/15/05
    Drill/Set Soldier Piles at 1st Street.....  Utility Tunnel \1\....................      6/08/05  ...........
    Wall Stone Area 6 Base Support............  Great Hall \1\........................      6/13/05      6/17/05
Scheduled for completion between 6/15/05 and 7/
 31/05:
    Wall Stone Layout Area 8..................  Great Hall............................      6/20/05  ...........
    Masonry Wall..............................  Orientation Theater...................      6/24/05      6/28/05
    Wall Stone Layout Area 9..................  Great Hall............................      6/24/05  ...........
    Wall Stone Area 9 Base Support............  Great Hall \1\........................      7/05/05  ...........
    Wall Stone Installation Area 2............  Great Hall............................      7/06/05  ...........
    Wall Stone Installation Area 3............  Great Hall............................      7/06/05  ...........
    Wall Stone Installation Area 4............  Great Hall............................      7/15/05  ...........
    Wall Stone Area 9 Base....................  Great Hall \1\........................      7/15/05  ...........
    Excavate/shore Station 0-1................  Utility Tunnel \1\....................      7/21/05  ...........
    Concrete Working Slab 1st Street..........  Utility Tunnel \1\....................      7/26/05  ...........
    Waterproof Working Slab Station 0-1.......  Utility Tunnel \1\....................      7/29/05  ...........
----------------------------------------------------------------------------------------------------------------
\1\ These activities are critical.
\2\ This activity was scheduled for completion by the Subcommittee's May 17 hearing but was not done as of that
  date.

Source: AOC's April 2005 CVC sequence 2 construction schedule for the scheduled completion dates and AOC and its
  construction management contractor for the actual completion dates.

Note: Actual completion information was obtained on July 12.

    Senator Allard. Now, Mr. Hantman. We are proceeding. I 
apologize for how our morning is getting to be fractionated, 
but we have a number of votes on the floor of the Senate and 
you know how that works around here. I know you are very busy. 
All of you have very busy schedules, and I know we are 
disrupting them and I apologize for that.
    But go ahead and proceed with your testimony if you would, 
Mr. Hantman.

STATEMENT OF ALAN M. HANTMAN, FAIA, ARCHITECT OF THE 
            CAPITOL
ACCOMPANIED BY BOB HIXON, PROJECT MANAGER, CAPITOL VISITOR CENTER, 
            ARCHITECT OF THE CAPITOL

    Mr. Hantman. Thank you, Mr. Chairman, and I apologize again 
for not being here for your opening statements. We will just 
proceed from here. I am pleased in fact to be here to discuss 
the progress that we have made since our hearing on June 14.
    Last month we discussed several important issues, including 
development of an overall project risk mitigation plan, our 
coordination with the fire marshal that Mr. Ungar just talked 
about, our continuing work on the East Capitol Street utility 
tunnel, the integration of our construction sequence with an 
operations plan, and finally some concerns related to stone 
deliveries. All those things I can give you an overview on.
    Regarding the last issue, though, we noted in our previous 
discussion that the delivery of stone to the project site in 
the quantities specified by the contract continues below 
expected levels. However, we have taken some important steps 
that we hope will facilitate and expedite both the fabrication 
and delivery of stone, most importantly to the Great Hall where 
some critical pieces are needed for other work to progress. I 
will be happy to discuss this with you in greater detail and I 
look forward to answering your questions regarding all of these 
issues.

                     INTERIOR CONSTRUCTION PROGRESS

    But first, with the help of a few photo boards, I would 
like to show the subcommittee some of the progress that has 
continued during the past few weeks. As has been the case since 
the Inaugural, all the work continues inside the CVC, with the 
sequence 2 contractor, Manhattan, continuing installation of 
ductwork and piping, all the heating, cooling, supply, waste, 
fire protection, and electrical systems. All 20 air-handling 
units have been installed, clearing the way for completion of 
adjacent piping and support steel that had been left out to 
provide open pathways to move the air-handling units into 
place.
    In the photo on the easel to my right, Mr. Chairman, you 
can see the crews are busy installing cable trays in all the 
ceiling spaces to carry fire alarm, security, and communication 
wire through all areas in the CVC.
    In the bottom photo, you can see the installation of 
restaurant plumbing that is also proceeding well.
    In the next photo board, you can see that the food service 
area is receiving metal stud framing in the top picture and 
wall framing to the front, individual rooms and equipment areas 
at the bottom.
    The concrete topping slab has been completed throughout the 
zone. Stone wall installation is substantially complete and 
plaster work now has become the primary finishing activity in 
this area and is also proceeding well.
    In the next board, this photo was taken last Friday in the 
Great Hall. You can see that stone work continues to be the 
dominant activity. Sandstone now reaches the ceiling both on 
the south wall and on the southwest wall, which encloses the 
south orientation theater. Stone installation has now begun on 
the north walls as well.
    Much of the stone for the Great Hall previously stored in 
the House expansion space has been moved to the Great Hall and 
is awaiting installation. Moving stone out of the House 
expansion space has cleared the way for Manhattan's 
subcontractor, Grunley, to begin laying conduit in the 
expansion space floor slabs. Grunley is the subcontractor who 
will complete the fit-out work, Mr. Chairman, for both the 
House and the Senate expansion space.
    As I mentioned earlier, some critical stone pieces have not 
yet been delivered, so the contractor has resequenced some of 
the work. This is a pretty common practice and it will help 
explain, in some cases, why some of our stone work is not 
tracking precisely as scheduled.
    Now, in the orientation theaters, only minor masonry block 
work remains along the west walls of the theater at the 
locations of the door openings. At the bottom is a recent shot 
of the south orientation theater, with some of the interior 
railing walls being erected. Last, Mr. Chairman, in the east 
front, the east front extension spray fireproofing has been 
completed on all three levels.

                     EXTERIOR CONSTRUCTION PROGRESS

    Now, outside on the CVC roof deck, granite paver 
installation has resumed. Meanwhile, in this photo you can see 
that masons are installing the original stone base for the 
historic lanterns and the fountains in the center of the east 
front plaza. This clears the way for paver installation around 
these elements. This base work was completed last week and this 
rendering shows a view looking east at one of those lanterns 
and how it will look upon completion.
    Stone crews have also nearly completed the installation of 
granite blocks along the north pedestrian ramp and work is now 
progressing well along the south wall. In the top photo, Mr. 
Chairman, you can see a worker applying grout between the 
granite blocks on the north wall.
    At the bottom of the next board, a mason is installing 
dowels that will be used to align and anchor the granite steps 
for the monumental stairs that we walked down on our last tour. 
In the top photo we see a new granite bench that is being 
installed on the plaza near First Street. So a lot of exterior 
finish stone work is proceeding as well.

                        UTILITY TUNNEL PROGRESS

    Along East Capitol Street, work on the primary utility 
tunnel for the CVC continues to progress and critical work 
centers around the utility tie-ins at Second Street and First 
Street installations. Despite some setbacks on Second Street 
related to the D.C. Water and Sewer Authority's inability to 
operate some existing, antiquated water line valves, we were 
able to complete some utility work in that area and restore 
two-way traffic on Second Street earlier this week.

                          ADMINISTRATIVE ITEMS

    I am also pleased to report that the sequence 1 contractor, 
Centex Corporation, has demobilized its on-site project trailer 
office and will complete the remaining punch list items with 
personnel who will be sent to the site for specific activities.
    Mr. Chairman, I would like to note one more important 
development on the administrative side of the project. I am 
pleased to announce that we have renewed our contract with J.M. 
Zell Partners, Ltd, our operations consultant. We met with them 
this week and they have begun an intensive effort to update and 
refine their earlier recommendations regarding personnel and 
procedures, as well as identifying the most critical and urgent 
actions necessary to ensure that all operations elements will 
be in place for a smooth opening of the Capitol Visitor Center.
    Given the fact, Mr. Chairman, that governance has not yet 
been decided between the House and the Senate, at our Capitol 
Preservation Commission meeting this Monday, it was determined 
that one of the best ways of proceeding, specifically to begin 
to get an executive director on board, is to refine that job 
description. We would then send it to our oversight committees 
with a request, basically a proposal that would allow me to 
advertise for this position using AOC general funds in advance 
of the 2006 budget coming in, so that we can start moving 
along, pending the availability of funds, to hire somebody to 
do this important job, and the other people as well.
    So thank you, Mr. Chairman. I am certainly more than happy 
to answer your questions as we go along.
    [The statement follows:]

              Prepared Statement of Alan M. Hantman, FAIA

    Good morning, Mr. Chairman, Senator Durbin, members of the 
committee. I am pleased to be here to discuss the progress we have made 
since our last hearing on June 14.
    Last month, we discussed several important issues including the 
development of an overall project risk mitigation plan, our 
coordination with our Fire Marshal, our continuing work on the East 
Capitol Street Utility tunnel, the integration of our construction 
sequence with an operations plan, and finally, some concerns related to 
our stone deliveries. Regarding this last issue, we noted in our 
previous discussion that the delivery of stone to the project site in 
the quantities specified by the contract continues below expected 
levels. However, we have taken some important steps that we hope will 
facilitate and expedite both the fabrication and delivery of stone, 
most importantly to the Great Hall, where some critical pieces are 
needed for other work to progress. I will be happy to discuss this with 
you in greater detail and I look forward to answering your questions 
regarding all of these issues, but first, with the help of a few photo 
boards, I would like to show the committee some of the progress that 
has occurred during the last few weeks.
    As has been the case since the Inaugural, the bulk of work 
continues inside the CVC with the Sequence 2 contractor, Manhattan, 
continuing installation of ductwork and piping for all of the heating, 
cooling, supply, waste water, fire protection, and electrical systems. 
All 20 air handling units have been installed, clearing the way for 
completion of adjacent piping and support steel that had been left out 
to provide open pathways to move the air handling units into place. In 
this photo here, crews are busy installing cable trays in all of the 
ceiling spaces to carry fire alarm, security and communications wiring 
to all areas of the CVC.
    As you can see in this photo, the Food Service Area is receiving 
metal stud ceiling framing and wall framing to define individual rooms 
and equipment areas. The concrete topping slab has been completed 
throughout this zone and stone wall installation is substantially 
complete. Plaster work now has become the primary finish activity in 
this area and is proceeding well.
    In this photo taken last Friday in the Great Hall, you can see that 
stone work continues to be the dominant activity. Sandstone now reaches 
the ceiling on both the south wall and on the southwest wall, which 
encloses the south orientation theater. Stone installation has now 
begun on the north walls. Much of the stone for the Great Hall, 
previously stored in the House expansion space, has been moved to the 
Great Hall and is awaiting installation. Moving stone out of the House 
expansion space has cleared the way for Manhattan's sub-contractor, 
Grunley, to begin laying conduit in the expansion space floor slabs. 
Grunley is the subcontractor who will complete the fit-out work for 
both House and Senate expansion spaces. As I mentioned earlier, Mr. 
Chairman, some critical stone pieces for the Great Hall have not yet 
been delivered, so the contractor has re-sequenced some of the work. 
This is a common practice and it will help explain, in some cases, why 
some of our stone work isn't tracking precisely as scheduled.
    In the Orientation Theaters, only minor masonry block work remains 
along the west walls of the theater at the locations of the doorway 
openings. Here is a recent shot of the south orientation theater with 
some of the interior walls being erected. Finally, in the East Front 
Extension, spray fireproofing is complete on all three levels.
    Outside on the CVC roof deck, granite paver installation has 
resumed. Meanwhile, in this photo, you can see masons installing the 
original base stone for the historic lanterns and fountains in the 
center of the East Front Plaza, clearing the way for paver installation 
around these elements. This base work was competed last week and this 
rendering shows a view looking east at one of those lanterns.
    Stone crews have also nearly completed the installation of granite 
blocks along the north pedestrian ramp and work is now progressing well 
along the south wall. In the top photo, you see a worker applying grout 
between the granite blocks on the north wall. At the bottom, a mason is 
installing dowels that will be used to align and anchor the granite 
steps for the monumental stair that flanks the north side of the CVC 
entrance.
    Along East Capitol Street, work on the primary utility tunnel for 
the CVC continues to progress and critical work centers around the 
utility tie-ins at the Second Street and First Street intersections. 
Despite some setbacks on Second Street related to the D.C. Water and 
Sewer Authority's inability to operate some antiquated waterline 
valves, we were able to complete some utility work in that zone and 
restore two-way traffic on Second Street earlier this week.
    One last note on the construction side: I am pleased to report that 
the Sequence 1 contractor, Centex Construction, has demobilized its on-
site project trailer office and it will complete the remaining 
punchlist items with personnel who will be sent to the site for 
specific activities.
    Before I take your questions, Mr. Chairman, I would like to note 
one important development on the administrative side of the project. I 
am pleased to announce that we have renewed our contract with the Zell 
Corporation, our operations consultant. They have begun an intensive 
effort to update and refine their earlier recommendations regarding 
personnel and procedures, as well as identify the most critical and 
urgent actions needed to ensure that all operations elements are in 
place for a smooth opening of the Capitol Visitor Center.
    Thank you, Mr. Chairman, for this opportunity to report to you and 
the Committee on the status of the CVC project. I am happy to answer 
any questions you may have at this time.

                            COST TO COMPLETE

    Senator Allard. Well, thank you, very much, both of you, 
for your testimony. We are in a 10-minute vote and I will ask 
one question to you, Mr. Hantman, and then I will go vote.
    Mr. Hantman, I am going to give you a last shot here at our 
budget for fiscal year 2006. This will be your last opportunity 
to make some remarks in that regard. As you are aware, the 
House position is at $36.9 million. Are you comfortable with 
the House position or do you believe the higher Senate level of 
$42 million for the CVC will be necessary?
    Mr. Hantman. We have reviewed the budget. We continue to 
review the budget. Based on everything that we know at this 
time, the amount of money that we have requested for fiscal 
year 2006 would be adequate. What we are discovering, recently, 
is we have got some issues that have come up. We have not 
received all of the proposals yet for the delay costs, so we 
cannot be certain that there might not be some added costs in 
the future.
    But at this point, based on everything that we are aware 
of, the $36.9 million is adequate. Again, our friends at GAO 
are certainly pointing out risks going down the road and we can 
only identify things that we see at this point in time. 
Certainly when they talk about Monte Carlo and risk analysis, 
the concern with unforeseen circumstances is still real and we 
respect where they are coming from.
    Senator Allard. Can you give me your commitment that by the 
time of our next hearing you and GAO will be able to provide us 
with an updated assessment of the cost to complete the CVC 
project?
    Mr. Hixon. Sir, we have contracted with McDonough Bolyard 
Peck to do the update of the cost to complete. The draft will 
be done the first part of September. We are working through the 
congressional work period for a number of these people. But we 
will have the draft in in the first part of September. The 
final report will not be done until October. But we will 
certainly be sharing all the data we get with the GAO so that 
they know what we know about what those expectations are and if 
there are any surprises.
    Senator Allard. Well, thank you both.

                        POTENTIAL COST INCREASES

    Next question, and this again is to you, Mr. Hantman. This 
is in relation to the increase in costs over the last month. 
According to the GAO, the cost estimate for potential changes 
worsened quite a bit over the past month. Why did this happen 
and are you still comfortable that you will not need any 
additional funds?
    Mr. Hantman. Bob.
    Mr. Hixon. Sir, if I can respond to that, we have had two 
large change orders that, or potential change orders (PCO), 
that were generated in the last month. One of them deals with 
the control system for smoke control, fire alarm areas. We are 
trying to sort out what the value of that is. The number that 
is in the PCO log that is so large is a surprise to all of us. 
We did not expect it to be anywhere near that big and we are 
trying to determine if there are misunderstandings of scope, if 
the number really should be anything near as big as that.
    The other relates to a plug number that was put into the 
record in anticipation of what the cost might be for building 
temporary partitions and doing things associated with the 
occupancy of the CVC earlier than the completion of the 
expansion space. It is simply a plug number. There is no basis 
for the number. It was just a number put in there.
    Those are two very large numbers that have accounted for 
the big increase that we have had over what we have had before. 
We are still continuing to receive change orders, change order 
requests, from the contractor. We will be continuing to receive 
those for a long time. But these two large ones push the number 
up much higher than you would normally expect and they need to 
be reviewed.
    Senator Allard. Mr. Hantman.
    Mr. Hantman. Mr. Chairman, just a little more clarification 
on that. One of the things that Mr. Ungar indicated in his 
opening statement was the idea that if, in fact, additional 
funds are going to be spent on opening the visitor center prior 
to the completion of the expansion spaces, which we know are 
going to be several months behind since we just awarded that 
contract a number of weeks ago, and we testified to this at the 
last hearing.
    So when Mr. Ungar talked about letting Congress know about 
possible dollars that might be spent to, as he called it--
whether it is accelerating the opening of the CVC, I really do 
not think of it that way. What I think of it as is, because we 
will still be under construction for the House and Senate 
expansion spaces after the CVC is completed, do we need from an 
emergency egress perspective to essentially put in some 
additional sheet rock, some additional lighting, so in fact if 
there is an emergency evacuation of the CVC that they will be 
able to get to the stairways in the House and Senate expansion 
space.
    So that is the plug number that has been referred to right 
now, and clearly we would not be spending those dollars unless, 
as Mr. Ungar indicates, we inform the Preservation Commission 
of that and we get approval to do so.

                              FIRE MARSHAL

    Senator Allard. We have pushed you to work with the fire 
marshal on what his requirements might be. We want to feel 
confident about exactly what his requirements might be, and I 
assume that you are continuing to push this dialogue with the 
fire marshal.
    Do you feel confident at this point in time that you are 
there? And then I will ask Mr. Ungar if he is comfortable with 
where everything is?
    Mr. Hantman. Mr. Chairman, we have initiated a situation 
where the fire marshal now has a representative sitting in 
Bob's trailer 2 days a week and we have dedicated times when 
the fire marshal's people will be available to do checkoffs and 
things of that nature. If we are ready for it and they are not 
available, that would not happen; so that we have dedicated 
times and hopefully we can work more closely together and give 
them the drawings in advance, so they can in fact know what is 
coming down the road.
    Senator Allard. Good.
    Mr. Hantman. Bob, do you have any more to add?
    Mr. Hixon. We have also been meeting with the fire marshal 
every other week. So the goal is to ensure that we do have all 
the activities coordinated. As sophisticated as the smoke 
evacuation system is for the building, together with the 
regular fire alarm system, it is a very complicated system. So 
there is a great deal of coordination that is underway. We are 
working very well with the fire marshal to accommodate all of 
those requirements.
    The control system that we talk about is not something 
generated by the fire marshal as a requirement, but rather the 
design is accommodating some elements that make the system work 
better. So we think we are doing a good job of coordinating 
with them and we expect to be able to get through all of this 
planning here in the next 5 months. We will start checking out 
the systems in the springtime, but there is a great deal of 
planning that has been done to date and there is a great deal 
more to be accomplished.
    Mr. Hantman. Just one last point on that, Mr. Chairman. 
Some of the dollars and the coordination issues that GAO 
referred to relative to the fire marshal is really a result of 
the fact that we are on the cutting edge of trying to balance 
some of the fire safety issues with security issues. Security 
issues have never been imposed to the extent that they are now 
with this new visitor center, and sometimes they are in 
conflict with fire marshal criteria, which is why it is even 
more important for us to sit down and make sure that we have 
this ongoing communication.
    Senator Allard. I know you are serving food down in the 
lower level. If food is cooked down there and you have a lot of 
smoke or it could be a problem.
    Mr. Ungar. Yes, Mr. Chairman. We think that the steps that 
AOC has put into place should hopefully help resolve the 
problems that have existed. There is one other step that Bob 
and Alan did not mention that they are taking that we think is 
also important and necessary, and that is that they have asked 
the team to go back and relook at this whole issue, because 
there were some disagreements within the team.
    So we think in addition to coordination with the fire 
marshal and having the fire marshal's representative there, 
this is an important step.

                          ACCELERATION OF WORK

    There is one other issue I just wanted to clarify. When 
Alan was talking about the additional costs that might be 
associated with opening the facility in September, the example 
he gave was correct. Because of the House and Senate expansion 
spaces not being done, there may have to be some temporary 
work. But the other issue that we are concerned about equally 
as well is acceleration of work between now and then, for 
example acceleration of work solely for the purpose of meeting 
the September 15 deadline--excuse me, target date.
    AOC is experiencing a problem with the stone work on the 
east front that had to do with some unforeseen conditions and 
AOC is anticipating that it will be able to bring the schedule 
back to regain the 24 days that have been lost. Now, if that is 
going to cost more money, though, to do that, the question is 
should AOC really do that if the only purpose is to meet the 
September 15 date.
    I would contrast that with the problems that AOC is 
experiencing on the utility tunnel with some delay there. If 
AOC has to expend additional money to recover time, there are 
many benefits to doing that, to getting that operational 
sooner, aside from the September 15 opening date. So we would 
distinguish between acceleration that really has a lot of 
benefits to acceleration that would solely benefit or help AOC 
achieve the September 15 date, which to our knowledge is not a 
congressionally mandated date.

                LEGAL ISSUES INVOLVING STONE CONTRACTOR

    Senator Allard. You have brought up the issue of the stone 
quarry. My understanding is that we are having some supply 
problems with the stone. I believe you may have had to lay off 
one or two of your masons because of not enough supply coming 
in. I remember in a previous hearing we were wondering whether 
we were going to have enough masons there to be able to install 
the stone.
    So apparently there are some legal problems, and we only 
have a single source for stone and do not have an option of 
going to another source. We are locked in. Can you explain how 
it is that we got to that position and is there a remedy? I do 
not know how you control the length of time of the lawsuit.
    Do we have a remedy in case this gets dragged out?
    Mr. Hantman. Mr. Chairman, there was a hearing in 
Pittsburgh on Friday. The situation is that Manhattan 
Corporation has an injunction that has been issued against 
them, mandating that they use the fabricator that they are 
currently using and the quarry that they are currently using. 
Now, those folks have not been delivering enough stone, as we 
see on our schedule, for the installation to proceed in 
accordance with the schedule that we have.
    So the injunction--there was a hearing on Friday, to which 
I sent Bob Hixon and our attorney, and I also sent a letter to 
Manhattan expressing concern, as we discussed at our last 
hearing, about the quantity of stone being delivered and 
installed in a timely way. Since Bob was there, I will let him 
talk directly to what was heard and what the next step is 
relative to this injunction.
    Senator Allard. Bob.
    Mr. Hixon. At the Friday meeting, we had representatives 
from Annandale, who is the supplier of the stone and quarry as 
well as the fabricator, as well as the contractors involved, 
Boatman Magnani, who is the stone subcontractor, and Manhattan. 
We were only an interested party present there to observe and 
let the judge know that we are very concerned about the 
delivery of the stone because it is not coming in in accordance 
with the schedule that Manhattan has.
    We are really supporting Manhattan in trying to ensure that 
they can get the stone required and have it installed. What 
came out of that were two items. One is the judge has said that 
we were not a party to the injunction, so that our contractual 
opportunities that we would normally have are still retained. 
But more importantly, what she required is a certification by 
the parties in the injunction that they could in fact provide 
stone in accordance with the schedule required for timely 
completion of the project, in accordance with the current 
contract completion date of September 15. So they have required 
that certification. It is to be submitted to her by this 
Friday, and if someone for some reason cannot sign the 
certification she said she wanted to hear about that 
immediately so that she could schedule a meeting next week to 
talk about it.
    So she seems very supportive in ensuring that the actions 
that she has imposed by the injunction do not adversely affect 
our ability to get stone from the parties. If in fact they 
cannot certify and deliver on time, then there are other 
options that will have to be evaluated. So at this point we are 
looking to see if they will certify and we are also monitoring 
the delivery of stone that is coming to the job site to see if 
it meets the new schedule that the fabricator has provided.
    Senator Allard. Well, your comments are somewhat 
heartening. So I appreciate your work on that.

                          MILESTONE COMPLETION

    According to GAO, only 3 of the 17 critical milestones last 
month were accomplished on schedule.
    Two questions. Why have these milestones not been met; and 
how do you expect to meet your September 15 deadline as we 
continue to miss so many milestones?
    Mr. Hixon. Yes, sir. We are concerned with the milestones 
that we have missed. What we have had is since the April 
schedule was developed the critical path has moved around a 
little bit as the schedule became further defined. We have 
missed some milestones associated with the utility tunnel and 
we all understand the reason for those, and they are working to 
try and--we should be installing the sheeting piles on First 
Street here in the next couple of days and begin to start doing 
that work, which will be helpful. That is one of the items left 
over from the first chart that we had. You can see it marked in 
yellow there.
    When you look at the second chart, which talks about the 
activities that have been done lately, later after that--well, 
yes. Mr. Hantman has pointed out that all of those items on 
that first chart were in fact completed except the one in 
yellow. It is now done. So all those activities are in fact 
complete. Some of them were a few weeks late being completed.
    When you go to the second chart, we have two issues there. 
Again, you have the utility tunnel with some issues with the 
issues associated with the completion of that work, with the 
water lines and all. The rest of those items have to do with 
the wall stone installation in the Great Hall area, and they 
have two items on the top associated with layout of areas 8 and 
9. Those are supposed to be done in the next couple of days and 
they will be completed and off the chart.
    The other has to do with the wall stone in areas 3 and 4. 
You saw the picture that Mr. Hantman showed earlier of area 3, 
which is almost finished. Area 4 is hardly started. That work 
will not be done for some time. That is on the north 
orientation theater. That is going to take a number of weeks. 
So that one will be weeks late being completed. It is no longer 
on the critical path, but it is going to be much later than was 
reflected in the April schedule.
    Senator Allard. Now, on the--my question is, do you agree 
with their assessment, Mr. Ungar?
    Mr. Ungar. Let me start, Mr. Chairman, and turn it over to 
Mr. Dorn.
    I would just like to say one thing first and that is that 
one of the issues that we have talked to AOC about during this 
month with respect to these milestones has to do with the stone 
installation. What we have noted in this process is that for 
the most part the installation of the wall stone is not on the 
project's critical path, and AOC has certainly said that this 
is one of the most important activities in the whole project.
    So we have asked AOC to go back and reassess this whole 
issue, because it was not logical that it not be on the 
critical path, at least in our perception. So that is one issue 
that we think needs to be addressed.

                       STONE INSTALLATION DELAYS

    I think Mr. Dorn has some further comments on the effects 
of not meeting these milestones.
    Senator Allard. Mr. Dorn.
    Mr. Dorn. I guess first a comment about the stone. Alan did 
a great job of sending a letter out to Manhattan about their 
suppliers and getting the stone here on time. In that letter he 
attached a couple charts that he received from the contractor 
that showed that by next week, on July 22, we should have over 
85 percent of the stone here on site. And we are nowhere near 
that quantity, nowhere near it.
    The dates continue to slip. There are a number of dates on 
that chart now that show 8 to 10 weeks later than what the 
April baseline showed. We cannot say it is impossible for them 
to meet this September 15 target that they have got, but at 
what cost? That is what concerns me. Stone supply is still a 
risk.
    The stone work that they have done, while they did the food 
service area ahead of schedule, they still took longer to do it 
than they said they were going to do. So the duration was 
longer. You just moved it further ahead, and it was not 
critical to begin with.
    The suppliers again have not met their production for 
months. There is talk of adding a second supplier possibly at 
this later date, but at what cost is that going to be? Someone 
cannot start up immediately and produce the stone that you 
need. Second, it would be a noncompetitive procurement, so you 
have got an additional cost risk there.

                           ACCELERATION COSTS

    Also, you have got the utility tunnel delay. Bernie 
mentioned that you could accelerate the construction of that 
tunnel to minimize temporary services and that was, I think, 
Bob Hixon's idea, which we think is a good one, if you analyze 
your schedule and determine that it is going to help. It could, 
though, be an arbitrary decision and I do not think Bob will 
make that sort of thing. But you need to look at the schedule 
and make sure that there are not other concurrent delays that 
would overtake this thing anyway. Why pay to accelerate here if 
other delays are going to stop you from getting to where you 
need to be on a certain date.
    Your other choice is to add temporary dehumidification or 
temporary services. Again, we pay for that. All of these things 
are to get us to that September 15 date, which is arbitrary.
    There is talk about trying to, on the stone issue, 
particularly the east front that Bernie mentioned, that one of 
the ways to speed up the stone is to get the tickets to the 
contractor faster. Instead of getting all of your shop drawings 
together and sending one order in to the stone supplier, break 
it up into smaller orders and send it. I am not quite sure how 
that really helps a lot.
    It is like my Burger King analogy. If I took my three kids 
to Burger King at the beach and I saw they were slow making 
hamburgers, does it help me if I send the three of them to 
different registers to place their orders separately from me? 
If the hamburgers are slow, I am not going to get there any 
faster.
    There is a $1 million, roughly, placeholder for tasks that 
are required to get the CVC open before the expansion space. It 
is a placeholder. There is nothing really behind that yet that 
we are aware of, but we are concerned about that.
    All this rolls up into saying that we are concerned about 
their assessment of the schedule. It is similar to the 
optimistic statements that we heard 2 years ago with Centex. 
The people over there at the other table are sincere. They 
really want to make this happen for you. They are aggressively 
trying to make it happen. But we are concerned.

                      ASSESSMENT OF TASK DURATIONS

    Senator Allard. This has to do with the assessment of the 
task durations. At our last meeting the Architect of the 
Capitol agreed to reassess schedule task durations by the time 
of this hearing. Has a detailed evaluation of key activities 
been conducted and what were the steps you followed in 
conducting this reassessment?
    Mr. Hantman. Bob.
    Mr. Hixon. Yes, sir. The assessment was done. All but three 
of the items have been reviewed, and that is the testing and 
balancing--and these are complicated ones that require 
additional refinement of the schedule and additional 
evaluation--but the commissioning of the systems, the test and 
balancing of the HVAC system, and the fire alarm system are the 
three that remain.
    All other durations have been evaluated by Gilbane's 
project managers, their superintendents, and they have done 
that in conjunction with Manhattan to determine that the 
durations are in fact reasonable. But this is also an activity 
that will continue as the contract, the schedule, will develop 
further details to ensure that they are reasonable. There are 
some activities that will come up periodically and require 
reassessment.
    But we have gone through that first exercise to see if the 
schedule looks reasonable. The schedule from April has been 
accepted by the Government, done by Gilbane on behalf of us. So 
we have those three remaining. All others are fine at this 
time.

                      GAO'S OPINION ON ASSESSMENT

    Senator Allard. Mr. Ungar, do you agree that the assessment 
has been done in a comprehensive manner?
    Mr. Ungar. Mr. Chairman, we think what was done was 
certainly helpful. We still have concerns, though. What we 
really had in mind in making that recommendation was a more 
rigorous data-based objective assessment using such information 
as productivity, crew size, actual experience on the site, or 
industry guides. I do not know that the construction manager 
really had enough time to do that between hearings, but that is 
the sort of an assessment that we really had in mind.
    One of the results that we still do not feel comfortable 
with, for example, is the life safety, or occupancy inspection, 
activity that was deemed to be reasonable. Unfortunately the 
contractors expressed their judgment, but they did not involve 
the fire marshal at all in that assessment, and the fire 
marshal is critically involved in that activity. So we are not 
comfortable that without input from the fire marshal, that 
activity could be judged to be reasonable. It may be, but we do 
not have that assurance.
    Second, as another example, a number of the stone work 
activities in the center itself have been underway and there is 
some data available on the durations that have actually been 
experienced versus the durations that were initially estimated. 
In the two cases that we looked at where stone work is fairly 
far along in the interior of the center, the food service area 
and the Great Hall, the actual durations were exceeding the 
durations that were estimated.
    So to us that is not a good indicator. With the auditorium 
having a duration of 65 days, it seems unlikely to us that they 
are going to be able to meet that, given their experience. So 
we are concerned about the need to go back and do more rigorous 
assessments in the future.

                        TRANSITION TO OPERATIONS

    Senator Allard. I thank you. We have a vote now that has 
come up.
    The question I wanted to ask before we conclude has to do 
with the master schedule and the transition to operations 
phase. Now that you have your operations consultant on board, 
when will the operations tasks be incorporated into the master 
schedule so we will know when funding for operations is needed?
    Mr. Hantman. Mr. Chairman, as I indicated in my opening 
remarks, governance has not yet been determined between the 
House and the Senate for the overall project. In fact, one of 
the things that I also mentioned was, because there is no 
formal clearance that says the Architect of the Capitol will in 
fact be running the visitor center--I know the Senate has 
passed some legislation indicating that, but it has not been 
agreed to yet between the House and the Senate in a formal way. 
I do want to, as quickly as possible, have Zell refine the job 
description, the position description, for an executive 
director. He or she essentially is going to be able to work 
with all of Zell's recommendations and refine the type of 
organization and policies and procedures that he or she would 
like to have in the visitor center.
    Senator Allard. If they do not make a decision, then does 
that not default to you?
    Mr. Hantman. I am not sure if it defaults to me. We had a 
meeting on Monday afternoon with the Capitol Preservation 
Commission and, quite frankly, there was nobody who knew how a 
decision could be made on this.

                           EXECUTIVE DIRECTOR

    What I want to do, though, Mr. Chairman, is I do want to be 
able to initiate this search now, even before 2006 dollars come 
in. Whether or not--I want to prepare this position 
description. I want to send a letter out indicating that what I 
propose to do is expend dollars, and perhaps the dollars need 
to be from this $2.8 million that we already have allocated, as 
opposed to future dollars in 2006, or from the AOC general 
account. That way we can retain an executive search firm to 
start the process but not hire anybody pending the availability 
of funds when they come in the 2006 budget.
    So I want to jump-start this process, Mr. Chairman, start 
that search now, begin to get out there. And I just want to 
make sure that everybody is comfortable with my expending funds 
since I have not formally been told that I am in charge of the 
process.
    Senator Allard. Well, sometimes you just go ahead and do it 
and see what happens.
    Now, what position now is going to integrate all of this?
    Mr. Hantman. This would be the executive director, 
essentially.
    But again, the key point here, Mr. Chairman----

                 CONSTRUCTION TO OPERATIONS INTEGRATION

    Senator Allard. What about the operations contractor? Would 
they have any responsibility for some of this integration?
    Mr. Hantman. Well, in terms of Zell Partners, Ltd., they 
have put out a blueprint essentially and they are going to be 
refining that blueprint. One of the first tasks, in addition to 
the job position description for the executive director, is for 
them to take a look at quarterly needs in terms of staffing up 
the project. Based on this analysis, they could tell us when we 
open in September, 3 months before that we should have x number 
of people in positions on board, 3 months before that, the 
quarter before that, we should have these kind of people. 
Therefore we are informing each other in terms of what we 
really need on board, so that when the construction is finished 
and the doors are ready to open that we have a staff there to 
support that.
    All of that needs to be done and that needs to be 
integrated with the construction side on Bob's side, who 
maintains the master schedule.
    Senator Allard. So you have taken some steps in trying to 
plan for this transition. Can you give us some more detail in 
the next hearing?
    Mr. Hantman. Within the next several weeks we would 
expect--we will be meeting with Zell and talking about this 
whole profile of staffing and what they see as being necessary. 
While we, in parallel, hopefully are able to get out on the 
street and start soliciting proposals or resumes so that we can 
consider hiring an executive director.
    Senator Allard. Very good. If you can get us some more 
information in the next hearing, that will be one of the 
questions we will want to bring up.
    Mr. Hantman. Absolutely.

                          SUBCOMMITTEE RECESS

    Senator Allard. That is the last question I have, and I 
want to thank all of you for participating. We plan on now 
having the next hearing on September 15 of next month.
    Thank you.
    [Whereupon, at 11:58 a.m., Thursday, July 14, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


         PROGRESS OF CONSTRUCTION OF THE CAPITOL VISITOR CENTER

                              ----------                              


                      THURSDAY, SEPTEMBER 15, 2005

                               U.S. Senate,
            Subcommittee on the Legislative Branch,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:28 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senator Allard.

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. I'm going to go ahead and call the 
subcommittee to order. We will, perhaps, have other members 
show up later on. We do have some votes that we're looking at 
this morning that could interrupt our testimony, at which point 
in time we'll put the subcommittee in recess and then cast our 
votes and be back to finish testimony and questions.
    We meet today for our fourth hearing this year on the 
progress of the Capitol Visitor Center. We welcome back to the 
witness table after a month's break, Architect of the Capitol 
Alan Hantman, CVC Project Director Bob Hixon, and GAO's 
representatives Bernard Ungar and Terrell Dorn.
    Today marks 1 year from the anticipated completion of the 
Capitol Visitor Center, September 15, 2006. While all of us 
look forward with great anticipation to the opening, the 
project is only 64 percent complete, according to the Architect 
of the Capitol's last monthly report. Progress is slower than 
expected, illustrated by the fact that only 7 of the 16 
selected milestones scheduled for completion by today have 
actually been completed, and none were on time.
    While AOC remains confident in their September 2006 
projected completion date, GAO has become even more pessimistic 
in its projections, based on their observations to date. GAO 
has found that there continue to be problems with the schedule, 
such as optimistic durations of certain activities and various 
requirements have not been fully reflected in the schedule. 
According to GAO, the construction contractor would need to 
work more than 7 days a week for the next year to make up for 
lost time and meet the September 15 deadline, and that assumes 
no additional problems, going forward. In addition, despite a 
commitment by AOC to have completed a risk-mitigation plan by 
today's hearing, such a plan is not finished. While we 
recognize progress has been made since our last hearing, 
significant concerns, most of which we've discovered over the 
past several months, have not been resolved.
    In addition to discussing the CVC project, I have asked GAO 
to brief us on progress with the construction project at the 
Capitol Power Plant, referred to as the west refrigeration 
plant expansion. The $100 million project is critical to ensure 
adequate cooling capacity for the Capitol campus, including the 
Capitol Visitor Center. The expansion project must be completed 
in a timely way and without disruption to service. We want to 
be sure this project is under control.
    Before turning to my ranking member, I'd like to make sure 
our witnesses know of our plans for the next CVC hearing, which 
is scheduled now for October 18, same place and same time. At 
that time, we will look forward to getting an update on the 
latest estimate of the cost to complete the project currently 
in draft and being reviewed by GAO.
    I will now turn to you, Mr. Hantman, for your testimony, to 
be followed by GAO's Bernard Ungar.
    Proceed, Mr. Hantman.

STATEMENT OF ALAN M. HANTMAN, FAIA, ARCHITECT OF THE 
            CAPITOL
ACCOMPANIED BY BOB HIXON, PROJECT DIRECTOR, CAPITOL VISITOR CENTER, 
            ARCHITECT OF THE CAPITOL

    Mr. Hantman. Good morning, Mr. Chairman, and thank you. 
Thank you for this opportunity to update you on the progress of 
the Capitol Visitor Center project and the key issues we 
discussed at our last meeting, on July 14, including the status 
of our overall project schedule and the risk-mitigation plan.
    But, first, with the help of some recent photos from the 
project site, let me bring you up to date on the status of some 
specific areas of the construction. These photos, however, Mr. 
Chairman, can't truly depict the real progress made, the 
quality of the work, its true complexity, or the wonderful 
feeling of the spaces in this historic addition to our Capitol.
    Since, Mr. Chairman, so much good work has occurred since 
you last visited the project, I'd welcome the opportunity to 
take you and members of the subcommittee on an inspection tour 
to see this progress firsthand.
    On this first board, you see the Great Hall. Stone has been 
installed up to the ceiling on the north and the south walls 
and the west walls. You can glimpse the completed stonework 
behind the scaffolding. Those scaffolds will remain in place to 
facilitate the installation of the two large skylights, and 
that work is going to be beginning in November.
    Stone is also going up on three walls and around the 
columns, as shown on this photo, in the Orientation Theaters. 
With nearly 20 stonemason teams now on site, we have stonework 
occurring concurrently in the Great Hall, both Orientation 
Theaters, and the Congressional Auditorium. Additional 
stonework is occurring on the roof deck of the CVC.
    On this board, you can see historic preservation 
contractors busy reinstalling the original historic stone for 
the fountains and lanterns, which were designed by Frederick 
Law Olmsted in the 1870s.
    Meanwhile, Mr. Chairman, throughout the facility, as you 
see on this board, workers continue to install mechanical, 
electrical, and plumbing systems, apply plaster, place 
concrete, and pull telecommunications wiring in the 
Congressional Auditorium and other areas.
    Finally, I am pleased to report that fit-out work in both 
the House and Senate expansion spaces is proceeding well and 
the contractor is moving aggressively in both those areas. On 
this board, you can see some of the activities occurring as 
crews install underslab conduit over here, ductwork and place 
concrete for the floor topping in those spaces.
    Mr. Chairman, in addition to the physical work being done 
on the CVC, we've also been providing Members and their staffs 
and other professionals with a firsthand look at the work being 
done on the project. As you may have read in last week's Roll 
Call article entitled, ``Off Hill, CVC is `Truly Impressive,' 
'' other elected officials, foreign dignitaries, and 
construction professionals have been impressed by the 
significance of this project. County Executive Chris Coons from 
New Castle County, Delaware, was quoted as saying he was 
``blown away'' during his visit to the CVC, and that they were, 
quote, ``truly impressed with the complexity of the building 
site, with the way it was being integrated into the worksite of 
the Capitol, and how it fits into a major historic property.'' 
We're pleased to be able to share our lessons learned with 
others who are undertaking similar, although perhaps less 
complex, projects.
    As you can see, Mr. Chairman, there's a tremendous amount 
of activity occurring throughout the facility. We expect the 
pace of work to increase further as more contractors involved 
in the installation of finishing materials come onboard in the 
months ahead.

                   OPENING STATEMENT OF ALAN HANTMAN

    While we were working aggressively to meet the contract 
completion date, as we've discussed at prior hearings there are 
three critical areas currently impacting the sequence to 
contractors' work and schedule.
    First, stone installation in the east front has been 
delayed in the development of shop drawings due to differing 
site conditions and the necessary design revisions. And there 
are other causes, as well. In an effort to minimize or 
eliminate the current delay, the contractor has divided his 
stone-shop drawing submittal into two parts. He submitted his 
lower-level shop drawings. The design architect has expedited 
the review, trying to mitigate the delay there, as well. And 
the contractor is also considering alternatives in stone 
fabrication and installation to further mitigate delay.
    Second, stone delivery and installation. The project 
schedule also has been impacted by the reduced number of masons 
installing wall stone in the Great Hall and the surrounding 
corridors. The number of stonemasons had dropped off in past 
months due to slow stone deliveries and missing key pieces of 
wall stone. The contractor has worked with his stone 
subcontractor to double the number of stonemasons in the past 
month to install the stone.
    Now, while the court injunction we discussed in July is 
still in place, deliveries of wall stone are approximately 80 
percent of the scheduled amounts. Although key pieces are 
sometimes still missing to complete a wall elevation, we've 
experienced a significant improvement in stone installation in 
recent weeks. The contractor continues to actively work to 
resolve this issue and recover time.
    Third, utility tunnel. Differing site conditions, the 
resulting design revisions, and other issues have delayed 
completion of construction of the utility tunnel by 1 month, 
from the end of October 2005 to the end of November 2005. That 
delay in completion of the tunnel may, in turn, delay the 
installation of piping for delivery of steam and chilled water 
until March 2006. If this is the case, the required temperature 
and humidity controls necessary to install building finishes 
such as millwork, acoustical ceiling panels, and acoustical 
tile could be impacted.
    The excavation contractor is working additional hours each 
day and Saturdays to make up as much time as possible. We 
continue to evaluate other alternatives to avoid or minimize 
delays, including providing temporary temperature control and 
dehumidification for the Orientation Theaters, and food-service 
areas, so millwork can proceed on schedule.
    Of future concern, Mr. Chairman, also reflected in the 
current schedule, is the very complicated process of 
commissioning the building, and especially the fire safety 
system, which is scheduled for next summer. We're coordinating 
the process with the contractor, the commissioning agent, and 
the fire marshal. The latest draft of the project schedule 
includes a large number of additional commissioning detail 
activities. The addition of those activities to the schedule 
moves the project completion date beyond the contract term. 
This process is being evaluated with all parties to ensure all 
activities have reasonable logic and durations and we can 
identify potential delay issues and resolve them well in 
advance of commissioning beginning. While the current overall 
construction schedule reflects a completion date after 
September 2006, the project team continues to work to try to 
recover time in all pertinent project activities to stay within 
the contract period.
    Mr. Chairman, clearly there are many areas of risk that 
need to be mitigated to achieve the contract completion date. A 
risk assessment of the CVC was conducted last month, and a list 
of risk items was developed. Risk-handling plans for each of 
these items are currently being developed, and each plan will 
be managed by having the items reviewed in an ongoing basis. 
Items resolved will be moved from the list each month, any new 
risk items that are identified will be added.
    Taking these factors into account, we have asked the 
contractor to submit his recovery plan to reflect the necessary 
revised schedule logic and durations so that the schedule will, 
again, help facilitate the timely completion, per the contract. 
That effort, Mr. Chairman, will take a number of weeks to 
complete. And in addition to our own risk assessment, as you 
know, GAO also continues to point out similar risks to the 
project schedule.
    While the construction team is creatively and responsibly 
trying to recover lost time and meet the September 2006 
contract completion date, there may well be items, Mr. 
Chairman, related to commissioning, the fine-tuning of 
mechanical systems, and punchlist items that current 
evaluations indicate could extend beyond then. Therefore, in 
recognizing these risks, for planning purposes, it would be 
prudent to aim for December 2006 to have full building 
operations tested and ready. In parallel with that work, the 
visitor services operations would be under development and 
preparation, including staffing activities. The completion date 
for the House and Senate expansion space remains unchanged at 
March 2007.
    With respect to visitor services operations, we've been 
working with our CVC operations consultant to refine the 
staffing plan they developed. We're coordinating the plan with 
the construction schedule to facilitate the hiring and training 
of personnel who are needed to manage visitor center services 
within the CVC. Concurrently, we have already presented a draft 
of the staffing plan, required in legislation by December of 
this year, to the Capitol Preservation Commission. We look 
forward to working with the Appropriations Committee to 
continue refining it and finalizing it, in coordination with 
the construction schedule, to assure that people are hired when 
needed, but not too early.
    Additionally, we're working with the Capitol Preservation 
Commission on a draft position description for the CVC 
executive director. Together, we hope to move the process 
forward so we can advertise the position and have that person 
onboard by January 2006. The executive director would then hire 
the required visitor services staff and work to put policies 
and procedures in place to allow for the opening of the CVC. 
The hiring of building operations staff has already begun.
    Regarding the project budget, the CVC cost-to-complete is 
being updated, as you mentioned, by the independent firm of 
McDonough Bolyard Peck. The preliminary data has been submitted 
and is being reviewed and refined, and we'll be able to discuss 
them in detail at our next hearing.
    One last note, Mr. Chairman, to let you know that Bob Hixon 
has just received a wonderful honor. He has been made a Fellow 
of the Construction Managers Association of America. If I may 
quote from their brochure here, ``The Fellows designation is 
one of CMAA's highest honors conferred upon industry leaders 
who have made significant contributions to their organizations, 
the industry, and their profession. The following leaders of 
the construction management community are being named to the 
2005 Class of Fellows, bringing the number of individuals 
who've received this designation to 27 since CMAA's inception 
in 1982.'' So, that's--out of some 3,000 or so members, Bob is 
1 of 27 Fellows, and we're very proud of him. It's well 
deserved. It's nice to know that his recognized expertise is 
being brought to our project.
    Mr. Chairman, that concludes my opening remarks.
    [The statement follows:]

              Prepared Statement of Alan M. Hantman, FAIA

    Mr. Chairman, thank you for this opportunity to update you on the 
progress of the Capitol Visitor Center project and the key issues that 
were discussed at the last meeting on July 14, including the status of 
the CVC overall project schedule and risk mitigation plan. But first, 
let me bring you up to date on the status of some specific areas of the 
construction.
    In the Great Hall, we have stone installed up to the ceiling on the 
north, south, and west walls. Scaffolds will remain in place inside the 
Great Hall to facilitate the installation of the two large skylights, 
and that work will occur in November.
    Also in the Great Hall, work is progressing on the east wall and 
the areas adjacent to the water features at the base of the two grand 
staircases. Currently, workers are assembling the plumbing 
infrastructure for those water features.
    Stone is also going up on three walls and around the columns in the 
south orientation theater. With nearly 20 stone mason teams now on 
site, stone work is occurring concurrently in the Great Hall, both 
orientation theaters and the Congressional auditorium.
    Additional stone work is occurring on the roof deck of the CVC. The 
historic preservation contractor is busy re-installing the original 
historic stone for the fountains and lanterns which were designed by 
Fredrick Law Olmsted in the 1870s.
    Meanwhile, throughout the facility, workers continue to install 
mechanical, electrical, and plumbing systems; apply plaster; place 
concrete, and pull telecommunications wiring in the Congressional 
auditorium and other areas.
    Finally, I am pleased to report that fit-out work in both the House 
and Senate expansion spaces is proceeding well and the contractor is 
moving aggressively in both those areas. Crews are at work in both the 
House and Senate spaces installing underslab conduit and ductwork and 
placing concrete for the floor topping slabs.
    In addition to the physical work being done on the CVC, the CVC 
project office has also been providing Members, their staffs, and other 
professionals with a first-hand look at the work being done on the 
project. As you may have read in last week's Roll Call article 
entitled, ``Off Hill, CVC is `Truly Impressive,' '' other elected 
officials, foreign dignitaries, and construction professionals have 
been impressed by the significance of this project.
    County Executive Chris Coons from New Castle County, Delaware, was 
quoted as saying he was ``blown away'' during his visit to the CVC, and 
that they were ``truly impressed with the complexity of the building 
site, with the ways it was being integrated into the work site of the 
Capitol and how it fits into a major historic property.''
    We are pleased to be able to share our lessons learned with others 
who are undertaking similar, although less complex, projects.
    There is a tremendous amount of activity occurring throughout the 
facility and we expect the pace of work to increase further as more 
contractors involved in the installation of finishing materials come on 
board in the months ahead. Out on East Capitol Street, where the 
primary utility tunnel is being constructed, the contractor is working 
extra hours each day and on Saturdays in an effort to recover some time 
that was lost during the execution of the work in this area. As has 
been mentioned at previous hearings, the timely completion of the 
utility tunnel is one of the factors critical to the contractor's 
ability to meet their contract completion date for September 15, 2006.
    While we are working aggressively to meet the contract completion 
date, as we have discussed at prior hearings, there are three critical 
areas currently impacting the Sequence 2 contractor's work and 
schedule. They are:
  --Stone installation in the East Front has been delayed in the 
        development of shop drawings from the end of June to mid-August 
        due to differing site conditions and the consequential design 
        revisions. In an effort to minimize or eliminate the current 
        delay, the contractor has broken his stone shop drawing 
        submittal into two parts. He has submitted his lower level shop 
        drawings, and the design architect has expedited the review to 
        mitigate delay. The contractor is considering alternatives in 
        stone fabrication and installation to further mitigate delay.
  --The project schedule also has been impacted by the reduced number 
        of masons installing wall stone in the Great Hall and the 
        surrounding corridors. The number of stone masons had dropped 
        off in the past months due to slow stone deliveries and missing 
        key pieces of wall stone. The contractor has worked with his 
        stone subcontractor to double the number of stone masons in the 
        past month to install the stone currently available. While the 
        court injunction we discussed in July is still in place, 
        deliveries of wall stone are approximately 80 percent of the 
        scheduled amounts. Although key pieces are sometimes still 
        missing to complete a wall elevation, we have experienced 
        significant improvement in stone installation in recent weeks.
  --Differing site conditions and the resulting design revisions, along 
        with other issues, have delayed completion of construction of 
        the utility tunnel by one month from the end of October 2005 to 
        the end of November 2005. That delay in completion of the 
        tunnel may delay the installation of piping for delivery of 
        steam and chilled water until March 2006. If this is the case, 
        the required temperature and humidity controls necessary to 
        install building finishes such as millwork, acoustical ceiling 
        panels, and acoustical wall panels, would be delayed. The 
        excavation contractor is working additional hours each day and 
        Saturdays to make up as much time as possible. We are also 
        evaluating other alternatives to avoid or minimize delays in 
        completion of the utility tunnel and piping installation, and 
        providing temporary temperature control and dehumidification 
        for the orientation theaters and food service areas so millwork 
        can proceed on schedule.
    A future concern also reflected in the current schedule is the very 
complicated process of commissioning the building, and especially the 
fire safety system. We are continuing to coordinate the process with 
the contractor, the commissioning agent, and the Fire Marshal. The 
latest draft of the project schedule includes a large number of 
additional commissioning detail activities. The addition of these 
activities to the schedule moves the project completion date beyond the 
contract term. This process is being evaluated with all parties to 
ensure all activities have reasonable logic and durations. While the 
current construction schedule reflects a completion date after 
September 15, 2006, the project team continues to work to try to 
recover time in all pertinent project activities to stay within the 
contract period.
    There are, clearly, many areas of risk that need to be mitigated to 
achieve the contract completion date. A risk assessment of the CVC was 
conducted last month and a list of risk items was developed and will be 
evaluated. Risk handling plans for each of these items are being 
developed currently. Each risk mitigation plan will be managed by 
having the items reviewed monthly by the team with one-fourth of the 
items addressed in depth each week. Items resolved will be removed from 
the list each month and any new risk items that are identified will be 
added.
    Taking these factors into account, we have asked the contractor to 
submit his recovery plan to reflect the necessary revised schedule 
logic and durations so that the schedule will again help facilitate the 
timely completion per the contract. That effort will take a number of 
weeks to complete. In addition to our own risk assessment, as you know, 
GAO also continues to point out similar risks to the project schedule. 
While the construction team is striving to recover lost time and meet 
the September 15, 2006, contract completion date, there may well be 
items related to commissioning, fine tuning of mechanical systems and 
punch list items that could extend beyond the CVC contract completion 
date. Therefore, for planning purposes, a December 2006 date would be 
prudent to aim for to have full building operations tested and ready. 
The completion date for the House and Senate Expansion Space remains 
unchanged at March 2007.
    Regarding the project budget, the CVC Cost-to-Complete is being 
updated by the independent firm of McDonough, Bolyard, Peck. The 
preliminary data has been submitted and is being reviewed and refined.
    We also have been working with our CVC visitor services operations 
consultant to refine the staffing plan they have developed. We are 
coordinating the plan with the construction schedule to facilitate the 
hiring and training of personnel who are needed to manage visitor 
services within the CVC. Concurrently, we have presented a draft of the 
staffing plan, required in legislation by December of this year, to the 
Capitol Preservation Commission and we will be working with the 
Appropriations Committees to finalize it as soon as possible.
    Additionally, a draft position description for the executive 
director has been submitted to the Capitol Preservation Commission. It 
is important to move the process along so we can advertise the position 
and have that person on board by January 2006. The executive director 
would then hire the required staff and work to put policies and 
procedures in place to allow for the opening of the CVC.
    Mr. Chairman, this concludes my opening remarks. I would be happy 
to answer any questions you may have.

    Senator Allard. Thank you for your testimony. And I would 
also like to join in congratulating you, Mr. Hixon, for the 
award that you received.
    Mr. Ungar.

STATEMENT OF BERNARD L. UNGAR, DIRECTOR, PHYSICAL 
            INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY 
            OFFICE
ACCOMPANIED BY TERRELL DORN, ASSISTANT DIRECTOR, PHYSICAL 
            INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Ungar. Mr. Chairman, we're pleased to be here again to 
assist the subcommittee in its oversight. We're again 
accompanied by our team members, who are identified in our 
statement. We really appreciate their help and assistance. And, 
hopefully, again they'll help us--bail us out if we get some 
tough questions.
    What I'd like to do is give you a brief overview of where 
we think we are on the project, how we got there, and what 
needs to be done from our perspective, and ask Mr. Dorn to hone 
in on a very few specific points that he'd like to focus on to 
give you a greater appreciation for some of the issues here 
that we're dealing with.
    As Mr. Hantman indicated, progress is certainly continuing 
to be made on the project--there is no question about that--in 
a number of areas. At the same time, problems are continuing to 
occur with stonework and the utility tunnel, where actual 
delays have been occurring.
    What's really been happening over the last couple of months 
since your last hearing is this. The delays have continued. As 
a result of one of the recommendations that we previously made 
to AOC, the project team has been looking at the schedule, 
particularly some activities with respect to the heating, air-
conditioning, and ventilation system, and the fire protection 
system. We had previously noted that these activities appeared 
to have unrealistically short durations in the schedule. During 
the process of the team's assessment, the team identified a 
number of activities, detailed activities, that were not in the 
schedule that would require a substantial amount of time on 
their initial assessment to undertake. Then they came up with 
their August schedule, which identified a slippage in the 
expected completion date from November 2006, which was the 
completion date shown in the schedule discussed at the last 
hearing, until the end of February 2. They recognized, however, 
that the activities they added had not yet been evaluated in-
depth; that is, it was the first go-around. And that basically 
had to do with the added activities and some of the slippages 
to date.
    At the same time that AOC was going through its evaluation, 
we were doing our risk assessment of the schedule. We were 
identifying the same types of things that AOC was identifying, 
meaning that there were significant problems with the schedule 
with respect to the heating, air-conditioning, and ventilation 
system and the fire protection system which would add time to 
the schedule. In addition to that, we also found a number of 
problems that we had identified previously with optimistic 
durations, and that included the stonework, the utility tunnel, 
and some of the finishing work. We had identified all of these 
issues, back in early 2004, as areas that really needed to be 
assessed. And, unfortunately, there wasn't a real aggressive 
assessment of those until after the hearing process started. 
But we are certainly pleased that that's now underway.
    So, all these things were happening at the same time, and 
now we're at a situation where, because of all the uncertainty 
associated with the schedule because of the added activities 
and the concerns and problems that were occurring, a definitive 
completion date is not possible to predict at this point. We do 
have a general sense of when we think the basic project is 
going to be completed, pending a reevaluation. And our sense 
right now, given all the information that we see, is: a 
completion date of sometime in the spring/summer of 2007 is 
more likely at this point than the September date that AOC is 
currently focusing on.
    We got here because, at least in our view, initially the 
sequence 2 schedule did not have sufficient detail to determine 
whether or not it could be achieved. We raised this concern 
when the sequence 2 schedule was first proposed. We had a great 
deal of concern about that, about the degree of detail and the 
level of resource loading that was there. We raised these 
concerns to AOC and to Gilbane. At that point in time, there 
was a different management team there, and, basically, they 
just didn't move forward with our suggestion at that time that 
they reevaluate those activities.
    At this time, AOC believes that it can recover a 
significant amount of time that's been added to the schedule. 
And we don't disagree that some time is likely to be able to be 
recovered, because they could do some resequencing. At the same 
time, we have a number of concerns about some adverse 
consequences that could result from various steps that might be 
taken to recover time or accelerate the project or perhaps take 
some shortcuts, which we have identified in our statement.
    And that leads me to some very specific actions that we 
think are critical and need to be taken from this point 
forward:
    First, we believe that AOC and the rest of the team need to 
do a very rigorous evaluation of the schedule--not only the 
areas that they've added, but the other areas in the schedule, 
too. And we've given AOC a list of activities that we continue 
to believe have optimistic durations, and they're the same 
activities that we've identified over a period of time: the 
stonework, the utility tunnel, and some of the finishing work. 
And there are a number of other areas.
    Second, we believe that AOC needs to have strong management 
controls in place to really look at the quality of the project 
when more time is being spent--if they're going to work nights 
and weekends, add shifts, or take some shortcuts that hopefully 
will not be taken, but could be taken, to meet some of the 
timeframes. Such steps could impact the safety of the facility, 
from a fire and life safety standpoint, the efficiency of the 
work, the functionality of the equipment, or worker safety. So, 
we think it's very important that, from this point forward, AOC 
and Gilbane really focus on these types of potential problems.
    Third, we think that it's very important to have a 
reasonable amount of time between the end of construction and 
the beginning of operations, the opening of the facility, to 
allow for some unexpected delays or problems or operations 
preparation.
    Fourth, we think that it's very important that AOC and its 
construction manager document and determine the causes of 
delays and take appropriate action and that they notify 
Congress of any planned acceleration steps or scope changes 
that might be made to meet the schedule.
    And, finally, that AOC expedite efforts to replace the 
director of the Capitol Power Plant, who left several months 
ago, I believe in May. It's a very important position. It's not 
only important to the CVC that the west refrigeration plant 
that you referred to is up and running, but that the other 
issues that exist at the plant be addressed and that there be a 
proven, talented leader in place there as soon as possible.
    And, with that, I'd like to ask Mr. Dorn to focus in on a 
few specific points.
    [The statement follows:]

                 Prepared Statement of Bernard L. Ungar

    Mr. Chairman and Members of the Subcommittee: We are pleased to be 
here today to assist the Subcommittee in monitoring progress on the 
Capitol Visitor Center (CVC) project. Our remarks will focus on (1) the 
Architect of the Capitol's (AOC) progress in managing the project's 
schedule since the Subcommittee's July 14 hearing on the project; (2) 
our estimate of a general time frame for completing the base project's 
construction and the preliminary results of our assessment of the risks 
associated with AOC's July 2005 schedule for the base project; and (3) 
the project's costs and funding, including the potential impact of 
scheduling issues on cost.\1\ However, we will not, as originally 
planned, provide specific estimated completion dates because AOC's 
contractors revised the schedule in August to reflect recent delays, 
but AOC has not yet evaluated the revised schedule. AOC believes that 
the time added to the schedule by its contractors is unreasonable. 
Until AOC completes its evaluation and we assess it, any estimates of 
specific completion dates are, in our view, tentative and preliminary. 
Similarly, we will wait until the schedule is stabilized to update our 
November 2004 estimate of the cost to complete the project. Currently, 
AOC and its consultant, McDonough Bolyard Peck (MBP), are still 
developing their cost-to-complete estimates.
---------------------------------------------------------------------------
    \1\ See GAO, Capitol Visitor Center: Update on Status of Project's 
Schedule and Costs, GAO-05-910T (Washington, D.C.: July 14, 2005).
---------------------------------------------------------------------------
    Our remarks today are based on our review of schedules and 
financial reports for the CVC project and related records maintained by 
AOC and its construction management contractor, Gilbane Building 
Company; our observations on the progress of work at the CVC 
construction site; and our discussions with CVC project staff 
(including AOC, its major CVC contractors, and representatives of MBP), 
AOC's Chief Fire Marshal, and officials responsible for managing the 
Capitol Power Plant. We also reviewed applicable appropriations 
legislation. Appendix I provides more detailed information on our 
assessment of the project's schedule. We did not perform an audit; 
rather, we performed our work to assist Congress in conducting its 
oversight activities.
    In summary, although AOC and its construction contractors have 
continued to make progress since the Subcommittee's July 14 CVC 
hearing, several delays have occurred and more are expected. These 
delays could postpone the base project's completion significantly 
beyond September 15, 2006, the date targeted in AOC's July 2005 
schedule.\2\ Although not yet fully reviewed and accepted by AOC, the 
schedule that AOC's contractors revised in August 2005 shows February 
26, 2007, as the base project's completion date. The contractors 
reported this revised date largely because some key activities 
associated with the heating, ventilation, and air-conditioning (HVAC) 
and fire protection systems had not been included in previous schedules 
and because delays were occurring, both in constructing the utility 
tunnel and in completing interior stonework.
---------------------------------------------------------------------------
    \2\ AOC set September 15, 2006, as the contractual date for 
completing the base project's construction and for opening the CVC 
facility to the public. The House and Senate expansion spaces were 
scheduled to be completed after that date. AOC set the September 
contract completion date in November 2004, when it reached agreement 
with the contractor on a new date for starting sequence 2 that 
reflected the delays experienced on sequence 1. On September 6, 2005, 
AOC informed Capitol Preservation Commission representatives that it 
still expected the base project's construction to be substantially 
complete on September 15, 2006, but was postponing the date for opening 
the facility to the public to December 15, 2006, so that it could 
complete system tests, minor punch-list work, and preparations for 
operations.
---------------------------------------------------------------------------
    According to our preliminary analysis of the project's July 2005 
schedule, the base project is more likely to be completed sometime in 
the spring or summer of 2007 than by September 15, 2006. Unless the 
project's scope is changed or extraordinary actions are taken, the base 
project is likely to be completed later than September 15, 2006, for 
the reasons cited by the contractors and for other reasons, such as the 
optimistic durations estimated for a number of activities and the risks 
and uncertainties facing the project. AOC believes that the contractors 
added too much time to the schedule in August for activities not 
included in the schedule and that it can expedite the project by 
working concurrently rather than sequentially and by taking other 
actions. While AOC may not need all of the time added for the missing 
activities, CVC project personnel believe that more time will be needed 
than is currently scheduled for other activities, such as the utility 
tunnel, interior finishes and stonework, and the East Front. Because of 
the uncertainty surrounding the base project's construction schedule, 
we cannot estimate a specific completion date at this time. 
Additionally, we are concerned about actions that have been, or could 
be, proposed to accelerate work to meet the September 15, 2006, target 
date. While such actions could expedite the project and save some 
costs, they could also increase other costs or adversely affect the CVC 
facility's quality, functionality, or life safety provisions. The 
project's schedule also raises a number of management concerns, 
including the potential for delays caused by not allowing enough time 
to address potential problems or to complete critical activities. Since 
the Subcommittee's July 14 hearing, we have discussed several actions 
with AOC that we believe are needed to address the CVC project's 
schedule problems and our concerns. These actions include
  --evaluating the project's revised schedule, including the activity 
        durations, to ensure that adequate time is provided;
  --analyzing the impact of various factors on the schedule and the 
        adequacy of the resources scheduled to be applied to meet 
        completion dates;
  --carefully considering the costs, benefits, and risks associated 
        with proposals to accelerate work or reduce its scope and 
        ensuring that appropriate management controls are in place to 
        prevent or minimize the possible adverse consequences of such 
        actions, if taken;
  --proposing a CVC opening date that allows reasonable time between 
        the completion of construction and the facility's opening to 
        address problems that may arise;
  --ensuring that delays and their causes are adequately determined and 
        documented on an ongoing basis; and
  --advising Congress of any plans for accelerating work or reducing 
        its scope so that Congress can be involved in such decisions.
AOC agreed with our suggestions.
    Fiscal year 2006 appropriations have provided sufficient funds to 
cover AOC's request for CVC construction funding as well as additional 
funds for some risks and uncertainties that may arise, such as costs 
associated with additional sequence 2 delays or unexpected conditions. 
Although sequence 2 delays have been occurring, the extent to which the 
government is responsible for their related costs is not clear at this 
time. Additional funding may be necessary if the government is 
responsible for significant delay-related costs or if significant 
changes are made to the project's design or scope or to address 
unexpected conditions. In addition, we and AOC identified some CVC 
construction activities that received duplicate funding. AOC has 
discussed this issue with the House and Senate Appropriations 
Committees.

Work on the Project Is Progressing, but Delays Continue
    AOC and its contractors have continued to make progress on the 
project since the Subcommittee's July 14 hearing. However, mostly 
because some key activities associated with the HVAC and fire 
protection systems were not included in earlier schedules and because 
delays occurred in installing stonework and excavating the utility 
tunnel, the sequence 2 contractor's August schedule shows the expected 
completion date for the base project as February 26, 2007. As discussed 
at the Subcommittee's July 14 hearing, AOC recognized some delays in 
its June 2005 schedule, which showed the base project's expected 
completion date as October 19, 2006. Although AOC has not evaluated the 
contractor's August schedule, it does not believe that so much 
additional time will be needed. Furthermore, as discussed in the next 
section, AOC maintains that work could be accelerated to meet the 
September 15, 2006, target date.
Project's Schedule, Including Possible Actions to Accelerate Work, 
        Raises Management Concerns
    According to our analysis of the CVC project's schedule, the base 
project is unlikely to be completed by the September 15, 2006, target 
date for several reasons. AOC believes that it could take actions to 
complete the project by then, but these actions could have negative as 
well as positive consequences. These and other schedule-related issues 
raise a number of management concerns. We have discussed actions with 
AOC officials that we believe are necessary to address problems with 
the schedule and our concerns. AOC generally agreed with our 
suggestions.

            Base Project's Construction Is Likely to Be Completed Later 
                    Than Scheduled for Several Reasons

    For several reasons, we believe that the base project is more 
likely to be completed sometime in the spring or summer of 2007 than by 
September 15, 2006:
  --As we have previously testified, AOC's sequence 2 contractor, 
        Manhattan Construction Company, has continued to miss its 
        planned dates for completing activities that we and AOC are 
        tracking to assist the Subcommittee in measuring the project's 
        progress. For example, as of September 8, the contractor had 
        completed 7 of the 16 selected activities scheduled for 
        completion before today's hearing (see app. II); however, none 
        of the 7 activities was completed on time. Unforeseen site 
        conditions, an equipment breakdown, delays in stone deliveries, 
        and a shortage of stone masons for the interior stonework were 
        among the reasons given for why the work was not completed on 
        time.\3\ Our analysis of the sequence 2 contractor's production 
        pace between November 2004 and July 2005 indicates that the 
        base project's construction is unlikely to be finished by 
        September 15, 2006, if the contractor continues at the same 
        pace or even accelerates the work somewhat. In fact, at the 
        current or even a slightly accelerated pace, the base project 
        would be completed several months after September 15, 2006. To 
        finish the base project's construction by that date, our 
        analysis shows that the sequence 2 contractor would have to 
        recover 1 day for every 8 remaining days between July 2005 and 
        September 2006 and could incur no further delays.\4\
---------------------------------------------------------------------------
    \3\ Also see, for example, GAO, Capitol Visitor Center: Effective 
Schedule Management and Updated Cost Information Needed, GAO-05-811T 
(Washington, D.C.: June 14, 2005).
    \4\ This analysis assumes the 60-day delay shown in the project's 
July schedule.
---------------------------------------------------------------------------
  --We continue to believe that the durations scheduled for a number of 
        sequence 2 activities are unrealistic. According to CVC project 
        team managers and staff, several activities, such as 
        constructing the utility tunnel; testing the fire protection 
        system; testing, balancing, and commissioning the HVAC system; 
        installing interior stonework; and finishing work in some areas 
        are not likely to be completed as indicated in the July 2005 
        schedule. Some of these are among the activities whose 
        durations we identified as optimistic in early 2004 and that we 
        and AOC's construction management contractor identified as 
        contributing most to the project's schedule slippage in August 
        2005; these activities also served as the basis for our March 
        2004 recommendation to AOC that it reassess its activity 
        durations to see that they are realistic and achievable at the 
        budgeted cost. Because AOC had not yet implemented this 
        recommendation and these activities were important to the 
        project's completion, we suggested in our May 17 testimony 
        before the Subcommittee that AOC give priority attention to 
        this recommendation.\5\ AOC's construction management 
        contractor initiated such a review after the May 17 hearing. 
        Including more time in the schedule to complete these 
        activities could add many more weeks to the project's schedule.
---------------------------------------------------------------------------
    \5\ GAO, Capitol Visitor Center: Priority Attention Needed to 
Manage Schedules and Contracts, GAO-05-714T (Washington, D.C.: May 17, 
2005).
---------------------------------------------------------------------------
  --AOC's more aggressive schedule management is identifying 
        significant omissions of activities and time from the sequence 
        2 schedule. AOC's approach, though very positive, is coming 
        relatively late in the project. For example, several detailed 
        activities associated with testing, balancing, and 
        commissioning the CVC project's HVAC and fire protection system 
        were added to the schedule in July and August, extending the 
        schedule by several months. AOC believes, and we agree, that 
        some of this work may be done concurrently, rather than 
        sequentially as shown in the August schedule, thereby saving 
        some of the added time. However, until more work is done to 
        further develop this part of the schedule, it is unclear how 
        much time could be saved. Furthermore, the July schedule does 
        not appear to include time to address significant problems with 
        the HVAC or fire alarm systems should they occur during 
        testing.
  --In August 2005, CVC project personnel identified several risks and 
        uncertainties facing the project that they believed could 
        adversely affect its schedule. Examples include additional 
        unforeseen conditions in constructing the utility and House 
        Connector tunnels; additional delays in stonework due to 
        slippages in stone deliveries, shortages of stone masons, or 
        stop-work orders responding to complaints about noise from work 
        in the East Front; and problems in getting the HVAC and fire 
        protection systems to function properly, including a 
        sophisticated air filtration system that has not been used 
        before on such a large scale. Providing for these risks and 
        uncertainties in the schedule could add another 60 to 90 days 
        to the completion date, on top of the additional time needed to 
        perform activities that were not included in the schedule or 
        whose durations were overly optimistic.
  --Over the last 2 months, AOC's construction management contractor 
        has identified 8 critical activity paths that will extend the 
        base project's completion date beyond September 15, 2006, if 
        lost time cannot be recovered or further delays cannot be 
        prevented. These 8 activity paths are in addition to 3 that 
        were previously identified by AOC's construction management 
        contractor. In addition, the amount of time that has to be 
        recovered to meet the September 15 target has increased 
        significantly. The activity paths include work on the utility 
        tunnel and testing and balancing the HVAC system; procuring and 
        installing the control wiring for the air handling units; 
        testing the fire alarm system; millwork and casework in the 
        orientation theaters and atrium; and stonework in the East 
        Front, orientation theaters, and exhibit gallery. Having so 
        many critical activity paths complicates project management and 
        makes on-time completion more difficult.
            Possible Actions to Accelerate Work Raise Concerns
    AOC believes it can recover much of the lost time and mitigate 
remaining risks and uncertainties through such actions as using 
temporary equipment, adding workers, working longer hours, resequencing 
work, or performing some work after the CVC facility opens. AOC said 
that it is also developing a risk mitigation plan that should contain 
additional steps it can take to address the risks and uncertainties 
facing the project. Various AOC actions could expedite the project and 
save costs, but they could also have less positive effects. For 
example, accelerating work on the utility tunnel could save costs by 
preventing or reducing delays in several other important activities 
whose progress depends on the tunnel's completion. Conversely, using 
temporary equipment or adding workers to overcome delays could increase 
the project's costs if the government is responsible for the delays. 
Furthermore, (1) actions to accelerate the project may not save time; 
(2) the time savings may be offset by other problems; or (3) working 
additional hours, days, or shifts may adversely affect the quality of 
the work or worker safety. In our opinion, decisions to accelerate work 
must be carefully made, and if the work is accelerated, it must be 
tightly managed.
    Possible proposals from contractors to accelerate the project by 
changing the scope of work or its quality could compromise the CVC 
facility's life safety system, the effective functioning of the 
facility's HVAC system, the functionality of the facility to meet its 
intended purposes, or the life-cycle costs of materials. In August, 
project personnel raised such possibilities as lessening the rigor of 
systems' planned testing, opening the facility before all planned 
testing is done, or opening the facility before completing all the work 
identified by Capitol Preservation Commission representatives as having 
to be completed for the facility to open. While such measures could 
save time, we believe that the risks associated with these types of 
actions need to be carefully considered before adoption and that 
management controls need to be in place to preclude or minimize any 
adverse consequences of such actions, if taken.

            Project's Schedule Presents Other Management Concerns

    AOC's schedule presents other management issues, including some 
that we have discussed in earlier testimonies.
  --AOC tied the date for opening the CVC facility to the public to 
        September 15, 2006, the date in the sequence 2 contract for 
        completing the base project's construction. Joining these two 
        milestones does not allow any time for addressing unexpected 
        problems in completing the construction work or in preparing 
        for operations. AOC has since proposed opening the facility to 
        the public on December 15, 2006, but the schedule does not yet 
        reflect this proposed revision. Specifically, on September 6, 
        2005, AOC told Capitol Preservation Commission representatives 
        that it was still expecting the CVC base project to be 
        substantially completed by September 15, 2006, but it proposed 
        to postpone the facility's opening for 3 months to provide time 
        to finish testing CVC systems, complete punch-list work, and 
        prepare for operating the facility. In our view, allowing some 
        time to address unexpected problems is prudent.
  --AOC's and its contractors' reassessment of activity durations in 
        the August schedule may not be sufficiently rigorous to 
        identify all those that are unrealistic. In reassessing the 
        project's schedule, the construction management contractor 
        found some durations to be reasonable that we considered likely 
        to be too optimistic. Recently, AOC's sequence 2 and 
        construction management contractors reported that, according to 
        their reassessment, the durations for interior stonework were 
        reasonable. We previously found that these durations were 
        optimistic, and CVC project staff we interviewed in August 
        likewise believed they were unrealistic.
  --We have previously expressed concerns about a lack of sufficient or 
        timely analysis and documentation of delays and their causes 
        and determination of responsibility for the delays, and we 
        recommended that AOC perform these functions more rigorously. 
        We have not reassessed this area recently. However, given the 
        project's uncertain schedule, we believe that timely and 
        rigorous analysis and documentation of delays and their causes 
        and determination of responsibility for them are critical. We 
        plan to reexamine this area again in the next few weeks.
  --The uncertainty associated with the project's construction schedule 
        increases the importance of having a summary schedule that 
        integrates the completion of construction with preparations for 
        opening the facility to the public, as the Subcommittee has 
        requested and we have recommended.\6\ Without such a schedule, 
        it is difficult to determine whether all necessary activities 
        have been identified and linked to provide for a smooth opening 
        or whether CVC operations staff will be hired at an appropriate 
        time. In early September, AOC gave a draft operations schedule 
        to its construction management contractor to integrate into the 
        construction schedule.
---------------------------------------------------------------------------
    \6\ See, for example, GAO-05-714T.
---------------------------------------------------------------------------
  --As we noted in our July 14 testimony, AOC could incur additional 
        costs for temporary work if it opens the CVC facility to the 
        public before the construction of the House and Senate 
        expansion spaces is substantially complete. As of last week, 
        AOC's contractors were still evaluating the construction 
        schedule for the expansion spaces, and it was not clear what 
        needs AOC would have for temporary work. The schedule, which we 
        received in early September, shows December 2006 as the date 
        for completing the construction of the expansion spaces. We 
        have not yet assessed the likelihood of the contractor's 
        meeting this date.
  --Finally, we are concerned about the capacity of the Capitol Power 
        Plant (CPP) to provide adequately for cooling, dehumidifying, 
        and heating the CVC facility during construction and when it 
        opens to the public. Delays in completing CPP's ongoing West 
        Refrigeration Plant Expansion Project, the removal from service 
        of two chillers because of refrigerant gas leaks, fire damage 
        to a steam boiler, management issues, and the absence of a CPP 
        director could potentially affect CPP's ability to provide 
        sufficient chilled water and steam for the CVC facility and 
        other congressional buildings. These issues are discussed in 
        greater detail in appendix III.

            Actions Are Needed and Being Taken to Move the Project 
                    Forward and Address Concerns

    Since the Subcommittee's July 14 CVC hearing, we have discussed a 
number of actions with AOC officials that we believe are necessary to 
address problems with the project's schedule and our concerns. AOC 
generally agreed with our suggestions, and a discussion of them and 
AOC's responses follows.
  --By October 31, 2005, work with all relevant stakeholders to 
        reassess the entire project's construction schedule, including 
        the schedule for the House and Senate expansion spaces, to 
        ensure that all key activities are included, their durations 
        are realistic, their sequence and interrelationships are 
        appropriate, and sufficient resources are shown to accomplish 
        the work as scheduled. Specific activities that should be 
        reassessed include testing, balancing, and commissioning the 
        HVAC and filtration systems; testing the fire protection 
        system; constructing the utility tunnel; installing the East 
        Front mechanical (HVAC) system; installing interior stonework 
        and completing finishing work (especially plaster work); 
        fabricating and delivering interior bronze doors; and fitting 
        out the gift shops. AOC agreed and has already asked its 
        construction management and sequence 2 contractors to reassess 
        the August schedule. AOC has also asked the sequence 2 
        contractor to show how it will recover time lost through 
        delays.
  --Carefully consider the costs, benefits, and risks associated with 
        proposals to change the project's scope, modify the quality of 
        materials, or accelerate work, and ensure that appropriate 
        management controls are in place to prevent or minimize any 
        adverse effects of such actions. AOC agreed. It noted that the 
        sequence 2 contractor had already begun to work additional 
        hours to recover lost time on the utility tunnel. AOC also 
        noted that its construction management contractor has an 
        inspection process in place to identify problems with quality 
        and has recently enhanced its efforts to oversee worker safety.
  --Propose a CVC opening date to Congress that allows a reasonable 
        amount of time between the completion of the base project's 
        construction and the CVC facility's opening to address any 
        likely problems that are not provided for in the construction 
        schedule. The December 15, 2006, opening date that AOC proposed 
        earlier this month would provide about 90 days between these 
        milestones if AOC meets its September 15, 2006, target for 
        substantial completion. However, we continue to believe that 
        AOC will have difficulty meeting the September 15 target, and 
        although the 90-day period is a significant step in the right 
        direction, an even longer period is likely to be needed.
  --Give priority attention to effectively implementing our previous 
        recommendations that AOC (1) analyze and document delays and 
        the reasons and responsibility for them on an ongoing basis and 
        analyze the impact of scope changes and delays on the project's 
        schedule at least monthly and (2) advise Congress of any 
        additional costs it expects to incur to accelerate work or 
        perform temporary work to advance the CVC facility's opening so 
        Congress can weigh the advantages and disadvantages of such 
        actions. AOC agreed.

Project Costs and Funding Provided as of September 2005
    AOC is still updating its estimate of the cost to complete the CVC 
project, including the base project and the House and Senate expansion 
spaces. As a result, we have not yet had an opportunity to 
comprehensively update our November 2004 estimate that the project's 
estimated cost at completion will likely be between $515.3 million 
without provision for risks and uncertainties and $559 million with 
provision for risks and uncertainties. Since November 2004, we have 
added about $10.3 million to our $515.3 million estimate to account for 
additional CVC design and construction work. (App. IV provides 
information on the project's cost estimates since the original 1999 
estimate.) However, our current $525.6 million estimate does not 
include costs that AOC may incur for delays beyond those delay costs 
included in our November 2004 estimate. Estimating the government's 
costs for delays that occurred after November 2004 is difficult because 
it is unclear who ultimately will bear responsibility for various 
delays. Furthermore, AOC's new estimates may cause us to make further 
revisions to our cost estimates.
    To date, about $528 million has been provided for CVC construction. 
(See app. V.) This amount does not include about $7.8 million that was 
made available for either CVC construction or operations.\7\ In late 
August, we and AOC found that duplicate funding had been provided for 
certain CVC construction work. Specifically, about $800,000 was 
provided in two separate funding sources for the same work. The House 
and Senate Committees on Appropriations were notified of this situation 
and AOC's plan to address it. The funding that has been provided and 
that is potentially available for CVC construction covers the current 
estimated cost of the facility at completion and provides some funds 
for risks and uncertainties. However, if AOC encounters significant 
additional costs for delays or other changes, more funding may be 
needed.
---------------------------------------------------------------------------
    \7\ Public Law 108-447, enacted in December 2004, provided that up 
to $10.6 million could be so transferred upon the approval of the House 
and Senate Committees on Appropriations for the use of the CVC project. 
In June 2005, AOC received approval to use about $2.8 million of this 
$10.6 million, leaving a balance of about $7.8 million that can be used 
in the future.
---------------------------------------------------------------------------
    Because of the potential for coordination problems with a project 
as large and complex as CVC, we had recommended in July that AOC 
promptly designate responsibility for integrating the planning and 
budgeting for CVC construction and operations. In late August, AOC 
designated a CVC staff member to oversee both CVC construction and 
operations funding. AOC had also arranged for its operations planning 
consultant to develop an operations preparation schedule and for its 
CVC project executive and CVC construction management contractor to 
prepare an integrated construction and operations schedule. AOC has 
received a draft operations schedule and has given it to its 
construction management contractor to integrate into the construction 
schedule. Pending the hiring of an executive director for CVC, which 
AOC would like to occur by the end of January 2006, the Architect of 
the Capitol said he expects his Chief Administrative Officer, who is 
currently overseeing CVC operations planning, to work closely with the 
CVC project executive to integrate CVC construction and operations 
preparations.
    Work and costs could also be duplicated in areas where the 
responsibilities of AOC's contractors overlap. For example, the 
contracts or planned modification for both AOC's CVC construction 
design contractor and CVC operations contractor include work related to 
the gift shop's design and wayfinding signage. We discussed the 
potential for duplication with AOC, and it agreed to work with its 
operations planning contractor to clarify the contractor's scope of 
work, eliminate any duplication, and adjust the operations contract's 
funding accordingly.
    Mr. Chairman, this concludes our statement. We would be pleased to 
answer any questions that you or Members of the Subcommittee may have.

                Appendix I.--Risk Assessment Methodology

    With the assistance of a contractor, Hulett & Associates, we 
assessed the risks associated with the Architect of the Capitol's (AOC) 
July 2005 schedule for the Capitol Visitor Center (CVC) project and 
used the results of our assessment to estimate a time frame for 
completing the base CVC project with and without identified risks and 
uncertainties.\8\ In August 2005, we and the contractor interviewed 
project managers and team members from AOC and its major CVC 
contractors, a representative from the Army Corps of Engineers, and 
AOC's Chief Fire Marshal to determine the risks they saw in completing 
the remaining work and the time they considered necessary to finish the 
CVC project and open it to the public. Using the project's July 2005 
summary schedule (the most recent schedule available when we did our 
work), we asked the team members to estimate how many workdays would be 
needed to complete the remaining work. More specifically, for each 
summary-level activity that the members had a role or expertise in, we 
asked them to develop three estimates of the activity's duration--the 
least, most likely, and longest time needed to complete the activity. 
We planned to estimate the base project's most likely completion date 
without factoring in risks and uncertainties using the most likely 
activity durations estimated by the team members. In addition, using 
these three-point estimates and a simulation analysis to calculate 
different combinations of the team's estimates that factored in 
identified risks and uncertainties, we planned to estimate completion 
dates for the base project at various confidence levels.
---------------------------------------------------------------------------
    \8\ We did not include the schedule for work on the House and 
Senate expansion spaces in our assessment because the schedule was not 
completed in time for analysis before the Subcommittee's September 
hearing.
---------------------------------------------------------------------------
    In August 2005, AOC's construction management and sequence 2 
contractors were updating the July project schedule to integrate the 
construction schedule for the House and Senate expansion spaces, 
reflect recent progress and problems, and incorporate the results to 
date of their reassessment of the time needed for testing, balancing, 
and commissioning the heating, ventilation and air-conditioning, (HVAC) 
system and for fire alarm testing.\9\ This reassessment was being done 
partly to implement a recommendation we had made to AOC after assessing 
the project's schedule in early 2004 and finding that the scheduled 
durations for these and other activities were optimistic. AOC's 
construction management and sequence 2 contractors found that key 
detailed activities associated with the HVAC system had not been 
included in the schedule and that the durations for a number of 
activities were not realistic. Taking all of these factors into 
account, AOC's contractors revised the project's schedule in August. 
AOC believes that the revised schedule, which shows the base project's 
completion date slipping by several months, allows too much time for 
the identified problems. As a result of this problem and others we 
brought to AOC's attention, AOC has asked its contractors to reassess 
the schedule. AOC's construction management contractor believes that 
such a reassessment could take up to 2 months. In our opinion, there 
are too many uncertainties associated with the base project's schedule 
to develop reliable estimates of specific completion dates, with or 
without provisions for risks and uncertainties.
---------------------------------------------------------------------------
    \9\ AOC's sequence 2 contractor was unable to integrate the 
detailed schedule for the expansion spaces into the overall project 
schedule because of a number of problems, but plans to do so in the 
September schedule.

           APPENDIX II.--CAPITOL VISITOR CENTER CRITICAL CONSTRUCTION MILESTONES, JULY-SEPTEMBER 2005
----------------------------------------------------------------------------------------------------------------
                                                                                         Scheduled      Actual
                   Activity                                    Location                  completion   completion
----------------------------------------------------------------------------------------------------------------
Wall Stone Area 8 Layout......................  Great Hall............................      6/20/05      7/25/05
Wall Stone Area 9 Layout......................  Great Hall............................      6/24/05      7/28/05
Wall Stone Area 3 \1\.........................  Great Hall............................      7/06/05      7/22/05
Wall Stone Area 2 \1\.........................  Great Hall............................      7/06/05      7/25/05
Drill/Set Soldier Piles Sta. 0:00-1:00........  Utility Tunnel........................      6/08/05  ...........
Wall Stone Area 9 Pedestals...................  Great Hall............................      7/05/05  ...........
Wall Stone Area 1.............................  Cong. Auditorium......................      8/08/05  ...........
Wall Stone Area 2.............................  Cong. Auditorium......................      8/22/05  ...........
Bridge Over First Street......................  Utility Tunnel........................      8/02/05      8/12/05
Wall Stone Area 3.............................  Cong. Auditorium......................      9/06/05  ...........
Excavate and Lag Stations 1:00-2:00...........  Utility Tunnel........................      8/02/05      8/24/05
Wall Stone Area 4 \1\.........................  Great Hall............................      7/15/05      8/30/05
Excavate and Shore Sta. 0:00-1:00.............  Utility Tunnel........................      7/21/05  ...........
Concrete Working Slab First Street............  Utility Tunnel........................      7/26/05  ...........
Waterproof Working Slab Sta. 0:00-1:00........  Utility Tunnel........................      7/29/05  ...........
Wall Stone Area 9 Base........................  Great Hall............................      7/15/05  ...........
----------------------------------------------------------------------------------------------------------------
\1\ These activities are not critical. All other activities were critical in the April schedule or became
  critical in subsequent schedules.

Source: AOC's April 2005 CVC sequence 2 construction schedule for the scheduled completion dates and AOC and its
  construction management contractor for the actual completion dates.
Note: Actual completion information was obtained on September 8, 2005.

Appendix III.--Issues Affecting the Capacity of the Capitol Power Plant 
     to Provide for Cooling and Heating the Capitol Visitor Center
    Several issues could affect the capacity of the Capitol Power Plant 
(CPP) to provide sufficient chilled water and steam for the CVC 
facility and other congressional buildings. CPP produces chilled water 
for cooling and dehumidification and steam for heating Capitol Hill 
buildings.\10\ To accommodate the CVC facility and meet other needs, 
CPP has been increasing its production capacity through the West 
Refrigeration Plant Expansion Project. This project, which was 
scheduled for completion in time to provide chilled water for the CVC 
facility during construction and when it opened, has been delayed. In 
addition, problems with aging equipment, fire damage, management 
weaknesses, and a leadership vacancy could affect CPP's ability to 
provide chilled water and steam. More specifically:
---------------------------------------------------------------------------
    \10\ The Capitol Power Plant is no longer used to generate electric 
power, but it does generate steam and chilled water to serve the 
heating and cooling needs of the U.S. Capitol and 23 surrounding 
facilities. These facilities include about 16 million square feet.
---------------------------------------------------------------------------
  --In July, two chillers in CPP's East Refrigeration Plant were taken 
        out of service because of a significant refrigerant gas leak. 
        The refrigerant, whose use is being phased out nationally, 
        escaped into the surrounding environment. Because of the 
        chillers' age and use of an outdated refrigerant, AOC has 
        determined that it would not be cost-effective to repair the 
        chillers. CPP's chilled water production capacity will be 
        further reduced between December 1, 2005, and March 15, 2006, 
        when the West Refrigeration Plant is to be shut down to enable 
        newly installed equipment to be connected to the existing 
        chilled water system. However, the remainder of CPP's East 
        Refrigeration Plant is to remain operational during this time, 
        and AOC expects that the East Refrigeration Plant will have 
        sufficient capacity to meet the lower wintertime cooling 
        demands. Additionally, CPP representatives indicated that they 
        could bring the West Refrigeration Plant back online to provide 
        additional cooling capacity in an emergency. CPP is developing 
        a cost estimate for this option.
  --In June, one of two CPP boilers that burn coal to generate steam 
        was damaged by fire. According to a CPP incident report, CPP 
        operator errors contributed to the incident and subsequent 
        damage. Both boilers were taken off-line for scheduled 
        maintenance between July 1 and September 15, and CPP expects 
        both boilers to be back online by September 30, thereby 
        enabling CPP to provide steam to CVC when it is needed.
  --Several management issues at CPP could further affect the expansion 
        plant's and CPP's operational readiness:
    --CPP has not yet developed a plan for staffing and operating the 
            entire plant after the West Refrigeration Plant becomes 
            operational or contracted for its current staff to receive 
            adequate training to operate the West Refrigeration Plant's 
            new, much more modern equipment.
    --CPP has not yet received a comprehensive commissioning plan from 
            its contractor.
    --A number of procurement issues associated with the plant 
            expansion project have arisen. We are reviewing these 
            issues.
  --CPP has been without a director since May 2005, when the former 
        director resigned. CPP is important to the functioning of 
        Congress, and strong leadership is needed to oversee the 
        completion of the expansion project and the integration, 
        commissioning, and operation of the new equipment, as well as 
        address the operational and management problems at the plant. 
        Filling the director position with an experienced manager who 
        is also an expert in the production of steam and chilled water 
        is essential. AOC recently initiated the recruitment process.

              APPENDIX IV.--COST GROWTH FOR THE CVC PROJECT
                        [In millions of dollars]
------------------------------------------------------------------------
                                      Cost
             Factors                increase      Subtotal      Total
------------------------------------------------------------------------
Project budget, original (1999).                                   265.0
    Factors beyond or largely
     beyond AOC's control:
        5 additional scope items         29.7
         \1\....................
        House and Senate                 70.0
         expansion spaces.......
        Air filtration system            33.3
         funded by Dep't. of
         Defense (DOD)..........
        Enhanced fire safety and         13.7
         security...............
                                 ---------------------------------------
                                                      146.7
        Bid prices exceeding             46.0
         estimates,
         preconstruction costs
         exceeding budgeted
         costs, unforeseen field
         conditions, and design
         changes................
                                 ---------------------------------------
                                                       46.0
    Other factors (costs                               57.6        250.3
     associated with delays and
     design-to-budget overruns).
                                 ---------------------------------------
        Project budget after                                       515.3
         increases (as of
         November 2004).........
                                 =======================================
GAO-projected costs to complete                         7.2        522.5
 after proposed scope changes
 (as of June 2005, excluding
 risks and uncertainties) \2\...
                                 =======================================
    Additional cost-to-complete
     items (as of August 2005):
        Design of the Library of          0.7
         Congress tunnel (Funds
         from Capitol
         Preservation Fund).....
        Wayfinding fabrication            1.0
         and installation.......
        Gift shop design........          0.1
        Gift shop construction            1.3
         and fit-out............
                                 ---------------------------------------
      GAO-projected costs to                            3.1        525.6
       complete (as of August
       2005, excluding risks and
       uncertainties) \3\.......
                                 =======================================
    Potential additional costs           43.5
     associated with risks and
     uncertainties (as of
     November 2004) \4\.........
Less: Risks and uncertainties            (7.2)
 GAO believes the project faced
 in November 2004 [Congressional
 seals, orientation film, and
 backpack storage space ($4.2) +
 US Capitol Police security
 monitoring ($3.0)].............
Less: Additional cost-to-                (3.1)
 complete items (as of August
 2005)..........................
    Potential remaining costs                          33.2
     related to risks and
     uncertainties..............
                                 ---------------------------------------
GAO estimate of total cost to                                      558.8
 complete.......................
------------------------------------------------------------------------
\1\ The five additional scope items are the House connector tunnel, the
  East Front elevator extension, the Library of Congress tunnel,
  temporary operations, and enhanced perimeter security.
\2\ The proposed scope changes totaling $7.2 million include $4.2
  million for congressional seals, an orientation film, and backpack
  storage space and $3 million for U.S. Capitol Police security
  monitoring.
\3\ Because of rounding dollars in tenths of millions, this estimate
  excludes $2,892.00 for CVC ceremonial groundbreaking activities.
\4\ Risks and uncertainties can include shortages in skilled stone
  masons and stone, security and life safety changes, unknown operator
  requirements, unforeseen conditions, and contractor coordination
  issues.

Sources: AOC and its contractors.


        APPENDIX V.--CURRENT FUNDING PROVIDED TO THE CVC PROJECT
                        [In millions of dollars]
------------------------------------------------------------------------
             Project                 Funding      Subtotal      Total
------------------------------------------------------------------------
Funding as of June 2005:
    Base project (as of November                                   351.1
     2004).......................
    Expansion spaces:
        House....................         35.0
        Senate...................         35.0
                                  --------------------------------------
                                                       70.0
    Filtration system............         33.3
    U.S. Capitol Police security           3.0
     monitoring..................
                                  --------------------------------------
                                                       36.3
Transfer of emergency response            26.3
 funds...........................
                                  --------------------------------------
Current funding provided (as of                                    483.7
 June 2005) \1\..................
                                  ======================================
Funding provided for fiscal year                       41.9
 2006 \2\ \3\....................
    Design of Library of Congress                       0.7
     tunnel (funds from the
     Capitol Preservation Fund)
     \2\.........................
    Construction-related funding
     provided in operations
     obligation plan:
        Gift shop \2\............          0.7
        Wayfinding \2\ \3\.......          0.3
        Commissioning systems \2\          0.2
         \3\.....................
        Miscellaneous design and           0.4
         construction \2\ \3\....
                                  --------------------------------------
    Construction-related funding                        1.6
     provided in operations......
Other funding provided...........                       2.3
Additional funding...............                                   44.2
                                  --------------------------------------
Current funding provided (as of                                    527.9
 August 2005) \4\................
------------------------------------------------------------------------
\1\ Because of rounding dollars in tenths of millions, the $483.7
  million does not include $2,892 made available by the Capitol
  Preservation Commission from the Capitol Preservation Fund in October
  2000 for the groundbreaking ceremony.
\2\ Fiscal year 2006 CVC construction funding does not include some
  construction-related items funded from other sources. Funds for these
  items include $700,000 for the Library of Congress tunnel provided by
  the Capitol Preservation Fund and $1.6 million provided in CVC's June
  2005 operations obligation plan. The $1.6 million is part of the $10.6
  million made available in December 2004 by Public Law 108-447 for both
  CVC construction and operations.
\3\ Funds were provided for certain items that duplicated funding
  already provided in fiscal year 2006 CVC construction funding. The
  $41.9 million represents fiscal year 2006 funding made available for
  CVC construction-related activity. Included in this $41.9 million
  fiscal year 2006 funding are some construction-related items (i.e.,
  $150,000 for wayfinding design, $232,000 for commissioning systems,
  and $423,000 for miscellaneous design and construction) totaling
  $805,000 for which AOC received the duplicative funding. These items
  had also been included in the $2.8 million operations obligation plan
  approved in June 2005. AOC has stated that it will not use fiscal year
  2006 funding for these items. Thus, $805,000 of the $41.9 million
  fiscal year 2006 funding will be available for other uses.
\4\ Two construction-related items have not yet been fully funded. These
  are the gift shop construction (approximately $771,000) and wayfinding
  fabrication and installation (approximately $800,000).

Sources: Legislation, Conference Reports, and AOC.

    Senator Allard. Mr. Dorn.
    Mr. Dorn. Thank you, Mr. Chairman.
    And before I get into more detailed observations about the 
CVC, I'd also like to join Bernie in pointing out that the work 
is continuing to move along. There are stonemasons onsite, 
electricians are installing conduit. And, because of Bob Hixon 
and 10 years of hard work from Alan Hantman, in the end we're 
going to have a sausage that we can all be proud of. We're 
going to be happy with this building when it's done.
    The big question today, though, is: When will the 
construction be complete and ready to open to the public?
    I was in a meeting recently and heard a contractor very 
succinctly describe GAO as just an observer whose job was to be 
somewhat pessimistic while his company was the doers, and their 
job was to get the project finished, and that's what they were 
going to do by September 15.
    Well, part of GAO's role certainly is to be an observer, 
but what we also do is analyze those observations, based on our 
experience, and apply foresight to the situation so that the 
doers can make needed adjustments.
    So, as predicted by the contractor, here are some somewhat 
pessimistic observations on whether or not they're getting it 
done.
    To bring us up to date from the last hearing, in June the 
contractor's schedule said they'd finish on October 15, but AOC 
was confident that they would--could make up that month and the 
project would finish on September 15. In July, the contractor's 
schedule said they'd finish on November 17, but the AOC was 
still confident that they could make up 2 months and the 
project would finish on time, September 15. Now, on September 
15, 2005, 1 year before the scheduled opening, the contractor's 
schedule says that they won't finish the CVC until February 26, 
2007. And, still, the contractor and AOC say that the project 
will be substantially complete by September 15, 2006.
    My observations on those facts follow, but first I'd like 
to point out that, while, for various reasons, there have been 
some delays to the actual work, the vast majority of the 
apparent schedule slippage, like Bernie said, this summer, has 
been due to work that's always been in the construction 
contractor's contract; he just didn't reflect it in the 
schedule. This omitted work includes items such as stone 
installation, fire-alarm testing, and commissioning--that GAO 
observed and pointed out to the CVC team in early 2004.
    At the subcommittee's request, AOC and GAO agreed on a 
number of critical milestones to be observed in helping to keep 
the CVC project on schedule. Mr. Chairman, as you pointed out, 
out of 16 milestones reached to date, only 7 have been 
completed, and none of those were completed on time.
    Back in July, when the contractor was only 60 days behind 
schedule, he also had only 480 days to finish. That meant that 
for every 8 days he worked, he'd have to make up another day. 
Put another way, even working 8 days a week, those herculean 
efforts would not be enough, because it doesn't allow time for 
weekends, holidays, risk and uncertainties or anything else 
that may come up. Since then, the schedule reflects an 
additional 3 months of work to get done in that same time 
period.
    Again back in July the contractor had worked on the CVC for 
about 250 days, but his schedule was already reflecting that 
same 60-day delay. Or, put another way, 75 percent efficiency 
up to date. If you extrapolated forward 2 months to where we 
are today, the same efficiency would forecast that the contract 
would be 75 days late at this point, while the contractor's 
schedule says they're over 150 days late. But, ignoring that, 
extrapolating the same 75 percent over the remaining contract 
duration would say that they're not going to finish until May 
2007.
    As part of our schedule risk assessment since the last 
hearing, we conducted a number of interviews of individual 
members of the CVC project team representing the contractors, 
construction-management firm, and AOC employees. In those 
interviews, we heard a number of the schedule durations are 
still considered by the CVC team members themselves to be 
optimistic, something we have been cautioning about for a 
number of months. Replacing the optimistic durations in the 
schedule with most-likely durations, as reported, again, by the 
CVC team members, would extend the completion date by 14 weeks, 
which, again, gets you to May 2007.
    Unfortunately, because of all the turmoil in the contractor 
schedule to date, which, on a positive note, is due to the 
concerted efforts of AOC and Gilbane and Manhattan to 
resequence activities and rein in the completion date, we can't 
accurately forecast a completion date as accurately as we would 
like to do. But, as Bernie has pointed out, all the data points 
to a completion date in the spring/summer of 2007, unless AOC 
is able to meet their goal of resequencing and consolidating 
activities.
    Thank you, Mr. Chairman.
    Senator Allard. Thank you for your testimony.
    In June, the Architect of the Capitol committed to 
completing a risk-mitigation plan by this hearing. This is 
needed to ensure plans are in place to make up for the lost 
time, in the event certain risks become realities. As you've 
experienced with the utility tunnel, for example, Mr. Hantman 
why is the plan not complete?
    Mr. Hixon. Well, Mr. Chairman, I can answer that question.
    I do have the plan. We have the draft here. A copy of that 
plan was forwarded to the Government Accountability Office last 
week. We have identified the risk, the project team has, over a 
number of sessions. We used the head of Project Management 
Institute's SIG for risk assessment, working with McDonough 
Bolyard Peck. So, the items have been identified. We'll be 
working on developing handling plans on September 20. We have a 
meeting set up for that right now. And then we'll begin, in 
October, evaluating those things on a weekly basis to make sure 
we're staying current with them, identify any issues. As Mr. 
Hantman said, we would drop items as they are resolved, and add 
new items as they become apparent. So, we do have a plan in 
place. It's--this is the draft plan, but it's the beginning of 
this process.
    Senator Allard. Why was the contract not awarded until 
August 11, when this issue's been raised by GAO for some time?
    Mr. Hixon. It's not my recollection that we waited until 
August 11. We may have actually awarded it--I think we may have 
started the work then. The impression I have is that we awarded 
that work back in July.
    Senator Allard. In July? Okay.
    Mr. Hixon. I--you know, I could verify that.
    Senator Allard. Would you verify that----
    Mr. Hixon. Sure.
    Senator Allard [continuing]. For the subcommittee? 
Appreciate that. And then, if you would get something after the 
hearing to us, within a week's time, we would appreciate that. 
Make sure we have that straight on the record.
    [The information follows:]

             Verification of CVC Risk Assessment Award Date

    The contract modification for the CVC risk assessment was 
awarded on July 11, 2005.

    Senator Allard. We heard from GAO in 2004 about areas of 
potential risk, and Mr. Dorn testified somebody had said, 
``Well, our job is constructing and building, yours is to be 
pessimistic.'' And I do think that sometimes AOC's attitude was 
that GAO was just a minor irritant out there, and you have to 
deal with them. But the significant thing is that we've got a 
number of concerns that they raised at that particular time 
that are happening today. And my question is: Why weren't those 
treated more seriously by the contractor? And why wasn't 
something being done to treat the GAO recommendations more 
seriously? Because time and time again GAO has been showing up 
before our subcommittee making these assessments, indicating 
there's potentially problems. Everybody tends to ignore it. And 
then we get around to that time, sure enough, we've got a 
problem in front of us of dealing with those. And I've got some 
13 examples here before me.
    And, Mr. Hantman, while you continue to believe the 
September 2006 construction deadline can be met, you have moved 
the opening to December 2006 to allow for commissioning of 
systems and other requirements to have completed. And aren't 
the reasons your schedule slipped the same ones identified by 
GAO in 2004?
    Mr. Hantman. Mr. Chairman, in my opening statement I 
certainly addressed the fact that there are several key areas 
which have been plaguing us from the beginning of the project, 
pretty much--the stone issue, as we came about with the East 
Capitol Street issue--and the idea of getting enough detailed 
information together so that the commissioning plan could be 
fully integrated into the schedule. In fact, there was a 
meeting, just earlier this week, with our contractors and their 
subcontractors, with Gilbane sitting in on it, taking a look at 
one of those key issues: commissioning, also East Capitol 
Street. And while GAO rightly says that the current schedule we 
have out there has added additional time to it, that's 
basically because the commissioning schedule didn't have an 
opportunity to be integrated. It was not at the level of detail 
that it is right now. Everybody I've talked to who basically 
worked through that meeting, an--almost an all-day session, 
said that our next schedule should reflect a couple of months 
coming off because of the way that things could be worked out.

                CAPITOL VISITOR CENTER OPENING SCHEDULE

    Now, Mr. Ungar clearly indicated that he recognizes that 
some things can be done in parallel and that, in fact, we are 
working to do that and make sure that we integrate them clearly 
with the fire marshal and anticipate them in advance of things 
happening.
    We've had an evolution, Mr. Chairman, in terms of our 
staff, both on the Gilbane side, as well as our construction 
management side. Because of some of the turmoil on the staff, 
we haven't had the strength up there to be able to address some 
of the issues that we've all been aware of, going back. We have 
that staff in place now, and we feel very secure about the 
schedule, the level of detail we're looking at, on the 
schedule. And, hopefully, that will be a tool for us to 
continue addressing those issues while still maintaining the 
quality and the progress and the life-safety issues on the 
project, going forward.
    Senator Allard. And why did it take Gilbane and yourself so 
long to reevaluate these issues?
    Mr. Hixon. I'm not sure I understand what you're----
    Senator Allard. Well, it seems----
    Mr. Hixon [continuing]. Referring to.
    Senator Allard [continuing]. Like these issues have been--
they were mentioned in 2004, and now we're back dealing with 
these issues now, even though they were brought to our 
attention way back in 2004. Why is it that we're just 
addressing them now?
    Mr. Hixon. Well, first let me say that we're working very 
closely with GAO. They have made recommendations, they have 
made a lot of very good recommendations that we have moved out 
on. We have had schedule evaluation issues in the past. When we 
brought in a new scheduler, Mr. Dooley, from Gilbane, we've had 
a dramatic increase in the quality of the schedule management 
being done by Gilbane. It's being done in an excellent manner 
right now. And, frankly, that's the reason a lot of these 
issues have come to bear. They are now readily apparent, when, 
before, they were buried within the schedule. So, I don't 
believe that we've over-ignored them, but I think a lot of 
issues that have come--that we're dealing with, particularly 
the commissioning activities--so many of those activities were 
a year out from the project. This is the point in time when you 
would be identifying all those items to make sure you've got it 
well planned. The activities, when they were added to the 
schedule in this last month, added 11 weeks to the schedule. We 
knew that was an unreasonable amount of time, but it also had a 
great deal of detail, in coordination with the subcontractors, 
on how these activities need to be performed. So that, now, is 
being reevaluated to see what the real duration should be, when 
it should start, based on the completion of the air-handling 
units and the provision of chilled water and steam from the 
utility tunnel.
    So, I think it's a very good process that's underway to get 
us to a real date.
    Senator Allard. Seems to me that the later on you wait to 
address these issues, the less time you have for correction on 
the back end. And the sooner you can get to them, the more time 
you have to make those corrections.
    Mr. Hixon. That's absolutely true, sir.
    Senator Allard. I'm perplexed and somewhat frustrated that 
we don't deal with these earlier, because it would give us more 
flexibility, and I think it would lend more confidence to the 
subcommittee, and probably GAO, too, if we saw those happening 
a little bit earlier. Once they get pointed out, that something 
begins to happen with those issues that get brought up early 
that are potentially a problem.
    Mr. Hixon. That's true. And the schedule activities, as of 
April, when we--we began with the new scheduling process in 
January. And between January and April of this year is when we 
really brought--got the quality of scheduling to a point where 
we were able to identify all these things. And we had real 
solid schedule activities to deal with. This process has 
evolved very well since then. But, I agree, it's, ideally, 
something that would have happened much earlier.
    Senator Allard. GAO is projecting a completion date of as 
late as summer of 2007--about 6 to 9 months later than AOC's 
projection. How do you account for that?
    Mr. Hixon. I believe that the schedule data that the GAO 
consultant was working off of added the 11 weeks to our data. 
And they've done it--they've done their analysis several other 
ways, and I--I'm not about to take the consultant on, and his 
capabilities. But when we look at the activities ourselves in 
the schedule, and what the plan is, we--it doesn't seem at all 
reasonable to project that things will go out until 2007, based 
on the amount of work we have available to complete 
construction. The concern we have, primarily, is the amount of 
time it'll take in commissioning, especially the life-safety 
systems, to make sure those activities are all done. The base 
construction, itself, when you--while we've missed milestones, 
we have not missed them by that much. We've missed them by 
weeks and maybe 1 month or 1\1/2\ months when you look through 
the whole schedule. That would not account for that kind of a 
deviation in the end date.
    So, we just disagree that it's going to be as dire as GAO 
projects. We think that the scheduling activities--and the 
construction contractor certainly does--thinks that, at this 
point, we would be on or about September for the completion of 
the construction.
    Now, this is clearly a stretch goal. This is not something 
easy to achieve. I don't think the original contract duration 
of 22 months was an easy duration. And, while everybody can 
commit, the real question is: How realistic are those 
opportunities to deliver on time? And that's something we 
continue to refine.
    The contract completion date remains September 15, as of 
this date. We have not been asked by the contractor to provide 
a time extension, to date; so, contractually, they still have 
the obligation to deliver by September 15. There are some 
issues associated with the utility tunnel that have impacted 
them. They are looking to overcome that. They would have 
otherwise had a 16-week delay in the utility tunnel. We've got 
a 4-week delay right now in the utility tunnel. So, their 
activities, in order to try and resolve issues, have improved 
the utility tunnel completion by what it would have been 
otherwise.
    So, I think we will know--we will have a lot more 
information next month, because we will have digested a lot of 
this schedule activity. And--but, at this point, we're still 
anticipating a fall completion of construction.
    Senator Allard. Okay, so the contractor hasn't asked for an 
extension beyond September 15. And his contract says it will be 
completed by September 15 of next year, 1 year from now. If 
they don't meet those contract requirements, then what happens?
    Mr. Hixon. If, in fact, they do not complete the 
construction by the completion date in their contract, they're 
liable for liquidated damages. If, on the other hand, we have--
they have differing site conditions, they're entitled to a time 
extension. If there are concurrent delays, which means both of 
us are delaying, we have delays or the differing site 
conditions, which are excusable, and the contractor also has 
delays on his end, then the--on his side--then you'd have time, 
but not compensation.
    Senator Allard. Do you see any potential delays that would 
be attributed to those exceptions in the contract on completing 
that date? Do you understand what I'm saying?
    Mr. Hixon. Yes. I--the opportunity exists, with the delays 
that have occurred in the utility tunnel for differing site 
conditions, that the contractor has entitlement on those 
issues. If--but the evaluation of that is, you can also--shall 
I wait? The issue is that once you get into that evaluation, we 
will be looking at anything that occurred contractually that we 
had an obligation on, versus anything that they had an 
obligation on. And that will be sorted out in time. But, at 
this point, we're working very collaboratively together, and 
the focus is not on trying to sort out contractually who gets 
to do what to whom, but, rather, to see if we can't 
successfully deliver the project on time. But I'm----
    Senator Allard. I guess the key point to this is that 
Manhattan feels they can get things done by September 15, and 
they don't see any reason, at this point in time--at least they 
haven't approached us for any reason----
    Mr. Hixon. That's correct.
    Senator Allard [continuing]. Why that date wouldn't be met.
    Mr. Hixon. And they reiterated that as recently as 1 week 
ago. Now, that doesn't mean that there aren't a lot of 
challenges for us to face between now and then, but, at this 
point in time, it does not seem impossible to achieve, and it's 
certainly the commitment of the team to try and meet that date. 
The team will be meeting in a partnering session tomorrow--this 
is with all our subcontractors--to make sure we've got 
everybody in line, focused on this goal. If there is something 
that comes up that renders this an impossible date, then we 
will want to include that. And that's part of our scheduling 
effort, to try and be realistic on what we're going to deliver.
    Senator Allard. GAO is testifying that the contractor would 
have to come up with 1 recovery day for every 8 remaining days 
between July 2005 and September 2006. And that's assuming 
there's no further delays. It's hard to imagine that that would 
happen. And that's to complete the project by 2006. Is that 
completion date really realistic?
    Mr. Hixon. Well, I believe that's the reason we have 
changed our target for doing a public opening. We have looked 
at what's going on, the risks that have been presented to us, 
the impacts that we have incurred, and we said it would be 
imprudent to expect that all of these things have not had some 
impact on the process that would preclude us being able to have 
the grand opening in September. So, you know, the date of the 
grand opening will be whenever it is, whenever it's selected. 
But there are activities that have been taking place that could 
impact our ability to deliver the completed facility on 
September 15.

                       FIRE SYSTEMS COMMISSIONING

    Senator Allard. Okay. I'd like to move on to the 
commissioning of our fire-safety systems. In our June hearing, 
Mr. Ungar voiced concern that the time allotted for 
commissioning of the fire alarm and smoke evacuation systems 
was optimistic and should be reassessed.
    And, Mr. Ungar, has this reassessment been completed? And 
are you now satisfied that the time required for commissioning 
of these systems is appropriately reflected in the schedule?
    Mr. Ungar. Mr. Chairman, first, the assessment has been 
taking place. That's one of the reasons why so much time has 
been added to the schedule. We and AOC, concurrently, found 
since your last hearing, that the time for the fire protection 
system work was understated in the schedule. Now the question 
is: Exactly how much will be required? I don't think we'll know 
that until AOC finishes this current evaluation, because that's 
one of the items that's included in its study----
    Senator Allard. Yes.
    Mr. Ungar. So, exactly how much time will eventually be 
required, we don't know. We feel very strongly it's going to be 
very likely to be more than the July schedule shows. Now, 
exactly how much more remains to be seen, but at least 3 to 4 
weeks, probably more, depending on what they can do 
sequentially versus concurrently.
    Senator Allard. So, we do not have a clear understanding of 
the fire- and life-safety requirements, basically because there 
is some disagreement between you and the Architect of the 
Capitol about what can be done sequentially and what can be 
done concurrently. Is that correct?
    Mr. Ungar. Right, sir. There are two different issues.
    One is: What are the requirements for the system--what 
components, what elements, what characteristics, what's the 
design of the system? That issue, we understand. The team has 
come up with a design that they believe is acceptable. I don't 
believe the fire marshal has had an opportunity yet, though, to 
thoroughly review that. So, that's a bit of a question. But I 
think, at least now that a team is together--whereas, last time 
we met, the team was disagreeing among itself--so, that's an 
accomplishment. How much time it will take for the system 
testing of the fire protection system and the inspection 
process is what's up in the air right now. It definitely does 
seem like it's going to take more time than is allowed in the 
current schedule. The question is: How much is it going to 
eventually take? And that, we need to resolve in the next 4 to 
6 weeks.
    Senator Allard. Mr. Hantman, what comments do you have 
about finalizing the fire- and life-safety requirements?
    Mr. Hantman. This goes, Mr. Chairman, to the comment I made 
earlier, when I mentioned, just on Tuesday, we had Manhattan 
meeting with their subcontractors, the electrical and the 
mechanical subcontractors. We also had Gilbane in that meeting, 
as well. Everybody I've talked to who attended that detailed 
meeting, basically for the day on Tuesday, indicated that the 
people who are actually going to be doing the work, the 
mechanical and electrical subcontractors, are feeling very 
positive about their schedules on this, that they can make it 
within the contract date.
    The issue is that Manhattan needs to put all of this 
information and the creative thinking--and, quite frankly, as 
GAO has indicated, there are many different ways to achieve an 
end product over here. They're talking about, creatively, what 
can be done in parallel, as opposed to in sequence, which is 
what this latest schedule indicates, that 11 weeks added was 
purely sequential, without putting it all together. So, this 
major step of having the installers, the vendors who are 
basically contractually responsible for these systems, come up 
with their ideas of how they propose to install it, have 
Manhattan put that in a schedule and sit for significant work 
sessions with the fire marshal to see if the fire marshal has 
any problem with that; and when and if that inspection can be 
done in an orderly path.
    The concept that we have, basically, is that you really 
have a 3-month inspection period for all of these life-safety 
systems. And the contractors surely want to do them in 
parallel. And the fire marshal has indicated that doing things 
in parallel also is something that they would be comfortable 
with. The question is what the contractors are now thinking of, 
in terms of normal practice, would be acceptable to the fire 
marshal.
    So, our first major step has been taken in bringing this to 
the point where we can sit down with the fire marshal and say, 
``This is what the vendors, the contractors, in fact, 
specifically intend to do. Let's talk about your issues and see 
if we can resolve this way in advance of starting that activity 
next summer,'' so that when we get to that point in time, 
everything's smooth and nobody has surprises coming forward.
    Senator Allard. And when we are dealing with all this 
creative thinking that you mentioned, what is the price tag 
that's coming along with that creative thinking? Do we have any 
idea what the total price tag associated with the new 
requirements might be?
    Mr. Hantman. I don't know, Mr. Chairman, if I'd 
characterize them as new requirements. It's a question of a 
different way of achieving the same end.
    Senator Allard. I see.
    Mr. Hantman. And the creativity that we're looking for, in 
terms of our contractors, is--means and methods of getting the 
job done--is basically the responsibility of the individual 
contractors. They need to get from point A to point C. How they 
get there, basically, is their decision. We just have to make 
sure that the pathway is in sync with good practices and that 
our fire marshals agree with. And I've not heard anything, at 
this point, implying that there are any additional dollars 
involved in that.
    Senator Allard. I gather from your response that there 
really hasn't been any discussion about cost at this particular 
point.
    Mr. Ungar.
    Mr. Hantman. Mr. Chairman, I would respond to the----
    Mr. Ungar. Mr. Chairman, I think there's a separate issue 
on the cost question, and it has to do with what the current 
system would look like, versus what the fire protection system 
was when they originally awarded sequence 2. And there, there 
is a significant additional cost. Based on what we've seen 
right now, it looks like the additional cost for the fire 
protection system, because of changes that have been made over 
the last many months, is well over $3 million, at least the way 
we interpret the information.
    Senator Allard. Wow.
    Mr. Ungar. Maybe Mr. Hixon would have a more elaborate 
discussion of that.
    Senator Allard. You wanted to respond to that, Mr. Hantman?
    Mr. Hantman. One of the issues we're looking at over here--
and I certainly don't dispute, necessarily, what GAO is 
saying--but one of the issues that we are dealing with over 
here is taking a base building system, a series of systems, and 
trying to work them out with a very complex security system, 
something which is state of the art. We're basically a beta 
test site for some of the things in security, for chem/bio 
concerns, that have never been done before. So, some of the 
changes that GAO is referring to is, basically, as we evolve 
and that people understand what the requirements are, we're 
trying to deal with those issues and make sure that we don't 
compromise either of those, the security or the life-safety 
issues.
    Bob, did you have anything to add to that?
    Mr. Hixon. I believe the only thing we need to add is that 
the fire marshal is working very closely with us in 
coordinating all these activities.
    We have given them copies of the planned schedule, the 
original schedule before we started revising it. We're seeking 
their input on the new schedule. So, there's a--we've got the 
fire marshal much more involved with the team now than they 
were previously in order to ensure that we've got all their 
requirements accurately folded into the schedule activities 
that need to take place.
    We do have revisions to the control system for the building 
that also affects the fire-alarm system, and those are the 
numbers that Mr. Ungar is talking about. But we have that data. 
The contractor's been authorized to proceed with it. So, it's 
now a matter of just making sure we get the programming and the 
requirements for all of these very complicated systems that 
must interact together if there is an event that requires use 
of those systems.
    Senator Allard. And is that within the budget that we've 
originally laid out for it?
    Mr. Hixon. Certainly, I've already authorized the funding 
for these activities, or at least the part--the amounts that we 
think are reasonable. Yes, it's within the budget. It does 
create added impact to the budget for us.
    Senator Allard. And you think it might be $3 million? Would 
you agree with what he's suggesting?
    Mr. Hixon. It--there are a number of changes that have 
taken place, and--incorporating all of these things. If you 
look at the estimated prices, those numbers are in that 
vicinity. We are expecting--we still have to reconcile some 
issues with the control system. There's a big swing difference 
between what the designer feels that the control system should 
cost and what the contractor tells him it costs. We're trying 
to reconcile that and make sure we're all talking the same 
thing. We're--that we don't have a scope difference of opinion.

                      INTERIOR STONE CONSTRUCTION

    Senator Allard. I'll go to the stonemasons. I think we've 
recognized that, for some time, there might be a problem with 
an inadequate number of stonemasons. Then we had an inadequate 
supply of stone. Now we have the stone coming in, but we're 
back to the shortage of stonemasons again. Currently, we have 
about 16 stonemasons, while 24 are needed to keep pace. Would 
you agree with that?
    Mr. Hixon. No, Mr. Chairman, we've--currently are carrying 
20 stonemasons but not all of them are here every day, so we've 
been averaging about 18 actually present on the site. This is 
up from about eight in the first part of August, so we've had a 
dramatic improvement, thankfully. GAO did predict, last year, 
that we would have a stonemason problem. When we started the 
stone installation, we had a lot of masons, and we didn't have 
enough stone. Now we've got a lot of stone delivered and we're 
ramping up the number of masons. They're looking to get up to a 
number of approximately 28 teams. They are hiring them as they 
find them. And we are expecting the situation will improve as 
the weather gets cooler.
    Senator Allard. So, your view is that the contractor is 
doing everything they can to bring in the critical workers that 
we need.
    Mr. Hixon. They are pushing very hard to get more masons 
on. And the quantity of stone--we have no change in the 
quality, that's--you know, we're--that's our first priority, is 
to make sure it's done right--but the quantity of stone, with 
these additional teams, has improved dramatically in the last 
2\1/2\ weeks. And you can see that--the Orientation Theater 
work has actually all been done since the middle of August.
    Senator Allard. Mr. Hantman, you say in your testimony that 
the contractor is considering alternatives in stone fabrication 
and installation to further mitigate delays. What are those 
alternatives? And will they affect quality or the life-cycle 
cost?
    Mr. Hantman. Well, with the injunction still in place, 
perhaps it's safer, Mr. Chairman, for the contractor to speak, 
himself, as to what he can actually say. So, if I could, Mr. 
John Barron, who is the president of the eastern region for 
Manhattan, can talk about what they are attempting to do on the 
stone.
    Senator Allard. Well, maybe what we can do is have a 
response to that question in the next month, when we get 
together, and let's have that clearly laid out for us, if we 
can, in the next month. We'll bring it back up.
    Mr. Hantman. We have been driving them, essentially, to 
finalize those additional preparations that they are 
considering right now.
    Senator Allard. Okay. And, again, the bottom part of that 
is your alternatives and then how they may affect quality or 
life-cycle costs.
    [The information follows:]

    During the September 15, 2005 hearing with the Legislative 
Subcommittee of the Senate Appropriations, Senator Allard 
requested a written statement regarding the effect of an 
injunction imposed upon Manhattan Construction Company 
(``Manhattan''), the contractor, relative to stone supply for 
the Capitol Visitor Center (CVC) project and actions being 
taken by Manhattan to ensure timely stone deliveries to the 
project in light of the injunction.
    This statement can only provide brief explanation and basic 
understanding of the injunction, the effects it is having on 
our subcontractor's and our ability to perform and our actions 
to complete the construction as required by the project 
schedule. In order to understand, one must review the 
allegations (yet unproven) that gave rise to the injunction.
    The injunction has been imposed on Manhattan, and its 
subcontractor, Boatman & Magnani, Inc. by the U.S. District 
Court for the Western District of Pennsylvania, requiring that 
Quarra Stone Company be used as the fabricator to supply the 
sandstone to be used on the CVC Sequence 2 project. This 
injunction stems from a lawsuit by Quarra Stone Company against 
Annandale Sandstone Quarries, Boatman & Magnani, Inc. and 
Manhattan regarding an alleged breach of an alleged exclusivity 
agreement between Quarra Stone Company and Annandale Stone 
Quarries. We begin by looking at the responsibilities of the 
parties involved.
    Boatman & Magnani, Inc. (``Boatman'') is the interior stone 
installer with responsibility for ordering, engineering, 
receiving and installing the interior stonework for the 
project. It should be noted that sandstone is only one of the 
stone types to be installed by Boatman for the project but 
represents the primary stone material used on interior wall 
surfaces. To perform the installation of the stone, Boatman is 
required to provide the necessary manpower, in form of skilled 
stonemasons, to ensure the stone is installed in accordance 
with the performance period allocated for stonework by the 
project schedule. They are a first tier subcontractor to 
Manhattan.
    Annandale Sandstone Quarries (``Annandale'') is the 
sandstone quarry with responsibility to provide sufficient raw 
material from the quarry, in the form of stone slabs to the 
fabricator, to allow for the timely fabrication and delivery of 
sandstone for the project. Annandale is a direct vendor to 
Boatman. It should be noted that normal industry practice is 
for the quarry to be a direct vendor to the fabricator, versus 
a vendor to the stone installer, to allow for effective 
control, by primacy of contract, of the fabricator over the 
quarry. This unusual contractual relationship stems from the 
central issue of the lawsuit and resultant injunction.
    The current levels of fabrication find us behind by nine 
truck loads of material and losing ground at the approximate 
rate of three quarters of a truck load a week. This analysis is 
based on Quarra's court certified fabrication schedule 
commitments of three months ago. We have asked the vendors, 
through Boatman, that the time lost on deliveries be recovered. 
This urging has lead to a recent commitment from Quarra, 
details unknown, to provide an additional resource to assist 
them in fabrication. We are unable to determine if this action 
will satisfy Boatman's needs for deliveries. We should see the 
results of this action in the coming weeks. We continue to 
understand the status of fabrication through daily 
communication with all parties involved with fabrication and 
continue to push the effort through our subcontractor. In 
addition, we have required Boatman to provide a plan to 
overcome the late deliveries with a shorter installation 
period. This program will have a cost impact but we expect it 
will overcome some of the impact of the late deliveries.
    At Manhattan's request, Boatman has notified its vendors 
several times and the court at least twice of these problems. 
The Court does not appear to be convinced that the delay and 
the timing problems are significant. Despite Manhattan's and 
AOC's efforts, the Court seems convinced that the schedule for 
completion is illusory and insignificant, and more important is 
protecting Quarra's alleged exclusivity agreement wherein 
Quarra alleges it is the only fabricator allowed to touch any 
Annandale stone. In each instance of discussion with the Court, 
we have been directed to resolve the issues among the parties. 
We continue to attempt to obtain the relief we need through the 
Court.
    Manhattan entered into this contract intent on providing 
the United States government and United States taxpayer with 
the best value, and an on time, on budget delivery. Manhattan's 
record of work speaks for itself, as does the AOC's track 
record on projects of this type. However, in none of those 
projects has the federal court system, on behalf of a third or 
fourth tier subcontractors, involved itself in the construction 
process. Presently, the hands of the people who could mitigate 
this delay with decisive action (action that is typical of any 
other construction project either public or private) are tied.

    Mr. Hantman. Well, certainly, in terms of quality, as Bob 
indicated, that nothing that we're doing is decreasing quality 
on anything. We're trying to make sure that, again, this is a 
building built for the ages and we're doing it the right way, 
in terms of those costs, yes.

                          CAPITOL POWER PLANT

    Senator Allard. Let me go to the Capitol Power Plant. As 
mentioned in my opening testimony, we've become aware of 
problems at the Capitol Power Plant, where a major expansion 
project is underway. And I understand that the director of the 
plant resigned in April, yet no solicitation has gone out, as 
of last week, to hire a new director. I'm getting reports of 
problems at the power plant, as leading to some serious 
problems there. And it seems to me like nobody's in charge. And 
I'm wondering why there hasn't been a request to have somebody 
in charge there.
    Mr. Hantman. Mr. Chairman, we are actively soliciting now 
for a replacement for our director, who left. The issue of not 
having started earlier, perhaps that is my fault. The issue 
there was, I was looking at a project that was going well, 
that, in fact, was approaching completion fairly soon, and--did 
we need a person in that staff level for that point in time? I 
put in my Assistant Architect to take a look at that, and now I 
have the head of our engineering department, Scott Birkhead, 
coming in. And until we can find that individual, a new person, 
for that position, we have Mr. Birkhead, who had responsibility 
for the plant before, working directly with the team that's in 
place.
    So--and while there were several issues that have occurred, 
one of the reasons, in fact, for our building the power plant 
in the first place, or doing the expansion for the 
refrigeration, was because the equipment in the east plant was 
old. We had R-12 refrigerant, all of those issues. So, in past 
weeks, some of that refrigerant has leaked out, and the seals 
were no good, so those two units will not be put back into 
service. We do have two temporary units in place in the east 
refrigeration plant. I spoke, in fact, to Scott this morning, 
and we can give you a background, in terms of the capacity that 
we have in place currently, and what's being put into place, 
and the timeframes, in terms of our expected load requirements 
as it impacts the CVC, and, in fact, the Hill, as a totality, 
and give you a sense of where we are on that.
    Senator Allard. So, when do you think the Capitol Visitor 
Center is going to need the steam and chilled water from the 
power plant? And when that comes online, are you confident that 
the power plant will be able to provide the needed heat or 
cooling at that particular point in time?
    Mr. Hantman. Our current schedule, Mr. Chairman, calls for 
March 2006 being the timeframe in which we would want to hook 
in the work that we're doing in East Capitol Street to the 
chilled water piping. The steam is not an issue. We have that 
capacity, we've had that capacity for a long time. The issue 
was the adequacy of the chilled water, which is why we're doing 
the refrigeration equipment now on East. That--the schedule on 
the power plant, right now, calls for those pieces of equipment 
to be ready to be manually operated, come December of this 
year, and that, by March, also of 2006, the control should be 
up and running, as well. So, if we needed to produce the kind 
of chilled water capacity that we need, even if we had a 75 
degree day in January, we should be able to do that. And we can 
give you some backup information on that, Mr. Chairman.
    Senator Allard. So, you're confident that we don't have a 
problem there, where our requirements at the Capitol Visitor 
Center can't be met because of problems at the power plant.
    Mr. Hantman. Everything I've heard to date, Mr. Chairman, 
indicates that we should be able to have that capacity 
available when it's necessary.
    Senator Allard. Okay. Let me ask you this, Mr. Ungar. If 
another one of the 50-year-old chiller fails prior to 
completion of the expansion project, what are the implications 
of such a failure, and how likely is that to happen?
    Mr. Ungar. Mr. Chairman, Mr. Dorn would like to answer that 
question.
    Senator Allard. Okay. Mr. Dorn.
    Mr. Dorn. Our analysis out there at the Capitol Power Plant 
would show, at this point, that if something happened today, 
there would still be sufficient chilled water for the buildings 
that are online today. The biggest risk would be when they make 
the transition to put the new west plant online. At that point, 
they would take the existing west plant offline so they could 
drain the pipes and then attach the new pipes, and you'd be in 
danger, if you had to try to start up one of the new chillers 
sooner than you want to, and you'd have to get York, the 
manufacturer of the chillers, in there to help you.
    Now, I understand that AOC is working with York now and 
setting up those contingency plans so that if it happens, they 
can respond to it. There would probably be some cost associated 
with it, but it's doable.
    On the completion date, my understanding is, first, that I 
think Bob would prefer to have chilled water in January/
February 2006, and not March. So, if we don't get chilled water 
down there--because of the utility tunnel, not because of the 
Capitol Power Plant--until March, it may affect his ability to 
hit September or December, because it affects dehumidification, 
like we talked about last month.
    Also, you were talking about the commissioning and 
schedules. What you heard a few minutes ago was that the 
commissioning still hasn't been fully integrated into the 
schedule. And you've heard us harping, several months now, 
about a fully integrated schedule.
    Senator Allard. Yes.
    Mr. Dorn. That's one of the risks there.

                          INTEGRATED SCHEDULE

    The other two things that AOC has been working on 
developing since our last hearing, but that are still not 
integrated into this master schedule, would be the House and 
Senate shell space and operations. They do have good 
independent schedules now, but they haven't been integrated, 
and that integration could further affect the master schedule.
    Senator Allard. What about his comments on integrating 
those schedules?
    Mr. Hixon.
    Mr. Hixon. Mr. Chairman, the schedule for the House and 
Senate space was going to be integrated into the August 
schedule. There are about 1,000 activities. But, as they tried 
to integrate it, it was not working well, so they generated the 
August schedule without the expansion space. They are, over the 
next couple of weeks, integrating that in, so, when we run the 
schedule at the end of September, we should have all that 
included.
    In addition to that, we're integrating the operations 
schedule activities. There are about 450 items there, so all of 
those are being included. So, we should have all of those parts 
included in the schedule here in the next--next time we run it.
    Senator Allard. All right. I want to talk a little bit 
about the upcoming milestones. What major milestones are we 
going to have when we come up to our next hearing, on October 
18? The integrated schedule would be one.
    Mr. Hixon. The--other than those activities that we're 
currently reflecting on the schedules, we've got the wall stone 
for the upper level assembly rooms 1 and 2, and we're also 
looking at roof for the area in the utility tunnel. What's--
other than those activities as things we can point out, what's 
of particular interest to us is being able to get the 
mechanical piping started in the utility tunnel. They're 
looking at alternatives to that, to manufacture the pipe in 
longer lengths than they were originally planning to, which 
would leave the roof open a little longer in the utility 
tunnel, but that would expedite the installation by reducing 
the number of field welds, which would permit installation to 
be started earlier. So, we're looking to do some rework of the 
scheduled activities for the mechanical portion of the utility 
tunnel to see if we can use that to improve the overall 
schedule for that particular activity.
    Senator Allard. Okay.
    Then, you expect to have these complete by the time----
    Mr. Hixon. Well, the----
    Senator Allard [continuing]. Our next meeting happens, on 
October 18?
    Mr. Hixon. We won't have those--either of those completed. 
We were just going to add those to the list of items that we're 
currently tracking. So, most of the list that we had, 
currently, that GAO is reporting on, as well, we've got a 
number of activities that are not finished. They're started, 
but they're not finished yet. And a couple that have not 
started. Primarily, those activities all relate to the 
completion of the installation of stone in the Orientation 
Theater and the installation of stone in the Auditorium. The 
Auditorium stone was delayed because of some elevation issues, 
where we were off by five-eighths to an inch, and those have 
been chipped out, and the installation can now commence. But 
we've lost some time in commencing that work.
    So, those are some of the activities that we had tracked 
earlier as starting and finishing that we'd be reporting on 
their completion.
    Senator Allard. Okay.
    We have gotten through this hearing without having to be 
interrupted by a vote. I'm pleased about that. Do any of you 
have any other comments before we wrap up the hearing?
    Yes, Mr. Ungar?
    Mr. Ungar. Yes, Mr. Chairman. I think it's very important 
for AOC and the CVC team to take a real hard, rigorous look at 
the entire schedule before your next hearing, or around that 
time, to not only look at the areas that were added by the HVAC 
system and the fire protection system, but the other 
activities, as well--as I mentioned, the stone and the 
finishing--to make sure that you have a good, solid, realistic 
schedule, that's complete, that we can all look at and rely on 
now for the rest of the project, subject to natural changes 
that would take place.
    Senator Allard. I think that's a wonderful suggestion. Do 
we have any concerns, Mr. Hixon, on that suggestion?
    Mr. Hixon. No, sir. We're certainly doing that right now. 
The focus has been on these commissioning activities that we've 
folded in, frankly, surprised us with the impact that they had. 
But, no, we'll--we will work through those and look at the 
balance of the schedule. I'll ask McDonough Bolyard Peck to 
look at that, as well, so that----

                      NOVEMBER HEARING PREPARATION

    Senator Allard. That's a question you might expect at the 
next hearing: What's going to be happening in our November 
meeting? If you'd keep that in mind while you're thinking in 
those terms, and be prepared for that answer when it comes up 
in the next meeting.
    Mr. Hixon. Yes, sir.
    Senator Allard. Yes, Mr. Hantman?

                          CONSTRUCTION QUALITY

    Mr. Hantman. One more thing, Mr. Chairman. I would like to 
thank GAO, and specifically the comment that Terry Dorn made 
earlier, that we all recognize this is an important and a 
historic project, and it's a fine project, something, I think, 
that the Congress and the American people are going to be proud 
of when we get it finished. The issue of the scheduling and 
meeting those bumps in the road, and working together to make 
sure that we get over those bumps in a good way, is important, 
and I think that's largely what we're talking about. And if you 
do have the time, I would welcome, again, your inspection tour 
of the visitor center. Look at the quality of work we're 
building here. This is going to be something that's going to 
last for many generations.
    Senator Allard. I've been assured by your testimony here 
that the quality of the work's going to remain there. I remain 
concerned that things get put off, when, if we'd been dealing 
with them earlier, perhaps we wouldn't have as many problems. 
So, I just hope that we do everything we can to try and get a 
jump on it. I understand your testimony, where you think that 
things can be done concurrently. Perhaps those have not been 
taken into account. I hope you're right. We're looking forward 
to seeing how this comes out. So far, what GAO has suggested to 
this subcommittee, has developed. So we get concerned at this 
point in time, about assurances that things are going to 
happen. And when there's been a difference between the 
Architect of the Capitol and the GAO, GAO's concerns have come 
to fruition. So, I do hope that we can get some realistic 
expectations here as we move toward closure on September 15.

                          SUBCOMMITTEE RECESS

    I appreciate your taking the time with this subcommittee to 
testify, both of you. I think that this is a very important 
project, and I think it's important that we do everything we 
possibly can to get it done on time, and avoid cost overruns.
    Thank you very much for your participation in this hearing.
    [Whereupon, at 11:35 a.m., Thursday, September 15, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


         PROGRESS OF CONSTRUCTION OF THE CAPITOL VISITOR CENTER

                              ----------                              


                       TUESDAY, OCTOBER 18, 2005

                               U.S. Senate,
            Subcommittee on the Legislative Branch,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:28 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senator Allard.

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. The subcommittee will come to order.
    We meet today for our fifth hearing this year on the 
progress of the Capitol Visitor Center (CVC). We welcome once 
again Architect of the Capitol Alan Hantman, CVC Project 
Director Bob Hixon, and GAO's representatives, Bernard Ungar 
and Terrell Dorn.
    Since our last hearing, progress has been made in some 
areas, such as completing an integrated schedule, but work 
continues to fall behind in such activities as the utility 
tunnel and stone installation. Only 3 of the 11 milestones have 
been completed in the last month and none were on time.
    In our September hearing, GAO made a number of 
recommendations, including the need for the Architect to 
undertake a rigorous evaluation of the schedule, the need for 
the Architect of the Capitol, along with its project manager 
Gilbane, to determine the causes of delays and take appropriate 
action, and the need for AOC to notify Congress of scope 
changes or plans to accelerate work. We look forward to hearing 
about how the Architect of the Capitol is meeting these 
recommendations.
    While we had anticipated having a discussion on the updated 
estimate of the cost to complete the Capitol Visitor Center 
project, we understand that GAO has not been able to undertake 
their review because the schedule is still in flux.
    Let me mention that we have tentatively set the next 
hearing date for November 15 and we will be working with 
Senator Durbin to finalize this shortly.
    Now I would like to turn to you, Mr. Hantman, for your 
testimony, to be followed by GAO's testimony.

STATEMENT OF ALAN M. HANTMAN, FAIA, ARCHITECT OF THE 
            CAPITOL
ACCOMPANIED BY BOB HIXON, PROJECT DIRECTOR, CAPITOL VISITOR CENTER, 
            ARCHITECT OF THE CAPITOL

    Mr. Hantman. Thank you, Mr. Chairman, and good morning. I 
welcome this opportunity to update you on the status of the 
Capitol Visitor Center project, the key issues that were 
discussed in our last hearing, and the comments that you 
addressed in your opening statement as well. In line with those 
comments, there is clearly a concern regarding the time gap 
between our projection of having the CVC operational next 
December and GAO's expectation of an opening in mid-2007.
    While we continue to acknowledge and work to resolve the 
challenges and potential risks that are still ahead, 2 weeks 
ago our general contractor, Manhattan, submitted a revised 
schedule in line with our past discussions, and this schedule 
now incorporates, as you indicated, the expansion spaces for 
the House and the Senate. It incorporates the operations 
spaces.
    Now, what this does is it takes us from about 4,500 issues 
that need to be correlated on the schedule to well over 6,500 
activities. But it is important to note, Mr. Chairman, that 
Manhattan, in developing this new schedule, has incorporated 
the input from all of their subcontractors. So this is not a 
pie in the sky thing; it is a very detailed schedule. It 
significantly improves upon their August schedule.
    The issue of sequencing is something that we have talked 
about, the commissioning of all the life safety and fire safety 
systems. Those are the issues that primarily were moved back. 
In fact, in their August schedule they talked about a February 
2007 completion. They are now talking about, including 
commissioning, of a December 2006 completion.
    But this schedule is currently being evaluated by our fire 
marshal and by Gilbane, our construction manager, to assure 
adequate durations and appropriate system commissioning. Now, 
while this review is going to take another 6 to 8 weeks or so, 
and of course GAO will be looking at that as well, we will 
update you at the next hearing on the progress of taking a look 
at this fully integrated and expanded schedule.
    In light of these schedule adjustments and the refinements 
and the risks identified--and clearly the risks you talked 
about are still there: the commissioning process, East Capitol 
Street tunnel, the stone issues--we continue to acknowledge 
that December 2006 remains a more prudent date for public 
opening than the September 2006 date that we talked about 
originally.

                         KEY MANAGEMENT ISSUES

    I would like to briefly discuss the two key management 
initiatives that you referred to. First of all, as we reported 
last month, a risk assessment by McDonough Bolyard Peck (MBP) 
had identified current and potential future risk items. To 
date, we have conducted two follow-up working sessions as part 
of the review process to develop a comprehensive risk 
management and mitigation plan for each risk item. This is an 
ongoing, very positive process; keeping us focused on actual 
and potential problems.
    Second, the cost-to-complete assessment that you referred 
to was completed last week and it has been circulated for 
review. No additional funds are contemplated in the report, 
although GAO, as you indicated, and my staff have not yet 
conducted a full evaluation. We will certainly review that in 
November.
    In terms of cost, Mr. Chairman, I think it is important to 
note that we are on the cutting edge of trying to reconcile 
often conflicting code criteria related to fire and life safety 
with new and evolving security criteria so critical, and in 
some respects, Mr. Chairman, unique to this project. Life 
safety codes that were written in the 1990s never anticipated 
such in-depth security criteria in places of public assembly, 
such as the CVC. Additional costs, as GAO has pointed out, 
certainly have accrued to the project as we have resolved and 
worked through these issues, and we believe we are there at 
this time.

               CAPITOL VISITOR CENTER EXECUTIVE DIRECTOR

    In terms of operations, Mr. Chairman, let me update you on 
two key initiatives. First of all, we have obtained the 
necessary leadership approvals on the language for the position 
description for the CVC executive director. We expect to 
advertise the position shortly, with the goal of hiring in 
January 2006. What we have done, Mr. Chairman, is we have 
broken out this individual position, and we will be talking 
with you shortly about another half dozen associated positions 
that we believe are key to get on board as soon as possible. 
The rest of the positions, as we have been talking with both 
Appropriations Committees about, will be brought on as we are 
more sure that we have a coordinated schedule and the 
construction actually can support this. That way we will not 
have people waiting around for the visitor center to open and 
they are not brought on inappropriately early.

                         FOOD SERVICE CONTRACT

    The second operations initiative, Mr. Chairman, relates to 
the CVC food service contract. Based on the congressional 
mandate that internal functions be reviewed for possibly more 
efficient external contracting, it is prudent for us to 
consider whether Senate restaurant services should be provided 
through a private contractor. The House of Representatives has 
also reviewed their food services operations and as a result 
this initiative includes options for inclusion of both House 
and Senate food services under a single CVC food services 
contractor.
    After having briefed all Senate restaurant staff on this 
initiative, we issued a request for proposal, an RFP, on 
September 26 to solicit interest from food services 
contractors. The RFP process will take several months to 
complete and, once potential contractors submit their 
proposals, they will be evaluated to determine which options 
may provide the best value to the Government. We will have 
follow-up meetings with Senate restaurant staff as this process 
moves forward and as decisions are made to answer any questions 
they may have.
    Mr. Chairman, before I close I would like to show you 
several photos of the status of construction in critical areas 
of the project.

                          CONSTRUCTION STATUS

    First of all, Mr. Chairman, the stonework in the Great Hall 
is truly beautiful. As more stone goes in and the quality and 
the shape of the spaces become more and more evident, this is 
something that will resonate through the duration of the 
project. Now, as we complete the stone on the columns, as you 
see in this shot, we will be assembling scaffolds in the 
adjacent areas to allow work to begin on the Great Hall 
ceiling, and we expect that ceiling work to begin next month.
    We now have some 24 mason teams on site, compared to the 20 
who were working at the time of our last hearing, and the stone 
contractor is still continuing an aggressive pursuit of 
additional masons.
    On the service level, Mr. Chairman, I am pleased to report 
that all of the major equipment is now installed and crews, as 
shown here, are making the final duct connections to the air-
handling units and fans, piping connections to equipment, final 
electrical connections to equipment and electrical panels.
    Permanent power has now been brought in and temporary power 
is not being used any more. As a consequence, we are going to 
begin turning on the air-handling unit fans this week, which 
will ultimately provide fresh air throughout the facility. Mr. 
Chairman, this is a major accomplishment. These are critical 
areas that could have seriously impacted the project if not 
properly thought through and executed. It is truly impressive 
and I look forward to showing it to you when we have our tour.
    On the next board, inside the expansion space the 
contractor continues to make good progress on both the House 
and the Senate sides, and work continues on schedule. We are 
pleased so far with the aggressive pace of construction in 
these areas. Crews here are busy installing metal stud walls, 
drywall, ductwork, and electrical rough-in.
    Overall, Mr. Chairman, inside the CVC, despite some of the 
delays that have occurred and the need for resequencing of 
work, the contractor has consistently provided an excellent 
quality of work, not only in mechanical and electrical work, 
but also in the installation and application of stone wall, 
stone, masonry, and plaster.
    On the next board, Mr. Chairman, outside the facility we 
see that our historic preservation contractor continues to 
install the stone for the historic lanterns and the fountains, 
while workers continue placing the granite pavers in adjacent 
areas. In addition, on the major part of that photograph you 
can see that we have begun to set stone on the monumental steps 
on the north side of the CVC entrance. On the Senate plaza, 
crews are busy placing concrete to prepare the plaza for 
granite stone pavers. Mr. Chairman, this work is transforming 
the plaza into a high-quality pedestrian zone worthy of being 
called the front door to our Capitol.
    Last, on East Capitol Street, with respect to our tunnel, 
work has continued there with excavation and piling work 
nearing completion. An additional subcontractor has been 
brought on board to expedite concrete work at First Street. 
While, as you know, we did encounter additional unforeseen 
conditions in September, the contractor has made significant 
progress. Crews, as you can see here, began in September 
installing large 40-foot long sections of steam and chilled 
water pipes inside the tunnel, and that is clear and that work 
is continuing appropriately.
    Mr. Chairman, in conclusion, the project is moving forward 
on many fronts. When it is completed, the visitor center will 
provide all visitors to the Capitol with a state of the art, 
accessible facility that will welcome them respectfully and 
securely while also providing them with films, exhibits, and 
computers, to help them learn about Congress and its role in 
our democracy.
    I welcome the opportunity to review and discuss this 
historic project and am happy to answer any questions you might 
have.
    Senator Allard. Thank you for your testimony, Mr. Hantman.
    [The statement follows:]

              Prepared Statement of Alan M. Hantman, FAIA

    This statement provides an update on the progress of the Capitol 
Visitor Center project and the key issues that were discussed at the 
previous Senate hearing on September 15. A brief update on the status 
of construction follows.

                          CONSTRUCTION UPDATE

    In the Great Hall, stone has been installed up to the ceiling on 
the north, south, and west walls and masons are now setting stone on 
the Great Hall columns. As crews complete the stone on the columns, 
they will begin to assemble scaffolds in the adjacent areas to allow 
work to begin on the Great Hall ceiling, and that work is expected to 
begin next month. As more stone goes in, the quality and shape of the 
spaces becomes more and more evident.
    Overall, the stone contractor continues to increase the number of 
mason teams working on the project. There are now 24 mason teams on 
site compared to the 20 that were working at the time of the previous 
hearing. The stone contractor is continuing an aggressive pursuit of 
additional masons to keep pace with the amount of stone still to arrive 
or awaiting installation. Attached to this written statement is 
Manhattan's October 7th statement concerning the stone injunction that 
remains in place.
    On the Service Level, all of the major equipment is now installed 
and crews are making the final duct connections to the air handling 
units and fans, piping connections to equipment, and final electrical 
connections to equipment and electrical panels. The contractors also 
continue their transition from temporary to permanent power now that 
permanent power has been installed in both the House and Senate 
electrical vaults. As a consequence, crews will begin turning on the 
air handling unit fans this week, which will ultimately provide for 
fresh air throughout the facility. These are critical areas that could 
have seriously impacted the project if not properly executed.
    Inside the expansion space, the contractor continues to make good 
progress on both the House and Senate sides and work continues to track 
on schedule. The AOC is pleased thus far with the aggressive pace of 
construction in these areas. Crews are busy installing metal stud walls 
and drywall, ductwork and the electrical rough-in.
    Overall, inside the CVC, the Sequence 2 construction is proceeding 
well as mechanical, electrical, plumbing and fire protection piping and 
associated elements continue to populate ceiling spaces throughout the 
facility. Despite some of the delays that have occurred and the need 
for resequencing of work, the contractor has consistently provided an 
excellent quality of work not only in mechanical and electrical, but 
also in the installation and application of wall stone, masonry and 
plaster.
    Outside the facility, work on the Plaza continues and an historic 
preservation contractor continues to install the stone for the historic 
lanterns and fountains while workers continue placing the granite 
pavers in adjacent areas. In addition, masons have begun to set stone 
on the monumental steps at the north side of the CVC entrance. On the 
Senate Plaza, crews are busy placing concrete to prepare the plaza for 
granite paving stones. This work is transforming the plaza into a high 
quality pedestrian zone worthy of being the front door to our Capitol.
    On East Capitol Street, work has continued on the utility tunnel 
with excavation and piling work nearing completion at the intersection 
of First and East Capitol Street and complete at Second Street. The 
installation of formwork and reinforcing steel has started at Second 
Street and an additional sub-contractor has been brought on board to 
expedite concrete work at First Street. While crews did encounter some 
unforeseen conditions in September, the contractor has made significant 
progress installing the balance of the pre-cast tunnel and pipe 
supports, and crews began in September to install the large 40-foot-
long sections of steam and chilled water pipes inside the tunnel.

                            SCHEDULE UPDATE

    The AOC recognizes that there is clearly concern regarding the time 
gap between the AOC's projection of having the CVC operational next 
December and the GAO's expectation for an opening three to six months 
later in 2007. While the AOC continues to acknowledge the challenges 
and potential risks still ahead, two weeks ago Manhattan submitted a 
revised schedule that now includes the House and Senate expansion space 
as well as operational activities. This revised schedule now reflects 
an increase from 4,500 activities to some 6,500 activities and includes 
full input from their sub-contractors. This schedule significantly 
improves upon Manhattan's August schedule, primarily in the sequencing 
of commissioning activities, and brings the total completion date, 
including commissioning, back to December 2006. This schedule is 
currently being evaluated by the Fire Marshal and the CVC construction 
manager, Gilbane, to assure adequate durations and system commissioning 
sequencing. While this review will require six to eight weeks to 
complete, the AOC will update the Committee on progress at the November 
hearing.
    In light of the schedule adjustments and refinements discussed, and 
the risks identified, including the possibility of delays occurring 
during the commissioning process, the AOC continues to believe that 
December 2006 remains a more prudent date for a public opening than 
does September 2006. Further, a December opening would also provide 
additional time to staff operations personnel and establish operational 
policies and procedures. The recommended staffing would proceed in line 
with the fully coordinated schedule and actual construction progress so 
that portions of the staff were not hired too far in advance of the 
public opening.

                         MANAGEMENT INITIATIVES

    Following is a brief discussion of the status of two key management 
initiatives. First, as reported last month, a Risk Assessment by 
McDonough Bolyard Peck had identified potential future risk items. To 
date, the project team has conducted two follow-up working sessions as 
part of the review process to develop a comprehensive risk management 
and mitigation plan for each risk item. This is an ongoing process.
    Second, a Cost-to-Complete assessment was completed by McDonough, 
Bolyard Peck on October 11, 2005, and has been circulated for review. 
No additional funds are contemplated in the report, although GAO and 
AOC staff have not yet conducted a full evaluation, which will be 
provided at the November hearing. In terms of cost, it is important to 
note that the CVC project is on the cutting edge of trying to reconcile 
often conflicting code criteria related to fire and life safety with 
new and evolving security criteria so critical, and in some respects, 
unique to this project. Life safety codes written in the 1990's never 
anticipated in-depth security criteria in places of public assembly, 
such as the CVC. Additional costs to the project have been incurred as 
the project team has worked through and resolved these issues.

                         OPERATIONS INITIATIVES

    Following is an update on two key initiatives related to CVC 
operations. First, the AOC has obtained the necessary leadership 
approvals on the language for the Executive Director position 
description and expects to advertise the position shortly with the goal 
of hiring the Executive Director by January 2006. This time frame would 
allow for the approximate 12-month period that the AOC operations 
consultant feels is necessary to meet operations staffing requirements 
and establish procedural policies necessary for a public opening at the 
end of next year.
    A second operations initiative relates to the CVC food service 
contract. Based on the Congressional mandate that internal functions be 
reviewed for possibly more efficient external contracting, it is 
prudent for all parties to consider whether Senate Restaurant services 
should be provided through a private contractor. The House of 
Representatives has also reviewed their food service operations, and as 
a result, options for inclusion of both House and Senate Restaurant 
food services under a single CVC food services contractor are included 
in this initiative.
    Therefore, after having briefed all Senate Restaurant staff on this 
initiative, the AOC procurement division issued a Request For Proposals 
(RFP) on September 26th to solicit interest from food service 
contractors. Potential firms interested in performing this work will 
submit proposals on how they would do the work and financial 
implications.
    The RFP process will take several months to complete. Once 
potential contractors submit their proposals, they will be evaluated to 
determine which options may provide the best value to the government. 
The AOC will have follow-up meetings with Senate Restaurant staff as 
this process moves forward, and as decisions are made, to answer any 
questions they may have over the next year.
    In conclusion, the project is moving forward on many fronts and 
when it is completed, the Visitor Center will provide all visitors to 
the Capitol with a state-of-the-art and accessible facility that will 
welcome them respectfully and securely, while also providing them with 
the tools to learn about the Congress and its role in our democracy.

    Senator Allard. Now we will call on Mr. Ungar.

STATEMENT OF BERNARD L. UNGAR, DIRECTOR, PHYSICAL 
            INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY 
            OFFICE
ACCOMPANIED BY TERRELL DORN, ASSISTANT DIRECTOR, PHYSICAL 
            INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Ungar. Mr. Chairman, Mr. Dorn will do our summary for 
us at this hearing and we will both be available for questions.
    Senator Allard. Okay, very good.
    Mr. Dorn.
    Mr. Dorn. Good morning, Mr. Chairman, and thank you for the 
opportunity to be here today to discuss our continued 
assistance to the subcommittee in its oversight of the Capitol 
Visitor Center.
    What I would like to do is briefly summarize our written 
statement, focusing on two issues, cost and schedule, and what 
needs to be done in those areas from our perspective; and then 
Mr. Ungar and I would be glad to answer any questions you may 
have for us about our written statement.
    Beginning with schedule, as Mr. Hantman has already 
indicated, progress is continuing to be made on the project in 
a number of areas and the building is going to be beautiful. 
Overall, however, that progress is not occurring at the pace 
necessary to complete the CVC construction in September 2006, 
which would lead to the opening in December 2006 as AOC hopes 
for.
    You have already pointed out, Mr. Chairman, that out of the 
11 milestones this month only 3 were complete and none of those 
on time, according to the April baseline schedule, and only 1 
was completed on time compared to the revised June schedule. 
This continues a 3-month trend of not hitting the milestones, 
milestones from the contractor's own schedule, from his list of 
critical activities that by definition must be completed on 
time for the project to remain on schedule. Progress is not 
being made at the pace necessary to complete construction in 
September.
    Coincidentally to having 11 milestones this month, we also 
have 11 critical paths identified by Gilbane in the sequence 2 
(S-2) contractor's schedule. Four of the critical paths showed 
improvement this month, at least on paper, due to significant 
schedule resequencing and revisions by the sequence 2 
contractor in his attempt to find a faster way to complete the 
commissioning, testing and balancing, and fire marshal-related 
tasks. On the remaining critical paths, related to the utility 
tunnel and the stonework, the schedule actually slipped another 
couple weeks, in spite of the additional masons that were on 
site. Again, progress is not being made at the pace necessary 
to complete the construction in September.
    The significant revisions to the sequence 2 contractor 
schedule, that I mentioned a moment ago are in the areas that 
we discussed last month as needing revision and the contractor 
is giving it his best shot, even proposing to do work out of 
its normal sequence. We applaud the contractor's willingness to 
find creative ways to move the project along and do not 
disagree with what he is doing, and we also agree that some of 
the time can be recovered. However, compressing the schedule 
and possibly doing some activities out of sequence certainly 
raises the risk level and the need for improved coordination.
    As we recommended again last month, it is very important 
for AOC and Gilbane to rigorously examine the schedule, 
particularly the optimistic durations and the resource loading, 
including not only HVAC and fire protection systems, but also 
the stone and finishing activities. This has still not been 
done. Until the CVC team completes the analysis of the 
schedule, the schedule settles down and a realistic completion 
date is set, the team is almost flying blind, not able to see 
more than a few weeks down the road, and surprises will 
continue. Again, we strongly urge that AOC and Gilbane devote 
sufficient resources to this scheduling effort so that a 
credible schedule is available to the team. We have not seen 
anything in the last month to change our prediction of a CVC 
completion in the spring or summer of 2007.
    Last, on the cost, as Alan noted, the McDonough Bolyard 
Peck final cost-to-complete estimate was received by us last 
week and our evaluation has begun. However, the cost to 
complete will not be accurate until a completion date is known. 
So, again, it gets back to the fact that we need to get a 
completion date and the schedule set.
    This concludes my statement, Mr. Chairman, and I would like 
to thank you for the chance to come here and discuss our work 
with you, and we are available to answer any other questions 
you may have.
    [The statement follows:]

                 Prepared Statement of Bernard L. Ungar

    Mr. Chairman and Members of the Subcommittee: We are pleased to be 
here today to assist the Subcommittee in monitoring progress on the 
Capitol Visitor Center (CVC) project. Our remarks will focus on (1) the 
Architect of the Capitol's (AOC) progress in managing the project's 
schedule since the Subcommittee's September 15 hearing on the project, 
(2) issues associated with the CVC's fire protection system, and (3) 
the project's costs and funding.\1\ Our ability to fully address these 
issues is limited by two important factors. First, AOC's sequence 2 
construction contractor's--Manhattan Construction Company--September 
2005 schedule reflects a number of significant changes, and AOC has not 
yet had the opportunity to fully evaluate these changes. Second, 
neither AOC nor its construction management contractor--Gilbane 
Building Company--has completed the evaluation of elements of the 
project schedule that we recommended during the Subcommittee's 
September 15 hearing. Thus, while we will discuss the schedule's status 
today, we will not be able to provide specific estimated completion 
dates until AOC and its construction management contractor complete 
their assessments and we have the opportunity to evaluate them. 
Similarly, while we will discuss the status of the project's costs and 
funding today, we will wait until the project schedule is fully 
reviewed and stabilized and we have had an opportunity to evaluate 
AOC's consultant's, McDonough Bolyard Peck (MBP), cost-estimation work 
before we comprehensively update our November 2004 estimate of the cost 
to complete the project.
---------------------------------------------------------------------------
    \1\ See GAO, Capitol Visitor Center: Schedule Delays Continue; 
Reassessment Underway, GAO-05-1037T (Washington, D.C.: September 15, 
2005).
---------------------------------------------------------------------------
    Our remarks today are based on our review of schedules and 
financial reports for the CVC project and related records maintained by 
AOC and its construction management contractor; our observations on the 
progress of work at the CVC construction site; and our discussions with 
CVC project staff (including AOC, its major CVC contractors, and 
representatives of MBP), AOC's Chief Fire Marshal, United States 
Capitol Police (USCP) representatives, and officials responsible for 
managing the Capitol Power Plant (CPP). We did not perform an audit; 
rather, we performed our work to assist Congress in conducting its 
oversight activities.
    In summary, AOC and its construction contractors have made progress 
in managing the schedule and accomplishing work since the 
Subcommittee's September 15 CVC hearing, but additional delays have 
been encountered. Work on all interior levels of the CVC, various 
sections of the House and Senate expansion spaces, the plaza, and the 
utility tunnel has continued. However, additional delays have occurred 
in a number of areas. For example, despite an increase in the number of 
stone masons working on the project in September, the project lost 
about 2 weeks on interior stone work installation and a similar amount 
of time on the utility tunnel.
    Moreover, some revisions have been made to project activities and 
schedules, but these revisions have not been fully evaluated. The 
sequence 2 contractor revised the manner in which the HVAC and fire 
protection systems' commissioning work and acceptance testing would be 
done, which changed this contractor's scheduled completion date for the 
base project to December 11, 2006, from a completion date of February 
26, 2007, in the contractor's August schedule. However, neither AOC nor 
its construction management contractor has had time to fully evaluate 
these revisions. In addition, AOC's construction management contractor 
has now integrated into the project's September 2005 schedule a number 
of recently prepared component schedules, including schedules for 
preparing for CVC operations and House and Senate expansion space 
construction. This integrated project schedule shows the base project 
as being ready for opening to the public by mid December 2006 and a 
completion date of February 26, 2007, for the House and Senate 
expansion spaces.\2\ However, neither AOC nor its construction 
management contractor has fully evaluated the activity durations or 
adequacy of resource levels shown in the base project's schedule as we 
recommended in our September 15 statement. Also, the September 2005 
schedule does not yet fully reflect input from AOC's Chief Fire Marshal 
on commissioning or testing and inspection activities. Thus, we are not 
now in a position to estimate a specific completion date, and our views 
should be regarded as preliminary at this time. With this qualification 
in mind, we have not seen recent evidence that would change our 
preliminary view that a base project completion date in 2006 will be 
difficult to achieve and that construction completion in early to mid 
2007 is more likely unless AOC and its contractors take extraordinary 
action or change the project's scope, which could result in additional 
costs to the Government. Our view is based on the schedule slippages 
that have already occurred, the views of project personnel that several 
activities (such as interior wall stone installation and interior 
finish work) are likely to take longer than shown in the schedule, the 
large number of activities that the current project schedule shows as 
being at risk of causing the project's completion date to slip, and the 
risks and uncertainties that continue to face the project. While we 
view the increased number of stone masons as quite positive, it is not 
clear whether the contractor will be able to maintain a sufficiently 
high number of masons on the site or whether sufficient stone supplies 
will be available on time given the problems that have been experienced 
in this regard. AOC and its construction manager expect to have their 
evaluations of the sequence 2 contractor's schedule changes, scheduled 
activity durations, and proposed resource levels done by the end of 
this year. We will re-evaluate the project schedule and inform the 
Subcommittee of our results after AOC and its construction management 
contractor have what they consider to be a reasonably stable integrated 
schedule.
---------------------------------------------------------------------------
    \2\ AOC set September 15, 2006, as the contractual date for 
completing the base project's construction and for opening the CVC 
facility to the public. The House and Senate expansion spaces were 
scheduled to be completed after that date. AOC set the September 
contract completion date in November 2004, when it reached agreement 
with the contractor on a new date for starting sequence 2 that 
reflected the delays experienced on sequence 1. On September 6, 2005, 
AOC informed Capitol Preservation Commission representatives that it 
still expected the base project's construction to be substantially 
complete on September 15, 2006, but was postponing the date for opening 
the facility to the public to December 15, 2006, so that it could 
complete system tests, minor punch-list work, and preparations for 
operations.
---------------------------------------------------------------------------
    The design of the CVC's fire protection system has undergone a 
number of changes--largely to reconcile conflicts between security and 
life and fire safety requirements--and in a number of instances has 
been the focus of considerable debate among stakeholders (e.g. CVC 
project team members, AOC's Chief Fire Marshal and AOC fire protection 
engineers, and USCP representatives). Changes to the system's design 
and scope have resulted in about $900,000 in cost increases so far and 
could result in additional increased costs of about $4.4 million based 
on anticipated changes as of September 30, 2005. The bulk of the 
potential $5.3 million cost increase stems from two factors--a change 
in the manner smoke will be kept from egress stairwells that was 
requested by AOC's Chief Fire Marshal and agreed to by the stakeholders 
and which resolves a conflict between security and life and fire safety 
requirements, and a disagreement between AOC and a contractor over 
contract requirements for certain detection devices. The increased cost 
figure could change significantly, however, because some CVC project 
team members believe that the estimated costs for these changes are too 
high, costs for all proposed or anticipated changes have not yet been 
fully evaluated, and negotiations relative to the estimated $4.4 
million in anticipated changes have not been completed. We have 
discussed the costs associated with the stairwell change with AOC, and 
it has agreed to fully evaluate the situation before it executes any 
additional contract modifications for this change. Based on our 
discussions with the CVC project team, AOC's Chief Fire Marshal, and 
USCP representatives, it appears that the fire protection system design 
is now essentially complete and agreed to by all the stakeholders. 
Finally, coordination problems have existed between the CVC project 
team and AOC's Chief Fire Marshall in arranging for inspections of 
completed work, but steps are being taken to resolve the problems.
    We have not updated our interim estimate of a cost of between 
$525.6 million and about $559 million to complete the project, which we 
reported at the Subcommittee's September 15 CVC hearing, because AOC's 
consultant just completed its updated cost estimate and we have not yet 
had the opportunity to evaluate it, and because the project schedule 
has not yet stabilized. As soon as we evaluate MBP's report and the 
project schedule stabilizes, we will begin our work to reassess the 
reasonableness of project completion dates and comprehensively update 
our cost-to-complete estimate. No additional funding beyond the $527.9 
million for CVC construction and the $7.8 million that remained 
available for CVC operations or construction that we reported at the 
Subcommittee's last CVC hearing has been provided for the CVC.
Project Schedules Have Been Revised but Not Fully Evaluated
    While work in several areas has moved forward since the 
Subcommittee's September 15 CVC hearing, additional delays have been 
encountered, and project schedules have been revised but not fully 
reviewed or evaluated. Construction work has continued on the CVC, the 
East Front, the plaza, the House and Senate expansion spaces, and the 
utility tunnel since the Subcommittee's September 15 hearing. For 
example, wall stone installation work has continued in the great hall, 
the orientation theaters, and the auditorium, and the number of stone 
masons working in the interior of the CVC has increased since mid 
August. Some stone masons worked on weekends between mid August and mid 
September. In addition, excavation, concrete, and piping work in the 
utility tunnel has been proceeding, as has mechanical, electrical, and 
plumbing work in the CVC.
    On the other hand, between the Subcommittee's September 15 hearing 
and October 12, the sequence 2 contractor completed work on only 3 of 
the 11 activities we and AOC have been tracking for the Subcommittee. 
None of these activities had been completed by the target dates shown 
in the contractor's April 2005 baseline schedule, although one was 
completed by the date shown in the contractor's June 2005 schedule. 
(See app. I.) Furthermore, additional delays have occurred on interior 
and exterior stonework installation, the East Front, the utility 
tunnel, and the House connector tunnel. For example, according to AOC's 
construction management contractor, during September, the sequence 2 
contractor gained only 12 workdays on critical interior stonework and 
10 workdays on the utility tunnel out of a possible 21 days of work. 
According to the construction management contractor, stonework has been 
delayed due to a shortage of stone masons, a lack of critical pieces of 
stone, the need to do remedial concrete work in the orientation 
theaters and along the exterior concrete walls and interior concrete 
floors of the auditorium, and delays in getting shop drawings for 
stonework on the East Front. According to AOC's construction management 
contractor, excavation work on First Street for the utility tunnel has 
been delayed due to unforeseen conditions and the need to stop work for 
the former Chief Justice's funeral at the Supreme Court, and unforeseen 
conditions have also delayed work on the House connector tunnel.
    During September, the sequence 2 contractor changed the manner in 
which the HVAC and Fire Protection system's commissioning work and 
acceptance testing would be done, with the potential result of a time 
savings. The changes largely involved re-sequencing work and doing work 
concurrently that the August schedule showed would be done 
sequentially. According to the contractor's revised schedule, these 
changes will result in an improvement of over 60 workdays and bring the 
scheduled completion date for this work to December 11, 2006, compared 
to the February 26, 2007, date shown in the August schedule. However, 
these changes have not yet been fully evaluated. AOC and its 
construction management contractor are reviewing the changes, as is 
AOC's Chief Fire Marshal. AOC and its construction management 
contractor believe it will take about 30 to 60 days to complete their 
assessments, and AOC's Chief Fire Marshal believes that he may have his 
evaluation done before the end of October.
    Altogether, the construction management contractor has identified a 
total of 11 critical activity paths in the September schedule that will 
extend the base project's completion date beyond AOC's September 15, 
2006, target date if expected lost time cannot be recovered or further 
delays cannot be prevented. In addition to the critical paths related 
to the HVAC system and the fire alarm system that are discussed above, 
examples of other base project critical path activities included in the 
contractor's September schedule are utility tunnel and piping, 
stonework in the East Front, interior wall stone in such areas as the 
orientation theaters and atria, stonework in the auditorium and exhibit 
gallery, millwork and casework installation in the orientation theaters 
and atria, fabrication and installation of bronze doors, and penthouse 
mechanical work. Of the 11 critical activity paths in the September 
schedule, completion dates for 4 paths improved compared to the August 
schedule, but completion dates for the other 7 paths, including all of 
the stonework paths, slipped. For example, according to the 
construction management contractor, the September schedule shows all of 
the work associated with the fire alarm testing critical path being 
completed by November 22, 2006, an improvement over the August 
schedule's date of February 26, 2007; the September schedule also shows 
all of the work associated with the interior auditorium wall stone 
critical path being completed by December 12, 2005, more than a month 
later than the August schedule's date of November 2, 2005. The sequence 
2 contractor's September 2005 schedule indicates that construction work 
on the base CVC will be essentially complete by September 15, 2006, and 
that remaining work between that date and December 11, 2006, will 
largely consist of testing, balancing, and commissioning the HVAC 
system; testing and inspecting the fire protection system; punch-list 
work; and preparing for operations.
    Most of the activities discussed above are among the activities we 
previously identified as likely having optimistic durations, suggesting 
that it could take even longer to complete them than shown in the 
project schedule. These activities served as the basis for the 
recommendation we made to AOC during the Subcommittee's September 15 
hearing that AOC rigorously evaluate the durations for the activities 
shown in the project schedule. According to AOC, it has not yet 
completed this evaluation. Moreover, we continue to believe that having 
such a large number of critical activity paths complicates project 
management and makes on-time completion more difficult.
    AOC's construction management contractor has continued to integrate 
various component schedules into the CVC construction and summary 
schedules as they have been completed, and the integrated schedule 
contains about 6,500 activities. Consequently, AOC now has a summary 
schedule that integrates the completion of CVC and House and Senate 
expansion space construction with preparations necessary for opening 
the CVC to the public. This integrated summary schedule shows CVC 
construction as well as the activities necessary for opening the CVC to 
the public being completed by mid December 2006, the time AOC proposed 
last month for opening the CVC to the public. That is, AOC expects 
construction work on the base CVC project to be substantially completed 
by September 15, 2006, but expects such work as HVAC commissioning, 
fire protection system testing and inspection, punch-list work, and 
operations preparations work to be ongoing until December 15, 2006. 
According to AOC's sequence 2 and construction management contractors, 
it is not yet clear whether expansion space construction will have 
progressed to the point where temporary work for fire safety once 
believed to be necessary to open the CVC to the public will no longer 
have to be done. They said that they are still analyzing the work 
associated with those areas where the base project interfaces with the 
expansion spaces and whether and how the need for temporary work for 
fire safety can be minimized or eliminated.
    Although the sequence 2 contractor has taken, plans to take, and is 
considering various actions \3\ to recover lost time and prevent or 
mitigate further delays, we continue to believe that the contractor 
will have difficulty completing construction before early to mid 2007. 
Our reasons for concern include the uncertainty associated with the 
September changes in the HVAC commissioning and fire protection system 
schedules that have not yet been fully reviewed, the schedule slippages 
to date, optimistic durations for a number of activities based on the 
views of CVC team members, the large number of activity paths that are 
critical, and risks and uncertainties that continue to face the 
project. AOC's construction management contractor also points out that 
further delays could result from congressional requests to stop work 
due to high noise levels in the East Front and delays in completing CVC 
ceiling work necessary for the HVAC and fire protection systems, 
although the CVC team is considering ways to mitigate these risks. We 
also note that the Chief Fire Marshal has not yet approved the 
construction drawings for the fire protection system or the schedule 
for the system's commissioning and testing.
---------------------------------------------------------------------------
    \3\ In September, the sequence 2 contractor increased the number of 
stone masons working on the project. For example, AOC's construction 
management contractor reported that an average of 22 stone masons 
worked on the project each work day for the work week ending October 
14, compared to an average of 14 each work day for the work week ending 
August 26. Stone masons also worked on several weekends, and the 
contractor plans to further increase the number of stonemasons during 
October and to re-sequence stonework to help mitigate a delay in the 
exhibit gallery. The contractor has hired an additional subcontractor 
to help construct the utility tunnel and is considering working longer 
hours or additional weekends to recover time. The contractor also plans 
to continue to evaluate the schedule to see what changes can be made to 
save time in a variety of areas.
---------------------------------------------------------------------------
    In addition to our views on the project's September schedule 
changes and progress, we would also like to briefly discuss several 
schedule-related issues about which we have previously raised questions 
or issues or made recommendations to AOC.
  --We have been recommending for some time that AOC improve schedule 
        management and analyze and document delays and the reasons and 
        responsibilities for them on an ongoing basis--at least 
        monthly. We have noted considerable improvements in the CVC 
        team's schedule analysis and management since the arrival of 
        the construction management contractor's project control 
        engineer several months ago. Shortly after his arrival, the 
        scope and depth of schedule analysis and management improved 
        significantly, and AOC's construction management contractor 
        modified its monitoring process to capture information on 
        delays. However, we continue to be concerned about AOC's not 
        having adequate information systematically compiled and 
        analyzed to fully evaluate the causes and potential 
        responsibilities for delays on an ongoing basis. In our view, 
        not having this type of information on an ongoing basis is 
        likely to create problems later on should disputes arise and 
        knowledgeable staff leave. Also, in this regard, we have 
        previously expressed concerns about the need for the project 
        schedule to show resources to be applied to meet schedule 
        dates. While the sequence 2 contractor has shown proposed 
        resource levels for many activities, proposed resource levels 
        have not been included for many of the new activities added to 
        the project schedule. The lack of such information can 
        complicate the analysis of delays, including their causes and 
        costs. AOC agreed that these issues are important and said it 
        would discuss them with its construction management contractor.
  --We have previously recommended that AOC develop risk mitigation 
        plans to address risks and uncertainties facing the project. In 
        July, AOC asked one of its consultants--MBP--to assist it in 
        identifying risks and developing plans to address those risks. 
        AOC has identified over 50 risks facing the project and 
        established a process for addressing them. AOC has begun to 
        develop and implement plans for managing these risks. As of 
        October 11, AOC had developed plans for addressing 12 risks, 
        such as unforeseen conditions associated with constructing the 
        House connector tunnel, and fabrication and installation of 
        custom bronze doors and windows. AOC said that it will continue 
        to develop plans for the remaining risks. It also plans to 
        discuss the risks at a weekly meeting and add new risks to its 
        list and develop mitigation plans for them as they are 
        identified.
  --The September schedule shows utility tunnel construction being 
        completed in February 2006 and CVC's air handlers beginning to 
        operate at that time, assuming that they can get steam and 
        chilled water from the Capitol Power Plant. During our 
        September 15 testimony, we noted several problems associated 
        with CPP that could adversely affect the CVC as well as other 
        congressional buildings if not corrected or addressed. These 
        problems included, for example, potential delays in completing 
        the West Refrigeration Plant Expansion Project, which is 
        necessary to provide chilled water to the CVC; the removal from 
        service of two chillers in the East Refrigeration Plant because 
        of refrigerant gas leaks; fire damage to a steam boiler; and 
        staffing and training issues associated with operating the new 
        plant and the absence of a CPP director. Since the 
        Subcommittee's September 15 CVC hearing, the fire damage to the 
        boiler has been repaired, and the two coal-burning boilers that 
        were taken off line for maintenance had been put back on line; 
        however, another maintenance problem occurred with one of the 
        boilers and it had to be turned off for repairs, which AOC 
        expects to have completed by the end of this week. Also, over 
        the Columbus Day weekend, heavy rains caused damage to 
        electrical equipment that resulted in a power outage affecting 
        the entire plant. Power was restored within a few hours; 
        however, because of damage to the electrical equipment, power 
        is not available at certain locations within the plant. In 
        particular, one of the chillers in the East Plant is inoperable 
        because power cannot be provided to it. This incident prompted 
        AOC to make a change that affects the West Refrigeration Plant 
        Expansion Project. Specifically, AOC has decided to reconfigure 
        the chilled water piping system to allow the West Plant to 
        operate in isolation of West Plant Expansion. This change, 
        which could result in an increase to the contract cost, will 
        decrease CPP's reliance on the older East Plant and will 
        enhance its capacity to reliably provide chilled water to the 
        CVC and other congressional buildings. Finally, AOC recently 
        advertised the vacant director's position. At this time, GAO 
        has an active engagement to assess certain CPP issues, such as 
        staffing and training for, and the estimated cost to complete, 
        the West Refrigeration Plant Expansion Project. This engagement 
        is being conducted as part of a separate review for the 
        Subcommittee.
  --Although AOC determined that the sequence 1 work was substantially 
        complete in November 2004, the sequence 1 contractor has 
        continued to work on punch-list items. Since the Subcommittee's 
        September 15 CVC hearing, AOC's construction management 
        contractor added about 15 additional work items to this list, 
        such as chipping concrete interfering with wall stone 
        installation and repairing drains. According to AOC's 
        construction management contractor, the sequence 1 contractor 
        has been making satisfactory progress in completing the punch-
        list work.

Fire Protection System Issues Are in the Process of Being Resolved
    The CVC's fire protection system is complicated, interfaces with 
security and other building systems, and encompasses a variety of 
subsystems and components, such as smoke and heat detectors, an alarm 
system, a sprinkler system, a smoke evacuation system, door locks that 
will open in the event of a fire, monitoring and control systems, 
emergency signage, lighting, communication, and a system for preventing 
smoke from entering stairwells--referred to as stair pressurization--to 
allow occupants to get out of the building. We have identified three 
issues related to the fire protection system, each of which we would 
like to briefly discuss.
    1. Evolving design.--The CVC's fire protection system has undergone 
a number of design changes and has been the subject of debate among 
relevant stakeholders for a number of reasons, largely due to conflicts 
between security and life and fire safety requirements. According to 
AOC, the building codes governing the design of the CVC often conflict 
with security requirements, do not recognize the unique security needs 
of the Capitol, and are particularly silent when it comes to the 
integration of new air filtration technologies. In addition, AOC said 
that security requirements and the decision to add state-of-the art air 
filtration technology to the project when the construction documents 
were almost complete forced the project team to redesign all of the air 
handling systems in a compressed timeframe in order to maintain the 
overall schedule. It also forced the project team to devise a complex 
design solution with AOC's Chief Fire Marshal and USCP while sequence 2 
was out for bid as well as after the contract had been awarded. On 
October 5, we attended meetings of representatives from the CVC project 
team, AOC's Fire Marshal Division, and USCP where issues surrounding 
the CVC's fire protection system were discussed. Based on those 
discussions and information subsequently provided by AOC and USCP, it 
appears to us that the design of the CVC's fire protection system is 
now essentially complete and agreed to by all of the relevant 
stakeholders. The CVC project team and the Chief Fire Marshal note, 
however, that not all of the shop drawings related to the fire 
protection system have been submitted or approved, and some issues 
could arise during the review process.
    2. Increased cost.--As of September 30, executed contract 
modifications and anticipated changes related to CVC's fire protection 
system totaled about $5.3 million, with most of this amount, about $4.4 
million, being estimated costs for anticipated changes that have not 
been fully evaluated or approved. Changes to the system's design and 
scope already made have resulted in about $900,000 in cost increases. 
Costs for changes that have been made or that are anticipated have 
increased or are expected to increase for several reasons, but the bulk 
of the increases stems largely from two factors--changes requested by 
AOC's Chief Fire Marshal aimed at ensuring that the system meets fire 
safety standards based on his interpretation of code requirements (an 
area where conflict existed between fire safety and security 
requirements) and a disagreement between AOC and a contractor on 
contract requirements regarding certain detection devices. The most 
costly change involving the security/fire safety conflict that the CVC 
team has agreed to relates to the manner in which fresh air will be 
brought into the building to pressurize stairwells to prevent smoke 
infiltration in the event of a fire. The estimated costs for this 
change (including the expansion space) amount to about $2.2 million, or 
over 40 percent of the estimated increased costs for the fire 
protection system. Differences of opinion among CVC team members exist 
on the magnitude of the estimated costs for this change. We have 
discussed this issue with AOC, and it has agreed to fully evaluate the 
cost before it executes additional contract modifications relating to 
stair pressurization. The final costs for the stair pressurization and 
detection devices in question as well as the other anticipated changes 
could change significantly from the estimated amounts once any open 
issues regarding costs are resolved. It is also possible that some of 
the proposed change orders include work items that are not related to 
the CVC's fire protection system, and to the extent this situation 
exists, costs for such work items would not be attributable to the fire 
protection system.
    3. Coordination problems.--The CVC project team and AOC's Fire 
Marshal Division have been experiencing difficulties arranging for 
timely inspections of completed work due to coordination problems 
involving the amount of notice and documentation needed before 
inspections can occur. To improve coordination, the CVC project team 
has been working with its construction management contractor and the 
Chief Fire Marshal to develop a systematic process for arranging for 
and documenting fire safety inspections and is considering hiring a 
consultant to help facilitate the coordination process. The Chief Fire 
Marshal has increased staffing devoted to the CVC and is planning to 
obtain contract support to help perform CVC inspections. The Chief Fire 
Marshal is also reviewing the sequence 2 contractor's September 2005 
schedule to determine whether the sequencing of work and the time 
allotted for fire safety and occupancy inspections are acceptable.

Our Project Cost Estimate Update Awaits Assessment of Consultant 
        Estimate and Schedule Stabilization; Funding Provided Has Not 
        Changed Since September 2005
    AOC's consultant--MBP--finished its work last week to update the 
estimated cost to complete the project. We have not yet had time to 
evaluate MBP's report. Also, as we said during the Subcommittee's 
September 15 CVC hearing, we are waiting for the project schedule to 
stabilize before we begin our work to comprehensively update our 
November 2004 estimate of the cost to complete the project. Thus, we 
are not revising our interim updated estimated cost to complete the 
project of between $525.6 million and about $559 million that we 
discussed at the Subcommittee's September 15 CVC hearing. As soon as we 
evaluate MBP's report and the project schedule stabilizes, we will 
begin our work to assess the reasonableness of the scheduled completion 
dates for the CVC and the House and Senate expansion spaces and 
comprehensively update our estimate of the cost to complete the 
project.
    No additional funding beyond the $527.9 million for construction 
and the $7.8 million that was available for CVC construction or 
operations has been provided for the project since the Subcommittee's 
September 15 hearing.\4\ As you may recall, Mr. Chairman, at your last 
CVC hearing, we expressed concern about possible duplication of work 
and costs in areas where the responsibilities of AOC's CVC construction 
and operations contractors overlap, such as in designing wayfinding 
signage and the gift shops. AOC agreed to work with its operations 
planning contractor to clarify the contractor's scope of work, 
eliminate any duplication, and adjust the operations contract's funding 
accordingly. AOC told us that it has discussed these issues with its 
contractor and concluded that while no duplication of work or funding 
exists, it needs to clarify the contract's scope of work on wayfinding 
signage because it included more work than the contractor would 
actually do.
---------------------------------------------------------------------------
    \4\ AOC had planned to use $100,000 of its fiscal year 2006 
appropriation for CVC construction to move a fire alarm control panel 
in the Capitol building related to CVC construction but outside the CVC 
work area. AOC has decided to pay for this move with other funds, thus 
making the $100,000 available for other CVC construction purposes 
subject to approval of the House and Senate Committees on 
Appropriations. As we reported in September, AOC had also used about 
$805,000 in CVC operations funds for certain construction work that had 
been funded by the fiscal year 2006 construction appropriation. These 
funds also could be used for other CVC work subject to the Committees' 
approval.
---------------------------------------------------------------------------
    Mr. Chairman, this concludes our statement. We would be pleased to 
answer any questions that you or Members of the Subcommittee may have.

      APPENDIX I.--CAPITOL VISITOR CENTER CRITICAL CONSTRUCTION TARGET DATES SEPTEMBER 16-OCTOBER 18, 2005
----------------------------------------------------------------------------------------------------------------
                                                                            April 2005   June 2005
                Activity                              Location              Scheduled    Scheduled      Actual
                                                                           Finish Date  Finish Date  Finish Date
----------------------------------------------------------------------------------------------------------------
Drill/Set Soldier Piles Sta. 0:00-1:00..  Utility Tunnel.................      6/08/05      8/23/05      9/21/05
Wall Stone Area 9 Base..................  Great Hall.....................      7/15/05     11/03/05      9/14/05
10 Inch South Fire Line.................  Site...........................      7/19/05      1/09/06  ...........
Excavate and Shore Sta. 0:00-1:00.......  Utility Tunnel.................      7/21/05     10/05/05  ...........
Concrete Working Slab Sta. 0:00-1:00....  Utility Tunnel.................      7/26/05     10/10/05  ...........
Waterproof Working Slab Sta. 0:00-1:00..  Utility Tunnel.................      7/29/05     10/13/05  ...........
Wall Stone Area 1.......................  Congressional Auditorium.......      8/08/05      7/22/05  ...........
Wall Stone Area 2.......................  Congressional Auditorium.......      8/22/05      8/05/05  ...........
Wall Stone Area 3.......................  Congressional Auditorium.......      9/06/05      8/19/05  ...........
Wall Stone Area 5 \1\ Base..............  Orientation Theater............      9/13/05      9/28/05  ...........
Perimeter CMU Walls.....................  Orientation Lobby..............      9/20/05      9/16/05  ...........
----------------------------------------------------------------------------------------------------------------
\1\ This activity was not noted listed in the April schedule. All other activities were critical in the April
  schedule or became critical in subsequent schedules.

Source: AOC's April and June 2005 CVC sequence 2 construction schedules for the scheduled completion dates and
  AOC and its construction management contractor for the actual completion dates.
Note: Actual completion information was obtained on October 12, 2005.

    Senator Allard. Thank you very much. I appreciate the panel 
being here with us this morning. I think it is important that 
this subcommittee continue to review carefully progress on the 
construction project, and hopefully we do this in a 
constructive manner, and I think your comments have been 
constructive.

                         CONSTRUCTION SCHEDULE

    I know, Mr. Hantman, Mr. Hixon, it is frustrating at times 
when you have these unexpected problems. But I do think that 
the subcommittee has to have a thorough understanding of how we 
are progressing. I would like to urge you to get that schedule 
in place, because I see that as critical.
    In your testimony, Mr. Hantman, you indicated another 6 to 
8 weeks is required to thoroughly evaluate that schedule. We do 
want it precise as you can possibly get it, but I am curious to 
know why it is taking so long to get this finalized.
    Mr. Hantman. Mr. Chairman, we have been talking about an 
integrated schedule with all components coming into it for a 
while now. As you know, the expansion space contractor has come 
on board fairly recently and their input into the completion of 
the expansion spaces both for the House and the Senate has been 
a critical component that needed to be fed into it. So as a 
contractor determines their means and methods and their own 
sequencing of how they are going to get the job done, that gets 
done as the work is progressing.
    So they have now fed their information into the full 
schedule and that work, as you know, just happened fairly 
recently, or just started fairly recently.

                          OPERATIONS CRITERIA

    The other end of it, Mr. Chairman, relates to the 
operations. Clearly, we have brought Zell Corporation back on 
board to talk about all of the operations criteria. The concern 
that you have mentioned in past hearings, talking about making 
sure that the operations issues are factored in; we now have 
some 500 or so items on operations that are factored into this 
fully integrated schedule. So while Mr. Dorn characterized us 
as flying blind a little while ago, the issue here really is 
that we have got a very thorough schedule that the contractor 
has committed to and that we need to evaluate from both the 
fire marshal's perspective and from our construction manager's 
perspective, to take a look at the reality, make sure the 
durations are reasonable.
    But this schedule I think, in most people's experience, is 
more detailed and more coordinated than any they have seen 
pretty much in their professional careers. So we have really 
tried to dot those ``i's'', cross those ``t's'', and make sure 
that we are integrating, so that we can avoid problems down the 
road.

                             BASE SCHEDULE

    Senator Allard. Now, true, we have just brought on the 
expansion spaces for the House and the Senate and that is a new 
factor to bring in. But as far as base scheduling, it has been 
1 year, has it not, when Manhattan came on board? I see Mr. 
Ungar is nodding his head. Perhaps maybe you can clarify this 
for the record, but I think it has been 1 year where we have 
had Manhattan on with sequence 2; actually we had the 
contractor start in November 2004. Am I correct in that, Mr. 
Ungar?
    Mr. Ungar. Yes, Mr. Chairman, you are.
    Senator Allard. So again, we do not have a final base 
schedule.
    Mr. Hantman. Absolutely.

                    CONSTRUCTION SCHEDULE ASSESSMENT

    Senator Allard. By the way, who is doing the schedule 
assessment and what is its scope and methodology?
    Mr. Hantman. Bob?
    Mr. Hixon. The schedule review, we have had McDonough 
Bolyard Peck working on it. They are going to be completing 
their review. They have started it and they generated some 
initial comments.
    McDonough Bolyard Peck is doing it as a consultant for us. 
In addition to that, Gilbane will be doing the review 
themselves. We have talked about if we have a separate group of 
people within Gilbane, not the current field staff but other 
staff, come in and do that evaluation as far as the durations 
and the logic within the schedule.
    The team themselves have been doing this review. The 
schedule itself, you are correct, it did come in in January, we 
received the new baseline schedule. That schedule has continued 
to evolve. What has occurred in the last month was primarily 
the integration of all of the commissioning activities, a 
number of activities, and that was all added in August.
    We were expecting to have the review of the durations and 
logic completed by this hearing. However, when we got the 
report in, there was an inadequate amount of time to do it. 
There have been such significant changes to the commissioning 
activities that we need to have the fire marshal participate in 
that review. So that is why that has been put off.
    The integration of the schedule for the expansion space, as 
well as the operations, adds more detail. It will be reflected 
in some of the activities in construction, but more to ensure 
that they are well coordinated, not really changing the 
schedule itself.
    Senator Allard. I am curious about your methodology. Would 
you agree with me that if we could have at least a basic plan 
then as things change we can always incorporate those changes 
into the basic plan?
    Mr. Hixon. Absolutely, sir. That is exactly what we are 
doing. We had the base schedule in January. We have done some 
reviews of that and it has been improved. The original base 
schedule had broad periods of time. It would say, for example, 
install wall stone in the Great Hall. The detailed schedule now 
reflects 10 different areas of wall stone, so that it is broken 
down into durations that are small enough you can actually 
measure.
    So the original baseline schedule did not have as much 
detail as we felt was necessary to adequately monitor the 
project. As we develop more of these details, the schedule has 
grown. Then with the inclusion of all the commissioning 
activities, when those details were added in August, the 
schedule completion date became unacceptable and the contractor 
went back to look at that to see what was wrong with the logic 
that we were using. Now the contractor is satisfied that the 
schedule is perfect, but the fire marshal, the construction 
manager, and we have not had an opportunity to review that in 
detail. It only came in 1\1/2\ weeks ago. So what we need is 
some time to get the fire marshal--the critical part of this is 
not the construction part. The construction should be done in 
September. The critical part is making sure we all thoroughly 
understand what the commissioning activities are that need to 
take place, so that the fire marshal's input works well with 
the contractor's plan for completion of facility. That is the 
piece that we are really working to try and pull together.
    Senator Allard. Mr. Ungar, do you believe that the 
Architect of the Capitol and Gilbane are doing all they should 
to reevaluate and finalize the schedule in a timely manner?
    Mr. Ungar. Mr. Chairman, that is a question that we have 
right now. What we are looking for when we use the term 
``rigorous, aggressive assessment'' is a real fact-based, data-
based, expert review of the schedule. For example, on the 
stonework, what we had in mind would be having somebody 
knowledgeable about stonework looking at the actual experience 
of the project to date with the number of masons, the 
productivity, looking at what the durations are in the 
schedule, and making an assessment. Is this realistic, based on 
the experience of this project and the professional experience 
that the stonemasons might have?
    We have not seen that kind of assessment at this point. 
That is the type of assessment that we would be looking for.

                              OPENING DATE

    Senator Allard. Mr. Hixon, Mr. Hantman, do you both believe 
that the December 2006 opening date is realistic, in light of 
this slippage in the area of the masonry work, and continued 
slippage on the utility tunnel?
    Mr. Hantman. As Bob Hixon just indicated, the contractor's 
schedule does call for construction completion in September 
2006. As I talked about in our last hearing and I reiterated a 
bit in my opening statement today, we believe that clearly the 
whole issue of the possibility of overlapping of commissioning 
activities and finishing work is the key to the opening date.
    With the construction completion basically still planned 
for September, the issue of operational staff coming on board 
and at that point in time, with construction basically complete 
but commissioning ongoing. The issue is to analyze, whether 
they can appropriately and safely come into the space and do 
their work in the shakedown and the practicing and setting 
things up while the commissioning goes on. We think that will 
be the case, and that is the kind of examination we are doing 
with the fire marshal and the construction manager.
    So the issue there again is heavy construction, including 
the stone, that we are looking at, as the schedule currently 
talks about, being completed basically in September. The issue 
there is again systems and making sure that the systems are 
shaken down and appropriately managed so that we can spend the 
next couple months making sure that it is ready for opening.

                              STONEMASONS

    Senator Allard. I can understand why we might be having 
problems with the stonemasons. There was a supply problem at 
the start, although I think maybe they could have planned a 
little better in knowing the amount of stone that they needed.
    Now we are having a hard time running down stonemasons. I 
guess we just do not have enough skilled stonemasons in the 
area that are available for the project.
    Mr. Hantman. That is true, Mr. Chairman.

                             UTILITY TUNNEL

    Senator Allard. That is not hard to understand and 
visualize. The problem I have understanding and visualizing is 
the utility tunnel. We had 21 days of work here and we only got 
10 days out of that to actually work in there, so we lost 10 
days of labor and construction in that utility tunnel.
    Maybe you would like to respond to that. When we have our 
tour, I would like to spend some time on the utility tunnel.
    Mr. Hixon. Mr. Chairman, I would be happy to respond to 
that. The utility tunnel has been impacted by different site 
conditions on a number of occasions, the last of which was 
another--not the last, but the previous one was a PEPCO vault. 
The latest thing is we encountered a concrete foundation and 
steel in the base of the excavation near the auditorium there 
at First Street. So we have had that.
    We had the rainfall last week. The rainfall put us back 1 
week for the area where we have got the excavation taking 
place. We need to be able to get the mud mat down so that the 
water does not affect us adversely.
    The good news is that two-thirds of the piping, the chilled 
water and steam pipe, is literally in the tunnel. It is to be 
welded there, but it has already been set in the tunnel so that 
the welding can take place, and that is very positive, what the 
mechanical contractor has been able to achieve.
    Also they have brought on an additional contractor to do 
the construction at First Street because their own force is, 
Manhattan's force is, doing the concrete work at Second Street 
and at the bridge, the book tunnel. They do not have enough 
forces to be able to do both at the same time, and so we 
brought in--they brought in an additional contractor in order 
to make up for that lost time.
    Currently the projection is, the sum total from the 
original schedule is, that we would finish the construction 
December 7, if I have the date exactly right. It is about 1 
week late. For all of these issues that we have encountered 
with differing site conditions, the contractor's efforts in 
hours per day and weekends have been good enough to make up for 
most of these, so that the slippage, instead of being a number 
of weeks, is really now down to 1 week.
    What we are endeavoring to do as soon as we get the tunnel, 
so that the mechanical piping can go through, is see if they 
cannot expedite the installation of the piping. But of course, 
they cannot do that until they have a tunnel to construct it 
in.
    But the issues have been predominantly differing site 
conditions that have caused some redesigns and that is what the 
impact has been to the utility tunnel.

                         UNFORESEEN CONDITIONS

    Senator Allard. There must have been some things in the 
ground that were not properly documented and that is why they 
were a surprise to you when you came across them?
    Mr. Hixon. What was in the ground was neither documented--
we for example ran into a fiber optic cable that was not 
reflected on the drawings, and you cannot detect that with a 
metal detector. We have run into duct banks that we should have 
been able to support that fell apart. There have been a number 
of issues. And when you run into the utilities, the utility 
companies then have to come, and you cannot touch their work 
until they finish doing their part of it.
    So those have been the things that have caused delays, plus 
this deep foundation that we encountered that no one knew was 
down there. So there have been a number of issues, 
unfortunately.

                            SCHEDULE MAKEUP

    Senator Allard. GAO told us last month that AOC would have 
to make up 1 day for every 8 remaining days between July 2005 
and September 2006. What is the current estimate of time to be 
made up? Let us go to GAO for that question.
    Mr. Dorn. Mr. Chairman, I did not do that same metric this 
time.
    Senator Allard. Okay. Well, maybe we can have that ready 
for the next hearing.
    Mr. Dorn. Yes.
    Senator Allard. I thought that was an interesting metric 
and I think it was helpful to understand how we were 
progressing.
    Mr. Dorn. Yes, sir.
    Mr. Ungar. Mr. Chairman, if I might just add, the issue 
that you were last asking about I think is at the heart of the 
reason why we have a difference between GAO and AOC on when the 
project will be complete. As Mr. Hantman and Mr. Hixon said, 
the schedule shows that construction will be complete in 
September 2006. Our question is, is that a realistic and a 
credible schedule, given the slippages that have occurred so 
far and durations and the logic that exists in the schedule, 
for the work that is expected to be done in the next several 
months, such as the stonework, the millwork, and the casework?
    That is why we are so concerned about having a really good 
assessment of the schedule, because if that work is not 
scheduled to be done in a realistic period of time they cannot 
meet the September 15 date.
    Senator Allard. Maybe we can have a little more discussion 
at our next hearing on that, when we look at these makeup days.

                            COST TO COMPLETE

    Now, I would like to pursue this cost-to-complete issue. In 
last month's hearing we were told that the cost to complete 
would be ready by this month's hearing. Mr. Ungar, can you tell 
us why GAO has not been able to complete its review of the 
independent assessment of the cost to complete, and will you 
have it by next month's hearing?
    Mr. Ungar. Mr. Chairman, there are two reasons why we have 
not been able to complete our review. One is that AOC just last 
week received the final report from its consultant, McDonough 
Bolyard Peck, on the results of its review, and of course we 
needed to have that before we could start our review. So we 
will begin immediately to look at that report.
    But the other reason is that we do not feel it would be 
prudent to complete our work until we have a stable schedule, 
because a large part of the cost to complete is going to be 
dependent upon what a good solid estimate of the completion 
date is going to be and because a number of costs are driven by 
how long the project will continue, including expected delay 
costs and so forth.
    So we will basically start right away, as soon as we get, 
hopefully in December, a stable schedule that hopefully has 
been evaluated. We should then be able to finish the cost to 
complete, I would guess by your February hearing if you have 
one in February, at the latest.
    Senator Allard. We will have one in February. Count on it.
    Mr. Ungar. Maybe before.
    Senator Allard. Do you have any preliminary information 
that you would like to share with us on that? Stick your neck 
out a little bit.
    Mr. Ungar. Well, we have not updated our estimate since 
your last hearing, and I think we were around $526 million in 
terms of cost to complete without risks, to around $559 million 
with risks and uncertainties. We have made a quick review of 
the MBP report and it is basically indicating MBP expects there 
to be an increase in the cost of sequence 2, basically for the 
reasons of the higher than expected pace of change orders that 
have taken place, some delay costs, and some additional costs 
that MBP is, as we are, identifying with respect to the CVC's 
fire protection system.
    So it sees basically about an $8 million increase in the 
cost of sequence 2. But by the same token, MBP is estimating 
the expansion space would not cost as much as expected by about 
the same amount. So there would be an increase on the one hand 
and maybe a lesser expense on the other, according to the MBP 
report.
    We have not, as I said, thoroughly reviewed that. We do 
have some questions about that that we need to address and we 
will address.
    The other side of the coin is that, even with the 
increases, MBP's report would indicate that there are 
sufficient funds made available right now to cover the costs 
that are estimated.

                              BRONZE DOORS

    Senator Allard. Mr. Hantman, he mentioned it is hard to put 
some of it together because of unforeseen problems that may 
occur. So this brings up the issue of the risk management plan. 
Can you give us any examples of the worst risks and actions 
taken to address those risks at this point in time, Mr. Hixon?
    Mr. Hixon. The example that probably comes to mind first is 
the bronze doors, which was brought up during our risk 
assessment by the Architect as an issue he was concerned about. 
We reviewed the status of the bronze doors, the status of the 
work and where they were in the production of those, found out 
that we did, in fact, have an issue that could be a problem if 
we did not jump on it right away.
    That issue has been reviewed. We have developed detailed 
schedules for the bronze doors. The issue there was UL testing 
of a door that had never been made before and going into 
production. So going through that risk assessment, identifying 
that particular item and pursuing that has been very beneficial 
for the project. So that is one example.
    Most of the rest of the examples we have are things that 
could be problems in the future and so we continue to monitor 
them to ensure that they do not become problems.
    Mr. Hantman. Many of the issues, Mr. Chairman, also deal 
with the commissioning and the testing of the systems, and this 
is what both we and GAO have been talking about and trying to 
work through. The major issue now with Manhattan's new schedule 
is for us to make sure that those times are appropriate, the 
durations are appropriate. Again, that commissioning and 
testing will not begin until next summer, so we are trying to 
jump on it before it becomes a problem and make sure that we 
can resolve that and integrate that schedule appropriately.
    Senator Allard. Now, Mr. Hixon, on the bronze doors, those 
have to be approved by the Underwriters Laboratory, is that 
correct?
    Mr. Hixon. Yes, sir.
    Senator Allard. Have they given you the approval yet? When 
do you expect that?
    Mr. Hixon. We have run the first test. They failed the 
test. They identified exactly what caused the failure. They 
will be running the test again on the 21st, in 3 days, and we 
fully expect to pass the test. It was an inner core issue, 
inner core of the door. So we feel very good that we will go on 
to production.
    About half the doors are fire-rated doors requiring UL 
approval. The other half do not.
    Senator Allard. I see, and so the tests are essential to 
have these fire-rated for the marshal?
    Mr. Hixon. For the portion that are fire-rated, they must 
pass the test. Since we have had one test and we have 
identified the problem with the core, they have made that 
change, and so we expect it to perform satisfactorily.

                    CONSTRUCTION DELAY DOCUMENTATION

    Senator Allard. Now, none of the 11 milestones, as both I 
point out in my testimony and we got from GAO, for the last 
month have been completed on time. Mr. Hixon, what progress has 
the Architect of the Capitol and Gilbane made in implementing 
GAO's longstanding recommendation that it more systematically 
document delays to the project on an ongoing basis?
    Mr. Hixon. The documentation of delays has been a 
discussion with Gilbane. They are keeping those records on 
daily reports. What we have talked about is do we need to have 
something that summarizes the data monthly, so that we would 
have that information available to factually document delays 
either caused by differing site conditions or something that 
someone else caused.
    So we have got the base data. We have just not summarized 
that data into some kind of a monthly format. We have been 
having conversations on how best that should be done.
    Senator Allard. Now, I am under the impression that we do 
have a representative here from Gilbane Building Company.
    Mr. Hixon. That is correct.
    Senator Allard. Mr. Marvin Shenkler.
    Mr. Hixon. Yes, sir.
    Senator Allard. I would like to call him to the witness 
table just for a couple questions, if I might.
STATEMENT OF MARVIN SHENKLER, GILBANE BUILDING COMPANY
    Senator Allard. Mr. Shenkler, the first question I have for 
you, do you believe the September 2006 date for planned 
completion date is realistic and achievable?
    Mr. Shenkler. I think it is overly optimistic and I have 
indicated that prior. It is a very aggressive schedule. It is 
one which, given adequate resources, which so far we have been 
unable to obtain, in the way of stonemasons, for example, leads 
me to conclude that it is not likely to be accomplished by 
then.
    Senator Allard. Is there any hope that we will be getting 
more skilled masons into the area here that can help us get 
through the delays on the stonemason project?
    Mr. Shenkler. There is a possibility. We have been advised 
by Manhattan that they are exploring ways of getting additional 
resources in the way of stonemasons here. And we have had 
increases from when we first started. We are up to around 23, 
24 stonemasons on a daily basis. We think we need to get to 
somewhere around 30 in order to recover the time that we have 
lost in order to complete on schedule.
    Senator Allard. Now, GAO has testified that it is critical 
to have a reasonable amount of time between the end of 
construction and the beginning of operations to allow for some 
unexpected delays or problems. Does the current schedule allow 
for this so far as you are aware?
    Mr. Shenkler. Well, we are looking at a substantial 
completion some time, in my mind, around December 2006. That 
means a fully functional facility, ready for its intended use. 
That would incorporate not only construction completion, but 
also resolution of any punch list items that might still be on 
the--required to be corrected.
    Senator Allard. Is Gilbane doing all it can to ensure 
timely completion of the project within available funds?
    Mr. Shenkler. We are monitoring the schedule on a daily 
basis. We are taking a proactive approach to looking at 
durations for all critical and near-critical activities. 
Starting tomorrow, we are going to have two additional senior 
superintendents coming in to take a look at activity durations 
to make sure that the staff who is on site right now is 
realistic in the way we are looking at durations based on 
quantity of work to be done per activity, crew sizes, and 
productivity per crew.
    Senator Allard. So you feel that right now you have the 
right people on board to complete the remaining tasks?
    Mr. Shenkler. I think we do.

                  ASSESSMENT OF GILBANE'S PERFORMANCE

    Senator Allard. How would you assess Gilbane's performance 
thus far and what is Gilbane doing to ensure that it has its A 
team on the job?
    Mr. Shenkler. As with any job of a complexity and size of 
this magnitude, this is a very difficult job to accomplish. I 
think we have done a satisfactory project so far. We obviously 
need to do better. We have done--taken action to do that by 
taking, by bringing additional staff on board. We have got a 
full-time project control engineer who is rigorously looking at 
the schedule, as suggested by GAO.
    We are looking at costs. We are negotiating change orders. 
We are envisioning a timeframe that we think is realistic to 
complete the project.
    Senator Allard. You think you have the best people there to 
do that?
    Mr. Shenkler. I think for the most part we have got 
superior people, the A team from Gilbane, on this job.
    Senator Allard. Well, thank you very much, Mr. Shenkler. I 
do not think there is any need for you to remain at the table 
now. Thank you.
    Mr. Shenkler. Thank you.

                      CAPITOL POWER PLANT DIRECTOR

    Senator Allard. I would like to move to the Capitol Power 
Plant (CPP), an unexpected problem that came up this last week. 
We have discussed the power plant in our hearing last month. 
The first thing I wanted to start off with is, what is the 
status now of hiring the CPP director?
    Mr. Hantman. Mr. Chairman, the job description is out on 
the street. It is being advertised right now.
    Senator Allard. Okay. What has been the initial response?
    Mr. Hantman. I will have to get back to you on that. I am 
not sure how many applications----

               WEST REFRIGERATION PLANT COST TO COMPLETE

    Senator Allard. Do you expect additional funds will be 
needed to complete the $100 million west refrigeration plant 
project, and if so when will funds be needed?
    Mr. Hantman. We are looking at a cost to complete right 
now, Mr. Chairman--I was talking to our project manager just 
yesterday about that--to make sure that we cover not only the 
cost to complete of the plant itself, but the issue of 
increasing utility costs, with gas prices going up and how that 
might be impacting our overall power plant budget itself.
    We do expect that there will be additional dollars 
necessary to do that and we are looking at the magnitude of 
that, and also looking internally to see what other sources of 
funds that we already have at the power plant to help defer 
that magnitude of dollars.
    Senator Allard. What is the current estimated completion 
date? The original schedule called for March 2006.
    Mr. Hantman. There are basically two dates, Mr. Chairman. 
The first date essentially is for manual operation on December 
1 of this year for the new chillers, and our contractor informs 
us that that schedule is on board and they have no concern 
about that.
    In terms of the controls, there have been some difficulties 
in terms of the control systems and making sure that those 
occur. We met with our contractor last week to discuss those 
issues. They are looking for time extensions on their contract 
and we are trying to work out with them what that might mean.
    The bottom line in terms of chilled water capacity is that, 
with the existing capacity in the west refrigeration plant, the 
four machines we have there now, and the capacity in the 
existing east refrigeration plant--and as you are probably 
aware, Mr. Chairman, we lost a couple of units on that in the 
last several weeks, which is one of the reasons we wanted to do 
the expanded west refrigeration plant, because those units are 
outdated. In fact, we had a fire in one of the breaker panels 
over there, which is equipment that was meant to be 
decommissioned once the new west refrigeration plant was 
online.
    We believe that the capacity that we have in the existing 
units in the west refrigeration plant and the east 
refrigeration plant should be adequate for our needs coming on 
board for a potential February-March need from the visitor 
center itself. We are looking at other opportunities to look at 
new piping arrangements to make sure that we have the 
flexibility between the west refrigeration plant and the east 
refrigeration plant as we turn over the new units to be able to 
flexibly use them as we need to and not have a down time on 
that.

                        CAPITOL POWER PLANT FIRE

    Senator Allard. On Columbus Day weekend, there was a fire 
at the power plant, fortunately it occurred on the weekend, 
when we did not have much demand, and it was during a time when 
we had relatively mild weather. Can you bring us up to date as 
to what was the cause of the fire? Were we slacking off on 
maintenance because of the new equipment that was coming on?
    Mr. Hantman. Mr. Chairman, this equipment has outlived its 
life already, which is again why we are appreciative that the 
Appropriations Committees have funded this new west 
refrigeration plant. This electric circuit breaker 
malfunctioned on October 8 and it started an electrical fire. 
The breaker serviced a chilled water pump in the east 
refrigeration plant which was not in operation at the time.
    We are investigating the cause of the breaker failure, but 
predominantly it is aging equipment and, quite frankly, I think 
the plant has done a good job in terms of putting bandaids and 
keeping them running as long as they have.
    There were no injuries. Damage was limited to equipment 
scheduled to be taken out of service as part of the west 
refrigeration plant expansion project, and it will not be 
replaced.
    Our staff responded quickly to isolate the power to the 
substation. D.C. Fire extinguished the fire with foam. During 
the incident, chilled water service air-conditioning to the 
complex was not disrupted since the west refrigeration plant 
was not impacted, because of the newer machines. But the steam 
service, the heat and humidity, was reduced temporarily as a 
result of the reduction in power, which had a slight impact on 
room temperatures. But by Saturday evening the service was 
returned to normal.

                            MITIGATION PLAN

    Senator Allard. You had mentioned getting the ducts 
completed in the new Capitol Visitor Center was a key milestone 
in getting things moving. I assume that is because you can 
sustain a proper working environment there for your internal 
job.
    If we have another incident like this at the power plant, 
during the cold winter months we have a shutdown, that could be 
one of our high risk factors, could it not? Do you think that 
is likely to happen? Do we have of a mitigation plan for that?
    Mr. Hantman. The mitigation plan again refers to the piping 
bypass that I talked about just a moment or so ago. The 
flexibility to be able to operate the existing east plant 
chillers and the west plant chillers as we bring on the new 
ones and hook them up is what this piping scene is all about. 
We expect that is a $500,000 to $600,000 element that really 
relates back to the fact that we have lost existing equipment 
on line, and we want to make sure that we have the redundancy 
necessary.
    Senator Allard. Is there anything to be done at the power 
plant to make it less likely we would have these kind of fire 
incidents?
    Mr. Hantman. Well, part of the solution, sir, is to get rid 
of the old equipment and bring in new, which is exactly what we 
are doing. The fire was in fact in the old equipment, which is 
slated for removal and replacement. It has outlived its life 
and certainly proper observation, testing and maintenance is 
critical and has been critical to getting us where we are at 
this point.

                          UPCOMING MILESTONES

    Senator Allard. Mr. Hixon, on the milestones, what are the 
major milestones we should expect you to meet the next month 
toward completion of the Capitol Visitor Center?
    Mr. Hixon. The milestones for next month should be the 
continuation of the utility tunnel items that have not been 
reported as completed yet, and then we will be talking about 
the upper level assembly rooms, the exhibit gallery, the east 
front sub-basement masonry, continuation of additional utility 
tunnel activities. So those are the things that we should be 
reporting on, and I have a sheet of paper with a list of those 
that we can convey with our statement.
    Senator Allard. We would appreciate you putting that in the 
record if you would, please.
    [The information follows:]

                                                                         CAPITOL VISITOR CENTER CONSTRUCTION ACTIVITIES
                                                                 [Schedule Activities between October 18, and November 15, 2005]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                          June 2005 Start   September 2005                      June 2005      September 2005   Actual
 Item #         Location                               Description                              Date          Start Date      Actual Start     Finish Date      Finish Date     Finish    Notes
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
   4520 Orientation Lobby     Perimeter CMU walls.....................................  9/2/05.........  9/30/05........  9/12/2005 \1\..  9/16/05........  10/13/05.......  .......  ........
   2016 Upper Level Assembly  Topping slab............................................  9/1/05.........  9/15/05........  9/15/05 \1\....  9/29/05........  10/20/05.......  .......  ........
         Room
  80160 East Front            Interior CMU walls......................................  8/12/05........  9/30/05........  ...............  9/9/05.........  10/27/05.......  .......  ........
         Subbasement
 SD5861 Exhibit Gallery       Wall stone Area 2 base..................................  9/22/05........  10/24/05.......  ...............  9/29/05........  10/31/05.......  .......        3
   6081 Congressional         Wall Stone Area 1.......................................  7/1/05.........  9/30/05........  8/15/05 \1\....  7/22/05........  11/3/05........  .......        1
         Auditorium
 SD5951 Upper Level Assembly  Wall stone area 1 layout................................  9/30/05........  11/7/05........  ...............  10/4/05........  11/9/05........  .......  ........
         Room
 SD5891 Exhibit Gallery       Wall stone Area 3 base..................................  9/22/05........  11/3/05........  ...............  9/29/05........  11/10/05.......  .......        3
   4540 Orientation Lobby     Interior CMU walls......................................  9/19/05........  10/12/05.......  ...............  10/21/05.......  11/15/05.......  .......  ........
 SD5831 Exhibit Gallery       Wall stone Area 1.......................................  10/7/05........  10/31/05.......  ...............  10/25/05.......  11/16/05.......  .......  ........
   6082 Congressional         Wall Stone Area 2.......................................  7/25/05........  11/4/05........  ...............  8/5/05.........  11/17/05.......  .......        1
         Auditorium
  84280 Utility Tunnel        Excavate/shore Station Sta 0.00-1.00....................  8/24/05........  8/12/05........  8/12/05 \1\....  10/5/05........  10/6/05........  .......        2
  84340 Utility Tunnel        Concrete Working Slab Sta. 0.00-1.00....................  10/6/05........  10/7/05........  ...............  10/10/05.......  10/11/05.......  .......        2
  84350 Utility Tunnel        Waterproof Working Slab Sta. 000-1.00...................  10/11/05.......  10/12/05.......  ...............  10/13/05.......  10/14/05.......  .......        2
  84360 Utility Tunnel        Install Mat Slab Sta. 0.00-1.00.........................  10/14/05.......  10/17/05.......  ...............  10/19/05.......  10/20/05.......  .......        2
  84560 Utility Tunnel        Install Mat Slab Sta. 1.00-2.00.........................  10/12/05.......  10/17/05.......  ...............  10/19/05.......  10/24/05.......  .......        2
  84570 Utility Tunnel        Install Walls Sta. 1.00-2.00............................  10/24/05.......  10/25/05.......  ...............  11/11/05.......  11/4/05........  .......        2
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
        \1\ Notes activities identified as critical.

        Notes:
        1. Wall stone manpower.
        2. Utility tunnel work delayed by unforeseen site conditions and resultant design revisions. Dates based on current Early Start.
        3. Special bite for exhibit wall stone base.

    Senator Allard. Mr. Ungar, on critical activities, what do 
you think is the most important action the Architect of the 
Capitol needs to take with respect to the Capitol Visitor 
Center project to ensure its timely completion?
    Mr. Ungar. Yes, Mr. Chairman. I think the most critical 
action would be to have a realistic, credible schedule that is 
complete as soon as possible.
    Senator Allard. Do we have any comments from the panel that 
they would like to make for the record?
    Mr. Hantman. Just, Mr. Chairman, that I do welcome the 
opportunity to have these hearings and to bring these issues 
forward and try to resolve them in an appropriate way. I also 
welcome the opportunity to show you first-hand all of the 
issues that we have been talking about and the quality of the 
work. I truly still do believe, sir, that we are going to have 
a wonderful, historic project over here that will serve the 
Congress and the American people who come to visit their 
Congress as well.
    Senator Allard. Well, I appreciate the opportunity to have 
a tour.
    Mr. Hantman. Yes. Again, a lot of the discussion we have 
been having, Mr. Chairman, is about things you can see on the 
visitor level. I think being able to look at the utility 
tunnel, look at the mechanical and electrical spaces down below 
on the third level, perhaps the truck dock area, whatever your 
time will allow us to see, we would welcome the opportunity to 
show you.
    Senator Allard. Well, we will have our staffs work together 
and see if we can set up a timely tour hitting the main issues 
that we have been talking about here on the subcommittee.

                          SUBCOMMITTEE RECESS

    Thank you very much for your time and I look forward to 
visiting with you 30 days from now.
    [Whereupon, at 11:21 a.m., Tuesday, October 18, the subcom- 

mittee was recessed, to reconvene subject to the call of the 
Chair.]


         PROGRESS OF CONSTRUCTION OF THE CAPITOL VISITOR CENTER

                              ----------                              


                      WEDNESDAY, NOVEMBER 16, 2005

                               U.S. Senate,
            Subcommittee on the Legislative Branch,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11:01 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senator Allard.

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. I am going to call to order the 
subcommittee. We meet today for our sixth hearing this year on 
the progress of the Capitol Visitor Center (CVC). We welcome 
once again Architect of the Capitol Alan Hantman, the CVC 
Project Executive Bob Hixon, and GAO's representatives Bernard 
Ungar and Terrell Dorn.
    Today we look forward to discussing the latest estimate of 
the cost to complete the CVC project, the Architect's efforts 
to keep the project on schedule, as well as the status of 
critical activities such as stone installation and the utility 
tunnel construction.
    It appears that the Architect believes sufficient funds 
remain to complete the project, while the Government 
Accountability Office estimates the need for a minimum of $14 
million in additional appropriations. Once again, we have a 
wide discrepancy between the projections of AOC and that of the 
GAO. In addition, we understand GAO's estimate is very 
preliminary since the schedule is still in flux. GAO cannot 
with any degree of precision estimate the cost.
    As to progress in the past month, GAO reports that 8 of 16 
activities to have been completed in the last month have 
actually been completed. Only three of these milestones were 
completed on time. About 10 days of work on the utility tunnel 
and the interior stone work were lost out of 21 work days in 
the last month. Despite AOC's projection that it would be able 
to make up the lost time, the trend of losing time against the 
schedule continues.
    I would just note that I frequently will walk by the 
Capitol Street utility tunnel on the east side and I've seen 
much more activity in the last couple of days, which has been 
heartening.
    So now let me turn to you, Mr. Hantman, for your testimony, 
to be followed by GAO.

STATEMENT OF ALAN M. HANTMAN, FAIA, ARCHITECT OF THE 
            CAPITOL
ACCOMPANIED BY BOB HIXON, PROJECT DIRECTOR, CAPITOL VISITOR CENTER, 
            ARCHITECT OF THE CAPITOL

    Mr. Hantman. Thank you, Mr. Chairman, and good morning. 
Once again I welcome this opportunity to update you on the 
status of the Capitol Visitor Center project and to discuss the 
key issues that you mentioned, the schedule, the budget, and 
project progress. First, I would like to thank you for taking 
the time to scale the ladders with us a few weeks ago and visit 
the project, including the utility tunnel on East Capitol 
Street that you just referred to. As you know, this is a 
critical activity that has provided us with many challenges and 
physical obstacles over the past months.

                         STONE DELIVERY STATUS

    The most significant challenge, Mr. Chairman, since last 
month's hearing, however, is the continued lack of adequate 
wall stone delivery. In October we received only 2 truckloads 
of stone, not the 11 truckloads that were scheduled for 
delivery. This severely impacted our installation schedule and 
forced the contractor to move stonemasons to areas of the 
project that were not as high a priority in the work flow. This 
allowed the contractor to keep the 25 teams of masons working 
productively, but this is a very troubling situation that we 
have been pursuing with our contractors.
    On November 2, we met with representatives of Manhattan and 
the stone installer, Boatman and Magnani, and their attorneys 
to obtain a briefing on the status of stone delivery and what 
actions they proposed to take. We made it clear to them that 
late delivery of stone is significantly jeopardizing the timely 
completion and opening of the CVC and that we expected that 
necessary steps be taken to ensure that the contract completion 
date would be met. At the same time, we recognize that the 
injunction has inhibited their ability to resolve this issue on 
their own.
    Therefore, on November 5, attorneys for Boatman and Magnani 
filed a motion in Federal District Court for the Western 
District of Pennsylvania seeking relief from the existing 
injunction and an expedited hearing on the matter. In its 
motion, Boatman and Magnani asserts that stone is not being 
delivered to the project in sufficient quantities to meet the 
contract completion date nor in accordance with the schedule 
the parties had certified to the court earlier. Therefore, 
Boatman and Magnani requested permission from the court to 
supplement the work of either the current stone fabricator and/
or the quarry by contracting with others to assist with or 
supplement that work. Also, before the court are other motions 
from both the quarry and the fabricator.
    While we are not a party to this litigation, our interests 
are critically affected by it, and we are being represented by 
the U.S. Attorney's Office for the Western District of 
Pennsylvania, who has appeared on our behalf to ensure our 
interests are made known to the court. Yesterday, the U.S. 
attorney filed a statement of interest on our behalf as a 
friend of the court, reiterating the need for an expedited 
hearing and ruling on the matter, given the impact that stone 
delivery is having on the CVC project.
    The judge has now scheduled a hearing for December 1, for 
presentation of all pending motions. The U.S. Attorney's Office 
will be there to represent us and so will Mr. Hixon and my 
general counsel. While we take no position on any of these 
motions, we do believe the issues presented represent the need 
for the court to take immediate appropriate action to ensure 
that stone is delivered to the project in sufficient quantities 
to allow timely completion of the project.
    Mr. Chairman, until we know what relief, if any, will be 
granted to Boatman and Magnani by the court, we cannot predict 
what impacts to the schedule may result. In the meantime, our 
contractors are working around the problem areas and initiating 
other productive work.

                      CONSTRUCTION PROJECT STATUS

    In general, with regard to the overall project schedule, at 
last month's hearing we committed to include the testing and 
balancing commissioning activities for the heating, 
ventilating, and air-conditioning system into the fully 
integrated schedule. We have completed that effort and we are 
in the process of developing the detailed schedule activities 
for life safety acceptance testing. The fire marshal will 
perform these activities during the second half of next year.
    At a meeting last week with the fire marshal, we reviewed 
the requirements for acceptance testing so we can develop the 
detailed schedule over the next few weeks. In accordance, Mr. 
Chairman, with our commitment at the last hearing, we should 
complete that effort in December. This will in turn help us 
determine with greater accuracy when specific areas of the 
visitor center will become available for occupancy by the staff 
and by the public. This information also will be necessary for 
an executive director to determine when to hire the appropriate 
operations personnel as areas are completed in the months 
ahead.

                            COST TO COMPLETE

    Another key issue relates to the cost-to-complete analysis 
completed and submitted last month by our independent cost 
consultant, McDonough Bolyard Peck. We said in October, as you 
mentioned, Mr. Chairman, that we believed that no additional 
funds would be required. We continue to believe that, based on 
this report, all currently known issues, and a completion date 
of December 2006, we can still work within existing 
appropriated funds for the construction of the project, 
although the funding is tight.
    Nevertheless, we concur with GAO that potential risks 
clearly do still exist and that additional funds may be 
necessary to complete the project should these risks turn into 
reality; if completion therefore occurs after December 2006, or 
if significant additional change orders are required. In light 
of the unforeseen conditions we have encountered thus far, in 
addition to the challenges we face with the utility tunnel, the 
stone fabrication and installation, and the finish work still 
remaining in the east front, we acknowledge that funds for 
additional contingency might be necessary as we move forward. 
We will be reviewing this issue with GAO in conjunction with 
their analysis and with the development of the fiscal year 2007 
budget request.

                           PROJECT HIGHLIGHTS

    Mr. Chairman, I would now like to briefly discuss a few 
project highlights. Stonemason teams continue to set stone on 
the columns in the Great Hall and throughout the congressional 
auditorium and we are completing stone installation in both 
orientation theaters. To offset the delay in the exhibit 
gallery that we discussed at the last hearing, as shown on this 
board, the contractor moved crews to the upper level lobby just 
outside the orientation theaters and they set base stone and 
wall stone in that area, as well as in the congressional 
auditorium. So while the stone was not available earlier for 
the exhibition gallery, masons completed base stone in the 
lobby area 3 months earlier than scheduled.
    It is critical to keep the mason teams working productively 
or risk losing them to another project. Therefore, to adjust to 
the inconsistencies in stone deliveries that I discussed 
earlier, we have deviated from our schedule at times and moved 
the masons to other areas. That in turn has impacted milestones 
we have talked about in previous hearings, but if we have to 
move the crews around to keep them productive it is important 
to do so.
    In the last weeks, as shown on this board, the base stone 
for the exhibition gallery has been received. Much of that has 
been installed, allowing masons to move forward with the wall 
stone installation and the conduits for the interactive 
computer stations.
    Mr. Chairman, inside the House and Senate expansion space 
the contractor continues to make good progress. Crews are busy 
installing the ductwork for the air handling systems, conduit 
and wiring for all of the mechanical and electrical plumbing 
systems. On the Senate side, masonry block work and ductwork 
has been completed in many areas and crews are now erecting the 
metal stud walls and installing drywall throughout the space.
    On the Senate plaza, with all the elevation issues now 
resolved, that work is progressing well. Crews have placed 
concrete slabs and resumed installation of curb stones and 
granite pavers.
    Work on the utility tunnel along East Capitol Street has 
continued, as you mentioned, with concrete placements occurring 
at the intersections of First and Second Streets. Below First 
Street, as you saw during your inspection, Mr. Chairman, an 
existing gas line was found to be 6 feet lower than expected 
based on available drawings and is in the path of the utility 
tunnel. We have installed a new temporary bridge and shifted 
traffic to the west side of First Street to clear the way for 
Washington Gas crews to perform the gas line revisions.
    Meanwhile, the contractor personnel continue to install the 
chilled water, the steam lines, the welding connections, and 
place concrete.
    Mr. Chairman, construction challenges continue to pop up 
and we continue to address and resolve them, making progress as 
we go.

                          STATUS OF OPERATIONS

    With respect to exhibits and operations, the project 
continues to move forward on many fronts. Principal filming for 
the orientation film has been completed. A separate contractor 
involved in producing all of the interactive programs for the 
24 computer stations in the exhibit gallery has been 
photographing in the Capitol. These images will be used to 
create a virtual tour through the building. Meanwhile, a model 
fabricator is busy creating the 10-foot touchable model of the 
Capitol Dome, while another modelmaker is beginning to 
construct six models showing the evolution of the Capitol 
campus over the past 212 years.
    In addition, we continue to make progress on our operations 
initiatives. We reported last month that the request for 
proposal for food service contract had been issued and the 
search for the executive director is underway. We are looking 
forward to the candidates being reviewed for that position in 
December and having a selection made in January. In the 
meantime, we are working with your staff to examine a handful 
of other positions that need to be filled in the near future 
based on the recommendation of our operations consultant, Zell 
Partners.
    In closing, Mr. Chairman, several weeks ago I had the 
opportunity to escort the national board of directors of the 
American Institute of Architects to the project site. In their 
newsletter published a few days later and distributed to 76,000 
professional members across the country, AIA President Douglas 
Steidl said that, quote: ``All great projects require the 
collaboration of many individuals to achieve success. The 
Congress and the congressional leadership provided an 
exceptional focused vision for the project. The architect, 
RTKL, creatively integrated the complex functions with a clear 
vision and contractors appear to be executing the design 
details with superb craftsmanship.''
    Mr. Steidl added that the project team, quote, ``is well on 
its way to achieving the significant architectural distinction 
that is worthy of this historic and celebrated site,'' and that 
``the excellence of the project is consistent with the 
significance of the place and will serve citizens of this 
country extremely well long into the future.''
    Mr. Chairman, this helps us maintain our perspective as we 
work through and resolve issues that continue to arise. I would 
like to include this full article as part of the official 
record, to talk about how recognized experts in the design and 
construction community perceive our project.
    Senator Allard. Without objection, we will include the full 
article.
    [The information follows:]

                   [From AIArchitect, November 2005]

 Architect of the Capitol, RTKL ``Doing it Right'' at the U.S. Capitol 
                             Visitor Center

    While convening in Washington, D.C, members of the AIA Executive 
Committee toured the construction site of the new U.S. Capitol Visitor 
Center on October 19 with the best of all possible tour guides: 
Architect of the Capitol Alan Hantman, FAIA. Construction of the 
visitor center began in July 2002 for the purpose of making the Capitol 
``more accessible, comfortable, secure, and informative for all 
visitors.'' Architecture firm RTKL Associates Inc. placed the facility 
underground below the East Capitol grounds, so as not to detract from 
the venerable appearance of the Capitol and its historic Frederick Law 
Olmsted landscape.
    Encompassing 580,000 square feet on three levels, the new visitor 
center is nearly three-quarters the size of the Capitol itself and 
includes space for two orientation theaters, an auditorium, exhibits, 
gift shops, food service, security and other ancillary spaces, as well 
much needed space for the House and Senate. Working in the days 
following the terrorist attacks on September 11, 2001, RTKL designed 
the visitor center to enhance security while preserving an atmosphere 
of free and open access, using such processional elements as gently 
sloping ramps. Six skylights in the center's roof deck welcome sunlight 
to flood interior spaces while offering visitors dramatic views of the 
Capitol dome.

Exceptional, focused vision
    ``All great projects require the collaboration of many individuals 
to achieve success. The Congress and congressional leadership provided 
an exceptional, focused vision for the project; the architect (RTKL) 
creatively integrated the complex functions with a clear vision; and 
the contractors appear to be executing the design details with superb 
craftsmanship,'' noted AIA President Douglas L Steidl, FAIA, in a 
letter of appreciation to Hantman. ``As the Architect of the Capitol, 
you have obviously excelled in unifying the team effort, ensuring that 
the visionary ideals were adroitly integrated with functional demands. 
Further, your team is well on its way to achieving the significant 
architectural distinction that is worthy of this historic and 
celebrated site.''
    Construction, resolutely on track for a fall 2006 completion, is 
entering its final phase. Board members saw interior crews busily 
installing MEP systems, erecting interior walls, and hooking up fire 
and life-safety systems. Stone masons currently are installing some of 
the $35 million worth of finish stone, including in the Great Hall and 
the center's two theaters. Outside, on the roof deck, historic 
preservation contractors are re-installing the original Olmsted-
designed lanterns, fountains, and seat walls that had been temporarily 
stored during excavation and construction.
    Steidl, on behalf of the AIA's 76,000 members, expressed gratitude 
to the Architect of the Capitol ``for shepherding this most vital 
public project in such a manner that it is being exceptionally well 
constructed, despite the most difficult of technical, environmental, 
schedule, and iconic demands.'' He further wrote to Hantman, ``We 
believe you deserve the gratitude of every American for `doing it 
right.' The excellence of this project is consistent with the 
significance of the `place' and will serve the citizens of this country 
extremely well, long into the future.''
Building bridges on the Hill
    In the same week, in the nearby Hart Senate Office Building, Duane 
A. Kell, FAIA, Ankeny Kell Architects, PA, St. Paul, and AIA Executive 
Vice President/CEO Norman L. Koonce, FAIA, paid a visit to Senator 
Norman Coleman (R.-Minn.). Kell, who first came to know the senator 
during Coleman's term as mayor of St. Paul, brought regards from the 
Minnesota components of the AIA and thanked the senator for his help in 
protecting Community Development Block Grants.
    Kell and Koonce discussed public advocacy for public buildings with 
Sen. Coleman, and explained to him the Institute's legislative 
initiatives that, if enacted, would offer appropriate and cost-
effective assistance to those affected by the devastation of hurricanes 
Katrina and Rita. ``Both Duane and I came away from our meeting 
convinced that Senator Coleman has the keen insights and experience to 
take a leadership role in the Senate as a spirited advocate for design 
excellence in the public sector,'' Koonce said. Koonce and Kell both 
thanked AIA Minnesota Executive Director Beverly Hauschild-Baron, Hon. 
AIA, for her valuable assistance in arranging the visit.
    In a follow-up visit, the senator's staff and members of the AIA's 
Government Advocacy staff agreed to explore development of Senate 
legislation on federal tax credits for historic preservation that is 
like the English-Jefferson bill in the House. It would be introduced 
during the second session of the 109th Congress.

    Mr. Hantman. Thank you, sir.
    That concludes my opening remarks, Mr. Chairman, and I 
welcome the opportunity to answer any questions you may have.
    [The statement follows:]

              Prepared Statement of Alan M. Hantman, FAIA

    Thank you, Mr. Chairman, and good morning. Once again, I welcome 
this opportunity to update you on the status of the Capitol Visitor 
Center project and to discuss the key issues related to schedule, 
budget, and project progress.
    First, I would like to thank you for taking the time to scale the 
ladders with us a few weeks ago and visit the project, including the 
utility tunnel on East Capitol Street, which is a critical activity 
that has provided us with many challenges and physical obstacles over 
the past weeks.
    The most significant issue since last month's hearing is the 
continued lack of adequate wall stone delivery. In October we received 
only two truck loads of stone; not the 11 truck loads that were 
scheduled for delivery. We have met with the contractor to discuss this 
issue and the stone contractor's attorney has filed paperwork with the 
Federal Court involved in the dispute with the stone supplier. We are 
hoping for a prompt hearing on this issue and relief from the 
injunction.

                            PROJECT SCHEDULE

    With regard to the project schedule, as we reported last month, our 
contractor, Manhattan, submitted a revised schedule that fully 
integrates the project's nearly 6,600 scheduled activities, including 
testing and balancing of the HVAC system. The only element not resolved 
in the schedule is the level of detail for the life-safety acceptance 
testing to be performed by the Fire Marshal during the second half of 
next year. At a meeting last week with the Fire Marshal, we reviewed 
the requirements for acceptance testing so we can develop the detailed 
schedule over the next few weeks. In accordance with our commitment at 
the last hearing, we should complete that effort in December.
    Our project master schedule still shows completion of the Visitor 
Center, including commissioning activities, in December 2006; with the 
House and Senate Expansion space on track for completion in March 2007. 
Our efforts with the Fire Marshal will produce, in late December, a 
schedule with all required construction activities which will, in turn, 
help us determine with greater accuracy when specific areas of the 
Visitor Center will become available for occupancy. This information 
will be necessary for an Executive Director to determine when to hire 
the appropriate operations personnel as areas are completed in the 
months ahead.

                            COST TO COMPLETE

    Another key issue relates to the Cost-to-Complete analysis 
completed and submitted last month by our independent cost consultant, 
McDonough Bolyard Peck. We said in October that we believed that no 
additional funds would be required. We continue to believe that, based 
on all currently known issues and a completion date of December 2006, 
we can still work within existing appropriated funds for the 
construction of the project, although the funding is tight. I want to 
note that there is an increase of $5 million in the Cost-to-Complete 
estimate compared to last year. The reasons for that increase include 
extension of the AOC and A/E construction management staff for three 
months, additional time for temporary power and construction materials 
testing, and, most significantly, new and projected change orders. 
However, funding to cover this increase in the estimated Cost-to-
Complete is available within currently appropriated funding.
    Nevertheless, we concur with GAO that potential risks do still 
exist and that additional funds may be necessary to complete the 
project should these risks turn into reality, if completion occurs 
after December 2006, or if significant additional change orders are 
required. In light of the design changes and unforeseen conditions we 
have encountered thus far, in addition to the challenges we face with 
the utility tunnel, stone fabrication and installation, and the finish 
work still remaining in the East Front, we acknowledge that funds for 
additional contingency might be necessary as we move forward.

                           PROJECT HIGHLIGHTS

    Mr. Chairman, for the record, I would like to discuss a few project 
highlights. Stone mason teams continue to set stone on the columns in 
the Great Hall and throughout the Congressional Auditorium, and we are 
completing stone installation in both orientation theaters. To offset 
the delay in the Exhibit Gallery stone work, the contractor moved crews 
to the upper level lobby just outside the orientation theaters and they 
set base stone and wall stone in that area, as well as in the 
Congressional Auditorium. So, while stone was not available for the 
Exhibition Gallery, masons completed base stone in the lobby area three 
months earlier than scheduled. It is critical to keep the mason teams 
working productively or risk losing them to another project. Therefore, 
to adjust to the inconsistencies in stone deliveries, we have deviated 
from our schedule at times and moved the masons to other areas. That, 
in turn, has impacted milestones we've talked about in previous 
hearings, but if we have to move crews around to keep them working, it 
is important to do so.
    Inside the House and Senate Expansion Space, the contractor 
continues to make good progress. Crews are busy installing the ductwork 
for the air handling systems and conduit and wiring for all of the 
mechanical, electrical, and plumbing systems. On the Senate side, 
masonry blockwork and ductwork has been completed in many areas and 
crews are now erecting the metal stud walls and installing drywall 
throughout the space. On the Senate Plaza, with all of the elevation 
issues now resolved, that work is progressing well. Crews have placed 
concrete slabs and resumed installation of curb stones and granite 
pavers.
    Work on the utility tunnel along East Capitol Street has continued 
with concrete placements occurring at the intersections at First and 
Second Streets. Below First Street, as you saw during your inspection, 
Mr. Chairman, an existing gas line was found to be six feet lower than 
expected based on available drawings and is in the path of the utility 
tunnel. We have installed a new temporary bridge and shifted traffic to 
the west side of First Street to clear the way for Washington Gas crews 
to perform the gas line revision. Meanwhile, contractor personnel 
continue to install the chilled water and steam pipes, weld 
connections, and place concrete in other areas of the tunnel.
    Also regarding utilities, I am pleased to report that the chillers 
in the West Refrigeration Plant Expansion are scheduled to be 
operational on December 1, 2005, and the contractor has confirmed that 
they will be ready on that date. This does not include the installation 
of the entire digital control system to automatically operate the 
chillers, but the chillers will be operated in a manual mode and will 
be fully capable of producing chilled water well in advance of the 
completion of the CVC utility tunnel. While it is planned that the East 
Refrigeration Plant and the existing West Refrigeration Plant would 
provide all required chilled water this winter, the chillers added as 
part of the West Refrigeration Plant Expansion project could be used if 
necessary. With the completion of the utility tunnel serving the CVC, 
we are confident that adequate capacity exists to service the CVC 
during the upcoming winter period and beyond.

                        EXHIBITS AND OPERATIONS

    Mr. Chairman, with respect to exhibits and operations, the project 
continues to move forward on many fronts. Principal filming for the 
orientation film has been completed, and a separate contractor involved 
in producing all of the interactive programs for the 24 computer 
stations in the Exhibit Gallery has begun photographing the Capitol. 
These images will be used to create a virtual tour through the 
building. Meanwhile, a model fabricator is busy creating the 10-foot 
touchable model of the Capitol Dome while another model maker is 
beginning to construct six models showing the evolution of the Capitol 
campus over the past 212 years. In addition, we continue to make 
progress on our operations initiatives. We reported last month that the 
Request for Proposal for the food service contract was issued, and the 
search for the Executive Director is underway. We are looking forward 
to the candidates being reviewed for that position in December and 
having a selection made in January. In the meantime, we are working 
with your staff to examine a handful of other positions that need to be 
filled in the near future based on the recommendation of our operations 
consultant, Zell Partners.
    Mr. Chairman, several weeks ago I had the opportunity to escort the 
National Board of Directors of the American Institute of Architects to 
the project site. In their newsletter published a few days later and 
distributed to 76,000 members across the country, AIA president Douglas 
Steidl said that, ``All great projects require the collaboration of 
many individuals to achieve success. The Congress and the congressional 
leadership provided an exceptional, focused vision for the project; the 
architect (RTKL) creatively integrated the complex functions with a 
clear vision; and the contractors appear to be executing the design 
details with superb craftsmanship.'' Mr. Steidl added that the project 
team ``is well on its way to achieving the significant architectural 
distinction that is worthy of this historic and celebrated site'' and 
that the ``excellence of this project is consistent with the 
significance of the `place' and will serve citizens of this country 
extremely well, long into the future.'' Mr. Chairman, I would like to 
include the full article as part of the official record of today's 
hearing as an indication of how segments of the design and construction 
community perceive the Visitor Center project.
    That concludes my opening remarks, Mr. Chairman, and I welcome the 
opportunity to answer any questions you may have.

    Senator Allard. Very good. GAO, go ahead if you would, 
please, with your testimony.

STATEMENT OF BERNARD L. UNGAR, DIRECTOR, PHYSICAL 
            INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY 
            OFFICE
ACCOMPANIED BY TERRELL DORN, ASSISTANT DIRECTOR, PHYSICAL 
            INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Ungar. Mr. Chairman, Mr. Dorn will provide our summary 
and we will both be available for questions.
    Mr. Dorn. Good morning, Mr. Chairman. I would like to thank 
you for the opportunity for Mr. Ungar and I to come and discuss 
our continuing assistance to the subcommittee in its oversight 
of the Capitol Visitor Center construction. Our summary this 
morning is going to center on two areas, schedule and cost. 
However, as you mentioned before, we still cannot come to an 
exact number on the cost or the completion date until the 
schedule is finalized by AOC next month.
    While we may disagree with AOC's monthly report that the 
project is proceeding according to the master schedule, we do 
agree that work is continuing in many areas and that it is 
exciting to see the spaces take shape as walls and mechanical 
equipment are installed, particularly in the House and Senate 
expansion spaces.

                          CONSTRUCTION ISSUES

    Unfortunately, as we reported last month, work is still not 
proceeding at the pace necessary to meet the contract 
completion date of September 2006, 10 months from now, which in 
turn affects the opening. Three examples of the slower than 
expected pace are the continuing trend of missing milestones, 
two critical project drivers losing 2 weeks in the last month, 
and the amount of time that needs to be made up between now and 
September 2006.
    First, as you mentioned, only 8 out of the 16 milestones 
were completed and out of those 8 only 3 were on time. This is 
after moving the goalpost forward from the April baseline 
schedule to the September schedule.
    Second, the two critical drivers are interior stone and the 
utility tunnel, as the Architect has already mentioned. Like 
last month, both of these critical paths lost about 2 weeks in 
the last month.
    Third, a couple months back we reported that as of the end 
of July the project was about 60 calendar days behind and the 
team would have to work the equivalent of 8 days a week to make 
up the lost time. Three months later, the project is now over 
80 calendar days behind and the team would have to work the 
equivalent of 9 days a week for the next 10 months straight to 
complete the contract on time.
    As I mentioned a moment ago, the two critical drivers 
currently are utility tunnel and interior stone. The CVC team 
is working to pick up the pace in the utility tunnel and 
another concrete sub is on site and helping. Most of the 
excavation is now complete and along with that most of the 
opportunities for differing site conditions are gone. However, 
we still have the excavation for the movement of a 24-inch gas 
line to do, and that is going to extend out 15 feet or so on 
both sides of the utility tunnel, which means you are going to 
cut through quite a bit of East Capitol Street, where you are 
going to have more opportunities to run into more utilities. So 
there is a high risk there, even though it is a limited amount 
of excavation.
    The other risk on the utility tunnel is, as the Architect 
mentioned, the gas pipe is actually going to be replaced by 
Washington Gas, not the CVC, so we are at the gas company's 
mercy as far as when that pipe actually gets replaced.
    On interior stone, while Manhattan has been successful in 
its effort to get more masons on the job, they have been much 
less successful in getting stone for the masons to install. The 
project has repeatedly only received half the stone deliveries 
that Manhattan says it needs to stay on schedule, and since the 
last hearing the situation has worsened to only 2 truckloads 
out of 11 required. Manhattan has kept the masons busy by doing 
work out of sequence, but doing work in that way is not helping 
the critical path.

                         CONSTRUCTION SCHEDULE

    AOC has made significant effort over the past month to 
resolve the scheduling issues surrounding the heating and air-
conditioning equipment, testing and balancing, and the fire 
protection equipment. However, they have not yet reached a 
conclusion with the fire marshal on the testing of the fire 
protection equipment and until this is done there is a risk of 
a slip to the project schedule of an additional 2 to 4 months.
    In addition on the project schedule, Mr. Chairman, we have 
talked before about the need to have a fully integrated 
schedule, including operations, and I just want to point out 
that the operations piece, while it is added to the end of the 
schedule, is still not linked in logically and that could 
create problems as the construction schedule slips. So we need 
to again reinforce the need to fully integrate the operations 
schedule and the construction schedule.
    A few months ago we recommended that AOC and Gilbane 
reexamine the schedule, particularly the project durations. 
Gilbane has completed that work and has made a number of 
recommendations to correct schedule inaccuracies and 
unrealistic durations in some areas, particularly the stone. We 
recommend that AOC implement the Gilbane recommendations, which 
are consistent with our previous recommendations on improving 
schedule management, and that AOC also re-assess its proposed 
December 2006 date for opening the CVC to the public.
    Gilbane's recommendations reinforce GAO's view that the CVC 
is much more likely to be completed in the spring to summer of 
2007.

                            COST TO COMPLETE

    Mr. Chairman, in November 2004 we estimated that, given the 
risks and uncertainties that the project was likely to face, 
that the cost was likely to be between $515 and $559 million. A 
year later, our preliminary work indicates that the CVC project 
is likely, at a minimum, to cost $542.9 million. This number 
does not provide any more funds for the remaining risks and 
uncertainties that may materialize or cover the costs of 
certain delays that may occur. It also could change again if 
the schedule changes next month with AOC.
    Our estimate of $542.9 million is significantly more than 
the McDonough Bolyard Peck cost-to-complete estimate that we 
received last month through the AOC, largely because McDonough 
Bolyard Peck's estimate does not include a number of project 
components or in our view include sufficient contingency to 
complete the project. Our estimate of $542.9 exceeds the funds 
specifically provided to date for construction by a total of 
$14.5 million.

                        WORKER SAFETY STATISTICS

    Last, Mr. Chairman, I have some good news to report about 
worker safety. According to our analysis of CVC data, worker 
safety rates have substantially improved this year. The injury 
and illness rate for the first 10 months of 2005 declined 52 
percent from the 2004 rate, putting the site 3 percent below 
the national average. The lost time rate declined 62 percent 
during the same period, but it is still 29 percent higher than 
the average rate for comparable construction sites, and the AOC 
and Gilbane and Manhattan should be congratulated for their 
effort to improve the safety records.

                             OVERALL STATUS

    Mr. Chairman, in conclusion, while significant effort has 
been made in schedule management, much remains to be done. Work 
is continuing to slip. Increasingly, stone deliveries are 
critical and Manhattan needs to meet its schedule on delivering 
stone. We recommend that AOC implement the Gilbane 
recommendations on the schedule and reassess the project's 
opening date. In addition, we believe that at a minimum an 
additional $14.5 million will be needed to complete the 
project.
    Thank you, Mr. Chairman, for the opportunity and Mr. Ungar 
and I are prepared to answer any questions.
    [The statement follows:]

                 Prepared Statement of Bernard L. Ungar

    Mr. Chairman and Members of the Subcommittee: We are pleased to be 
here today to assist the Subcommittee in monitoring progress on the 
Capitol Visitor Center (CVC) project. Our remarks will focus on (1) the 
status of the project schedule since the Subcommittee's October 18, 
2005, hearing \1\ on the project, (2) the project's costs and funding, 
and (3) worker safety issues. We will discuss the progress made and 
problems encountered in completing scheduled construction work and in 
continuing to develop the project schedule, as we indicated during the 
Subcommittee's October 18 hearing; however, we will not be able to 
estimate specific completion dates until the project schedule is stable 
and AOC and its construction management contractor--Gilbane Building 
Company--have completed their assessments of the schedule and we have 
had an opportunity to evaluate them. Also, we will update the 
information we previously provided on the project's costs and funding, 
using readily available data, but we will wait until the project 
schedule is stable and has been fully reviewed before we 
comprehensively update our November 2004 estimate of the cost to 
complete the project and update the provision in our estimate for risks 
and uncertainties facing the project.
---------------------------------------------------------------------------
    \1\ See GAO, Capitol Visitor Center: Status of Schedule, Fire 
Protection, Cost, and Related Issues, GAO-06-180T (Washington, D.C.: 
Oct. 18, 2005).
---------------------------------------------------------------------------
    Our remarks today are based on our review of schedules, financial 
reports, and worker safety information for the CVC project and related 
records and reports developed or maintained by AOC and its construction 
management contractor; our review of AOC's consultant's--McDonough 
Bolyard Peck (MBP)November 1, 2005, report updating its October 2004 
estimate of the cost to complete the project; our observations on the 
progress of work at the CVC construction site; and our discussions with 
CVC project staff (including AOC and its major CVC contractors), AOC's 
Chief Fire Marshal, U.S. Capitol Police representatives, and officials 
responsible for managing the Capitol Power Plant (CPP). We did not 
perform an audit; rather, we performed our work to assist Congress in 
conducting its oversight activities.
    In summary, construction work in several areas has moved forward 
since the Subcommittee's October 18 CVC hearing, but additional delays 
have occurred, and AOC's construction management contractor has 
identified several concerns with the schedule that raise questions 
about its proposed mid-December 2006 opening of the base CVC project to 
the public.\2\
---------------------------------------------------------------------------
    \2\ AOC set September 15, 2006, as the contractual date for 
completing the base project's construction and for opening the CVC 
facility to the public. The House and Senate expansion spaces were 
scheduled to be completed after that date. AOC set the September 
contract completion date in November 2004, when it reached agreement 
with the contractor on a new date for starting sequence 2 that 
reflected the delays experienced on sequence 1. On September 6, 2005, 
AOC informed Capitol Preservation Commission representatives that it 
still expected the base project's construction to be substantially 
complete on September 15, 2006, but was postponing the date for opening 
the facility to the public to December 15, 2006, so that it could 
complete system tests, minor punch-list work, and preparations for 
operations.
---------------------------------------------------------------------------
  --Construction work has continued on all interior CVC levels, various 
        sections of the House and Senate expansion spaces, the plaza, 
        and the House connector and utility tunnels. Overall, however, 
        the work, especially stonework, has taken longer than 
        scheduled. For example, the installation of interior wall stone 
        fell behind about 2 weeks because of delays in receiving needed 
        stone. Work on the utility tunnel was delayed by a similar 
        amount of time for a variety of reasons.
  --Efforts by the sequence 2 contractor to resequence activities 
        involved in testing, balancing, and commissioning the heating, 
        ventilation, and air-conditioning (HVAC) system had the net 
        effect of moving the base project's completion date forward 3 
        days. AOC's construction management contractor has accepted 
        this resequencing. However, other scheduling issues could delay 
        completion. For example, AOC's Fire Marshal Division has raised 
        several concerns about the schedule for testing and inspecting 
        the CVC's fire protection system, and the construction 
        management contractor has identified a number of critical 
        activities whose completion dates slipped from the September to 
        the October schedule. Delays in completing these critical 
        activities affect the progress of the project because other 
        work cannot continue until they are completed. Critical 
        stonework activities pose particular concerns, given the 
        problems with labor and supplies that the project has 
        experienced. For example, in October, the sequence 2 contractor 
        received less than 20 percent of the stone expected.
  --AOC's construction management contractor's evaluation of the 
        duration of selected activities, completed last week, points to 
        a later completion date than is currently scheduled unless 
        additional actions are taken. This evaluation identified 
        unrealistic durations for the selected activities (especially 
        stonework), concerns about the schedule's logic, and 
        inaccuracies in reflecting the impact of delays and sequence 2 
        contract changes to date. The construction management 
        contractor made a number of recommendations based on its 
        findings. The contractor's evaluation has reinforced our view 
        that the base project would be difficult to complete in 2006 
        and is more likely to be completed in early to mid-2007 unless 
        AOC and its contractors take extraordinary action or change the 
        project's scope, which could increase the government's costs. 
        Our belief is based on the project's history of delays; the 
        views of project personnel that several activities (such as the 
        installation of interior wall stone) are likely to take longer 
        than scheduled; the large number of critical activities in the 
        current project schedule; and the risks and uncertainties that 
        continue to face the project.
    AOC and its construction management contractor expect to resolve 
outstanding scheduling concerns and issues by the end of this year. 
When AOC and its construction management contractor have prepared what 
they consider to be a reasonably stable project schedule, we will 
reevaluate the schedule and inform the Subcommittee of our results. In 
the interim, to help ensure that Congress has better information for 
making CVC-related decisions, we are recommending that AOC (1) 
implement the recommendations for obtaining a more reliable project 
schedule contained in its construction management contractor's November 
2005 report, which are consistent with our previous recommendations on 
schedule management, and (2) reassess its proposed December 2006 date 
for opening the CVC to the public when it has a more reliable 
construction schedule.
    Our preliminary work indicates that the entire CVC project is 
likely, at a minimum, to cost $542.9 million. This preliminary estimate 
falls about midway between our September 15, 2005, interim estimate of 
$525.6 million, which did not provide for risks and uncertainties, and 
our November 2004 estimate of about $559 million, which did provide for 
risks and uncertainties. Specifically, this current $542.9 preliminary 
estimate is about $17.3 million more than the September 15 interim 
estimate and about $16.1 million less than the November 2004 estimate. 
The current $542.9 million preliminary estimate does not provide for 
risks and uncertainties or for additional payments to contractors to 
cover the costs of certain delays and other contingencies. Even without 
providing for risks and uncertainties, though, we have increased our 
cost estimate since September 15 because additional and more expensive 
changes to the project have been identified; we have increased our 
allowance for contingencies; and we have added funding for AOC and 
contractor staff that we believe are likely to be working on the 
project through the spring of 2007. Our preliminary estimate 
substantially exceeds MBP's November 2005 updated estimate of $481.9 
million, largely because MBP's estimate does not cover a number of 
project components and does not, in our view, provide adequately for 
contingencies. In total, the funds specifically provided for project 
construction to date--about $528.4 million--are $14.5 million less than 
our preliminary $542.9 million cost estimate. In addition, another $7.7 
million has been provided to cover either CVC construction or 
operations, although at this time AOC does not plan to use any of these 
funds for construction. Congress has limited the amount of federal 
funds that can be used for the construction of the tunnel connecting 
the CVC with the Library of Congress to $10 million.\3\ As of October 
31, 2005, AOC estimated that the tunnel would cost about $8.8 million 
to construct; however, AOC had not yet awarded the contract for certain 
modifications to the tunnel project. Nevertheless, AOC believes that it 
will be able to keep the tunnel's construction cost below the 
congressional limitation, and both we and AOC plan to monitor the 
tunnel's construction cost closely.
---------------------------------------------------------------------------
    \3\ Public Law 108-83, 117 Stat. 1007, 1026 (Sept. 30, 2003).
---------------------------------------------------------------------------
    According to our analysis of CVC data, worker safety rates have 
improved substantially this year, although the lost-time rate remains 
above industry norms. The injury and illness rate for the first 10 
months of 2005 declined 52 percent from the rate for 2004, putting the 
CVC site's rate 3 percent below the average for comparable construction 
sites. The lost-time rate decreased 62 percent during the same period, 
but the CVC site's rate is still 29 percent higher than the average 
rate for comparable construction sites. AOC and its contractors have 
taken a number of actions during 2005 to improve safety performance on 
the project, such as conducting training to elevate safety awareness 
and placing safety posters around the worksite. In addition, senior 
managers are meeting periodically to develop strategies to improve 
safety. Poor housekeeping, however, has been an ongoing issue at the 
site, and the sequence 2 contractor has recently taken actions to 
address this issue.

WORK AND REVISIONS TO THE PROJECT SCHEDULE CONTINUE, BUT DELAYS HAMPER 
                                PROGRESS

    Work in several areas has moved forward since the Subcommittee's 
October 18 CVC hearing, but additional delays have occurred, and AOC's 
construction management contractor has identified several concerns 
about the project schedule. AOC has been addressing previously 
identified schedule-related problems.
AOC Continues to Project a Mid-December 2006 Opening for the Base CVC 
        Project
    According to the October 2005 schedule prepared by AOC's sequence 2 
construction management contractor, the base CVC project can open to 
the public in December 2006, and the House and Senate expansion spaces 
will be finished by the end of February 2007. The contractor's October 
schedule indicates that, with some exceptions, construction work on the 
base CVC project will be essentially complete by September 15, 2006, 
and the remaining work will be completed by December 8, 2006. This 
remaining work includes testing, balancing, and commissioning the HVAC 
system; testing and inspecting the fire protection system; completing 
punch-list items; and preparing for operations. For the East Front, the 
October schedule shows construction work, such as the roof restoration, 
finish work, and elevator/escalator installation, completed after 
September 15, 2006. The October schedule also shows other construction 
work, such as the installation of ceiling panels in the orientation 
lobby and painting in the atria, extending after September 15, 2006. 
AOC expects all this construction work to be done and the base CVC 
project to be ready for operations between September 15, 2006, and mid-
December 2006, enabling the facility to open to the public in mid-
December. Additionally, under the October project schedule, the House 
and Senate expansion spaces will be completed in December 2006, and the 
testing, balancing, and commissioning of the HVAC system and the 
testing of the fire protection system will be finished by February 26, 
2007. According to AOC's sequence 2 and construction management 
contractors, it is not yet clear whether the expansion space 
construction work will have progressed far enough to omit the temporary 
fire safety measures once considered necessary to open the CVC to the 
public. They said they are still analyzing the work associated with the 
areas where the base project and the expansion spaces come together to 
determine whether and how the need for temporary fire safety measures 
can be minimized or eliminated.

Construction Work Continued, but Problems with Stonework and Other 
        Issues Caused Delays
    Since the Subcommittee's October 18 CVC hearing, construction work 
has continued on the CVC, the East Front, the plaza, the House and 
Senate expansion spaces, and the House connector and utility tunnels. 
For example, the installation of wall stone has continued in the 
auditorium, the orientation theaters, and the upper west lobby. 
Mechanical, electrical, and plumbing work has also been proceeding in 
the CVC.
    Overall, however, construction work, especially stonework, has 
taken longer than scheduled. Between the Subcommittee's October 18 
hearing and November 10, the sequence 2 contractor completed 8 of the 
16 activities that we and AOC have been tracking for the Subcommittee, 
but only 3 of these activities were completed by the target dates shown 
in the contractor's September 2005 schedule. (See app. I.) Delays have 
also occurred in interior stonework and in work on the East Front, the 
utility tunnel, and the penthouse's mechanical systems. For example, 
according to AOC's construction management contractor, similar to what 
happened in September, the sequence 2 contractor lost about 10 out of 
21 possible workdays, both on critical interior stonework and on the 
utility tunnel. According to the construction management contractor, 
the stonework was delayed by the slow and late delivery of stone, a 
lack of critical pieces of stone, the need to address problems arising 
from sequence 1 work, and a shortage of stone masons. During October, 
the installation of wall stone in the great hall and exhibit gallery 
was especially impeded because the stone supplier failed to meet 
scheduled delivery dates and the sequence 2 contractor received less 
than 20 percent of the stone the supplier had agreed to provide. 
Moreover, according to the sequence 2 contractor, during several 
preceding months, deliveries of stone were only about half as large as 
expected. Additionally, the contractor said, the delivered stone was 
not in the appropriate sequence and did not cover complete areas. To 
help mitigate these problems, during October, the sequence 2 contractor 
transferred stone masons from areas such as the exhibit gallery, for 
which no wall stone was available, to the auditorium, for which wall 
stone was available.
    AOC's construction management contractor cited other delays in 
October, especially in the utility tunnel and in the exhibit gallery. 
For instance, work on First Street for the utility tunnel was delayed 
by unforeseen site conditions, rain, and the need to do unanticipated 
work. However, the construction management contractor said that steps 
have been taken to mitigate the impact of the delays, including the 
sequence 2 contractor's hiring of another subcontractor and the 
installation of piping in the tunnel. In the view of the construction 
management contractor and the sequence 2 contractor, these steps will 
enable the CVC's air-handling units to start up in February 2006 rather 
than in March 2006, as indicated in the October schedule. In the 
exhibit gallery, besides the delay in wall stone installation, the 
construction management contractor identified several problems, 
including delays in drawings for marble and finishes and concerns about 
the acceptability of the gallery's fire suppression system that could 
further delay work in the exhibit gallery.

Schedule Revisions Saved Some Time, but Many Activities Are Highly 
        Vulnerable to Delay
    The sequence 2 contractor resequenced activities involved in 
testing, balancing, and commissioning the HVAC system and made other 
schedule changes that had the net effect of moving the base project's 
completion date forward 3 days. While the resequencing will result in a 
loss of 10 workdays for the HVAC activities, according to the 
contractor's revised schedule, the other changes have advanced the base 
project's scheduled completion date to December 8, 2006, rather than 
December 11, 2006, as indicated in the September schedule. AOC's 
construction management contractor reports that it, the sequence 2 
contractor, and AOC's commissioning contractor have generally agreed on 
the revised schedule for testing, balancing, and commissioning the HVAC 
system. However, AOC's Fire Marshal Division has not yet agreed on the 
schedule for those activities that relate to the CVC's fire protection 
system, such as testing and inspecting the smoke control system, the 
fire alarm system, and stair pressurization. On October 31, the 
division provided its comments on the revised schedule for the fire 
protection system. The division's Deputy Fire Marshal expressed several 
significant concerns about the schedule. AOC and its construction 
management contractor expect to complete their reviews of this part of 
the schedule and resolve the Fire Marshal Division's concerns by 
December 31, 2005.
    The construction management contractor has identified 14 critical 
activity paths in the October schedule that will extend the base 
project's completion date beyond AOC's September 15, 2006, target date 
if expected lost time cannot be recovered or further delays cannot be 
prevented. Eleven of the 14 critical activity paths in the October 
schedule were also identified in the September schedule. For 4 of these 
11 paths, such as the auditorium wall stone installation and the 
orientation theater millwork, the completion dates showed improvement 
compared with the September schedule, but for the other 7 paths, such 
as the utility tunnel and the exhibit gallery stonework, the completion 
dates slipped. The 3 paths newly identified in October are elevator 
installation, exhibit gallery steel framing, and 10- and 12-inch water 
line installation,\4\ each of which could delay the project if expected 
lost time cannot be recovered. In addition, our analysis of 
productivity data for interior wall stone installation, coupled with 
the sequence 2 contractor's analysis of stone deliveries, indicates 
that AOC is not likely to meet its September 15, 2006, target date for 
completing the base project's construction without significant 
increases in the pace of wall stone deliveries and installation. That 
is, without more stone masons and/or more work hours, more stone 
delivered more quickly, and faster stone installation, AOC is unlikely 
to meet its target schedule. The sequence 2 contractor believes that 
stone masons will be able to install more wall stone per day in some 
areas, such as the exhibit gallery, because the work is not as 
difficult as in the great hall or orientation theaters. However, the 
pace of this installation remains uncertain, in our view. Furthermore, 
given the project's experiences to date with the number of stone 
masons, the quantity of stone deliveries, and the pace of installation, 
AOC's construction management contractor notes that the completion of 
wall stone installation could extend up to several months beyond the 
July 2006 date shown in the project schedule without more work hours, 
higher productivity, and sufficient stone. The pace of wall stone 
installation is especially important because it affects the timing of 
other critical work necessary for the project's completion, such as the 
ceiling's installation and the HVAC system's testing, balancing, and 
commissioning. The stone supply problem is the subject of litigation 
between the sequence 2 contractor and its subcontractors, and the 
sequence 2 contractor has been working to resolve the problem. However, 
at this time, it is not clear how or when this issue will be resolved.
---------------------------------------------------------------------------
    \4\ The construction management contractor identified the water 
lines as an issue in September but did not list them as critical until 
October.
---------------------------------------------------------------------------
Construction Management Contractor's Evaluation and Our Analysis Point 
        to a Later Completion Date
    Most of the activities we have been discussing, such as the wall 
stone installation, fire safety inspections, and House connector tunnel 
construction, are among the activities that we previously identified as 
likely having optimistic durations, suggesting that those activities 
could take longer to complete than shown in the project schedule. These 
activities served as the basis for our September 15 recommendation that 
AOC rigorously evaluate the durations for the activities shown in the 
project schedule. Last week, AOC's construction management contractor 
finished evaluating these durations and the logic for what it 
considered the most critical activities, such as wall stone 
installation, and discussed the impact of delays and sequence 2 
contract changes on the project schedule. In its November 9 report to 
AOC, the construction management contractor said that (1) it was 
generally difficult to identify any activities that were completed 
within the planned duration; (2) none of the activities underway, 
primarily stonework, can be projected to be completed within the 
planned duration unless additional resources are applied; (3) the 
durations for a number of activities exceed 40 days compared with the 
contractual limit of 20 days; and (4) the sequence 2 contractor's 
resequencing of work to mitigate the impact of delays will result in a 
``stacking of trades,'' \5\ which will require more manpower. Moreover, 
although the sequence 2 contractor has said that the project schedule 
reflects the impact of contract modifications executed to date and 
delays, the construction management contractor noted that the schedule 
does not accurately reflect the impact of contract changes and of 
delays due to the schedule's logic and raised concern about whether the 
schedule fully reflected the impact of changes and delays given their 
magnitude.
---------------------------------------------------------------------------
    \5\ This situation can occur when workers from different trades, 
such as stone masons, electricians, plumbers, or plasterers, have to 
work in the same area at the same time to meet a schedule, sometimes 
making it difficult to ensure sufficient space and resources for 
concurrent work.
---------------------------------------------------------------------------
    The construction management contractor made several recommendations 
to AOC based on its findings. For example, the construction management 
contractor recommended the development of a revised schedule that 
reflects (1) enhanced logic and sequencing of work, (2) activity 
durations more in line with the contract's 20-day maximum requirement, 
and (3) the impact of all delays and contract changes encountered to 
date and the use of available resources. The construction management 
contractor also recommended the development of a recovery schedule for 
each recognized delay, an analysis of the impact of the recovery 
activities on required resources, and an examination of the amount of 
time required to prepare for operations between completing construction 
and opening to the public. The construction management contractor's 
findings and recommendations concerning the project schedule are 
generally consistent with ours.\6\
---------------------------------------------------------------------------
    \6\ On November 14, 2005, AOC provided us with MBP's draft report 
on MBP's assessment of the schedule durations for 19 activities. We did 
not, however, have sufficient time to evaluate the report for 
discussion in this statement.
---------------------------------------------------------------------------
    Although the sequence 2 contractor has taken, plans to take, and is 
considering various actions to recover lost time and prevent or 
mitigate further delays, we continue to believe that the contractor 
will have difficulty completing construction before early to mid-2007. 
Among our reasons for concern are the uncertainty associated with the 
fire protection system schedule, including the concerns expressed by 
AOC's Fire Marshal Division and our earlier work that raised questions 
about the amount of time being provided for system testing and 
inspections; the schedule slippages to date; the optimistic durations 
for a number of activities based on the views of CVC team members and 
the results of the construction management contractor's recently 
completed review; the large number of activity paths that are critical; 
and the risks and uncertainties that continue to face the project. In 
addition, the continued schedule slippages indicate that more and more 
work will have to be done in a diminishing amount of time, and we are 
concerned--as is the construction management contractor--that the 
project schedule may not reflect the impact of changes to sequence 2 
work resulting from contract modifications. Many changes, some 
substantial, have been made to the sequence 2 contract since it was 
initially awarded in April 2003. Yet, according to the construction 
management contractor, none of the modifications that have added work 
to the sequence 2 contract or changed the facility's design have been 
reflected in the project schedule. Moreover, as AOC's construction 
management contractor has noted, several problems have developed with 
activities associated with the exhibit gallery, and delays in 
completing CVC ceiling work necessary for the HVAC and fire protection 
systems could be problematic, although the CVC team is considering ways 
to mitigate these risks. We also note that the Chief Fire Marshal has 
not yet approved the construction drawings for the fire protection 
system or the schedule for the system's commissioning and testing.

AOC Has Been Addressing Previously Identified Schedule-Related Issues
    AOC and its construction management contractor have been working to 
implement recommendations we have made to improve AOC's schedule 
management and to address other schedule-related issues we have 
identified.
  --We have recommended for some time that AOC improve its schedule 
        management and analyze and document delays and the reasons and 
        responsibilities for them on an ongoing basis--at least 
        monthly. In an October 20, 2005, letter, AOC asked its 
        construction management contractor to implement this 
        recommendation. The construction management contractor has 
        begun to establish a process for doing so and plans to have it 
        operational by December 31.
  --We have also recommended that the project schedule show the 
        resources to be applied to meet the schedule dates. While the 
        sequence 2 contractor has shown proposed resource levels for 
        many activities, it has not done so for many of the new 
        activities added to the project schedule. The lack of such 
        information can complicate the analysis of delays, including 
        their causes and costs. AOC's construction management 
        contractor has expressed particular concern about the resources 
        for the stone and finishing work and has requested additional 
        resource information from the sequence 2 contractor for these 
        activities.
  --We have further recommended that AOC develop plans to mitigate 
        risks and uncertainties facing the project. In July 2005, AOC 
        asked one of its consultants--MBP--to assist it in identifying 
        risks and developing plans to address those risks. As of 
        November 1, AOC had identified 55 risks facing the project and 
        had begun to develop and implement plans for managing these 
        risks. As of November 1, AOC said that it had developed 
        mitigation plans in varying levels of detail for about 30 risks 
        and has been discussing or plans to discuss the remaining risks 
        at a weekly meeting. AOC also said that it plans to add new 
        risks to its list and develop mitigation plans for other risks 
        as appropriate.
  --In our October 18 testimony, we noted several problems associated 
        with the CPP that could adversely affect the CVC, as well as 
        other congressional buildings, if they are not corrected or 
        addressed. For example, potential delays in completing the West 
        Refrigeration Plant Expansion project and storm damage to 
        electrical equipment that has precluded the use of an East 
        Refrigeration Plant chiller could limit the ability of the CPP 
        to provide enough steam and chilled water for the CVC's air 
        handlers to begin operating in March 2006, as shown in the 
        October 2005 schedule. Staffing and training issues associated 
        with operating the new equipment and a vacant CPP director 
        position also pose management concerns. Work on the West 
        Refrigeration Plant Expansion project could be delayed because 
        AOC has directed the contractor to proceed with two significant 
        contract modifications since the Subcommittee's October 18 CVC 
        hearing. Specifically, the contractor is authorized to (1) 
        reconfigure piping so that the existing West Refrigeration 
        Plant can be operated independently of the West Refrigeration 
        Plant Expansion to enhance the CPP's chilled water production 
        capability and (2) change the design of the control system that 
        will serve both the West Refrigeration Plant and new West 
        Refrigeration Plant Expansion. These changes could affect the 
        March 2006 completion date for the expansion project; however, 
        AOC believes it will have sufficient chilled water capacity for 
        the CVC even if the expansion project's completion is delayed. 
        Furthermore, AOC plans to restore power to the chiller in the 
        East Plant by realigning existing equipment and is still 
        determining why the electrical equipment (e.g., aging 
        equipment, inadequate maintenance) was vulnerable to storm 
        damage. Finally, the period for applying for the plant's vacant 
        director's position closed on November 4. According to AOC, it 
        received 26 applications and expects to fill the position in 
        December. As part of a separate review for this Subcommittee, 
        we are continuing to assess certain CPP issues, such as the 
        staffing and training for, and the estimated cost to complete, 
        the West Refrigeration Plant Expansion project.
  --In our October testimony, we identified problems with coordination 
        between the CVC project team and AOC's Fire Marshal Division. 
        To address these problems, AOC and its construction management 
        contractor have established a process for the team and the 
        division to arrange for and document CVC inspections.

Recommendations for Executive Action
    To help ensure that Congress receives a more reliable estimate of 
the project's completion date in order to plan for the CVC's opening to 
the public and make more informed decisions about AOC's funding needs 
for CVC construction and operations, we recommend that the Architect of 
the Capitol (1) implement the recommendations (which are consistent 
with our prior recommendations on schedule management) made by its 
construction management contractor in its November 9 report on its 
schedule evaluation; and (2) reassess its proposal to open the CVC in 
mid-December 2006 when it is confident that it has a project schedule 
that reflects realistic durations, enhanced logic, the resolution of 
concerns expressed by the Fire Marshal Division, and the impact of 
delays and contract changes.

  PROJECT'S ESTIMATED COST TO COMPLETE EXPECTED TO INCREASE, BUT OUR 
         COMPREHENSIVE ASSESSMENT AWAITS SCHEDULE STABILIZATION

    Mr. Chairman, our preliminary work shows the cost to complete the 
entire CVC project at around $542.9 million without provision for risks 
and uncertainties. This preliminary estimate falls between our 
September 15, 2005, interim estimate of $525.6 million without 
provision for risks and uncertainties, and our November 2004 estimate 
of about $559 million with provision for risks and uncertainties. Our 
current estimate is substantially higher than MBP's updated estimate, 
and it exceeds the funding provided for the project to date. As we said 
at the Subcommittee's October 18 hearing, we are waiting for the 
project schedule to stabilize before we comprehensively update our 
November 2004 estimate of the cost to complete the project, including 
any costs to the government for delays. We plan to provide this updated 
estimate with and without allowances for risks and uncertainties and 
with adjustments for specific expected project completion dates.
    We would now like to discuss the basis for our estimate and why we 
expect the project's costs to increase, why our estimate differs from 
MBP's, how much funding is currently available for CVC construction and 
how much more may be needed, and how much the Library of Congress 
tunnel's construction is likely to cost.

Estimate Is Preliminary
    Our preliminary estimate of the cost to complete the entire CVC 
project, which we will discuss today,\7\ is based on information 
provided by AOC and its construction management contractor. It reflects 
our review of MBP's November 1, 2005, final report, which updates MBP's 
October 2004 estimate and includes supporting data; our review of CVC 
contract modifications and changes proposed between August 1, 2005, and 
October 31, 2005; \8\ the knowledge and experience we have gained from 
monitoring this and other major construction projects; and our view 
that the base CVC project in not likely to be completed before the 
spring of 2007. We have discussed our preliminary estimate with AOC; 
however, we have not completed other work needed for a comprehensive 
update of our cost-to-complete estimate. For example, we have not 
updated our previous discussions of the project's expected costs, 
risks, and uncertainties with other CVC project team members and fully 
assessed the schedule's impact on costs, because the schedule has not 
been stabilized. Furthermore, we have not incorporated any costs for 
delays over and above the amount included in our November 2004 
estimate. Delays have occurred since then, but as of October 31, 2005, 
CVC construction contractors had not filed any requests for adjustments 
or claims with AOC for delays occurring after November 2004. AOC 
nevertheless expects to receive additional requests for adjustments, 
and AOC's construction management contractor believes that AOC may 
incur more costs than budgeted for delays. At this time, it is unclear 
who will bear responsibility for the various delays that have occurred 
at the CVC site, and it is therefore difficult to estimate their 
possible costs to the government.
---------------------------------------------------------------------------
    \7\ We previously updated our November 2004 estimate ($515.3 
million) of the cost to complete the project without provision for 
risks and uncertainties for the Subcommittee's September 15, 2005, CVC 
hearing. See Capitol Visitor Center: Schedule Delays Continue; 
Reassessment Underway, GAO-05-1037T (Washington, D.C.: Sept. 15, 2005).
    \8\ MBP's estimate was based on contract modifications and proposed 
changes as of July 31, 2005, except that for sequence 2, MBP included 
updated information from AOC on contract modifications executed through 
October 14, 2005. Also, MBP initially issued its report on October 11, 
but issued a revision on November 1, 2005, based on comments it had 
received from AOC.
---------------------------------------------------------------------------
CVC Costs Are Likely to Increase, Largely Because of Actual and 
        Anticipated Changes and Delays
    Assuming that the base project and the House and Senate expansion 
spaces are completed in the spring of 2007 and considering the 
qualifications just discussed, our preliminary estimate of the cost to 
complete the entire project is about $542.9 million without provision 
for risks and uncertainties. This estimate is about $17.3 million 
greater than our September updated estimate of $525.6 million without 
provision for risks and uncertainties and about $16.1 million less than 
our November 2004 estimate of about $559 million with provision for 
risks and uncertainties. The $17.3 million increase is due largely to 
the following:
    1. Actual and anticipated changes in the project's work scope.--
Most of these changes were associated with sequence 2 work, but some 
also occurred or are expected in other project components, such as 
preconstruction. Significant sequence 2 changes include the 
modifications to the CVC fire protection system that we discussed at 
the Subcommittee's October 18 CVC hearing, changes to the building's 
automated control system, and additional work to address gaps in the 
scopes of sequence 1 and sequence 2 work, such as additional 
waterproofing. Changes in the preconstruction component include moving 
security screening trailers and doing additional materials testing.
    2. Additional contingency funds.--We believe that AOC will need 
significantly more contingency funds for the remainder of the project 
for three major reasons: First, the actual or estimated costs for 
changes in sequence 2, the East Front interface, and the 
preconstruction project components either exceed or account for the 
majority of the funds budgeted for unanticipated work, and available 
information indicates that additional changes in these areas are likely 
as the project progresses. For example, the actual and proposed 
sequence 2 changes to date are more numerous and more costly (without 
any provision for risks and uncertainties) than we, AOC, and MBP 
anticipated in late 2004, and the actual and estimated value of the 
already identified changes greatly exceeds the budgeted contingency 
funding. Moreover, according to AOC's construction management 
contractor, only about half the value of sequence 2 work is complete. 
Given that about half the work remains and changes to the project have 
been frequent thus far, we believe that more changes are likely to 
require funding in the future. Second, a number of issues that were not 
included in MBP's analysis, such as the need for temporary 
dehumidification, have arisen. Proposed change orders for work to 
address these issues were not completed in time for the work to be 
included in MBP's report. Third, as MBP pointed out, the costs of many 
pending (proposed, but not yet approved) changes that were included in 
its report may be understated because they are based on AOC's and its 
construction management contractor's estimates rather than on the 
contractor's price. According to MBP, historically, AOC's construction 
management contractor has significantly understated the costs of 
pending changes. Thus, additional funds are likely to be needed to 
cover the difference between the estimated and actual costs of the 
approved changes.
    3. Delay-related project management costs.--The schedule analysis 
underlying our November 2004 cost-to-complete estimate suggested that 
the CVC base project would most likely be completed in December 2006, 
and our November 2004 and September 2005 cost estimates therefore 
included funding for AOC's CVC staff and architectural and construction 
management contractors through that time. Although the specific 
expected completion date for the base project is still uncertain 
because AOC and its contractors have not yet finished their schedule 
reassessment, our work indicates that the base project is unlikely to 
be done before early 2007. Thus, our preliminary estimated cost to 
complete includes the estimated costs for extending AOC's CVC staff and 
architectural and construction management contractors for the base 
project to March 2007.\9\
---------------------------------------------------------------------------
    \9\ This time extension estimate is largely based on information 
provided by AOC and MBP.
---------------------------------------------------------------------------
Our Estimate Differs from MBP's Estimate Largely Because We Included 
        More Items in the Project Scope and More Funds for 
        Contingencies
    Our preliminary $542.9 million estimate of the cost to complete the 
CVC project is significantly higher than MBP's November 1, 2005, $481.9 
million estimate for several reasons.
  --Our estimate includes the costs for the CVC's air filtration 
        system; MBP's does not.
  --MBP assumed the base project would be completed in December 2006; 
        we considered the spring of 2007 more likely.
  --MBP did not include the costs of all CVC construction-related work, 
        such as the fabrication and installation of wayfinding signs or 
        the fit-out of the gift shops. Our estimate includes these 
        costs.
  --MBP provided less contingency funding than we did for a number of 
        project components (sequence 2, the House connector tunnel, the 
        East Front interface with the CVC, and the House and Senate 
        expansion spaces). We believe that our larger allowance is 
        warranted, given the complexity of the work, the CVC project's 
        experience with changes, and our experience in monitoring other 
        Capitol Hill construction projects.

Available Funding Is Unlikely to Be Sufficient
    About $528.4 million has been provided for CVC construction, and an 
additional $7.7 million has been provided for CVC construction or 
operations.\10\ The $528.4 million consists of the 527.9 million we 
discussed during the Subcommittee's October 18 CVC hearing; and 
$500,000 that the Department of Defense (DOD) originally provided to 
AOC for security enhancements for the East Front of the Capitol and 
that AOC now intends, with DOD's approval, to use for security 
enhancements related to the CVC's air filtration system.
---------------------------------------------------------------------------
    \10\ AOC had planned to use $100,000 of its fiscal year 2006 
appropriation for CVC construction to move a fire alarm control panel 
in the Capitol building to the CVC. If the control panel is to be 
moved, AOC will then decide what appropriation account will be used to 
pay for this move. If other than CVC funds are used, the $100,000 would 
be available for other CVC construction purposes subject to the 
approval of the House and Senate Committees on Appropriations. As we 
reported in September, AOC had also used about $805,000 in CVC 
operations funds for certain construction work that had been funded by 
the fiscal year 2006 construction appropriation. These funds also could 
be used for other CVC work subject to the Committees' approval. AOC 
previously had about $7.8 million remaining available for CVC 
operations or construction, but about $100,000 has been rescinded.
---------------------------------------------------------------------------
    According to AOC, it does not currently plan to use any of the $7.7 
million for CVC construction. Thus, our preliminary $542.9 million 
cost-to-complete-estimate indicates that AOC would need about $14.5 
million more to complete the project, assuming it is completed in March 
2007. As noted, this estimate is preliminary and does not provide for 
contractor delay costs beyond the amount included in our November 2004 
cost estimate.
    AOC does not believe that future changes will require as much 
funding as we do. We recognize that the total amount of funds that will 
be needed for contingencies, as well as for adjustments to contracts to 
offset the costs of delays, is unclear at this time and is subject to 
differing views. Nevertheless, the costs for these items will be a 
major factor in determining whether AOC will need additional 
appropriated funds. We plan to address both issues when we do our 
comprehensive cost-to-complete update early next year.
Estimated Construction Costs for Library of Congress Tunnel under 
        Limit, but Could Increase
    Public Law 108-83 limits to $10 million the amount of federal funds 
that can be obligated or expended for the construction of the tunnel 
connecting the CVC with the Library of Congress. As of October 31, 
2005, AOC estimated that the tunnel's construction would cost about 
$8.8 million, and AOC had obligated about $4.7 million for it. The 
remaining estimated costs are for modifications to the Jefferson 
building to accommodate the tunnel and for contingencies. AOC expects 
to receive the bids for the Jefferson building work by November 22. 
Given that the work associated with the Jefferson building has not 
started and involves risks and uncertainties (since it will create an 
opening in the building's foundation and change an existing structure), 
we believe that AOC could receive higher-than-expected bids and is 
likely to encounter unforeseen conditions that could increase costs 
significantly. Both we and AOC plan to monitor the tunnel's 
construction closely to ensure that the statutory limit is not 
exceeded.

                       WORKER SAFETY HAS IMPROVED

    Worker safety will remain an important issue at the CVC site as new 
hazards arise with changes in the site's physical structure and 
increases in the number of employees and subcontractors in the months 
ahead. Since we testified in May 2005 on worker safety, AOC and its 
contractors have achieved improvements in key worker safety measures 
and actions. For example, the CVC injury and illness rate declined, 
from 9.1 in 2003 and 12.2 in 2004, to 5.9 for the first 10 months of 
2005--below the 2003 industry average of 6.1. Furthermore, the CVC 
lost-time rate declined, from 8.1 in 2003 and 10.4 in 2004, to 4.0 for 
the same 10-month period--approaching the 2003 industry average of 3.1. 
The quality of the construction management contractor's monthly CVC 
progress reports has also improved. Whereas the reports for 2003 and 
2004 contained inaccurate data for key worker safety measures, as we 
testified in May 2005, the reports since June 2005 have contained 
accurate worker safety data. (In one instance, however, the draft 
report we received from the construction management contractor 
contained inaccurate worker safety data, which were corrected after we 
pointed them out to the construction management contractor.) Finally, 
AOC's reporting of lost-time rates is now consistent with an updated 
definition issued by the Bureau of Labor Statistics in 2003.
    AOC and its contractors have taken a number of actions during 2005 
to improve worker safety at the CVC site. For example, they have
  --held periodic safety meetings with senior managers to elevate 
        safety issues (and will schedule additional meetings as 
        needed);
  --held a project safety day to increase CVC project employees' safety 
        awareness;
  --provided and scheduled training on fall protection and electrical 
        safety, for example, to elevate safety awareness and avoid 
        accidents;
  --posted safety-related signs and banners around the CVC site to 
        reinforce safety messages; and
  --added a second safety professional at the CVC project.
    In addition, since this past summer, AOC's Central Safety Office 
has been involved in CVC worker safety. Specifically, the responsible 
official has (1) clarified his role on the project with the CVC Project 
Executive, (2) visited the CVC project site to obtain an understanding 
of general site conditions, (3) attended periodic CVC safety meetings 
and (4) reviewed safety-related data, reports, and meeting minutes. 
Drawing upon these efforts, the official has made suggestions to CVC 
management on ways to improve worker safety.
    Poor housekeeping has been an ongoing issue at the site, and the 
sequence 2 contractor has recently taken actions to address this issue. 
Piles of construction debris and trash, improperly stored equipment and 
materials, and poorly maintained employee break areas have been 
identified in the construction management contractor's past safety 
audits. Although no injuries have been attributed to housekeeping 
issues, the construction management contractor and the sequence 2 
contractor have recognized that these issues present an ongoing 
problem. To address these issues, the sequence 2 contractor is daily 
(1) cleaning up construction material debris and other items, (2) 
cleaning up the site's three assigned eating areas, and (3) removing 
five to seven truckloads of trash. In addition, the sequence 2 
contractor has placed more bait traps around the site to control 
rodents.
    Mr. Chairman, this concludes our statement. We would be pleased to 
answer any questions that you or Members of the Subcommittee may have.

       APPENDIX I.--CAPITOL VISITOR CENTER CRITICAL CONSTRUCTION MILESTONES--OCTOBER 19-NOVEMBER 17, 2005
----------------------------------------------------------------------------------------------------------------
                                                                                         September
                                                                                            2005        Actual
              Activity                                    Location                       scheduled   finish date
                                                                                        finish date
----------------------------------------------------------------------------------------------------------------
Orientation Lobby...................  Perimeter CMU walls.............................     10/13/05  ...........
Upper Level Assembly Room...........  Topping slab....................................     10/20/05     10/20/05
East Front Subbasement..............  Interior CMU walls..............................     10/27/05  ...........
Exhibit Gallery.....................  Wall stone Area 2 base..........................     10/31/05  ...........
Congressional Auditorium............  Wall Stone Area 1...............................      11/3/05     10/26/05
Upper Level Assembly Room...........  Wall stone area 1 layout........................      11/9/05     10/24/05
Exhibit Gallery.....................  Wall stone Area 3 base..........................     11/10/05  ...........
Orientation Lobby...................  Interior CMU walls..............................     11/15/05  ...........
Exhibit Gallery.....................  Wall stone Area 1...............................     11/16/05  ...........
Congressional Auditorium............  Wall Stone Area 2...............................     11/17/05  ...........
Utility Tunnel......................  Excavate/shore Station Sta 0.00-1.00............      10/6/05     10/24/05
Utility Tunnel......................  Concrete Working Slab Sta. 0.00-1.00............     10/11/05     10/26/05
Utility Tunnel......................  Waterproof Working Slab Sta. 0.00-1.00..........     10/14/05     10/31/05
Utility Tunnel......................  Install Mat Slab Sta. 0.00-1.00.................     10/20/05     11/10/05
Utility Tunnel......................  Install Mat Slab Sta. 1.00-2.00.................     10/24/05     11/07/05
Utility Tunnel......................  Install Walls Sta. 1.00-2.00....................      11/4/05  ...........
----------------------------------------------------------------------------------------------------------------
Source: AOC's September 2005 CVC sequence 2 construction schedule for the scheduled completion dates and AOC and
  its construction management contractor for the actual completion dates.

Note: Actual completion information was obtained on November 10, 2005.

                            COST TO COMPLETE

    Senator Allard. Thank you both for your testimony this 
morning. I want to follow up first with a question concerning 
the cost to complete. I want to direct this to GAO and, Mr. 
Dorn, I believe you are the one to answer this. The estimate 
that you had last year was between $522 million and $559 
million. Is that upper range going to change?
    Mr. Dorn. It may change, Mr. Chairman. A number of the 
risks and uncertainties are past us at this point. But when we 
get the schedule update from AOC at the end of December and we 
are confident that we have a good workable schedule, we will do 
another analysis of the schedule and then we will get a 
completion date, and then we will do another analysis of the 
cost.
    So we will re-estimate that number. I would love to say it 
is going to stay at $559 million, but I do not know. My 
suspicion is it is going to creep higher.
    Senator Allard. Now I would like to have Mr. Shenkler from 
Gilbane to come up if you would, please.
    I have a few questions. One is in regard to the issue that 
I just asked the GAO and then I will have one or two questions 
later on. So I ask that you stay at the table if you would, 
please.
    Mr. Shenkler, do you agree with the Architect of the 
Capitol's estimate of the cost to complete?
STATEMENT OF MARVIN SHENKLER, GILBANE BUILDING COMPANY
    Mr. Shenkler. My review of the report that was done by MBP 
indicates that it did not reflect a number of contingencies 
that we need to consider. When I looked at the numbers, I 
thought we would probably need somewhere in the neighborhood of 
$15 million to complete.
    Senator Allard. In addition?
    Mr. Shenkler. In addition.
    Senator Allard. Now, why were those not incorporated into 
the final MBP estimate? Mr. Hixon?
    Mr. Hixon. Yes, sir. When we looked, we went through the 
cost to complete and evaluated the draft report and we had the 
comments from Marvin, from Gilbane, there were a number of 
issues in his list that we did not feel needed to be adjusted. 
There is also the issue of the risk on Marvin's evaluation 
including future risk that we are not aware of yet. Mr. Hantman 
testified in his statement that we will be reevaluating those 
items, including the costs that were not reflected by MBP that 
are included by Gilbane, in evaluation for the fiscal year 2007 
budget.
    Those things relate to such issues as future delays that 
could occur not as a consequence of the delay in starting 
sequence number 2, but as a consequence of delays during the 
sequence 2 performance of the work, as well as the value of the 
claims or the delay costs that have been submitted by sequence 
2 from the delay in commencement of their work. So there are 
some items that the numbers are bigger than we thought they 
would be and we will be evaluating both Gilbane's comments 
together with GAO's here in the next few weeks.

                         CONSTRUCTION SCHEDULE

    Senator Allard. Okay. Now, it seems like over the period of 
time we have had these hearings there has been quite a bit of 
slippage on the schedule. How do you plan on making up lost 
time and at what cost? Do we have anything on that?
    Mr. Hixon. Is that addressed to me, sir?
    Senator Allard. Yes, if you would.
    Mr. Hixon. The schedule, when we originally had the 
schedule in November of last year, we were contemplating 
construction being completed on June 21. We currently are 
expecting construction to be done on September 15, except for a 
few minor items after that, some of which are in the east 
front. That essentially reflects a 3-month slippage on the 
construction schedule.
    The schedule that we currently have right now accommodates 
all of the delays that we have had to date. What we are going 
to end up with is the commissioning activities that also have 
to be included within the schedule will be pushing the date out 
from September to a future date, which could be the current 
schedule completion date of December 8 or some other date.
    I am expecting that the contractor at some point will 
submit a request for a time extension on a future change order 
to contractually add that time to his contract. At this point, 
he has not requested any time extensions and all change orders 
issued to date have been issued without a time extension 
request. So these would be for future, some major changes we 
have that have not yet been settled.

                           SCHEDULE SLIPPAGES

    Senator Allard. Now, this last month we had a slippage of 
10 days out of a 20-day work month.
    Mr. Hixon. That is correct.
    Senator Allard. Last month that was attributable to the 
weather. That was understandable. Would you explain to me why 
we slipped 10 days this month?
    Mr. Hixon. Yes, sir. The interior stone work slippage is as 
a consequence of the stone deliveries that did not occur. This 
is a serious issue that we need to get resolved in order to not 
have an adverse impact on the project overall. For the utility 
tunnel, we had some rain days at the beginning of the month. We 
have the work that has got to take place with regard to 
Washington Gas in preparation for that work. Aside from that, 
the utility work is going very well.
    If you look at the schedule of activities, of the 16, 4 of 
those activities are related to the utility tunnel. Three of 
those are complete, one is not yet complete. Typically these 
are falling 1 week or so after the original, after the 
completion date that was reflected in the September schedule. 
So we are not on schedule, but we are very close to having this 
work done.
    Senator Allard. I understand this last week that Gilbane 
completed its review of the schedule durations for most 
critical activities, such as the utility tunnel. Mr. Shenkler, 
can you brief us on that review and Gilbane's recommendations?
    Mr. Shenkler. Our review of the schedule has been the same 
as it was last month in terms of stone. We are losing time 
because we cannot get adequate stone to install. You have got a 
comparable issue. If we get stone, we do not have the masons; 
if we have the masons, we do not have the stone. Until we can 
resolve this issue on stone deliveries, we cannot tell you when 
we are going to land with completion of this job.

                            STONE INJUNCTION

    Right now, the injunction is prohibiting Manhattan from 
exercising their normal contractor rights to go and seek other 
sources to supplement their forces, and until that injunction 
is removed and they are released to do what they would normally 
do we are looking at day for day delay. Even when, if they are 
released, there is no assurances that we have got or they have 
another fabricator on hand because they have not been able to 
talk to anybody else until that injunction is released to see 
whether there is capacity out there in the marketplace to 
fabricate the stone required.
    Senator Allard. If I understand where we are with the 
court, if we can make a strong case that stone delivery is 
affecting our completion date then there is a possibility the 
court would give us some relief in that regard. My 
understanding now is that you are moving forward with the 
court, saying that our completion date will be affected. Do you 
want to speculate on where we might be with the court?
    Mr. Shenkler. Speculating on what the judiciary does is 
questionable at best. But even if they were to give us relief 
on December 1, I think it is going to take at least 2 months 
for Manhattan to locate a fabricator and get stone back on the 
job from a new fabricator. We are probably looking at maybe 3 
months before we actually see some positive impact as a result 
of a second fabricator.
    That, in conjunction with what the impact will be from 
Quarra, who may very well decide to slow down their slow 
production already, just may exacerbate the problem even more. 
While we may be getting more stone or some stone from a second 
fabricator, we may wind up getting less stone from Quarra 
because they are unwilling to produce like they were supposed 
to.
    Senator Allard. Do they not have some contract obligations 
there?
    Mr. Shenkler. Yes. They have not lived up to them yet.
    Senator Allard. What is our recourse?
    Mr. Shenkler. There is none because until we can get relief 
we cannot go look for a second fabricator, and the only thing 
we have available to us is to wait and get the stone and then 
find out what the cost to the Government is as a result of 
these delays and seek relief from the contractor.
    Senator Allard. Now, Mr. Hantman, do you see this affecting 
our December opening date?
    Mr. Hantman. Well, Mr. Chairman, in the sequence of 
construction certainly the stone work needs to be finished 
before other activities can take place. In some instances, we 
will be able to start ceiling work without some of the stone 
work being done. In some instances we may be able to start some 
floor work areas. But the critical issue of installing and 
finishing off the other finishes really is contingent upon the 
stone deliveries and installation.
    So our reality is if we do not get the relief and find the 
capacity that can really increase the volume of stone that has 
been delivered and installed, the December date certainly could 
be in jeopardy.

                         SECOND STONE SUPPLIER

    Senator Allard. Is there any reason for us to start looking 
now for a second masonry supply? What would keep us from 
starting to look now, because it looks to me like there is a 
potential problem here and we are going to have to deal with 
it. If we have recognized it, if we could get a jump ahead 
instead of waiting for the final court decision, maybe we could 
at least get our ducks lined up, and if the court decision goes 
against us then there is not much we can do about it. But if 
they say okay, you can go ahead and get a second contractor, at 
least we can have somebody lined up.
    Mr. Hantman. Mr. Chairman, we would love to do exactly what 
you are talking about. The issue is that Boatman and Magnani is 
the one who has the contracts with both the quarry and the 
fabricator and they are the ones that have the injunction that 
says basically you have to use this quarry and this fabricator, 
and that is what we are seeking relief from so that we can find 
alternatives.
    So in reality, Manhattan and Boatman are not able to go out 
and look for alternative sources, as per the court injunction 
at this point in time.
    Senator Allard. I see.
    Mr. Ungar. Mr. Chairman.
    Senator Allard. Yes, Mr. Ungar.
    Mr. Ungar. We might want to add a thought here. It is our 
understanding that the Government is not itself bound by the 
court's order, and there is another option, although it may not 
be very attractive to the Government for a number of reasons. 
That is, the Government itself could take action to acquire the 
stone. But there are some financial and contractual issues 
associated with that. We are not recommending that. We are just 
bringing it to your attention.
    Senator Allard. Mr. Hantman.
    Mr. Hantman. There are also legal aspects to that. We may 
be brought into the case and have the original quarry and 
fabricator sue us for interfering with the contracts that they 
have with Boatman and Magnani. I am not an attorney. I----
    Senator Allard. There is a liability with that approach----
    Mr. Hantman. Yes, and there may be additional costs, which 
if we direct the contractors to do something we would be 
accruing as our responsibility. We do not have any concept of 
what those costs or schedule implications would be.
    Senator Allard. It is really frustrating for me to have a 
nonperformer on the contract and we are tied up legally here. 
That is a frustrating situation we find ourselves in.
    Mr. Hantman. Terribly frustrating. And that is exactly why 
we have taken the action. Now, with the December 1 court date, 
hopefully we will get, or actually Boatman and Magnani and 
Manhattan will get some relief and they will be able to go out 
and start solving the problems. Then, as Marvin has indicated, 
we need to take a look at the schedule if in fact a second 
contractor is found.
    There are contractors who are doing work on other aspects 
of the building separate and distinct from this that might be 
involved in this, but we cannot commit or explore that because 
of the injunction at this point.
    Senator Allard. I see.
    Mr. Ungar.
    Mr. Ungar. Mr. Chairman, just one more point, I think, 
along the lines that Mr. Shenkler was speaking about. I think 
as AOC proceeds and hopefully the stone issue does get resolved 
one way or the other, we still strongly believe that the 
durations in the schedule for the stone work and certain other 
work need to be reevaluated, given the previous findings that 
we have had there.
    That is why, as Mr. Dorn mentioned, we are recommending 
that AOC implement the Gilbane recommendations, because some of 
those are aimed at getting a better handle on the durations in 
the schedule. Even if you had the stone, how long is it really 
going to take to get it up based on the productivity rates and 
the experience of the project to date?
    Senator Allard. Sure.

                              STONEMASONS

    I was going to direct this next question to Mr. Dorn. Mr. 
Hantman said that to keep our stonemasons employed we have gone 
to some tasks of a lesser priority. I assume that is the 
theater area. Do you see us having enough work to keep the 
stonemasons going in light of some of the possible 
complications we have here from the court?
    Mr. Dorn. I have asked for some detailed numbers from 
Gilbane and they were able to provide them as I was riding in 
the van on the way here, so I have not been able to do more 
detailed calculations. But the back of the envelope numbers 
would indicate that if the stone deliveries do not increase, 
that somewhere in the February to April timeframe we may be 
almost out of stone.
    You literally will not run completely out because each 
piece of stone is not the same. Some pieces are critical, which 
hold up other pieces. But particularly since Manhattan has 
talked about increasing the productivity from 6 pieces per 
mason per day up to 11 or 12 pieces per day, you are just going 
to run out of--you are barely getting by now. If they increase 
their productivity, it is going to be even worse.
    Senator Allard. It seems to me like we are at a very 
critical point here.
    Mr. Dorn. We are, and I agree with Mr. Hantman that the 
stone deliveries are a critical step going forward.

                         FIRE PROTECTION SYSTEM

    Senator Allard. Let me move over to the fire protection 
system. Does the master schedule now fully reflect the fire 
marshal's requirements for testing, balancing, and 
commissioning the fire protection system?
    Mr. Hixon. No, sir, they do not reflect all those yet. We 
had committed to get the testing and balancing done before this 
hearing and to have the fire marshal's, the life safety 
acceptance testing, done by the December period, and we are 
well on the way to start that process. We have already had a 
meeting with the fire marshal to review that. They have gone 
through the fire alarm shop drawings. So we expect that we 
would have those elements, those activities, included in the 
schedule here in the next month.

                    SECURITY EQUIPMENT INSTALLATION

    Senator Allard. On security equipment installation, we 
understand that a delay has occurred in arranging for the 
installation of security cabling and equipment in the CVC. 
Could you explain what the problem is there and whether it is 
being resolved or not and who is responsible for resolving the 
problem and how much additional cost we may be looking at 
there?
    Mr. Hixon. Mr. Chairman, we have been endeavoring to secure 
funds that we have previously transferred from the project to 
the Capitol Police, to use those to fund the purchase of cable 
and equipment. The arrangement that we originally had was the 
Capitol Police would do that themselves. Then since we have the 
conduit installed, we thought it would help facilitate things 
if we had our contractor perform that work.
    There have been discussions recently about the transfer of 
funding from the Capitol Police back to the AOC in order for us 
to use those funds to perform that work as part of our 
contract. We had some issues with the memorandum of 
understanding. Those have essentially been resolved, but we 
have a new issue that the General Accounting--the Government 
Accountability Office has brought up, concerning using direct 
cites versus the transfer of funds. So we have been in 
discussions about that over the past few days and as recently 
as this morning, we understand that the Capitol Police may 
elect to go ahead and contract for this work directly 
themselves.
    So the issue is being worked. It just has not reached a 
conclusion. As far as the impact to the costs associated with 
that, we are uncertain at this time what that would be. The 
cabling takes about 6 weeks to get here from when it is ordered 
and 6 weeks from now we should have some ceiling work going in. 
Depending on where that work occurs and when the cabling shows 
up, there may be some impacts to the price that was previously 
submitted for this work in order to install it around the 
existing construction at that time.
    Senator Allard. So the Capitol Police then want to do it 
themselves? Did they give us a reason?
    Mr. Hixon. The issue relates to control of the funds, 
control of the work. That was how our MOU became difficult 
between us, is who was actually controlling the contracts. We 
have resolved the wording on that. We would be happy to do the 
work for them if we could work out the funding. So we were 
prepared to pursue having the funds transferred back, which 
requires committee approval.
    Senator Allard. I see.
    Mr. Hixon. But if not, if they choose not to do that, they 
could contract directly with the contractor's personnel, the 
electrical subcontractor who is performing that work. We would 
be happy to facilitate that if that is what they choose to do.
    Senator Allard. So now who is responsible for the final 
resolution of this?
    Mr. Hixon. At this moment we need to complete a 
conversation with the Capitol Police to determine if they want 
to use our contractor to do this work, which I would expect 
them to do, or if they want to pursue a transfer of funds, 
which they would need to initiate.
    Senator Allard. I see, okay. Do you think there is a chance 
we could get this resolved by the end of the week?
    Mr. Hixon. We expect to resolve it, yes, sir, very quickly.

                           EXECUTIVE DIRECTOR

    Senator Allard. Can you give us an update, Mr. Hantman, on 
the process of hiring the executive director for the CVC?
    Mr. Hantman. As you know, Mr. Chairman, Korn Ferry has been 
retained by Zell Partners, who are our consultants on this. 
Working through Zell Partners, they have identified a number of 
strong potential candidates. They want to make sure that they 
have a listing of enough candidates to come forward, perhaps 
five to six candidates. They already have several strong people 
that they have in mind.
    I think part of the issue also is the decision on who does 
the interviewing and when those people can get together to do 
the interviewing. There have been discussions about doing it by 
the end of the month. I am not sure that those dates are going 
to hold, so it is really kind of out of our hands in terms of 
when interviews would be held. But I think Korn Ferry has 
progressed to the point where they have a list of candidates to 
be interviewed.
    Senator Allard. Thank you.

                   FISCAL YEAR 2007 BUDGET SUBMISSION

    Now, when we start off our next session we will be getting 
right into the budget time, and I assume that you are working 
on your 2007 budget. We have got some unknown factors here. How 
are you factoring those into your 2007 budget?
    Mr. Hantman. As Mr. Hixon indicated a while ago, there are 
some strong concerns certainly voiced by Mr. Shenkler and 
Gilbane, and that is what we hired them for, to look at those 
concerns and advise us on what they think is appropriate. There 
are certainly many issues that GAO has developed and questions 
they have about the McDonough Bolyard Peck cost to complete.
    So what we would want to do is sit down and find out in 
detail the concerns and the source of the concerns that GAO has 
and what the recommendations are from the Gilbane side, and if 
we need to address those in the fiscal year 2007 budget we will 
certainly do so.
    Senator Allard. Do you think you will be ready with your 
2007 budget?
    Mr. Hantman. I guess the timing is the issue on that. We 
need to get together very soon and take a look at just what 
those concerns are on both sides. There is no doubt that our 
submission for the 2007 budget needs to include any potential 
funds for this.
    Senator Allard. Well, I hope we can get started because my 
intention is to get started fairly early next year on the 
budget. I do not know what our Appropriations chairman is 
thinking of, but my thought is that we get going as quickly as 
possible next year.

                          SUBCOMMITTEE RECESS

    I think we have covered everything, and I want to thank you 
all for testifying again here today. We are out of session now 
December and January. I do not anticipate a need for a hearing. 
We will have another hearing in February.
    Thank you very much.
    [Whereupon, at 11:45 a.m., Wednesday, November 16, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                  Pagey
Allard, Senator Wayne, U.S. Senator From Colorado, Opening 
  Statements of.................................1, 35, 63, 89, 123, 151

Dorn, Terrell, Assistant Director, Physical Infrastructure, 
  Government Accountability Office..............9, 39, 63, 96, 129, 159

Hantman, Alan M., FAIA, Architect of the Capitol1, 35, 75, 90, 124, 152
    Opening Statements of.....................................2, 36, 91
    Prepared Statements of......................4, 38, 78, 93, 127, 157
Hixon, Bob, Project Director, Capitol Visitor Center, Architect 
  of the Capitol................................1, 35, 75, 90, 124, 152

Shenkler, Marvin, Gilbane Building Company.....................144, 171

Ungar, Bernard L., Director, Physical Infrastructure, Government 
  Accountability Office............................39, 63, 96, 129, 159
    Prepared Statements of.........................41, 66, 98, 130, 161

Walker, David M., Comptroller General of the United States, 
  Government Accountability Office...............................     9
    Prepared Statement of........................................    10


                             SUBJECT INDEX

                              ----------                              
                                                                   Page
Acceleration:
    Costs........................................................    85
    Work.........................................................    81
Actions Needed...................................................    66
Additional:
    Fiscal Year 2005 Funding.....................................    60
    Utility Work.................................................    50
Administrative Items.............................................    77
Architect of the Capitol, RTKL ``Doing it Right'' at the U.S. 
  Capitol Visitor Center.........................................   155
Assessment of:
    Gilbane's Performance........................................   145
    Task Durations...............................................    85
Base Schedule....................................................   138
Bronze Doors.....................................................   143
Capitol Power Plant..............................................   118
    Director.....................................................   146
    Fire.........................................................   147
Capitol Visitor Center:
    Executive Director...........................................   125
    Opening Schedule.............................................   110
Completion:
    And Occupancy................................................    21
    Date.........................................................15, 47
    Schedule.....................................................    38
Construction:
    Contract Management..........................................    17
    Delay Documentation..........................................   144
    Issues.......................................................   159
     Manager.....................................................    32
    Progress.....................................................    55
    Project Status...............................................   153
    Quality......................................................   122
    Schedule..............................................137, 160, 172
        Assessment...............................................   138
    Status.......................................................   126
    To Operations Integration....................................    87
    Update.......................................................   127
Contractor:
    Change Orders................................................    17
    Penalties and Incentives.....................................    31
    Safety Records...............................................    26
    Variances....................................................    32
Coordination With WASA...........................................    49
Cost:
    Implications.................................................    22
    Overruns.....................................................    27
    To Complete.........................29, 79, 142, 153, 157, 160, 171
Executive Director..............................................87, 177
Exhibits and Operations..........................................   158
Expansion Space..................................................    20
    Work.........................................................    58
Exterior Construction Progress...................................37, 76
Fire:
    Alarm System.................................................    57
     Marshal.....................................................    80
    Protection System............................................   176
    Systems Commissioning........................................   113
Fiscal Year:
    2006 Budget Request..........................................23, 61
    2007 Budget Submission.......................................   177
Food Service Contract............................................   125
GAO's Opinion on Assessment......................................    86
Increased Insurance Costs........................................    26
Integrated Schedule.............................................18, 120
Interior:
    Construction Progress........................................36, 76
    Stone Construction...........................................   116
Key Management Issues............................................   124
Legal Issues Involving Stone Contractor..........................    82
Life Safety Egress...............................................    58
Major Milestones.................................................    33
Management Initiatives...........................................   128
Manhattan's Progress.............................................    54
Master Schedule..................................................    51
Milestone Completion.............................................46, 83
Mitigation Plan..................................................   147
November Hearing Preparation.....................................   122
Occupancy:
    Certification................................................    56
    Permits......................................................    56
Opening Date.....................................................   140
Operations:
    Criteria.....................................................   138
    Initiatives..................................................   128
Overall Status...................................................   161
Potential:
    Cost Increases...............................................    79
    Risk.........................................................    19
Project:
    Cost.........................................................    41
    Costs Continue to Increase...................................    65
    Highlights.................................................154, 157
    Schedule.....................................................   157
    Scope Changes................................................    28
Project's Estimated Cost to Complete Expected to Increase, but 
  Our Comprehensive Assessment Awaits Schedule Stabilization.....   167
Risk Mitigation:
    Factors......................................................    60
    Plan.........................................................    58
Safety:
    Issues.......................................................    51
    Records......................................................25, 54
    Standards....................................................    52
Schedule:
    Delays.......................................................    47
    Duration Reassessment........................................    48
    Makeup.......................................................   141
    Management...................................................    39
    Progress and Problems........................................    64
    Risks Assessment.............................................    48
    Slippages....................................................   172
     Update......................................................   128
Second Stone Supplier............................................   174
Security:
    Concerns.....................................................    30
    Equipment Installation.......................................   176
Sequence 2 Change Orders.........................................    16
Status of Operations.............................................   155
Stone:
    Delivery Status..............................................   152
    Injunction...................................................   173
    Installation Delays..........................................    84
Stonemasons....................................................140, 175
System Commissioning.............................................    56
Transition to Operations.........................................    86
Tunnel Utilities.................................................    48
Unforeseen Conditions............................................   141
Upcoming Milestones..............................................   148
Utility:
    Connections..................................................    50
     Costs.......................................................    49
    Tunnel.......................................................   140
        Progress.................................................    77
Verification of CVC Risk Assessment Award Date...................   109
West Refrigeration Plant Cost to Complete........................   146
Work and Revisions to the Project Schedule Continue, but Delays 
  Hamper Progress................................................   163
Worker:
    Safety.......................................................    24
        Has Improved.............................................   170
        Statistics...............................................   161

                                   - 

</pre></body></html>
